<html>
<title> - COMPILATION OF HEARINGS AND MARKUPS</title>
<body><pre>[Senate Hearing 113-610]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-610
 
                  COMPILATION OF HEARINGS AND MARKUPS

=======================================================================

                          HEARINGS AND MARKUPS

                               BEFORE THE

                           COMMITTEE ON RULES
                           AND ADMINISTRATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                       FIRST AND SECOND SESSIONS

                               __________

  FEBRUARY 13, 2013; FEBRUARY 27, 2013; JUNE 12, 2013; JULY 24, 2013;
SEPTEMBER 17, 2013; SEPTEMBER 24, 2013; DECEMBER 11, 2013; JANUARY 29, 
2014; FEBRUARY 12, 2014; MARCH 12, 2014; APRIL 9, 2014; APRIL 30, 2014; 
    MAY 14, 2014; JUNE 25, 2014; JULY 23, 2014; SEPTEMBER 10, 2014; 
                            DECEMBER 3, 2014

                               __________

    Printed for the use of the Committee on Rules and Administration
    
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                         U.S. GOVERNMENT PUBLISHING OFFICE
93-918                       WASHINGTON : 2015                         
                 
_______________________________________________________________________________________                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f687f604f6c7a7c7b676a637f216c606221">[email&#160;protected]</a>  
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 COMMITTEE ON RULES AND ADMINISTRATION

                             FIRST SESSION

                 CHARLES E. SCHUMER, New York, Chairman

DIANNE FEINSTEIN, California         PAT ROBERTS, Kansas
RICHARD J. DURBIN, Illinois          MITCH McCONNELL, Kentucky
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
MARK L. PRYOR, Arkansas              SAXBY CHAMBLISS, Georgia
TOM UDALL, New Mexico                LAMAR ALEXANDER, Tennessee
MARK R. WARNER, Virginia             RICHARD SHELBY, Alabama
PATRICK J. LEAHY, Vermont            ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             TED CRUZ, Texas
ANGUS S. KING, JR., Maine

Note: Archived webcasts of all hearings and an electronic version of 
    this report are available at http://rules.senate.gov.
                 COMMITTEE ON RULES AND ADMINISTRATION

                             SECOND SESSION

                 CHARLES E. SCHUMER, New York, Chairman

DIANNE FEINSTEIN, California         PAT ROBERTS, Kansas
RICHARD J. DURBIN, Illinois          MITCH McCONNELL, Kentucky
MARK L. PRYOR, Arkansas              THAD COCHRAN, Mississippi
TOM UDALL, New Mexico                SAXBY CHAMBLISS, Georgia
MARK R. WARNER, Virginia             LAMAR ALEXANDER, Tennessee
PATRICK J. LEAHY, Vermont            RICHARD SHELBY, Alabama
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
ANGUS S. KING, JR., Maine            TED CRUZ, Texas
JOHN E. WALSH, Montana
                            C O N T E N T S

                              ----------                              

                           February 13, 2013
                         ORGANIZATIONAL MEETING
                         Opening Statement of:

Hon. Angus S. King, Jr., Acting Chairman, a U.S. Senator from the 
  State of Maine.................................................     1
Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................     1
                              ----------                              

                           February 27, 2013
   BUSINESS MEETING--TO CONSIDER S. RES. 64, AN ORIGINAL RESOLUTION 
             AUTHORIZING EXPENDITURES BY SENATE COMMITTEES
                         Opening Statement of:

Hon. Angus S. King, Jr., Acting Chairman, a U.S. Senator from the 
  State of Maine.................................................     3
Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................     3
                              ----------                              

                             June 12, 2013
   HEARING--NOMINATION OF DAVITA VANCE-COOKS, OF VIRGINIA, TO BE THE 
                             PUBLIC PRINTER
                         Opening Statement of:

Hon. Angus S. King, Jr., Acting Chairman, a U.S. Senator from the 
  State of Maine.................................................     5
Hon. Pat Roberts, a U.S. Senator from the State of Kansas........     6
Hon. Mark R. Warner, a U.S. Senator from the State of Virginia...     7

                             Testimony of:

Mrs. Davita Vance-Cooks, Nominee to be the Public Printer........     8

                        Prepared Statements of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................    18
Mrs. Davita Vance-Cooks, Nominee to be the Public Printer........    19

                  Materials Submitted for the Record:

Statement Submitted by American Association of Law Libraries.....    25
Statement Submitted by International Brotherhood of Teamsters....    27

                  Questions Submitted for the Record:

Hon. Charles E. Schumer, a U.S. Senator from the State of New 
  York to Ms. Davita Vance-Cooks, Nominee........................    28
Hon. Thad Cochran, a U.S. Senator from the State of Mississippi 
  to Ms. Davita Vance-Cooks, Nominee.............................    36
                              ----------                              

                             July 24, 2013
        HEARING--NOMINATIONS OF ANN M. RAVEL AND LEE E. GOODMAN
            TO BE MEMBERS OF THE FEDERAL ELECTION COMMISSION
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................    39
Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas......................................................    40
Hon. Tom Udall, a U.S. Senator from the State of New Mexico......    41
Hon. Thad Cochran, a U.S. Senator from the State of Mississippi..    42
Hon. Roy Blunt, a U.S. Senator from the State of Missouri........    42

                             Testimony of:

Mr. Lee E. Goodman, Nominee, Federal Election Commission, (VA)...    43
Ms. Ann M. Ravel, Nominee, Federal Election Commission, (CA).....    44

                        Prepared Statements of:

Mr. Lee E. Goodman, Nominee, Federal Election Commission, (VA)...    56
Ms. Ann Miller Ravel, Nominee, Federal Election Commission, (CA).    59

                  Materials Submitted for the Record:

``The FEC's lame-duck overreach,'' Submitted by Senator Tom Udall    64
``Sabotage at the Election Commission,'' Submitted by Senator Tom 
  Udall..........................................................    65
Statement submitted by California Political Attorneys Association    66
Statement submitted by Catherine C. Sprinkles....................    68
Statement submitted by Congressman Michael M. Honda..............    70
Statement submitted by Congressman Robert Hurt...................    71
Statement submitted by Congresswoman Zoe Lofgren.................    72
Statement submitted by David E. Anderson.........................    73
Statement submitted by Lynn Montgomery...........................    74
Statement submitted by Mayor Don Gage, Gilroy (CA)...............    75
Statement submitted by Michael C. Genest.........................    76
Statement submitted by Richard E. Wiley..........................    78
Statement submitted by Ronald D. Rotunda.........................    79
Statement submitted by Sean Eskovitz.............................    81
Statement submitted by Thomas M. Wolf............................    82

                  Questions Submitted for the Record:

Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas to Lee E. Goodman, Nominee...........................    84
                              ----------                              

                             July 24, 2013
 BUSINESS MEETING--TO CONSIDER THE NOMINATION OF DAVITA VANCE-COOKS TO 
                      BE PUBLIC PRINTER AND S. 375
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................    86
Hon. Thad Cochran, a U.S. Senator from the State of Mississippi..    86
Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas......................................................    87
                              ----------                              

                           September 17, 2013
 BUSINESS MEETING--TO CONSIDER THE NOMINATIONS OF ANN M. RAVEL AND LEE 
E. GOODMAN TO BE MEMBERS OF THE FEDERAL ELECTION COMMISSION AND S. RES. 
                                  229
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................    89
                              ----------                              

                           September 24, 2013
   BUSINESS MEETING--TO CONSIDER S. RES. 253, AN ORIGINAL RESOLUTION 
           AUTHORIZING THE EXPENDITURES OF SENATE COMMITTEES
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................    91
                              ----------                              

                           December 11, 2013
 HEARING--NOMINATIONS OF THOMAS HICKS AND MYRNA PEREZ TO BE MEMBERS OF 
                   THE ELECTION ASSISTANCE COMMISSION
                         Opening Statement of:

Hon. Angus. S. King, Acting Chairman, a U.S. Senator from the 
  State of Maine.................................................    93
Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas......................................................    95

                             Testimony of:

Mr. Thomas Hicks, Nominee, Election Assistance Commission, (VA)..    97
Ms. Myrna Perez, Nominee, Election Assistance Commission, (TX)...    99

                        Prepared Statements of:

Mr. Thomas Hicks, Nominee, Election Assistance Commission, (VA)..   108
Ms. Myrna Perez, Nominee, Election Assistance Commission, (TX)...   111

                  Materials Submitted for the Record:

Statement submitted by America's Congressional Black Caucus......   115
Statement submitted by Democrats Abroad..........................   116
Statement submitted by Mexican American Legal Defense and 
  Educational Fund...............................................   119
Statement submitted by National Hispanic Leadership Agenda.......   121
                              ----------                              

                            January 29, 2014
       HEARING--SENTRI ACT (S. 1728) IMPROVING VOTER REGISTRATION
       AND VOTING OPPORTUNITIES FOR MILITARY AND OVERSEAS VOTERS
                         Opening Statement of:

Hon. Angus. S. King, Acting Chairman, a U.S. Senator from the 
  State of Maine.................................................   123
Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas......................................................   124
Hon. Roy Blunt, a U.S. Senator from the State of Missouri........   125

                             Testimony of:

Mr. Matt Boehmer, Director, Federal Voting Assistance Program, 
  U.S. Department of Defense, Washington (DC)....................   126
Mr. Kevin Kennedy, Director and General Counsel, Wisconsin 
  Government Accountability Board, Madison (WI)..................   127
Mr. Don Palmer, Secretary of the Board, Virginia Board of 
  Elections, Richmond (VA).......................................   129
Hon. John Cornyn, a U.S. Senator from the State of Texas.........   138

                        Prepared Statements of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   143
Hon. Roy Blunt, a U.S. Senator from the State of Missouri........   145
Mr. Matt Boehmer, Director, Federal Voting Assistance Program, 
  U.S. Department of Defense, Washington (DC)....................   147
Mr. Kevin Kennedy, Director and General Counsel, Wisconsin 
  Government Accountability Board, Madison (WI)..................   152
Mr. Don Palmer, Secretary of the Board, Virginia Board of 
  Elections, Richmond (VA).......................................   158
Hon. John Cornyn, a U.S. Senator from the State of Texas.........   163

                  Materials Submitted for the Record:

Statement submitted by Hon. Richard Durbin, a U.S. Senator from 
  the State of Illinois..........................................   166
Statement submitted by American Veterans.........................   168
Statement submitted by Association of the United States Navy.....   169
Statement submitted by Common Cause..............................   170
Statement submitted by National Association for Uniformed 
  Services.......................................................   172
Statement submitted by Verified Voting...........................   173

                  Questions Submitted for the Record:

Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  Mr. Don Palmer.................................................   175
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  Mr. Kevin Kennedy..............................................   178
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  Mr. Matt Boehmer...............................................   179
Hon. Patty Murray, a U.S. Senator from the State of Washington to 
  Mr. Matt Boehmer...............................................   180
Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas to Mr. Matt Boehmer..................................   183
                              ----------                              

                           February 12, 2014
       HEARING--BIPARTISAN SUPPORT FOR IMPROVING U.S. ELECTIONS:
AN OVERVIEW FROM THE PRESIDENTIAL COMMISSION ON ELECTION ADMINISTRATION
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   186
Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas......................................................   188
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...   188

                             Testimony of:

Mr. Robert F. Bauer, Co-Chair, The Presidential Commission on 
  Election Administration, Washington (DC).......................   190
Mr. Benjamin L. Ginsberg, Co-Chair, The Presidential Commission 
  on Election Administration, Washington (DC)....................   192

                        Prepared Statements of:

Mr. Robert F. Bauer, Co-Chair, The Presidential Commission on 
  Election Administration, Washington (DC).......................   208
Hon. Richard J. Durbin, a U.S. Senator from the State of Illinois   212
Mr. Benjamin L. Ginsberg, Co-Chair, The Presidential Commission 
  on Election Administration, Washington (DC)....................   214

                  Materials Submitted for the Record:

Statement submitted by Verified Voting...........................   219
                              ----------                              

                             March 12, 2014
     HEARING--ELECTION ADMINISTRATION: INNOVATION, ADMINISTRATIVE 
                     IMPROVEMENTS AND COST SAVINGS
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   220
Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas......................................................   221
Hon. Mark R. Warner, a U.S. Senator from the State of Virginia...   222

                             Testimony of:

Hon. Barbara Boxer, a U.S. Senator from the State of California..   223
Hon. Chris Coons, a U.S. Senator from the State of Delaware......   225
Ms. Linda Lamone, Administrator of Elections, Maryland State 
  Board of Elections, Annapolis (MD).............................   228
Ms. Tammy Patrick, Federal Compliance Officer, Maricopa County 
  Elections, Phoenix (AZ)........................................   230
Ms. Cameron Quinn, General Registrar, Fairfax County, Fairfax 
  (VA)...........................................................   232

                        Prepared Statements of:

Ms. Linda Lamone, Administrator of Elections, Maryland State 
  Board of Elections, Annapolis (MD).............................   238
Ms. Tammy Patrick, Federal Compliance Officer, Maricopa County 
  Elections, Phoenix (AZ)........................................   243
Ms. Cameron Quinn, General Registrar, Fairfax County, Fairfax 
  (VA)...........................................................   247

                  Materials Submitted for the Record:

Statement submitted by Senator Bill Nelson, a U.S. Senator from 
  the State of Florida...........................................   262
Statement submitted by Ms. Tammy Patrick, Federal Compliance 
  Officer, Maricopa County Elections (AZ)........................   264

                  Questions Submitted for the Record:

Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas to Committee witnesses...............................   266
                              ----------                              

                             April 9, 2014
HEARING--ELECTION ADMINISTRATION: MAKING VOTER ROLLS MORE COMPLETE AND 
                             MORE ACCURATE
                         Opening Statement of:

Hon. John Walsh, Acting Chairman, a U.S. Senator from the State 
  of Montana.....................................................   270
Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas......................................................   271

                             Testimony of:

Ms. Elaine Manlove, Delaware State Election Commissioner, Dover 
  (DE)...........................................................   272
Mr. John Lindback, Executive Director, Electronic Registration 
  Information Center, Washington (DC)............................   274
Mr. Judd Choate, Director of Elections, Denver (CO)..............   275
Mr. Christopher Thomas, Director of Elections, Lansing (MI)......   277

                        Prepared Statements of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   286
Ms. Elaine Manlove, Delaware State Election Commissioner, Dover 
  (DE)...........................................................   288
Mr. John Lindback, Executive Director, Electronic Registration 
  Information Center, Washington (DC)............................   293
Mr. Judd Choate, Director of Elections, Denver (CO)..............   300
Mr. Christopher Thomas, Director of Elections, Lansing (MI)......   304
                              ----------                              

                             April 9, 2014
BUSINESS MEETING--TO CONSIDER THE NOMINATIONS OF THOMAS HICKS AND MYRNA 
PEREZ TO BE MEMBERS OF THE ELECTION ASSISTANCE COMMISSION AND S. 1728, 
                     S. 1937, S. 1947, AND S. 2197
                         Opening Statement of:

Hon. John Walsh, Acting Chairman, a U.S. Senator from the State 
  of Montana.....................................................   319
Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   320
Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas......................................................   320
                              ----------                              

                             April 30, 2014
           HEARING--DOLLARS AND SENSE: HOW UNDISCLOSED MONEY
AND POST-McCUTCHEON CAMPAIGN FINANCE WILL AFFECT THE 2014 ELECTION AND 
                                 BEYOND
                         Opening Statement of:

Hon. Angus S. King, Acting Chairman, a U.S. Senator from the 
  State of Maine.................................................   324
Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas......................................................   326
Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   327

                             Testimony of:

Hon. John Paul Stevens, Associated Justice (Ret.), United States 
  Supreme Court..................................................   329

                         Opening Statement of:

Hon. Ted Cruz, a U.S. Senator from the State of Texas............   331
Hon. Tom Udall, a U.S. Senator from the State of New Mexico......   333
Hon. John Walsh, a U.S. Senator from the State of Montana........   335

                             Testimony of:

Mr. Donald F. McGahn, Attorney, Washington (DC)..................   336
Mr. Norman J. Ornstein, American Enterprise Institute, Washington 
  (DC)...........................................................   338
Mr. Trevor Potter, President and General Counsel, Campaign Legal 
  Center, Washington (DC)........................................   341
Hon. Ann Ravel, Vice Chair, Federal Election Commission, 
  Washington (DC)................................................   342
Mr. Neil Reiff, Attorney, Washington (DC)........................   344

                        Prepared Statements of:

Hon. John Paul Stevens, Associated Justice (Ret.), United States 
  Supreme Court..................................................   361
Mr. Donald F. McGahn, Attorney, and Mr. Neil Reiff, Attorney, 
  Washington (DC)................................................   368
Mr. Norman J. Ornstein, American Enterprise Institute, Washington 
  (DC)...........................................................   377
Mr. Trevor Potter, President and General Counsel, Campaign Legal 
  Center, Washington (DC)........................................   384
Hon. Ann Ravel, Vice Chair, Federal Election Commission, 
  Washington (DC)................................................   391

                  Materials Submitted for the Record:

``A Decade of McCain-Feingold: The Good, the Bad, and the Ugly,'' 
  Submitted by Mr. Donald F. McGahn and Mr. Neil Reiff...........   397
``Brief of United States Senators Sheldon Whitehouse and John 
  McCain as Amici Curiae in Support of Respondents,'' Submitted 
  by Senator Sheldon Whitehouse..................................   402
Statement submitted by American Bar Association..................   433
Statement submitted by Center for Competitive Politics...........   441
Statement submitted by Democracy 21..............................   459
Statement submitted by Demos.....................................   476
Statement submitted by Free Speech for People....................   492
Statement submitted by Fund for the Republic.....................   496
Statement submitted by National Association for the Advancement 
  of Colored People..............................................   499
Statement submitted by Public Campaign...........................   501
Statement submitted by Public Citizen............................   505
Statement submitted by Senator Sheldon Whitehouse................   521
Statement submitted by Stetson Law...............................   524
Statement submitted by Sunlight Foundation.......................   579
Statement submitted by Wesleyan Media Project....................   583

                  Questions Submitted for the Record:

Hon. Angus S. King, a U.S. Senator from the State of Maine to Ann 
  Ravel, Vice Chair, Federal Election Commission.................   590
                              ----------                              

                              May 14, 2014
  HEARING--COLLECTION, ANALYSIS AND USE OF ELECTIONS DATA: A MEASURED 
             APPROACH TO IMPROVING ELECTION ADMINISTRATION
                         Opening Statement of:

Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...   592
Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   592

                             Testimony of:

Ms. Heather K. Gerken, Yale Law School, New Haven (CT)...........   596
Mr. Charles Stewart III, Massachusetts Institute of Technology, 
  Cambridge (MA).................................................   597
Mr. Kevin J. Kennedy, Director and General Counsel, Wisconsin 
  Government Accountability Board, Madison (WI)..................   599
Mr. David J. Becker, Director, Election Initiatives, The Pew 
  Charitable Trusts, Washington (DC).............................   600
Mr. Justin Riemer, Former Deputy Secretary, Virginia State Board 
  of Elections, Richmond (VA)....................................   603

                        Prepared Statements of:

Ms. Heather K. Gerken, Yale Law School, New Haven (CT)...........   621
Mr. Charles Stewart III, Massachusetts Institute of Technology, 
  Cambridge (MA).................................................   635
Mr. Kevin J. Kennedy, Director and General Counsel, Wisconsin 
  Government Accountability Board, Madison (WI)..................   651
Mr. David J. Becker, Director, Election Initiatives, The Pew 
  Charitable Trusts, Washington (DC).............................   659
Mr. Justin Riemer, Former Deputy Secretary, Virginia Board of 
  Elections, Richmond (VA).......................................   662

                  Materials Submitted for the Record:

Statement submitted by FairVote..................................   669
Statement submitted by Doug Chapin...............................   678
Statement submitted by IBM Center for The Business of Government.   683
Statement submitted by Republican National Lawyers Association...   727
Statement submitted by The PEW Charitable Trusts.................   766
Statement submitted by Verified Voting...........................   778
                              ----------                              

                             June 25, 2014
         HEARING--ELECTION ADMINISTRATION: EXAMINING HOW EARLY
      AND ABSENTEE VOTING CAN BENEFIT CITIZENS AND ADMINISTRATORS
                         Opening Statement of:

Hon. John Walsh, Acting Chairman, a U.S. Senator from the State 
  of Montana.....................................................   780

                             Testimony of:

The Honorable Kate Brown, Secretary of State, State of Oregon, 
  Salem (OR).....................................................   781
Dr. John C. Fortier, Director, Democracy Project, Bipartisan 
  Policy Center, Washington (DC).................................   782
Mr. Harvard Lomax, Registrar of Voters (Retired), Clark County 
  Election Department, Las Vegas (NV)............................   784
Ms. Rhonda Whiting, Chairman of the Board, Western Native Voice, 
  Missoula (MT)..................................................   786

                        Prepared Statements of:

The Honorable Kate Brown, Secretary of State, State of Oregon, 
  Salem (OR).....................................................   791
Dr. John C. Fortier, Director, Democracy Project, Bipartisan 
  Policy Center, Washington (DC).................................   795
Mr. Harvard Lomax, Registrar of Voters (Retired), Clark County 
  Election Department, Las Vegas (NV)............................   800
Ms. Rhonda Whiting, Chairman of the Board, Western Native Voice, 
  Missoula (MT)..................................................   805

                  Materials Submitted for the Record:

Statement Submitted by Ms. Wendy Weiser, Brennan Center for 
  Justice........................................................   808
Statement Submitted by Common Cause..............................   813
Statement Submitted by Douglas Chapin............................   854
Statement Submitted by Julie Alexander...........................   857
Statement Submitted by Kim Wyman, Washington Secretary of State..   858

                  Questions Submitted for the Record:

Hon. Charles E. Schumer, a U.S. Senator from the State of New 
  York to Dr. John C. Fortier, Director, Democracy Project, 
  Bipartisan Policy Center.......................................   860
Hon. Charles E. Schumer, a U.S. Senator from the State of New 
  York to Mr. Harvard Lomax, Registrar of Voters (Retired), Clark 
  County Election Department.....................................   861
                              ----------                              

                             July 23, 2014
 HEARING--THE DISCLOSE ACT (S. 2516) AND THE NEED FOR EXPANDED PUBLIC 
  DISCLOSURE OF FUNDS RAISED AND SPENT TO INFLUENCE FEDERAL ELECTIONS
                         Opening Statement of:

Hon. Angus S. King, Acting Chairman, a U.S. Senator from the 
  State of Maine.................................................   863
Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas......................................................   865
Hon. Mitch McConnell, a U.S. Senator from the State of Kentucky..   867
Hon. Tom Udall, a U.S. Senator from the State of New Mexico......   870

                             Testimony of:

Hon. Sheldon Whitehouse, a U.S. Senator from the State of Rhode 
  Island.........................................................   872
Ms. Heather K. Gerken, Yale Law School, New Haven (CT)...........   874
Mr. Bradley A. Smith, Chairman, Center for Competitive Politics, 
  Alexandria (VA)................................................   876

                        Prepared Statements of:

Mr. Daniel Tokaji, Moritz College of Law, Ohio State University, 
  Columbus (OH)..................................................   901
Ms. Heather K. Gerken, Yale Law School, New Haven (CT)...........   907
Mr. Bradley A. Smith, Chairman, Center for Competitive Politics, 
  Alexandria (VA)................................................   916

                  Materials Submitted for the Record:

Statement submitted by American Civil Liberties Union............   936
Statement submitted by Chamber of Commerce.......................   941
Statement submitted by Common Cause..............................   943
Statement submitted by Democracy 21..............................   948
Statement submitted by Scholars Strategy Network.................   950
Statement submitted by The Campaign Legal Center.................   951
                              ----------                              

                           September 10, 2014
 HEARING--NOMINATIONS OF MATTHEW MASTERSON AND CHRISTY McCORMICK TO BE 
             MEMBERS OF THE ELECTION ASSISTANCE COMMISSION
                         Opening Statement of:

Hon. Angus S. King, Acting Chairman, a U.S. Senator from the 
  State of Maine.................................................   957

                             Testimony of:

Mr. Matthew V. Masterson, Nominee, Election Assistance 
  Commission, (OH)...............................................   959
Ms. Christy A. McCormick, Nominee, Election Assistance 
  Commission, (VA)...............................................   960

                        Prepared Statements of:

Hon. Pat Roberts, Ranking Member, a U.S. Senator from the State 
  of Kansas......................................................   968
Mr. Matthew V. Masterson, Nominee, Election Assistance 
  Commission, (OH)...............................................   969
Ms. Christy A. McCormick, Nominee, Election Assistance 
  Commission, (VA)...............................................   972

                  Materials Submitted for the Record:

Statement submitted by NALEO Educational Fund....................   975
Statement submitted by National Disability Rights Network........   978
Statement submitted by The Leadership Conference on Civil and 
  Human Rights...................................................   980
Statement submitted by Verified Voting...........................   982
                              ----------                              

                            December 3, 2014
BUSINESS MEETING--TO CONSIDER THE NOMINATIONS OF MATTHEW MASTERSON AND 
 CHRISTY MCCORMICK TO BE MEMBERS OF THE ELECTION ASSISTANCE COMMISSION
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   983

                  Materials Submitted for the Record:

Statement submitted by The Leadership Conference on Civil and 
  Human Rights...................................................   986


                         ORGANIZATIONAL MEETING

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2013

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Angus King, 
presiding.
    Present: Senator King.
    Staff Present: Jean Bordewich, Staff Director; Kelly Fado, 
Deputy Staff Director, Professional Staff; Lynden Armstrong, 
Chief Clerk; Mary Suit Jones, Republican Staff Director; Shaun 
Parkin, Republican Deputy Staff Director; Paul Vinovich, 
Republican Chief Shaun Parkin, Republican Deputy Staff 
Director; Matt McGowan, Professional Staff; Rachel Creviston, 
Republican Professional Staff; and Adam Topper, Rooms 
Coordinator.

         OPENING STATEMENT OF SENATOR ANGUS S. KING Jr.

    Senator King. The Rules Committee will come to order. This 
is our first meeting of the 113th Congress, the Committee's 
organizational meeting. Welcome. There are two items on the 
agenda--the adoption of the Committee Rules of Procedure and an 
original resolution which will fund the Rules Committee during 
the 113th Congress. We currently do not have a quorum needed to 
adopt the Committee rules and approve the Committee budget. So, 
the Committee is recessed, subject to the call of the chair. We 
will let your office know when we will meet, hopefully off of 
the floor this afternoon, to vote on the items.
    [Whereupon, at 10:06 a.m., the Committee was recessed to 
the call of the Chair.]
    [The Committee reconvened on Wednesday, February 27, 2013 
at 12:21 p.m., in Room S-219, United States Capitol, Hon. 
Charles E. Schumer, Chairman of the Committee, presiding.]
    Present: Senators Schumer, Feinstein, Durbin, Pryor, Udall, 
Warner, Leahy, Klobuchar, King, Roberts, Chambliss, Shelby, and 
Blunt.

              OPENING STATEMENT OF SENATOR SCHUMER

    Chairman Schumer. The Rules Committee will come to order 
for the continuation of its organizational meeting. Good 
afternoon, thank you for coming. I would like to warmly welcome 
our new Ranking Member, Senator Roberts and our new Members, 
Senator Amy Klobuchar, Senator Angus King, and Senator Ted 
Cruz. We have a legislative quorum of 10 members, so let's take 
our two votes. Is there any further debate? I move we adopt by 
voice the Committee Rules of Procedure--is there a second?
    Senator Leahy. Second
    Chairman Schumer. All in favor, say ``aye''
    [a chorus of ``ayes.'']
    Chairman Schumer. All opposed, say ``nay''
    [No response.]
    Chairman Schumer. The ``ayes'' have it. Now, I move that we 
adopt by voice vote the 7-month authorizing resolution for the 
Rules Committee budget. Is there a second?
    Senator Feinstein. Second
    Chairman Schumer. All in favor, say ``aye.''
    [Chorus of ``ayes.'']
    Chairman Schumer. All opposed, ``nay.''
    [No response.]
    Chairman Schumer. The ``ayes'' have it. Since there is no 
further business, the Committee is adjourned and we thank you 
for making this meeting our most successful yet.
    [Whereupon, at 12:24 p.m., the Committee was adjourned.]0



                 BUSINESS MEETING--TO CONSIDER S. RES..
     64, AN ORIGINAL RESOLUTION AUTHORIZING EXPENDITURES BY SENATE 
                               COMMITTEES

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2013

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Angus S. 
King, presiding.
    Present: Senator King.
    Staff Present: Jean Bordewich, Staff Director; Kelly Fado, 
Deputy Staff Director, Professional Staff; Lynden Armstrong, 
Chief Clerk; Mary Suit Jones, Republican Staff Director; Shaun 
Parkin, Republican Deputy Staff Director; Paul Vinovich, 
Republican Chief; Shaun Parkin, Republican Deputy Staff 
Director; Matt McGowan, Professional Staff; Rachel Creviston, 
Republican Professional Staff; and Adam Topper, Staff 
Assistant.
    [Committee gavel.]
    Senator King. The Rules Committee will come to order for 
the mark-up on its omnibus funding resolution for the 
Committees. Welcome. We currently do not have a quorum needed 
to pass the resolution, so the Committee is recessed, subject 
to the call of the chair.
    [Committee gavel.]
    The Committee reconvened on Thursday, February 28, 2013 at 
3:00 p.m., in Room S-216, United States Capitol Building, Hon. 
Charles E. Schumer, Chairman of the Committee, presiding.
    Present: Senators Schumer, Feinstein, Durbin, Pryor, 
Warner, Leahy, Klobuchar, King, Roberts, Chambliss, Shelby, 
Blunt, and Cruz.
    [Committee gavel.]

              OPENING STATEMENT OF SENATOR SCHUMER

    Chairman Schumer. The Rules Committee will come to order 
for the continuation of the mark-up on its omnibus funding 
resolution for Committees. You were all sent the resolution 
yesterday. We have a legislative quorum of ten members, so 
let's take our vote. Is there any further debate?
    [A chorus of no.]
    Chairman Schumer. I move that we adopt by voice vote the 7-
month omnibus authorizing resolution for Senate Committees. Is 
there a second?
    Senator Feinstein. Second.
    Chairman Schumer. All in favor say ``aye.''
    [A chorus of ``ayes.'']
    Chairman Schumer. All opposed?
    [No response.]
    Chairman Schumer. The ayes have it. Since there is no 
further business, the Committee is adjourned.
    [Committee gavel.]0


                  HEARING--NOMINATION OF DAVITA VANCE-COOKS, 
                              OF VIRGINIA, 
                        TO BE THE PUBLIC PRINTER

                              ----------                              


                        WEDNESDAY, JUNE 12, 2013

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Angus S. 
King, Jr., presiding.
    Present: Senators King, Klobuchar, and Roberts.
    Staff Present: Jean Bordewich, Staff Director; Kelly Fado, 
Deputy Staff Director; Stacy Ettinger, Chief Counsel; Ellen 
Zeng, Elections Counsel; Sharon Larimer, Assistant to the Staff 
Director; Abbie Sorrendino, Professional Staff; Nicole Tatz, 
Legislative Correspondent; Lynden Armstrong, Chief Clerk; 
Matthew McGowan, Professional Staff; Adam Topper, Staff 
Assistant; Mary Suit Jones, Republican Staff Director; Shaun 
Parkin, Republican Deputy Staff Director; Paul Vinovich, 
Republican Chief Counsel; Sarah Little, Communications 
Director; Trish Kent, Republican Professional Staff; and Rachel 
Creviston, Republican Professional Staff.

               OPENING STATEMENT OF SENATOR KING

    Senator King. The United States Senate Committee on Rules 
and Administration shall come to order. Good morning.
    On today's agenda is the consideration of the nomination of 
Davita Vance-Cooks for the position of Public Printer of the 
United States Government Printing Office.
    Chairman Schumer is unable to attend today's hearing and 
asked that I extend his congratulations to Mrs. Vance-Cooks on 
her nomination. Without objection, I ask that his statement be 
submitted for the record.
    [The prepared statement of Chairman Schumer was submitted 
for the record:]
    Senator King. I would also like to welcome Mrs. Vance-
Cooks' husband, Cliff Cooks, who is joining us here today.
    The Government Printing Office opened its doors the day 
that Abraham Lincoln was inaugurated as the 16th President of 
the United States in 1861. For more than 150 years, the GPO has 
played an instrumental role in keeping the nation informed and 
providing permanent public access to government information. 
GPO publishes the nation's important government information in 
both digital and print forms. It publishes official documents 
for Congress and the executive branch, created and maintains 
the Federal Digital System, an enormous Web site and database 
of digital documents, and also supports the Federal Depository 
Libraries all over the country.
    A broad operational review of the GPO conducted by the 
National Academy of Public Administration in 2012 concluded 
that under the guidance of the Acting Public Printer, our 
nominee here today, GPO has made significant progress in 
rebooting the agency from a print-based organization to one 
that focuses on publishing content in many forms.
    Mrs. Vance-Cooks came to us with a distinguished 34-year 
career that includes 25 years in the private sector and nine 
years of management and executive experience at the GPO itself. 
As Acting Public Printer, she has worked to modernize the 
process of making information available to the public in 
digital as well as print form.
    Senator, welcome.
    On May 9, the President nominated Mrs. Vance-Cooks to be 
the Public Printer. If confirmed, she would be the 27th person 
to hold this position, the first African American, and the 
first woman. As Deputy Public Printer, she assumed the 
responsibilities of Acting Public Printer on January 4, 2012.
    On behalf of the committee, I want to welcome Mrs. Vance-
Cooks to today's hearing and we look forward to her testimony.
    Senator Roberts, do you have any opening remarks?

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. Yes, Mr. Chairman.
    This will be somewhat repetitive, but it deserves repeating 
because of the qualifications of Mrs. Vance-Cooks, and I would 
like to welcome her here today. Thank you for paying a very 
nice courtesy call to my office prior to this hearing and thank 
you for your willingness to serve as the Public Printer.
    I want to formally acknowledge the great work that the GPO 
does. They produce all of the printing and information products 
ordered by Congress and Federal agencies, which is the 
equivalent of nearly $700 million of work annually. Praise is 
due to the good work of the 1,900 GPO employees who work 
tirelessly on behalf of Congress.
    And I want to commend the implementation of technology that 
has made the GPO more efficient, has allowed the agency to 
function with fewer resources, publish more information, make 
it more accessible to the public, and still meet the increasing 
demands of Congress on a day-to-day basis--no small job. I also 
want to stress the importance of innovation as the GPO 
continues to make the shift from print to digital documents.
    The committee looks forward to hearing Mrs. Vance-Cooks' 
remarks and her vision for the future of the GPO. She is 
eminently qualified, and I will hold my remarks in the effort 
to expedite this confirmation, which she deserves.
    Senator King. Thank you, Senator.
    Senator Warner is a member of this committee and one of the 
Senators from Mrs. Vance-Cooks' home State of Virginia. He had 
hoped to introduce the nominee here today but is tied up in 
another committee markup, which is the order of the day around 
here this week. I would like to read part of his introductory 
statement and, without objection, ask that the statement in its 
entirety be included in the committee record at this point.
    [The prepared statement of Senator Warner was included for 
the record:]
    Senator Warner. I wish I could be there in person to 
introduce fellow Virginian and President Obama's nominee to be 
Public Printer, Mrs. Davita Vance-Cooks.
    Davita is exceptionally well-qualified to carry out the 
duties and responsibilities of Public Printer. She brings more 
than 30 years of private sector and federal government 
experience to her current role as Deputy Public Printer. Davita 
joined the Government Printing Office in 2004 and has held a 
succession of senior management positions. In one of her 
previous roles as Deputy Managing Director of Consumer 
Services, Davita oversaw the award of a $50 million contract 
for the production of the 2010 census materials. This was one 
of the largest procurements in the agency's history.
    Additionally, as Managing Director of GPO's Publications 
and Information Sales business unit, Davita led GPO's effort to 
partner with Google to sell federal publications in an eBook 
format, launched an award winning government book blog, 
modernized GPO's customer contact center, and oversaw the 
renovation of the agency's retail bookstore in Washington, D.C.
    Recognized for her hard work and successful efforts, Davita 
was named GPO's Chief of Staff in January 2011, where she 
continued to have a positive impact on the organization. In 
only eleven months she created and implemented an agency-wide 
strategic performance plan while managing the day-to-day 
operations, budgets, and performance goals of the executive 
offices. In December of that same year she was once again 
promoted--this time to the appointed position of Deputy Public 
Printer.
    As a former businessman, I'd also like to highlight 
Davita's success in the private sector. Before joining GPO she 
served as General Manager of HTH Worldwide Insurance Services. 
Before that she was Senior Vice-President of Operations for 
NYLCare MidAtlantic Health Plan. Prior to that, she worked for 
several Blue Cross/Blue Shield plans, where she was Director of 
Customer Service and Claims, Director of Membership and 
Billing, and Director of Market Research and Product 
Development. Her wide range of experience as a business 
executive should not be overlooked.
    Virginians are proud to call Davita one of their own. She 
is a member of the Northern Virginia Alumnae Chapter of Delta 
Sigma Theta, Inc., a national sorority that will celebrate its 
centennial this year. She and her husband Clifford Cooks are 
active members of the Antioch Baptist Church in Fairfax 
Station, and they are the proud parents of Chandra and 
Christopher, both of whom graduated from James Madison 
University. For the past several years, while serving as a 
senior manager at GPO, Davita has coached girls basketball for 
the Springfield Youth Club and the Braddock Road Youth Club in 
Fairfax County. Cliff is an assistant coach for the boys JV 
basketball team at Bishop Ireton High School. Despite Davita's 
nomination, it's a tough week in the Cooks household--Davita is 
a Spurs fan and Cliff roots for the Heat.
    I would like to extend a warm welcome to Davita and her 
family, who have so much to be proud of. I enthusiastically 
support Davita, and urge the committee to favorably report her 
nomination and look forward to working towards her swift 
confirmation on the Senate floor.
    Senator King. Senator Warner's statement says, in part, 
``Mr. Chairman, I wish I could be there in person to introduce 
fellow Virginian and President Obama's nominee to be the Public 
Printer, Mrs. Davita Vance-Cooks. Davita is exceptionally well 
qualified to carry out the duties and responsibilities of the 
Public Printer. She brings more than 30 years of private sector 
and Federal Government experience to her current role as Deputy 
Public Printer.
    ``Virginians are proud to call Davita one of their own. She 
is a member of the Northern Virginia Alumni Chapter of Delta 
Sigma Theta, the national sorority that will celebrate its 
centennial this year. She and her husband, Clifford Cooks, are 
active members of the Antioch Baptist Church in Fairfax Station 
and they are proud parents of Chandra and Christopher, both of 
whom graduated from James Madison University.
    ``For the past several years, while serving as a Senior 
Manager at the GPO, Davita has coached girls' basketball for 
the Springfield Youth Club and the Braddock Road Youth Club in 
Fairfax County. Cliff is an assistant coach for the boys' JV 
basketball team at Bishop Ireton High School.
    ``Despite Davita's nomination, it has been a rather tough 
week in the Cooks' family household because Davita is a Spurs 
fan, and I understand that Cliff roots for the Heat. So last 
night must have taken--been some satisfying for you, Davita.
    ``I would like to extend a warm welcome to Davita and her 
family''--these are the words of Senator Warner--``who have so 
much to be proud of. I enthusiastically support Davita and urge 
the committee to favorably report her nomination and look 
forward to working towards her swift confirmation on the Senate 
floor.''
    Now, Mrs. Vance-Cooks, please make your statement to the 
committee.

 STATEMENT OF DAVITA VANCE-COOKS, OF VIRGINIA, NOMINATED TO BE 
                       THE PUBLIC PRINTER

    Mrs. Vance-Cooks. Thank you. Mr. Chairman and members of 
the Committee on Rules and Administration, I am honored to be 
here this morning to assist in your consideration of my 
nomination by President Barack Obama to be the Public Printer 
of the United States Government Printing Office.
    Before I begin, I would like to formally introduce you to 
Clifford Cooks, my husband and my best friend of 33 years, back 
there.
    In the interest of time, I will briefly summarize my 
prepared remarks, which have been submitted for the record.
    I am currently the Deputy Public Printer and I have been 
serving in the capacity of Acting Public Printer for the past 
18 months. For 152 years, GPO has faithfully carried out its 
mission of keeping America informed about the business of the 
government, first by traditional printing, and today by digital 
technology.
    Clearly, the GPO is no longer just a printing business. 
Today, we operate in an environment that is dominated by 
constantly evolving technology, the proliferation of content 
available through multiple formats and devices, rapidly 
changing and demanding stakeholder expectations, and 
significant financial budget pressure. In response, we have 
repositioned our core business of ink on paper to emphasize the 
development of a digital information platform for the delivery 
of a growing variety of options to access government 
information.
    As I have detailed in my prepared statement, my educational 
background, which includes an MBA from Columbia University, 25 
years of private sector experience with progressively 
challenging leadership roles, nine years of GPO management and 
executive business experience, all have prepared me to lead 
this wonderful agency at this particular time, in this 
environment, and during this digital transformation.
    My career at the GPO began when I directly managed our 
nationwide print procurement business, and then I became 
responsible for the print and E-commerce information sales 
operation, and later, I oversaw the administrative business 
units. I facilitated GPO's entry into the E-book market with 
the establishment of E-book partnerships with Google and other 
providers. And as the Chief of Staff, I guided the conduct of 
an agency-wide buyout, resulting in a restructured workforce 
and the lowest staffing level at GPO in more than a century, 
but still maintaining a high level of customer service.
    This background has provided me with a broad knowledge of 
GPO's mission, our customers, our partners, operations, 
capabilities, employees, and organizational culture. If 
confirmed by the Senate, I will not need a learning curve to 
lead the agency as the Public Printer.
    Furthermore, during my year-and-a-half as the Acting Public 
Printer, the collaboration between management and employees has 
resulted in a number of achievements, and I am so very proud of 
those achievements. I would like to list some of them for the 
record.
    We completed fiscal year 2012 with positive net income and 
reduced our overhead costs to 2008 levels. To date, in fiscal 
year 2013, we have managed to absorb the effects of the 
sequestration while continuing to carry out the program of 
doing more with less. We developed a five-year strategic plan. 
We pioneered new mobile apps for the delivery of government 
information to mobile devices, one of which won a Digital 
Government Service Award. We expanded the scope of information 
made available by the Federal Digital System. We opened a 
Secure Credential Operations site for the increased demand of 
secure cards. We delivered the work supporting the 2013 
Presidential Inauguration. We added new professional 
certifications for our plant operations so we are now 
designated as Best in Class. And we initiated the Federal 
Depository Library State Forecasting Project to ensure the 
digital future of the program in collaboration with the 
Depository Libraries. And most importantly, the National 
Academy of Public Administration, after a ten-month 
Congressionally mandated study, validated our mission and our 
program of digital transition.
    So in developing and carrying out our plans for moving the 
GPO forward, I have been and will always be committed to 
consulting with Congress and our stakeholders, and I have an 
unwavering belief in the vital mission of GPO, which is to keep 
America informed. And I will ensure that GPO stays dedicated 
and true to that mission.
    So in closing, I would like to state for the record that I 
have the deepest admiration and respect for the GPO employees. 
They are the agency's strongest and most important assets. They 
are the nation's experts in the production and dissemination of 
the information that is needed by the public. And for the past 
nine years, I have been fortunate to work with the dedicated 
and talented men and women of the GPO, and I look forward to 
continuing to work with them if I am confirmed as their Public 
Printer.
    Mr. Chairman and members of the Committee on Rules and 
Administration, thank you again for the opportunity to be here 
today. I must admit, I am absolutely thrilled about this 
opportunity, and this concludes my prepared statement and I am 
prepared to answer any questions that you may have.
    [The prepared statement of Mrs. Vance-Cooks Submitted for 
the Record:]
    Senator King. Thank you.
    Before we get to questions, Senator Klobuchar has joined 
us. Senator, did you have an opening statement of any kind?
    Senator Klobuchar. No, I think we should just move on to 
questions, but I welcome the nominee and congratulate her and 
her family. Thank you, and thank you for your good work.
    Senator King. Mrs. Vance-Cooks, I understand that one of 
the first things you did when you took over as Acting Public 
Printer was hold Town Hall meetings with your staff. The 
feedback we got was very positive from that, that they 
appreciated your transparency and your willingness to listen.
    You made it through, as you noted in your comments, the 
sequester pressure, and I wondered how you view the next couple 
of years. As you know, the sequester is not a one-year event, 
but unless it is modified, it is in the law for the next nine 
years. How do you see that relating to your ability to carry 
out your mission?
    Mrs. Vance-Cooks. First of all, thank you for acknowledging 
the Town Hall meetings. I made it an objective to have Town 
Hall meetings around the clock every quarter with the 
employees, and since we are, in fact, a 24-hour by seven 
operation, we have Town Hall meetings that go around the clock, 
and it is very important for us to communicate with our 
employees to let them know where we are going and why we are 
moving in that direction. I have found that when we communicate 
with our employees, we tend to get better buy-in, and that buy-
in allows us to make hard decisions, but decisions which they, 
in fact, understand, and that leads me to the point about the 
sequester.
    In February, I had a series of Town Hall meetings to talk 
to them about what I called the Perfect Storm. At that point, 
it was the sequestration; it was the Continuing Resolution and 
the debt ceiling. And I explained to them that it is important 
for us to manage our expenses very carefully. And I wanted them 
to understand that when we manage our expenses, is to make sure 
that we are a viable operation. So they understand why we have 
to cut back on training sometimes or why we have to cut back on 
some of the technological investments that had been planned for 
the future.
    The way in which I understand, or the way in which we have 
planned to make it through the next few years with the 
sequestration is to make sure we understand our expenses. Our 
expenses are at the lowest level right now. We have reached all 
the way down to the 2008 level. But it is what I call targeted 
expenses. It is not a slash across the board. It is making sure 
that we target the right areas, and we will continue to do 
that.
    We also will continue to try to increase our revenue. Our 
financial model is set up so that only 16 percent of our budget 
is due to appropriations. The 84 percent balance, we actually 
earn it. And so that earned revenue is what we will target to 
make sure that we can ride through the sequester. That earned 
revenue will come from procurement business and will come from 
other types of information, such as secure cards and passports.
    So the balance between our expenses and managing our 
revenue will allow us to go further. But I want to stress that 
it is targeted revenue opportunities and it is targeted expense 
opportunities, and it is also making sure that we collaborate 
with our employees so that they understand our vision.
    Senator King. Thank you. The Depository Library Program, 
the localized program that helps ensure public access to 
Federal Government documents, is an old and tried and true 
program. However, how does that program fit in, in your vision, 
with digital access? Do we need Federal Depository Libraries if 
everybody can access all the information from their living 
room?
    Mrs. Vance-Cooks. Well, first of all, we definitely need 
Federal Depository Libraries. That is a guaranteed issue. Yes. 
In fact, you know that we have 1,200 Depository Libraries 
spread throughout the United States. We need it because of the 
fact that not everyone is on digital. Not everyone is on a 
digital platform. And the libraries are needed to serve the 
underserved, those individuals who do not have access to 
digital content. And I know for a fact that we have a lot of 
pockets like that.
    Now, I will admit that the FDLP Program is moving towards a 
digital platform. We need to help them manage the digital 
platform. They have identified a number of issues, such as they 
want improved access online. They want enhanced catalog 
records. They want the information to be easily discoverable. 
They want us to digitize more historical content. They want 
more flexibility in terms of how we manage the collection 
according to Title 44. And they want preservation.
    We hear them. We agree with them. And that is why, back in 
2012, we initiated a study called the State Forecasting 
Project. It is a collaborative project with all of the 
libraries, and we asked them, how can we as GPO best help to 
serve you? How can we help you to serve your patrons, whether 
digital or whether tangible? We have been working on all of the 
analysis, all of the recommendations, and we intend to present 
a National Federal Digital Program Plan by October to address 
all of those issues.
    Senator King. Thank you.
    Senator Roberts.
    Senator Roberts. Well, I thank the Acting Chairman and I 
thank you, Mrs. Vance-Cooks. What is the appropriate title 
after your confirmation here? I have got Chief Executive 
Officer. CEO seems a little--Madam CEO does not quite get it. 
What do you take as the proper title?
    [Laughter.]
    Mrs. Vance-Cooks. Well, you know, I like Madam CEO.
    [Laughter.]
    Senator Klobuchar. I would like the record to reflect I 
also think that is a good title, Senator Roberts.
    [Laughter.]
    Senator Roberts. It is now four-to-zero. I can understand 
that. Okay.
    Well, Madam CEO, you have already responded to about three 
of my questions and they were asked in a very timely fashion by 
our Acting Chairman. I have got a question. In your view, what 
is the appropriate mix of agency printing that should be 
performed by GPO and will you continue to support a robust 
private sector printing industry?
    Mrs. Vance-Cooks. Today, we have an in-plant operation and 
we have a print procurement operation. Our in-plant operation 
primarily handles Congressional products and inherently 
government information, such as the Federal Register. Our Print 
Procurement Program handles the Federal agency printing. And, 
as you know, a number of Federal agencies come to us for 
printing. We know that approximately 70 percent of the mix that 
comes in, or 70 percent of the work orders that come in, are 
for the Federal agencies.
    That work is sent out to our nationwide network of 
businesses that are printers. And we know that when we send 
that out, about 80 percent of those printers who actually get 
business from us are employees or employers with fewer than 20 
employees. So, basically, we are funding the small business 
network for printers.
    I believe strongly in the Print Procurement Program because 
it is a way to leverage a tremendous amount of buying 
capability to get competitive prices. It is a competitive bid 
process, and it is a longstanding partnership between the 
government and private sector. And, in fact, when I started at 
GPO, I started managing that Print Procurement Program, so I am 
very much familiar with it. It will continue. It generates 
about--well, in fiscal year 2012, it generated about $350 
million in revenue for all these private businesses.
    This is, however, an area that I am very concerned about 
for the sequester, because when the sequestration hit, the 
Federal agencies, of course, the first thing they looked at 
were different line items about which they can cut. And one of 
the things they probably will start to cut will be printing, 
and that is, of course, because they might think about how they 
can put things online or they might think that they may not 
need as many orders.
    So this is what I am calling the rippling effect. When they 
submit fewer orders to us, we, in turn, will submit fewer 
orders to the private businesses. So we are watching that very 
carefully. Right now, since the sequester has come on board, we 
are seeing about an eight to ten percent decline in printing on 
that side.
    Senator Roberts. When you make those adjustments, you are 
talking about the small business community and your average was 
22 people or less. Obviously, if you have an eight to ten 
percent cut, that is going to hit, if it is across the board. 
How are you going to manage that? Are you going to pick and 
choose, or----
    Mrs. Vance-Cooks. No. This is a competitive bid process. 
Right now, we have about 16,000 vendors on our master list, and 
so when an order comes in, we then send it out to all the 
businesses to bid. They actually bid on the particular order. 
And then we give it to the best possible price.
    Senator Roberts. All right. I appreciate that.
    You have got about one million--well, not about--you have 
got exactly 1,431,600 square feet of total space in four 
buildings over there. I have been there on several occasions, 
but not lately, so I have got to get back over. And about 
437,200 square feet of that space is classified as being 
unusable. We are talking about pipes, stairwells, mechanical 
rooms, et cetera, et cetera. With costs that are significantly 
rising to maintain the aging buildings, what kind of advice can 
you give us on getting the best economic value out of the 
usable space while continuing to meet the core needs of the GPO 
and the Congress?
    Mrs. Vance-Cooks. We are leasing that space. In fact, I 
always tease Andy Sherman, sitting behind me, and Jim Bradley 
on the other side, because I call them my RE/MAX salesmen 
because of the fact that we had that----
    Senator Roberts. You do not have a reverse mortgage or 
anything like that, do you?
    Mrs. Vance-Cooks. No, I do not. No.
    [Laughter.]
    Mrs. Vance-Cooks. No. But we do lease the space. In fact, 
we have four renters now and they contribute about $1.7 million 
annually, and that funding is used to defray the cost of 
operating the building.
    We are in the process of looking for additional renters. 
Again, I will admit, the sequestration has sort of slowed that 
process. But that is what we intend to do.
    Senator Roberts. I appreciate that, and the red light is 
blinking, Mr. Chairman, so let us move on.
    Senator King. Senator Klobuchar.
    Senator Klobuchar. Very good. Again, welcome, and as 
Senator Roberts is now aware, the Public Printer is the Chief 
Executive Officer----
    Mrs. Vance-Cooks. Right.
    Senator Klobuchar. --of the GPO, and in this capacity, you 
are responsible, or will be responsible for leading and 
managing the organization. I know you have had significant 
experience in both the public and private sector. Could you 
talk a little bit about how your experiences in the private 
sector will inform your decision making as the CEO of the GPO?
    Mrs. Vance-Cooks. Thank you for that CEO title. Thank you 
very much.
    My private sector experience actually has given me a unique 
perspective on the organizational challenges of the GPO. In my 
private sector experience, I specialized in operations 
management, change management, and strategic planning. When I 
became the Chief of Staff, I immediately took my strategic 
planning emphasis and brought it to the GPO. I have developed a 
very coordinated, very standard process for strategic planning.
    We developed a five-year strategic plan several years ago. 
It is a dynamic plan. By that, I mean we continually update it. 
It is updated every year to go to the next year. On top of 
that, every six months, we have a report that identifies where 
we stand in terms of our operational plans. And every year, at 
the end of that year, we identify what we have accomplished. 
All of that information is open and transparent and it is on 
the web so you can see exactly what our plans are going 
forward.
    In terms of operations management from the private sector, 
I have brought that here because I understand how to manage. I 
can manage and I can strategically plan. And then my change 
management experience is also helpful because this is an 
organization that is going through a lot of transformation and 
we need that kind of skill set to make sure that we understand 
where we are going and get the buy-in.
    Senator Klobuchar. As you talk about change, I know that 
Senator King asked you some questions, which I thought were 
very good, on the new, the digital, and referenced that. Are 
you doing anything with social media, with Facebook, Twitter?
    Mrs. Vance-Cooks. Absolutely. We have a Facebook. We have 
YouTube, which is half Pinterest, which I think is kind of 
interesting, okay. And we believe in social media. Social media 
is the best way to get out our name. It is the best way to 
communicate what we do. It is also a reference to the fact that 
there is a new generation coming and this is how they 
communicate. This is how they learn about us. So we cannot wait 
for them to come to us. Social media allows us to go to them. 
And we also have a Twitter account.
    Senator Klobuchar. Have you ever thought that the name 
should be changed?
    Mrs. Vance-Cooks. Absolutely.
    Senator Klobuchar. From Government Printing Office----
    Mrs. Vance-Cooks. To Government Publishing Office.
    Senator Klobuchar. Well, there we go. We have a goal now. 
But it does seem like that might be a good idea, because it is 
hard for you to say on social media, to use the Government 
Printing Office when you are giving them digital access.
    Mrs. Vance-Cooks. Exactly. And the Government Printing 
Office title, the name is a great name full of history. It is 
steeped in tradition. But it is limiting. It makes people think 
that the only thing we do is printing.
    Senator Klobuchar. Exactly.
    Mrs. Vance-Cooks. We actually publish digital information. 
So we are a digital publisher. We have E-commerce through E-
books. We create mobile apps.
    Senator Klobuchar. And then people will stop saying, well, 
why do you have to exist when you are the Printing Office?
    Mrs. Vance-Cooks. Exactly.
    Senator Klobuchar. Okay.
    Mrs. Vance-Cooks. Thank you.
    Senator Klobuchar. We have a goal.
    Mrs. Vance-Cooks. All right. Thank you.
    Senator Klobuchar. You talked with Senator King about the 
importance of the depositories, even in the digital age, a 
place for everyone to access the records, and I found out, 
which I did not know, getting ready for this, that the 
University of Minnesota is the Regional----
    Mrs. Vance-Cooks. That is right.
    Senator Klobuchar [continuing]. Depository Library for 
Minnesota and South Dakota and Michigan, housing more than a 
million volumes of government publications. Can you talk about 
how that works? I know you mentioned, was it 1,200----
    Mrs. Vance-Cooks. There are 1,200 Depository Libraries----
    Senator Klobuchar. But these are regional ones, and so what 
role do they play and how do you work with the universities?
    Mrs. Vance-Cooks. Okay. The regional role--the Regional 
Libraries are responsible for coordinating with the Depository 
Libraries, and I think of the Regional and the Depository 
Libraries as actually collaborating with each other to make 
sure that they have the right documents on file, to make sure 
that they are not duplicating efforts, and to make sure that 
they serve the patrons.
    So in terms of how they work with the universities, it is 
the same thing. What do the universities want? Let us make sure 
we have the information that they need.
    And I would also like to say that with all of these 
libraries that cover a number of areas, it is academic, it is 
law, it is public. It goes on and on.
    Senator Klobuchar. Okay. The National Academy of Public 
Administration report found that, based on a conservative set 
of assumptions, the GPO only has the cash necessary to offset 
operating losses and fund modest investment for another seven 
years. Do you agree with that assessment and what do you think 
can be done with your business background to ensure a brighter 
financial future?
    Mrs. Vance-Cooks. I do not agree with that assessment. I 
believe that the GPO has a bright future and a good financial 
strong future and we will be here for a very long time. We earn 
our revenue, as I said, with the 84 percent. It comes from 
passports, and we are in the process of coordinating with the 
State Department for the next generation of passports. I think 
most people know that we have been working with the State 
Department since the 1920s on our passports. We leverage that 
expertise with our passports to create secure credentials. We 
consider the secure credential market to be a very large market 
opportunity for us.
    Our print procurement is also an area of opportunity for us 
because we believe that we should do more market outreach to 
the Federal agencies to let them know that we are here to 
assist them with their printing needs because printing will not 
go away. Tangible print is here and it will always remain, it 
is just that there will be a balance between tangible print and 
online.
    Now, because I mentioned earlier that we intend to 
reposition our core business, by that, I mean the traditional 
printing, we are looking for market niche opportunities to 
support it. So that would be print on demand. That would be E-
books. That would be all of those type of market opportunities 
to bolster the revenue to move forward.
    I think we are going to be just fine.
    Senator Klobuchar. Okay. Well, I would love to work with 
you on the name change----
    Mrs. Vance-Cooks. Well, thank you.
    Senator Klobuchar [continuing] Because I just realized you 
can still be the CEO of the GPO--
    Mrs. Vance-Cooks. That is right.
    Senator Klobuchar [continuing]. Because it would be the 
Publications Office. That would make it easier for everyone in 
Washington to keep the same acronym.
    Mrs. Vance-Cooks. And it does not bother our letterhead too 
much.
    Senator Klobuchar. Yes. Then we save money and we can keep 
the old letterhead. Okay. We are ready to work on it.
    Mrs. Vance-Cooks. All right.
    Senator Klobuchar. Thank you.
    Mrs. Vance-Cooks. Thank you.
    Senator King. Thank you, Senator Klobuchar.
    Before closing the hearing, there is so much talk these 
days in terms of bad news, particularly sometimes focusing on 
Federal employees. I just want to take this occasion to thank 
you and the people at GPO that go to work every day quietly, do 
their job in a quality manner serving the public in responsive 
and creative ways and just thank you for that, and please 
convey the thanks of this committee to your loyal and creative 
and good serving employees. Would you do that for me?
    Mrs. Vance-Cooks. I will. Thank you very much.
    Senator King. Thank you. On behalf of the Rules Committee, 
I want to thank you for your testimony this morning.
    The record on this hearing will remain open for five 
business days for additional comments. There may be post-
hearing questions submitted in writing for the nominee to 
answer. We plan to consider this nomination in a timely manner, 
hopefully within the next few days, so the Senate can have an 
opportunity to confirm Mrs. Vance-Cooks as the next Public 
Printer in an expeditious manner.
    With no further business to come before the committee, the 
committee is adjourned.
    Mrs. Vance-Cooks. Thank you, sir.
    [Whereupon, at 10:39 a.m., the committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

 HEARING--NOMINATIONS OF ANN M. RAVEL AND LEE E. GOODMAN TO BE MEMBERS.
                   OF THE FEDERAL ELECTION COMMISSION

                              ----------                              


                        WEDNESDAY, JULY 24, 2013

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the committee, presiding.
    Present: Senators Schumer, Durbin, Udall, King, Roberts, 
Cochran, and Blunt.
    Staff Present: Jean Bordewich, Staff Director; Kelly Fado, 
Deputy Staff Director; Stacy Ettinger, Chief Counsel; Ellen 
Zeng, Elections Counsel; Sharon Larimer, Assistant to the Staff 
Director; Abbie Sorrendino, Professional Staff; Nicole Tatz, 
Legislative Correspondent; Matthew McGowan, Professional Staff; 
Adam Topper, Staff Assistant; Mary Suit Jones, Republican Staff 
Director; Shaun Parkin, Republican Deputy Staff Director; Paul 
Vinovich, Republican Chief Counsel; Sarah Little, 
Communications Director; Trish Kent, Republican Professional 
Staff; and Rachel Creviston, Republican Professional Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. Now we will begin for two nominees to the 
Federal Election Commission. I ask the witnesses to please take 
their seats at the table, and on today's agenda is the 
consideration of nominations of Mr. Lee Goodman and Ms. Ann 
Ravel to be members of the FEC, Federal Election Commission. 
Before anyone suggests that I might have overlooked the common 
courtesy of ladies before gentlemen, we have introduced the 
nominees in alphabetical order for simplicity's sake. So, Mr. 
Goodman and Ms. Ravel, I would very much like to welcome you 
here today, congratulate you on your nomination.
    Mr. Goodman, I understand you are accompanied by your 
family members, your wife, Paige Pippin, your daughter, Piper, 
and your son, Kemper. Maybe they can stand so we can say hello. 
It is such a nice family.
    [Applause.]
    Chairman Schumer. Thank you. And I know the three of you 
are proud of your husband and dad, so thanks for coming.
    Ms. Ravel, I understand you, too, have brought family and 
friends your husband, Steve Ravel, your son and daughter-in-
law, Gabriel Ravel and Katie Marcellus Ravel, your daughter, 
Shana Ravel, and your good friend, Elaine Mielke, and they are 
a very nice family and friends, too, so will you please stand 
so we can recognize you and thank you for coming.
    [Applause.]
    Chairman Schumer. Thank you.
    I also want to welcome FEC Chair Ellen Weintraub and 
Commissioner Caroline Hunter, along with FEC Director Alec 
Palmer. Thank you all for coming, and since you do not have 
your adorable families with you, we are not going to ask you to 
stand, although I know they are adorable.
    [Laughter.]
    Chairman Schumer. The nomination of new Federal Election 
Commission members comes at a critical juncture. Originally 
envisioned as an independent Federal watchdog agency, the FEC 
of today seems to be stuck in its own version of partisan 
gridlock. As we know, by law, no more than three Commissioners 
can be members of the same political party and at least four 
votes are required for any Commission action. This structure 
was encouraged to create nonpartisan decisions. We also 
recognize that three-three deadlock votes are not always 
unexpected.
    The problem, however, is in recent years, deadlock votes 
are occurring with increasing frequency, and as a result, 
enforcement of existing campaign finance laws is down 
significantly. Violators may go unpunished. Others may be 
emboldened to cross the line on our campaign finance laws and 
rules, and that is unacceptable. So, at a time when the amount 
of money in politics, as Senator Udall ably noted, is reaching 
new highs, we must have a functioning FEC.
    The Commission is designed to play a critical role in our 
campaign finance system. Almost 40 years ago, Congress created 
the FEC to administer and enforce the Federal Election Campaign 
Act, and that is the law that governs the financing of Federal 
elections. The agency is tasked with investigating and stopping 
financial campaign abuses. It also ensures disclosure of 
legally mandated campaign finance information, and it audits 
campaigns and organizations to ensure compliance with our 
nation's laws as enacted by Congress and interpreted by the 
courts. The search for compromise on each of these functions, 
we know, is difficult, but it is worth the effort.
    I am encouraged by the nomination of two well-qualified 
candidates testifying before the committee. Your experience 
with campaign finance issues suggests that both of you have the 
ability to find workable compromises. I hope to hear from both 
of you that you also have the will and desire to do so.
    I strongly urge both nominees to work diligently to restore 
the role of the Federal Election Commission as a fully 
functioning independent Federal watchdog for the nation's 
campaign finance laws. It is my hope you will work together 
with your FEC colleagues to find common ground and that the FEC 
will move past the current partisan gridlock. With that, let me 
turn to Senator Roberts for an opening statement, if he wishes 
to make one.

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. Thank you, Mr. Chairman, and thank you for 
calling this hearing.
    We do have with us today two very well qualified nominees 
before us. I have to apologize to both. I know we were to have 
a personal visit, a courtesy call, and unfortunately, things 
did not work that way with votes. We had the Bob Dole 90th 
birthday celebration last night, which took a lot of 
preparation, but at any rate, I apologize for that. But you 
have both answered the questions that I submitted to you and I 
really appreciate that.
    Each brings an impressive legal background, Mr. Chairman, 
as you have said, in the field of election law. And in their 
prepared remarks, they each have expressed a commitment to 
follow exactly your admonition, Mr. Chairman, to follow the 
law, administer the campaign laws in a nonpartisan way. No 
party can have a majority on the FEC. This does require each 
party to work with the other for the Commission to act. It 
prevents either party from using the Commission to target and 
harass any political opponent. It compels collaboration and 
allows the public and the regulated community to have 
confidence that regulations will be developed and complaints 
considered by a panel that neither party controls. Critics of 
the FEC frequently claim it has been designed to fail. I 
understand that, but I think the critics are wrong. The FEC is 
not designed to fail. It is designed to prevent abuse. That can 
only be assured when each party has an equal voice in its 
decisions. I hope the nominees before us today will recognize 
that for the Commission to function, they must work together to 
achieve consensus, a tough job.
    Should they be confirmed, they will be joining a Commission 
that is now grappling with many important issues. Their 
decisions will impact our citizens' ability to exercise 
fundamental constitutional rights, the rights to speak and to 
participate in our democratic process. I hope they will 
approach that task with the seriousness it deserves. I am sure 
they will. I look forward to hearing their remarks.
    Thank you, Mr. Chairman.
    Chairman Schumer. Thank you, Senator Roberts.
    Senator Udall.

               OPENING STATEMENT OF SENATOR UDALL

    Senator Udall. Thank you very much, Chairman Schumer. Mr. 
Chairman, we really appreciate you holding this hearing today. 
As you know, I am a strong supporter of reforming our campaign 
finance system. I believe one important step is to have a 
functioning FEC where all six seats are filled with 
Commissioners in terms that have not expired. Regrettably, that 
has not been the case for quite a while. I hope we can begin to 
change that with today's hearings.
    Comprehensive campaign finance reform is crucial to our 
democracy, but at the very least, we need to make sure that the 
FEC is enforcing the laws that are on the books. Unfortunately, 
recent Supreme Court decisions have gutted many of those laws 
and we have seen the devastating impact on our elections. In 
the Republican Presidential primaries alone last year, super 
PACs spent over $100 million. More than half of that was for 
negative TV ads, further poisoning our political process, by 
groups that did not even have to say who was paying for all 
that venom. By billionaires hiding in dark corners with 
checkbooks open.
    The Supreme Court laid the groundwork for this broken 
system in 1976 with Buckley v. Valeo. Ruling that a restriction 
on independent campaign spending violated the First Amendment 
right to free speech. In effect, it said money and free speech 
were the same thing. I do not think we can truly fix this 
broken system until we undo that false premise.
    That is why I have again introduced a constitutional 
amendment. We need to overturn Buckley and the subsequent 
decisions that relied on it. We have also tried to pass more 
modest reforms, such as Senator Whitehouse's Disclose Act. That 
bill had 40 cosponsors but could not overcome a filibuster last 
year.
    Campaign finance reform historically has been a bipartisan 
issue. I hope it will be again. In the meantime, the FEC has a 
vital role to play by diligently enforcing existing laws, and I 
welcome our nominees and look forward to hearing their 
testimony today.
    Thank you very much, Chairman Schumer.
    Chairman Schumer. Thank you, Senator Udall.
    Senator Cochran.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Mr. Chairman, I am pleased to join you and 
the other members of the committee in welcoming the witnesses 
and am looking forward to our discussion at the hearing.
    Thank you.
    Chairman Schumer. Thank you, Senator Cochran.
    Senator King.
    Senator King. No statement, Mr. Chairman.
    Chairman Schumer. Senator Blunt.

               OPENING STATEMENT OF SENATOR BLUNT

    Senator Blunt. Mr. Chairman, for eight years, I was the 
Secretary of State in Missouri, which is the chief election 
official in our State. We dealt with the FEC often and with 
good results during that period of time. I am glad to see these 
two individuals with strong backgrounds. An FEC that can meet 
the hopes of the organization when it was formed is something I 
think we have not accomplished yet. I'm hopeful with the 
addition of these two new people, we will get a step closer to 
making the FEC the functioning and refereeing group we hoped it 
would be when it was created.
    I am glad to be here. Thank you for having this hearing 
today.
    Chairman Schumer. Thank you, Senator Blunt.
    And now, since we have more than two members here, we can 
swear the witnesses in, so will the witnesses please rise and 
raise their right hand.
    Do you swear that the testimony you are to provide is the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Mr. Goodman. I do.
    Ms. Ravel. I do.
    Chairman Schumer. Please be seated.
    We will now hear from our nominees in alphabetical order. 
First, Mr. Goodman, and then Ms. Ravel. Your entire statements 
will be read into the record, so if you can limit your 
statements to five minutes, we would appreciate it.
    Before Mr. Goodman begins, I want to thank a member of this 
committee, Senator Feinstein, who could not be here this 
morning but submitted a statement in support of Ms. Ravel.
    [The prepared statement of Senator Feinstein inserted for 
the record:]
    Chairman Schumer. I also want to express my appreciation 
for the letters of support for Mr. Goodman and Ms. Ravel sent 
in by colleagues and friends, so without objection, I will ask 
Senator Feinstein's statement and letters of support be 
included in the record.
    Chairman Schumer. Mr. Goodman, you may proceed.

  TESTIMONY OF LEE E. GOODMAN, OF VIRGINIA, NOMINATED TO BE A 
  MEMBER OF THE FEDERAL ELECTION COMMISSION FOR A TERM ENDING 
                         APRIL 30, 2015

    Mr. Goodman. Thank you, Chairman Schumer, Ranking Member 
Roberts, and distinguished members of the committee. It is an 
honor to be President Obama's nominee for the Federal Election 
Commission. I appreciate Senator McConnell's recommendation of 
me to the President and the decision of the President to 
nominate me.
    If you will indulge me, Senator Schumer, thank you for 
recognizing my family. I would like to introduce them myself 
with a little bit more detail. My wife, Paige, has been a 
public schoolteacher. She teaches civics in Albemarle County, 
Virginia, for over 20 years and she is a high school volleyball 
coach.
    My daughter, Piper, is a soccer and a volleyball player and 
she gets all As in Latin, which she started taking in the fifth 
grade.
    And my son, Kemper--we often call him Kemp after my 
favorite politician of the 20th century--he is a Little League 
all-star catcher. He is a goalie in soccer, and he loves 
Charles Dickens novels, especially Oliver Twist and Pip and 
Great Expectations.
    My wife and I met at the University of Virginia in the 
1980s. We both were government majors. We both took classes 
from Larry Sabato, a rather renowned political scientist who, 
above all things, taught me a refrain, and it is on a bumper 
sticker on our car now and it says, ``Politics is a good 
thing.''
    I got involved in politics about 25 years ago upon 
graduation, and since that time, I have worked in politics at 
virtually all levels of politics. I have been a policy and 
legal advisor to a Governor and a State Attorney General. I 
have been a campaign staffer. My first job out of college was 
working for Vice President Bush's Political Action Committee, 
the Fund for America's Future. And I have been a lawyer for 
political party committees and for campaigns, from school board 
members all the way to Presidential campaigns.
    And probably the most influential role I have played in 
politics is being a legal counsel to State and local political 
parties, where I have seen citizens from all walks of life come 
together to participate in our democratic process. And I know 
that you know these people. They are the people who knock on 
doors for you. They are the people who call. They are the 
people who put signs in their yards. They are the people who 
give you contributions.
    And what I can tell you from my experience and over 25 
years of involvement in politics is that I have a deep and 
abiding respect for our American democratic process and respect 
in the virtue of the people who engage in civic participation. 
And so I have come to know what Larry Sabato taught me over 25 
years ago, that politics is indeed a good thing.
    Now, to keep it a good thing, Congress created the Federal 
Election Commission. Senator Schumer, you summarized the 
history of the Federal Election Commission quite appropriately. 
But the difficulty that has arisen and permeated this field 
over the years has been the delicate balancing between the 
regulation of politics to prevent corruption of it on the one 
hand and the protection of the First Amendment rights of the 
citizens who participate in our political process on the other. 
And this has proved a complicated enterprise, not just at the 
Commission, but for this Congress and for the courts who have 
dealt with these issues.
    If the Senate confirms my nomination, I commit to you that 
I will undertake this balancing role, of balancing First 
Amendment protections against protection of the political 
system against corruption, with several guiding principles in 
mind.
    First, the Commission must address legal and factual 
questions without partisan bias. I have represented both 
Democratic interests and Republican interests in my 
professional career.
    Second, the Commission's procedures must be fair.
    Third, the Commission's regulations must be clear. Many 
grassroots organizations cannot afford to hire lawyers to guide 
them through a complex set of regulations.
    Fourth, the Commission must fulfill its role to help people 
comply.
    And, fifth, I will endeavor to serve with integrity, 
ethically, and with civility toward my colleagues on the 
Commission.
    In conclusion, it would be an honor to serve as a 
Commissioner on the Federal Election Commission. I hope it is 
the pleasure of this committee and the Senate to confirm my 
nomination, and I look forward to answering any questions.
    [The prepared statement of Mr. Goodman submitted for the 
record:]
    Chairman Schumer. You are a very precise man. You ended at 
exactly five minutes to the second.
    [Laughter.]
    Chairman Schumer. Ms. Ravel.

TESTIMONY OF ANN MILLER RAVEL, OF CALIFORNIA, NOMINATED TO BE A 
 MEMBER OF THE FEDERAL ELECTION COMMISSION FOR A TERM EXPIRING 
                         APRIL 30, 2017

    Ms. Ravel. Chairman Schumer, Ranking Member Roberts, and 
distinguished members of the Senate Committee on Rules and 
Administration, I am very grateful to you for scheduling this 
hearing to consider my nomination to serve on the Federal 
Election Commission, and I also want to express my deep 
appreciation to Senator Feinstein for her letter of support and 
to President Obama for his confidence.
    I know you introduced my family that is here today, but I 
do have some family and friends watching in California very 
early in the morning and I would like to mention them, as well. 
My older son, Aaron, and his wife, Simone, and my gorgeous 
granddaughter, two-and-a-half years old, Sofia, are at home, as 
well as my brother, Paul Miller, his wife, Beth, and also my 
great staff at the California Fair Political Practices 
Commission, who got up at seven to go to the office to watch 
this.
    It is truly an honor and a privilege for me to be here 
today. I know, having lived in Latin America most of my life, 
how important it is to live in a country in which the 
government is truly a representative one and in which every 
citizen has the opportunity to take part in the governing 
process.
    I am the child of two orphans, both of whom grew up in 
poverty. They would have been so proud to see their daughter 
here today sitting in this beautiful chambers as a Presidential 
nominee to the FEC. My parents forever instilled in me a 
devotion to democratic values and public service.
    Through hard work and the opportunities that were afforded 
to him, my father was able to obtain a Ph.D. and ultimately 
become a professor. My mother was an immigrant from Latin 
America when they married and when she became a naturalized 
citizen, her proudest moment and the proudest thing in her life 
was that she could vote in this country and participate in the 
public political process.
    My parents always stressed to me the importance of engaged 
participation in our representative democracy. Throughout my 
career, I have endeavored to fulfill that charge. I have worked 
at every level of government, as County Counsel, and I was 
there--I hate to admit this--32 years, and after that at the--
as a Deputy Assistant Attorney General in the Department of 
Justice, then the California Fair Political Practices 
Commission. I have devoted decades to independently analyzing, 
adhering to the language and intent of statutory and case law, 
and writing and interpreting regulations consistent with law.
    As Chair of the FPPC, to your point, Senator Roberts, I 
have undertaken an overhaul of complex and sometimes 
contradictory regulatory scheme to ensure that the regulations 
support the law which was enacted by the public, to make sure 
that everything is consistent with the original intent of the 
law.
    While at the Department of Justice, I helped to develop a 
regulatory structure to ensure that legislation that provided 
compensation to the first responders of 9/11 was properly 
implemented. I met with interested parties, listened to their 
concerns, analyzed the law, and worked to build consensus among 
stakeholders, particularly consensus that was consistent with 
Congress' intent that was enshrined in the legislation.
    Throughout my career, I have worked very hard to build 
consensus and interpret and apply the law in a neutral and 
evenhanded manner. As County Counsel, I served a politically 
diverse board, and yet my advice was always, above all, clear, 
unbiased, and honest, and the same at the FPPC. I have worked 
with a very politically diverse board and have always achieved 
consensus.
    If concern--well, thank you very much. Thank you for the 
invitation to appear, and I am happy to answer any questions.
    [The prepared statement of Ms. Ravel was submitted for the 
record.]
    Chairman Schumer. Mr. Goodman has set the model of 
preciseness----
    Ms. Ravel. Yes, he did. He did.
    [Laughter.]
    Chairman Schumer [continuing]. Which you ably followed. 
Okay.
    Well, let me ask the first round of questions here, and we 
are going to try to limit the questioning to five minutes per 
member. So these questions are for both nominees.
    As I mentioned in my statement, I am extremely concerned 
about the FEC's failure in recent years to enforce existing 
campaign finance laws and rules. What actions would you take as 
an FEC Commissioner to ensure effective enforcement of campaign 
finance laws? So, first, Mr. Goodman, then Ms. Ravel.
    Mr. Goodman. Well, Senator, as I mentioned in my opening 
remarks, I am committed to enforcement of the Act as written by 
Congress and I am committed to nonpartisan enforcement of the 
Act. I do not intend to call balls and strikes one way for one 
party and another way for a different party.
    As far as the experience that the FEC has undergone in 
recent years on an increasing number of three-three splits, I 
do not know what the number of those is. I have read some 
studies that indicate that approximately--in approximately 15 
percent of the cases, the Commission appears to be splitting 
three-three. Now, we need to look at that as somewhat glass 
half full. That means in 85 percent of the time, the Commission 
is in agreement and there is consensus. One of the reasons why 
the Commission was built to be three-three was so that there 
would be some consensus requirement between the parties in 
enforcement decisions.
    I think one reason we have been seeing an increase in 
three-three splits in recent years is not necessarily because 
of obstruction but because the law has been changing at a rapid 
pace. Just in the last ten years, from the passage of the 
bipartisan Campaign Finance Act and the McConnell, the FEC 
decision, we then saw changes in the law as applied challenges 
in Wisconsin Right to Life. We then saw Citizens United and we 
have seen several important decisions that have altered the 
First Amendment jurisprudence in this area out of the U.S. 
Court of Appeals in the District of Columbia, particularly in 
the case of Emily's List and then a case following up on 
Citizens United called Speech Now.
    And the changing First Amendment landscape, I think, has 
given rise to, in some cases, honest disagreements, and the 
Commission is trying to find its way in the wake of those 
decisions.
    Now, I am committed to making the FEC functional, working 
for compromise, working in a nonpartisan way, but I believe we 
do have to understand the three-three splits in that broader 
context.
    Chairman Schumer. Ms. Ravel.
    Ms. Ravel. Thank you, Mr. Chairman. The purpose of the FEC 
is clearly to instill confidence in the public in the political 
system, and one of the mechanisms for doing that is enforcement 
of our campaign finance laws. And I think that the public 
perception now is that because of some of the stalemate and the 
difficulty of reaching agreement at the Commission, that those 
campaign finance laws have not been enforced sufficiently.
    I would commit, and I think this is a very important thing 
to the public, they expect the law to be followed as was 
promulgated by Congress and their intent, so I will commit, 
understanding, of course, that there are constitutional First 
Amendment issues that need to be observed and concerned about, 
but I will commit to work very closely with my fellow nominee 
if we are, in fact, confirmed together, and the rest of the 
Commission, to work very assiduously at enforcing those laws.
    Chairman Schumer. My time has expired, so Senator Roberts.
    Senator Roberts. Well, thank you, Mr. Chairman, and Piper, 
I am very impressed with your five year commitment to Latin. I 
had to take Latin.
    [Laughter.]
    Senator Roberts. I think my comments indicate that was not 
my desire. My dad told me that if I took Latin, I would fully 
understand--better understand the English language. I said, it 
is a dead language, and if I had put the amount of time that I 
had to study in Latin on English, I would get As in English.
    [Laughter.]
    Senator Roberts. I had to take Latin.
    [Laughter.]
    Senator Roberts. Dale Kildee, a former member of the House 
of Representatives, was a Latin teacher, and every time I would 
walk down the aisle to see Dale again in the House, he would 
say, ``Mica, mica, parva stella. Miror quaenam sis tam bella,'' 
which you know is ``Twinkle, twinkle, little star.''
    [Laughter.]
    Senator Roberts. It is the only thing I remember, so I 
wanted to commend you for that.
    All right. One of the questions I sent to the witnesses 
prior to the hearings, and Ms. Ravel addressed some of the 
statements that reflect my concern, I really appreciate the 
commitment that you have expressed to not prejudge matters that 
may come before the FEC. Here is my problem, or my real issue 
of concern.
    The mere filing of a complaint, even a specious one, will 
generate news coverage. That is just what happens. A political 
opponent can then point to the complaint as if it is somehow 
evidence of wrongdoing. Senator so-and-so has been accused of, 
and you know the rest of it, as if the accusation itself 
somehow reflects poorly on the subject of the complaint. It is 
very important, it seems to me, that FEC Commissioners withhold 
judgment on complaints and not publicly comment on them, even 
though all the pressure from the Fourth Estate, until the 
parties have had a chance to respond and all the facts are in. 
I am assuming you would both agree. Just nod your heads.
    Mr. Goodman. I do.
    Ms. Ravel. Yes.
    Senator Roberts. I will, something like that.
    Ms. Ravel. Yes.
    Senator Roberts. All right. So, I have your commitment that 
you will withhold judgment and comment while complaints are 
being investigated, and I also want to ask how we treat 
Internet communications. I understand that in California, and 
by the way, Ms. Ravel, thank you for giving the Chairman, 
myself, all members of the committee more California exposure 
than we have ever had----
    [Laughter.]
    Senator Roberts. But at any rate, I understand in 
California, where everything happens first, there is some 
consideration of a regulation that would cover bloggers, 
requiring them to disclose if they have received payments from 
campaigns. Now, we debated this in Congress a couple years ago. 
Our Majority Leader, Senator Reid, actually introduced a bill 
to exempt Internet communications from regulation. The FEC 
ultimately adopted a regulation that covered only Internet 
communications that are placed on another person's site for a 
fee.
    My question to you, ma'am, is how far are we going to take 
this full disclosure idea? Do we really need to start 
regulating bloggers, or for that matter, texters or tweeters or 
any other form of communication that is so popular today? Are 
new Internet regulations needed?
    Ms. Ravel. Thank you very much for the question, Senator 
Roberts. The California rule that is being proposed, and it has 
not yet been adopted by the Commission, does not regulate 
bloggers. It regulates the committees that are already 
regulated under our laws, and that regulation that is being 
proposed, and it is actually going to be heard in our August 
meeting of the Commission, requires committees to explain with 
specificity all payments that are being made to organizations 
and other groups for their political purposes, which is 
consistent with what is already being done in California. It is 
merely explaining more specificity with respect to Internet 
communications, and it does not apply to tweeting or other such 
events that are done on the Internet.
    Senator Roberts. I am an old newspaper man. I should have 
said, I am a newspaper man.
    [Laughter.]
    Chairman Schumer. Former.
    Senator Roberts. Former newspaper man. Former. Former. 
Thank you, Mr. Chairman.
    The First Amendment covers journalists.
    Ms. Ravel. Correct.
    Senator Roberts. Is a blogger a journalist?
    Ms. Ravel. Well, there is some question about that, but 
most journalists--most newspapers do not get paid for political 
opinions that are placed in them, say, in their editorials----
    Senator Roberts. Well, you have to have an awful lot of 
online connection to the newspapers, who are getting smaller 
and smaller and they are having a very difficult time to 
monetize the product. I just wonder if, in fact--I went to 
journalism school. We paid attention to the canons of 
journalism that were issued by the University of Missouri some 
time ago. I doubt if any blogger does that, any common blogger, 
whatever that means.
    And that really gets to my question. How do you define a 
journalist today? Is it a blogger? Is it a tweeter, a texter, 
and so forth? And some of the blogs are extremely popular, as 
you know. And some, I think, would like to be considered as 
journalists. That is an open question.
    Ms. Ravel. Right.
    Senator Roberts. I do not know what the answer is.
    Ms. Ravel. I agree with you. I do not think that it is a 
simple question, and I have relied on counsel for their 
analysis in this matter. But, as I said, we have received 
public comment. We will receive more public comment at the 
meeting that we are having to discuss this issue----
    Senator Roberts. Right.
    Ms. Ravel. and so there is no decision that has been made.
    Senator Roberts. I appreciate that. Mr. Chairman, I am over 
a minute-twelve, so we will have to call on Mr. Goodman to give 
me more time back.
    Chairman Schumer. No, no, he used exactly the right amount.
    Senator Roberts. That is my point.
    [Laughter.]
    Chairman Schumer. Senator Udall, would you like to ask some 
questions?
    Senator Udall. Thank you, Mr. Chairman.
    Mr. Goodman, there was an editorial recently in the 
Washington Post, on July 14, that said, and I quote, 
``Fundamentally, the Republican Commissioners seem not to 
believe in the campaign finance laws that Congress has passed 
and that they are bound to enforce,'' and that is the end of 
the quote. I would ask, Mr. Chairman, that that editorial be 
put into the record.
    [The information of Senator Udall submitted for the 
record:]
    Chairman Schumer. Without objection.
    Senator Udall. Can we receive your commitment that, if 
confirmed, you will fully enforce all existing campaign finance 
laws and FEC regulations, even if you have personal opposition 
to a law or FEC regulation?
    Mr. Goodman. Yes, Senator, you can. I undertake this post 
with the solemnity of knowing that it is a law enforcement 
post. I would not undertake it with any intent to subterfuge 
the law that I am agreeing to enforce.
    Senator Udall. And are there any existing campaign finance 
laws that you think should be repealed or not enforced, and if 
so, which ones and why?
    Mr. Goodman. Well, Senator Roberts addressed some questions 
to Chairman Ravel and to me that gave some examples of some 
that should be repealed, and those were the ones that were 
squarely and unequivocally held to be unconstitutional by the 
Supreme Court in the Citizens United decision. So, for example, 
if you look in the U.S. Code, and you can look in the Code of 
Federal Regulations today, three years after the Supreme Court 
ruled in Citizens United, and you can see in 11 CFR Section 
114.2(b) an express prohibition against labor unions and 
corporations from spending money to make independent 
expenditures. There is a law that says they cannot spend their 
treasury funds to expressly advocate to the public the election 
or defeat of any candidate. That regulation, that rule of law, 
was held unconstitutional in Citizens United.
    It has historically been the practice of the Commission to 
eliminate regulations that have been held unconstitutional, 
even by courts lower than the Supreme Court. So, for example, 
when the U.S. Court of Appeals for the District of Columbia 
ruled three regulations to be unconstitutional and to exceed 
the Act in a case brought by Emily's List, the Commission 
thereafter repealed those three regulations.
    So that would be a case where I would feel prohibited by 
the ruling of the Supreme Court from enforcing a law that is 
still on the books.
    Senator Udall. The unfortunate thing about the Citizens 
United ruling, in my opinion, is that we have now, and the 
following Speech Now ruling, is that we have now reached the 
point with that ruling that corporate treasuries are now in 
play in terms of campaign finance. And so, just to pick one 
corporation, ExxonMobil has $81 billion in its corporate 
treasury that now can go into the campaign system. As you know, 
in the last election, both the President and all the other 
Federal officials spent about $6 billion. So this is a huge 
amount of money flooding into the system, and I think it 
corrupts the system. So we are going to have to deal with that 
ruling. I have a constitutional amendment to deal with that, 
but you are also going to have to deal with that as an FEC 
Commissioner.
    The New York Times recently published an editorial titled, 
``Sabotage at the Election Commission.'' I would ask that that 
editorial, Mr. Chairman, also be included in the record.
    [The information of Senator Udall submitted for the 
record:]
    Chairman Schumer. Without objection.
    Senator Udall. The editorial opposed efforts to take 
advantage of a temporary three-to-two Republican majority on 
the FEC to change the agency's enforcement rules, including how 
DOJ and the FEC can communicate. What is your opinion of the 
proposed changes to the FEC Enforcement Manual to change how 
DOJ and FEC can communicate? Do you think the Commission should 
attempt to make substantial changes when there are only five 
Commissioners with nominees pending Senate confirmation? And I 
would ask you both to answer that.
    Mr. Goodman. Senator, I will have to defer judgment on the 
substance of the manual because there is a long history, there 
is a longstanding Memorandum of Understanding between the FEC 
and the Department of Justice that I have not been privy to. I 
have not read the extant manual and my knowledge of it is 
essentially what I have read in the New York Times and other 
publications.
    What I would want to be apprised of is the substance of the 
historical MOU, historical practice within the Commission, and 
I would also want to be apprised of some things I have read in 
the newspaper about whether or not the General Counsel's Office 
in the Federal Election Commission has been keeping the 
Commission, its client, apprised of communications with the 
Department of Justice, before I came to a definitive 
substantive position on how that Enforcement Manual should be 
changed, if at all.
    Senator Udall. Thank you.
    Ms. Ravel. Thank you, Senator Udall. I have some of the 
same concerns and views that Mr. Goodman has with respect to 
this issue. While I have read the articles in the newspaper, I 
do not know sufficient information relating to the Enforcement 
Manual and the rules of the FEC with regard to voting and what 
is appropriate in this particular matter. So I would hesitate 
to make a commitment or a judgment at this moment.
    I would say that at the FPPC, we worked on the case 
involving a theft of a lot of money from 300 committees in 
California by the treasurer and we worked closely with DOJ and 
with the FBI on that matter because a couple Federal candidates 
were subjects of that fraud and that theft. So it would be 
important to me to see what the issues are in this case because 
I have had some experience in this and think that it worked out 
very well for California.
    Senator Udall. Thank you both very much, and we look 
forward to you sorting out this dysfunctional FEC.
    Chairman Schumer. Thank you, Senator Udall.
    Senator Cochran.
    Senator Cochran. Thank you very much, Mr. Chairman.
    Let me ask the witnesses about a filing requirement of the 
Campaign Disclosure Parity Act. I am a sponsor of an amendment 
that we were considering offering to this bill that would be 
equivalent to the Campaign Disclosure Parity Act, S. 375. I was 
a cosponsor with other Senators of this bill and it deals with 
the filing of the finance reports directly with the FEC. 
Currently, Senators file their reports with the Secretary of 
the Senate, and the procedure, as I understand it, is printing 
of the report and distributing it to the members of the FEC and 
others, and I am told that eliminating this extra step would 
save up to $500,000 a year and provide greater transparency in 
the campaign finance disclosure process.
    I am curious to know whether you think that is a good idea, 
to support that change, or not. Ms. Ravel.
    Ms. Ravel. Thank you very much, Senator Cochran. I am a 
very strong advocate of e-filing and working very hard to do 
that in California, and I do understand that it saves time, it 
saves a lot of money for the agency, and also gives greater 
transparency to the public, which is one of the core reasons 
for the existence of the FEC.
    However, of course, whatever it is that Congress determines 
is what, if I were confirmed, I would implement.
    Senator Cochran. Mr. Goodman.
    Mr. Goodman. Senator, I certainly defer to the Senate's 
judgment on how the Senate wants to regulate itself. But in the 
21st century, I see local campaigns for House of Delegates and 
other campaigns using electronic filing quite effectively. It 
does eliminate steps. It does aid transparency. It is less 
expensive to deal with on the agency side. And Chairman Ravel 
and I have already discussed one area of agreement, which is to 
improve the transparency and reporting on the FEC's Web site of 
campaign data. The Web site is a bit dated and a bit clunky.
    So I would, in concept, certainly support the--if it is the 
Senate's desire to report electronically, I think it is a good 
idea.
    Senator Cochran. Yes. Thank you.
    Thank you, Mr. Chairman.
    Chairman Schumer. Thank you, Senator Cochran.
    Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    Mr. Goodman, I thought actually citing your favorite 
politician of the 20th century was very shrewd because we are 
all competitive and it gives us all a chance to be your 
favorite politician of the 21st century.
    [Laughter.]
    Mr. Goodman. For my third child.
    Senator Blunt. Exactly.
    [Laughter.]
    Senator Blunt. I had a number of people reach out to me 
about your reliable work over the years and your willingness to 
work for both Democrats and Republicans. One of them is, Harvey 
Tettlebaum, a Republican lawyer in Missouri who has been the 
State Party Counsel among other things. I think you both are 
also involved in some of the same groups, as well. I am pleased 
you are here today.
    Ms. Ravel, the same with you. Your background is an 
excellent one to bring to the Commission.
    You mentioned there were examples of insufficient 
enforcement of campaign finance laws. Do you have some specific 
examples of that?
    Ms. Ravel. I merely was saying, Senator Blunt, that I had 
heard, because, you know, clearly, I am in California and I do 
not know the specifics of what has transpired at the FEC. But I 
read news reports and that is what I am basing it on. I did not 
indicate that there were specific examples. What my view is, 
that the public perception is, as has been transmitted in some 
news reports, is that there has been insufficient enforcement. 
So I do not have any specific examples.
    Senator Blunt. The FEC is equally divided, is that right?
    Ms. Ravel. Yes, it is, sir.
    Senator Blunt. So it is possible at the FEC to have a tie 
vote. In most agencies, not, but it is possible at the FEC.
    Ms. Ravel. No question. It is possible.
    Senator Blunt. And we all understand the reason for that, 
and I am not advocating.
    Ms. Ravel. Right.
    Senator Blunt. It is one of the few agencies where actually 
you can wind up with a disagreement with everybody 
participating, whether it is the current moment when there 
happens to be one more person from the other party. It is not 
usual, and one of the few agencies like that. We need the FEC 
to work, and those of us who run for office need it to work in 
a way that is fair and defends us from people doing things 
outside the law, but at the same time allows the discourse of 
the campaign to occur.
    Ms. Ravel. Right.
    Senator Blunt. Have you had any examples in your job in 
California that you think would be particularly applicable to 
what you will be doing here?
    Ms. Ravel. Well, I think the best example is that I 
absolutely agree with you that an important aspect of this job 
is to ensure that people participate in politics, and that is 
not just voters but that people can run and run in a way that 
is not encumbered by terribly cumbersome, difficult to 
understand regulations, and that enforcement should be only 
with respect to those matters that are serious and matters that 
evidence corruption, and not matters that are inadvertent 
mistakes.
    And in California, when I began as the chair, they were 
clearly enforcing against candidates, and, of course, 
California, these are candidates all the way from Water 
District and School Board to the Legislature and the Governor 
that we oversee. And many of those candidates do not have 
lawyers. They have treasurers who are their mother-in-law or, 
you know, somebody like that, most of them.
    And so when I began, I said, we need to make sure that 
enforcement is fair and that we are not trying to trap people 
in inadvertent mistakes, that we are actually regulating and 
enforcing only the most serious violations of people who are 
purposely trying to flaunt the law. So I believe that my views 
are consistent with yours, Senator, in this instance.
    Senator Blunt. Well, they certainly are on that issue. One 
of the things we have done in the country in the last 20 years, 
and many of us here have participated in it one way or another, 
is pass laws that essentially criminalize politics and 
criminalize mistakes that people can make. I think that is such 
an important principle.
    Mr. Goodman, would you like to comment on that? This will 
be my last question here.
    Mr. Goodman. Yes, Senator. As I mentioned, in 85 percent of 
the cases, the Commission is in agreement and they are 
enforcing the law. And the area of disagreement is largely 
permeated by changing First Amendment jurisprudence. The three-
three split not only protects one side against partisan bias in 
enforcement, but the three-three constitution and sometimes 
three-three splits also respects philosophical disagreements on 
how to regulate the process. And I think we have to acknowledge 
that.
    To use a sports analogy, if one team has a great passing 
offense and also gets to set the rules, well, then the linemen 
are going to be able to hold. There will be no bumping by 
cornerbacks at all of the wide receiver, and you can never hit 
the quarterback.
    Senator Blunt. Jack Kemp would be proud.
    Mr. Goodman. That is right.
    [Laughter.]
    Senator Blunt. Mr. Chairman, I am done. Thank you.
    Chairman Schumer. And so would the Buffalo Bills.
    [Laughter.]
    Chairman Schumer. Are there any--does anyone wish a second 
round of questioning?
    Senator Roberts. I just want to ask unanimous consent that 
the five letters of support from very esteemed friends of Mr. 
Goodman be inserted in the record at this point.
    [Letters submitted for the record:]
    Chairman Schumer. Without objection.
    Senator Roberts. And just to follow up on Senator Blunt's 
comments, I think there is a comparability or a commensurate 
example between the FEC and the esteemed Senate Ethics 
Committee. I have been appointed to the Ethics Committee for 
all of my public service in the Senate. I do not know what I 
have done wrong.
    [Laughter.]
    Senator Roberts. I have resigned twice. The resignation has 
not been accepted by the leadership.
    And I worry about these ``gotcha'' opportunities that every 
campaign, unfortunately, seems to use as a tool in their 
campaigning, and I mentioned this before in my statement. I do 
not even know if we need to ask you for a comment, because I 
think I know exactly what you are going to say in terms of how 
you are going to hope that the FEC will comport themselves in a 
way that this does not happen, i.e., publicly stating something 
about somebody's complaint. Many times, they are specious.
    I will tell you that the Ethics Committee receives 
complaints every day. Most of them are about minutiae. But when 
that happens, anybody can file an ethics complaint, and as a 
result, it gets press coverage immediately, and the Senate 
Ethics Committee then sees it in the public domain, whether it 
be a blog or whether it be in print or whether it be anything, 
and we will investigate it. And then that takes about three 
months, and during that time, why, the person who lodged the 
complaint just pounds the living you-know-what out of his or 
her opponent.
    We cannot comment on anything. I mean, there are no leaks 
in the Senate Ethics Committee. That has been the way for, 
what, 14, 15 years that I have been on it--16. I just do not 
think that is right, and I have always been trying on the 
Ethics Committee to say, let us be very selective about what 
really is an ethics violation as opposed to just open season.
    If people who are looking to run for office, and we are 
looking for good people to run for office, both parties, 
Independents, whomever, whatever level, my Lord, if they really 
realized and went through the entire Ethics Manual, which I 
defy anybody to explain--we used to try to do that at the 
beginning of every Congress. Harry Reid and I tried to do that. 
Harry Reid and I tried to simplify it, the regs on the Ethics 
Committee. That was a bad mistake. We went to the Republican 
Conference and Harry went to the Democratic Caucus and it grew 
bigger. You open it up and you have people putting more stuff 
in there.
    And now, you have a situation that I think if candidates 
would really take the time for a couple of days to look at all 
the stuff that they have to do and what could happen to them 
and how much they have to reveal, I am not sure they would run. 
I think there is a hindrance there, and I think that factor, 
there again, of what people do with the FEC and with House 
Ethics Committee--the House has two Ethics Committees. What is 
that all about? We have an Ethics Committee first to determine 
whether or not it should go to the Ethics Committee. It is that 
bad.
    And so I think there is a lot of common sense here that we 
could apply and I hope you both--I know you will, because you 
have a very rich background and you have already declared that. 
I just wanted to express my concern on the record for that, Mr. 
Chairman, and I thank you for that.
    Chairman Schumer. Well, I thank you, and knowing your 
record on the Ethics Committee, I think you would make an 
outstanding nominee to the FEC.
    [Laughter.]
    Chairman Schumer. And I think I might urge Senator 
McConnell to consider you.
    [Laughter.]
    Chairman Schumer. Anyway, all kidding aside, I thank the 
witnesses for their outstanding testimony. We are going to look 
forward to working with you for our goal of swift confirmation 
by the full Senate.
    The record is going to remain open for five business days 
for additional statements and post-hearing questions submitted 
in writing for the nominees to answer.
    Being there no further business before the committee, the 
committee is adjourned.
    [Whereupon, at 10:57 a.m., the committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                   BUSINESS MEETING--TO CONSIDER THE.
                    NOMINATION OF DAVITA VANCE-COOKS.
                    TO BE PUBLIC PRINTER AND S. 375

                              ----------                              


                        WEDNESDAY, JULY 24, 2013

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:59 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the committee, presiding.
    Present: Senators Schumer, Udall, King, Roberts, Cochran, 
and Blunt.
    Staff Present: Jean Bordewich, Staff Director; Kelly Fado, 
Deputy Staff Director; Stacy Ettinger, Chief Counsel; Ellen 
Zeng, Elections Counsel; Sharon Larimer, Assistant to the Staff 
Director; Abbie Sorrendino, Professional Staff; Nicole Tatz, 
Legislative Correspondent; Matthew McGowan, Professional Staff; 
Adam Topper, Staff Assistant; Mary Suit Jones, Republican Staff 
Director; Shaun Parkin, Republican Deputy Staff Director; Paul 
Vinovich, Republican Chief Counsel; Sarah Little, 
Communications Director; Trish Kent, Republican Professional 
Staff; and Rachel Creviston, Republican Professional Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. The hearing will come to order. The 
committee needs a quorum, ten members. We ask the members to 
maybe stay around. We are going to try to round up four more--
we have six now--so we can actually move forward on these 
nominees. Then we will go to the hearing but come back into the 
session from the hearing session if we can get ten.
    But, in the meantime, does any Senator wish to make a 
statement on either the nomination of Davita Vance-Cooks to be 
Public Printer or I know we have some cosponsors of S. 375, the 
electronic filing bill, to require Senate candidates to file 
designations, statements, and reports in electronic form. I do 
not have a statement, but if you do, go right ahead.
    Senator Cochran. Mr. Chairman, I have a statement on the 
Campaign Disclosure Parity Act. Is that something that we are 
going to consider this morning, as well?
    Chairman Schumer. Yes, it is, indeed.
    Senator Roberts. Why do you not go ahead and then I will--
--
    Chairman Schumer. Go ahead, Thad. The Senator from 
Mississippi and then any of the Senators on our side will be 
recognized, too.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Mr. Chairman, I am pleased to be one of 
the sponsors of this bill, the Campaign Disclosure Parity Act, 
and we thank you for holding this markup today to consider it.
    Not only does the bill have the support of a group of 34 
cosponsors from both parties, including several members of this 
committee, but it also has the support of the Secretary of the 
Senate and the Federal Elections Commission.
    In a time of sequestration and fiscal restraint, this bill 
affords an opportunity for us to save over $500,000 per year 
for the Senate and the Federal Elections Commission. It would 
reduce duplicative work and would align the filing process for 
Senate candidates with those of political committees and 
candidates for Federal office, including Presidential 
candidates and candidates for the U.S. House of 
Representatives.
    I am pleased to join Senator Tester as a cosponsor of this 
bill and I am hopeful the committee will favorably report it to 
the full Senate. Thank you.
    Chairman Schumer. Thank you, Senator Cochran.
    Senator Udall, do you want to make a statement?
    Senator Udall. My statement is on the FEC nominees.
    Chairman Schumer. Thank you. Senator Roberts, and then 
Senator King.

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. I only say that it always is of some 
concern to me that when we go down the road to reform and we 
wave the banner of reform, we want to see what is underneath 
it, and I think there is something called the First Amendment 
there and I want to make sure that we appreciate that fact.
    Thank you for your leadership, and I hope we can get a 
quorum of ten to finish our business.
    Chairman Schumer. Thank you, Senator Roberts.
    I will also ask, Senator King, do you wish to make an 
opening statement?
    Senator King. No, Mr. Chairman.
    Chairman Schumer. Senator Blunt.
    Senator Blunt. No, Mr. Chairman.
    Chairman Schumer. Okay. It is long past time for Senate 
candidates to file campaign reports in the same way as every 
other Federal candidate has for years. The Senate's current 
system is stuck in the past and wastes over half-a-million tax 
dollars a year to perpetuate a redundant, slow, and completely 
unnecessary process that prevents the public from seeing Senate 
candidates' expenditures for more than a month after the 
reports are already online. At a time when Federal budgets have 
been slashed and savings are being sought, there is no reason 
to continue.
    And I want to thank Senator Tester for his strong 
leadership on this issue.
    Chairman Schumer. Okay. We do not have a quorum, so I think 
we will go on to the hearing.
    Okay. So, we have to go into recess. I would now recess our 
markup subject to the call of the chair. What we will try to do 
is assemble a quorum of ten, since I do not think we will get 
it this morning, off the floor when we have one of the votes, 
and I would urge the members here and all other members whose 
staff is here to please cooperate. As you know, we are trying 
to move nominations. These are non-controversial nominations, 
and so if we could move them quickly, that would be of great 
help.
    With that, we are recessed.
    [Whereupon, at 10:06 a.m., the committee recessed, subject 
to the call of the chair.]
    The committee reconvened, at 4:05 p.m., July 24, 2013, in 
Room S-217, United States Capitol Building, Hon. Charles E. 
Schumer, chairman of the committee, presiding.
    Present: Senators Schumer, Roberts, Durbin, Murray, 
Chambliss, Pryor, Tom Udall, Warner, Leahy, Klobuchar, and King
    Staff Present: Jean Bordewich, Staff Director; Kelly Fado, 
Deputy Staff Director; Stacy Ettinger, Chief Counsel; Abbie 
Sorrendino, Legislative Assistant; Mary Jones, Republican Staff 
Director; Shaun Parkin, Republican Deputy Staff Director; Paul 
Vinovich, Republican Chief Counsel; Rachel Creviston, 
Republican Professional Staff, and Adam Topper, Staff 
Assistant.
    Chairman Schumer. We now have a quorum of 10 Members to 
continue our markup.
    Is there any further debate on the nomination of Davita 
Vance-Cooks to be the public printer?
    The question is on reporting the nomination favorably to 
the Senate. Unless there is a request for a roll call vote, 
this will be a voice vote.
    Chairman Schumer. All in favor, say aye.
    [A chorus of ayes.]
    All opposed, say nay.
    Chairman Schumer. The ayes have it. The nomination is 
ordered favorably reported to the Senate with the 
recommendation that the nominee be confirmed.
    The second item is S. 375. Unless there is a request for a 
roll call vote, this will be a voice vote. Is there any further 
debate on S.375, a bill to require Senate candidates to file 
their campaign reports directly with the Federal Election 
Commission in electronic format, rather than on paper with the 
Secretary of the Senate?
    The question is on reporting S. 375 favorably to the 
Senate.
    Chairman Schumer. All in favor, say aye.
    [A chorus of ayes.]
    All opposed, say nay.
    The Ayes have it. S. 375 is ordered reported to the Senate.
    I want to thank everyone for coming. The meeting is 
adjourned.
    [Whereupon, at 4:14 p.m., the committee adjourned.]0



                   BUSINESS MEETING--TO CONSIDER THE.
  NOMINATIONS OF ANN M. RAVEL AND LEE E. GOODMAN TO BE MEMBERS OF THE.
                      FEDERAL ELECTION COMMISSION.
                            AND S. RES. 229

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2013

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met pursuant to notice, at 11:01 a.m., in 
room S-219, United States Capitol, Hon. Charles E. Schumer, 
Chairman of the committee, presiding.
    Present: Senators Schumer, Murray, Klobuchar, King, 
Roberts, Cochran, Chambliss, Alexander, Shelby, Blunt.
    Staff Present: Jean Bordewich, Staff Director; Kelly Fado, 
Deputy Staff Director; Stacy Ettinger, Chief Counsel; Abbie 
Sorrendino, Legislative Assistant; Mary Jones, Republican Staff 
Director; Shaun Parkin, Republican Deputy Staff Director; Paul 
Vinovich, Republican Chief Counsel; Sarah Little, Republican 
Communications Director; Rachel Creviston, Republican 
Professional Staff, and Adam Topper, Staff Assistant.
    Chairman Schumer. We now have a quorum of 10 Members to 
continue our markup. We will consider the two FEC nominations 
individually, followed by consideration of two resolutions 
related to committee funding.
    Unless anyone objects, my statement regarding the markup of 
the two FEC nominees will be included in the Committee record. 
[So ordered.]
    Is there any further debate on the nominations of Lee 
Goodman or Ann Ravel to be Members of the Federal Election 
Commission?
    The question is on reporting the nominations favorably to 
the Senate. Unless there is a request for a roll call vote, 
this will be a voice vote.
    First up for consideration is Mr. Lee Goodman.
    All in favor, say aye.
    [A chorus of ayes.]
    All opposed, say nay.
    The ayes have it. The nomination of Mr. Lee Goodman is 
ordered favorably reported to the Senate with the 
recommendation that the nominee be confirmed.
    Next up for consideration is Ms. Ann Ravel.
    All in favor, say aye.
    [A chorus of ayes.]
    All opposed, say nay.
    The Ayes have it. The resolution is ordered reported to the 
Senate.
    The final item for consideration is an original resolution 
authorizing expenditures by the Committee on Rules and 
Administration for the remainder of the 113th Congress.
    For Fiscal Year 2014, the amount is not to exceed 
$2,334,743, and the same amount is pro-rated for the first five 
months of Fiscal Year 2015.This is the same level as the 
current expenditure guidance.
    Is there any further debate on the resolution authorizing 
expenditures by the Committee on Rules and Administration for 
the remainder of the 113th Congress?
    The question is on reporting the resolution favorably to 
the Senate. Unless there is a request for a roll call vote, 
this will be a voice vote.
    All in favor, say aye.
    [A chorus of ayes.]
    All opposed, say nay.
    The Ayes have it. The resolution is ordered reported to the 
Senate.
    I want to thank everyone for coming. Before I adjourn, I am 
going to ask our Ranking Member, Senator Roberts, whether he 
wishes to make any remarks.
    Thank you. The meeting is adjourned.
    [Whereupon, at 11:09 a.m., the committee adjourned.]0



                 BUSINESS MEETING--TO CONSIDER S. RES..
                      253, AN ORIGINAL RESOLUTION.
                      AUTHORIZING THE EXPENDITURES.
                          OF SENATE COMMITTEES

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 2013

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the committee, presiding.
    Present: Senator Schumer.
    Staff Present: Jean Bordewich, Staff Director; Kelly Fado, 
Deputy Staff Director; Stacy Ettinger, Chief Counsel; Abbie 
Sorrendino, Professional Staff; Lynden Armstrong, Chief Clerk; 
Adam Topper, Staff Assistant; Mary Jones, Republican Staff 
Director; Shaun Parkin, Republican Deputy Staff Director; Paul 
Vinovich, Republican Chief Counsel; Sarah Little, 
Communications Director; Trish Kent, Republican Professional 
Staff; and Rachel Creviston, Republican Professional Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. All right, the Committee will come to 
order.
    We do not have a quorum of ten members present. We cannot 
proceed to vote on the item, the Omnibus Committee Funding 
Resolution, on the announced agenda for this business meeting.
    Since a quorum is not present, the Committee will recess, 
subject to the call of the Chair, take up this matter when we 
can obtain a quorum.
    I intend to convene another meeting, most likely 
immediately after the 11:45 judge vote on the Senate floor.
    The Committee stands in recess, subject to the call of the 
Chair.
    [Whereupon, at 10:05 a.m., the Committee was recessed.]
    The committee reconvened, at 11:55 a.m., September 24, 
2013, in Room S-219, United States Capitol Building, Hon. 
Charles E. Schumer, chairman of the committee, presiding.
    Present: Senators Schumer, Feinstein, Durbin, Murray, 
Pryor, Leahy, Klobuchar, King, Roberts, Cochran, and Alexander.
    Chairman Schumer. We have a quorum of ten members. Is there 
any further debate on the resolution authorizing the reporting 
of committee funding resolutions for the period October 1, 
2013, through February 28, 2015?
    Chairman Schumer. The question is on reporting the 
resolution favorably to the Senate. Unless there is a request 
for a roll call vote, this will be a voice vote. Is there a 
second?
    Senator Roberts. Second.
    Chairman Schumer. All in favor say ``aye.''
    [A chorus of ``ayes''.]
    Chairman Schumer. All opposed?
    [No response.]
    Chairman Schumer. The ayes have it. The resolution is 
ordered reported to the Senate.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]0



                  HEARING--NOMINATIONS OF THOMAS HICKS.
  AND MYRNA PEREZ TO BE MEMBERS OF THE ELECTION ASSISTANCE COMMISSION

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2013

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Angus King, 
presiding.
    Present: Senators King and Roberts.
    Staff Present: Jean Bordewich, Staff Director; Stacy 
Ettinger, Chief Counsel; Veronica Gillespie, Elections Counsel; 
Abbie Sorrendino, Professional Staff; Phillip Rumsey, Staff 
Assistant; Lynden Armstrong, Chief Clerk; Matthew McGowan, 
Professional Staff; Mary Suit Jones, Republican Staff Director; 
Shaun Parkin, Republican Deputy Staff Director; Paul Vinovich, 
Republican Chief Counsel; Trish Kent, Republican Professional 
Staff; and Rachel Creviston, Republican Professional Staff.

           OPENING STATEMENT OF ACTING CHAIRMAN KING

    Senator King. The Rules Committee will please come to 
order. Good morning.
    I would like to ask the witnesses to be at the table, which 
I see that they are, and on today's agenda is the consideration 
of the nominations of Mr. Thomas Hicks and Ms. Myrna Perez, to 
be members of the Election Assistance Commission.
    As we now have at least two members present, I will proceed 
to swear in the nominees. I know that members have other places 
to go, and I want to swear in our witnesses promptly. After the 
swearing in, we will move to opening remarks from the committee 
members.
    So, if our witnesses could stand and raise your right hand. 
Do you swear that the testimony you are to provide is the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Mr. Hicks. I do.
    Ms. Perez. I do.
    Senator King. Thank you. Please be seated.
    Mr. Hicks and Ms. Perez, I would like to welcome you both 
here today and congratulate you on your nomination to be 
members of the Election Assistance Commission.
    I would also like to welcome both of your families who have 
joined you here today. Mr. Hicks, I understand that you are 
accompanied by your parents, Annie and Bennie Hicks, along with 
your daughters, Lizzie and Meg, and your son, Eddie Hicks, and 
if you would like, could your family please rise and be 
acknowledged. Thank you. Glad to have you here with us today. 
We appreciate your coming, especially Lizzie and Meg. Glad to 
have you here.
    And, Ms. Perez, I understand you are accompanied by your 
husband, Mark Muntzel, and your son, Diego, and if you could 
stand, please. Welcome to both of you.
    Ms. Perez. They are actually still parking right now.
    Senator King. Oh, they are parking. Well, they will be 
ready here to join us.
    Elections are at the heart of our democratic system. 
Citizens need to be confident that elections are being 
conducted in a free and fair manner.
    This Commission was established by the Help America Vote 
Act of 2002. The EAC was created to be an independent, 
bipartisan commission charged with a number of 
responsibilities, including developing guidelines to meet HAVA 
requirements, adopting voluntary voting system guidelines, and 
serving, importantly, as a national clearinghouse of 
information on election administration.
    The EAC has four Commissioner positions, two allocated to 
the Democrats and two for Republicans, with candidates 
recommended by Congress--to Congress to the President. The EAC 
has not had a quorum since late 2010 and has had no 
Commissioners since December of 2011. Without a quorum, the EAC 
has not been able to fill the positions of Executive Director 
and General Counsel. The Standards Board and the Board of 
Advisors to the EAC, composed of State and local election 
officials and members of the broader elections community, have 
been unable to convene and do their work.
    While election administration in the United States is 
decentralized, the primary responsibility for conducting 
elections falls on State and local election officials. But we 
also must ensure that the Federal Government is able to fulfill 
its election-related responsibilities. While most of the 
original funds designated by HAVA to upgrade elections systems 
in the States have been distributed, many of the important 
functions of the EAC remain.
    The Election Administration and Voting Survey, which is 
compiled from data supplied from every election jurisdiction, 
provides the only comprehensive picture of election 
administration across the country and has won widespread 
acclaim from election officials, scholars, and other experts as 
a valuable source of information.
    Additionally, all States have access to the state-of-the-
art EAC testing and certification program. The law in some 
States requires the use of Federally certified voting systems. 
Elsewhere, State and local officials may not have the resources 
to detect voting system problems on their own, and the EAC can 
examine whether they are getting fair prices, quality 
equipment, and good service from the vendors they hire. This 
program will become increasingly important as existing voting 
systems become obsolete and States must buy new ones in the 
near future.
    The EAC's work to broaden access for voters with 
disabilities and language minorities has saved money for local 
jurisdictions that may otherwise be required to pay for this 
work themselves.
    And, finally, and, I believe, importantly, the 
clearinghouse function of the agency can help highlight 
innovation at the State and local levels. As a former Governor, 
I often observed the lack of information that flows between the 
States. I used to say that Jefferson characterized the States 
as the laboratories of democracy, but nobody reads the lab 
reports.
    [Laughter.]
    Senator King. There is very little communication, and I 
think one important function this Commission can provide is as 
a clearinghouse of best practices from across the country.
    As local budgets are increasingly strained, the importance 
of identifying best practices and sharing information becomes 
even more important because it helps local and State election 
officials do their jobs as cost effectively as possible.
    I am pleased that we have two well-qualified candidates 
that have been nominated and are testifying before the 
committee today. I understand that there are questions about 
the continued efficacy of the Commission itself and I suspect 
that we will have statements raising those questions, but 
today, we want to focus on these two nominees. But I welcome 
the comments of my colleague, Senator Roberts, and would call 
upon him for opening remarks.

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. I want to thank the Acting Chairman.
    I want to make it very clear that none of my comments is a 
reflection of the nominees' experience and commitment and 
ability and desire to serve. Nevertheless, it seems like we 
have been here before. It sounds like a song.
    [Laughter.]
    Senator Roberts. But, at any rate, this is the second time 
that our witnesses have been before the committee as nominees 
for this Commission. We previously had a confirmation hearing 
for the nominees in June of 2011. Welcome back. I do not know 
what to call this. I think maybe ``nomination purgatory'' might 
be appropriate.
    One significant difference today is the absence of a 
Republican nominee. As the Acting Chairman has pointed out, the 
Election Assistance Commission was established as a bipartisan 
commission, intended to be evenly divided with two Republicans 
and two Democrats acting as Commissioners.
    As my colleague, Senator Alexander, ably demonstrated at 
the hearing over two years ago, the Election Assistance 
Commission has fulfilled its purpose and should be eliminated. 
As I say again, no reflection on the nominees. At that hearing, 
while Republicans on this committee called for hearings to 
examine the need for this Commission, something that you might 
think would be pretty basic, those hearings have never 
happened, Mr. Chairman. Instead, we are back here over two 
years later with the very same nominees. I think we owe you an 
apology.
    This committee has never had an oversight hearing on the 
EAC, never. Despite its now expired authorization, we have 
never examined the real continuing need for this Commission or 
considered whether any remaining responsibilities could be 
taken on by other agencies, or as the Chairman has ably pointed 
out, the State laboratories, with regard to elections. We 
cannot apparently be bothered to perform these basic oversight 
obligations.
    Nominations to commissions like this have normally been 
paired with a Republican nominee joined to a Democrat. Because 
Republicans have called for the elimination of the agency, we 
simply have not put forward any new nominees. Now, in light of 
our new rules, 51-50, the majority can, if they choose, do 
whatever they would like to do and move these nominations with 
no minority support and no Republican pair, something I hope 
does not happen. That presents a problem for us in that it puts 
us in the position of having to make appointments to a 
commission that we do not think is necessary or otherwise 
simply allow the majority to make its own appointments and 
thereby control the Commission. While I do not think we need 
this Commission, I do believe that if it is going to exist, it 
must be balanced.
    And the curious thing about the nominations before us today 
is that Republicans do not seem to be the only ones who have 
questioned the need for this Commission. Democrats do not seem 
to have much regard for the EAC, either, though that lack of 
regard has been expressed in deed rather than word. These 
nominations had been made by the President of the United 
States, yet when the President wanted an examination of the 
problems in the 2012 election, did he turn to the EAC? No, he 
did not. In fact, in March of this year, he created a new 
commission by Executive Order, the Presidential Commission on 
Election Administration.
    Compare the two missions. The Acting Chairman correctly 
stated the mission of the EAC, but according to the President's 
Commission on Election Administration, the Commission , ``shall 
identify best practices and otherwise make recommendations to 
promote the efficient administration of elections in order to 
ensure that all eligible voters have the opportunity to cast 
their ballots without undue delay and to improve the experience 
of voters facing other obstacles in casting their ballots, such 
as members of the military, overseas voters, voters with 
disabilities, and voters with limited English proficiency.'' 
Wait a minute. Is that not what the EAC is for? Do we need two 
commissions for this? If President Obama does not think the EAC 
can do its job, why is he making new nominations to it?
    Even my majority colleagues here on this committee do not 
seem to have much regard for the EAC, and fortunately, last 
week, I received a letter from the Government Accountability 
Office advising me that they were conducting a study into the 
impact of voter ID requirements, alleged voter suppression in 
Kansas and Tennessee. The study was initiated at the request of 
some majority members of this committee, including its 
Chairman.
    So, think about that for a minute. We are here today 
because the majority says we need to preserve the EAC, but when 
majority members of this committee want a study done on a 
voting issue, they do not think the EAC apparently is up to the 
task. If they think the GAO is better able to do these studies, 
why do we need the EAC? Or, if the EAC can do the job, why are 
we writing the letter to the GAO?
    This is a sad state of affairs. It is embarrassing to this 
member. I think it is embarrassing to the Acting Chairman, 
hopefully, maybe, or at least of interest. And the same for the 
nominees.
    If the majority sees the light, maybe we can finally both 
eliminate this Commission and save the taxpayers some money, or 
if the majority persists in pursuing these nominees through, we 
may be back here for another confirmation hearing to ensure the 
Commission maintains some measure of balance. Only time will 
tell. I urge the Acting Chairman to talk with his leadership. I 
have already talked with ours, and only time will tell, Mr. 
Chairman.
    Again, I apologize to the nominees.
    Senator King. Thank you, Senator Roberts. I understand the 
concerns that you raise and I think that is a--I think the 
issues of the efficacy and continued necessity of the 
Commission are ones that the committee should discuss, and I 
certainly will use my best efforts to see that occur. But, as 
you point out, we have the nominees before us today, and 
perhaps part of their testimony can be helpful to us in 
understanding the role of this Commission and how it can be 
effective and important in improving election administration.
    Chairman Schumer is unable to attend today's hearing. He 
asked that I convey his congratulations and best wishes to both 
of you, and without objection, I ask that his statement be 
submitted for the record. Hearing none, Chairman Schumer's 
statement will appear in the record.
    [The prepared statement of Chairman Schumer was submitted 
for the record:]
    Senator King. We will now hear from our nominees, first, 
Mr. Hicks, and then Ms. Perez. Your entire statements will be 
entered into the record, so please limit your remarks to five 
minutes and then we will have a chance to have some discussion.
    Mr. Hicks, please proceed.

   TESTIMONY OF THOMAS HICKS, OF VIRGINIA, NOMINATED TO BE A 
    MEMBER OF THE ELECTION ASSISTANCE COMMISSION FOR A TERM 
                   EXPIRING DECEMBER 12, 2017

    Mr. Hicks. Good morning, Chairman King, Ranking Member 
Roberts. Thank you for holding this hearing on my nomination to 
serve on the United States Election Assistance Commission. I am 
truly honored to be a nominee to serve on the Commission. I 
look forward to the opportunity to testify on my qualifications 
and interest in becoming an EAC Commissioner.
    I thank House Democratic Leader Nancy Pelosi for 
resubmitting my name to the President and for the President for 
submitting my nomination to the Senate. I thank members of the 
Committee on House Administration for supporting my nomination, 
including Ranking Member Bob Brady and past Ranking Members 
Steny Hoyer and John Larson. I thank other members from both 
sides of the aisle and chambers, a list that is too long to 
enumerate, who have not only supported and encouraged my 
nomination, but helped me throughout my career in Washington.
    My interest in elections started as a child, when my mother 
brought my brother and me into a voting booth and pulled the 
lever. She gently reminded us that when she was growing up in 
Southern Georgia, it was a lot harder for minorities to vote 
than on that day when she voted for President Jimmy Carter. I 
was able to share the story with President Carter a few years 
ago. The ability to help facilitate access to our voting 
systems, the cornerstone of our participatory system of 
government, for all eligible Americans continues to be a strong 
motivating factor in my career.
    Over the last ten-plus years, I have worked at the 
Committee on House Administration, the equivalent committee in 
the House to Senate Rules and Administration. I interviewed for 
the job the day after my oldest daughter was born. My primary 
responsibility is advising and providing guidance to the 
committee and members and caucus on election issues. Prior to 
that, I worked at Common Cause, a nonpartisan, nonprofit 
advocacy organization that empowers citizens to make their 
voices heard in the political process and to hold the elected 
leaders accountable to the public interest. I enjoy working 
with State and local election officials, civil rights 
organizations, and other stakeholders to improve the voting 
process.
    I believe in the Election Assistance Commission. I believe 
in the primary mission of the agency, ensuring all eligible 
Americans have the information needed to register to vote, cast 
a ballot, and have that ballot counted. Whether those Americans 
are voting in New Hampshire, Maine, California, Georgia, or 
Afghanistan, they should have the same confidence that their 
ballots are being counted. I believe our elections must be 
administered in a manner that ensures accuracy while allowing 
for openness and transparency. I also believe the process 
should ensure malicious actions are prevented from influencing 
the final outcome of our elections. This is a challenge that 
must be accomplished with small budgets and without the option 
of failure. Elections do not allow for do-overs. Above all 
else, we must always uphold the public's trust and ensure 
confidence in the process.
    Through my present job of Senior Elections Counsel, I have 
communicated with Americans in every State about voting 
experiences. I have worked with State and local election 
officials across America to address critical election concerns. 
I have had a unique opportunity to work and speak with 
Americans overseas concerning the obstacles they face in 
registering to vote and casting their ballots. Should I be 
confirmed, I will use this knowledge and experience in my role 
as an EAC Commissioner.
    I believe that, regardless of partisan ideology and 
political affiliation, we all want the same thing, fair, 
accurate elections where we are confident of the outcome and 
all eligible Americans, domestic and overseas, are able to 
participate in our process, the best in the world. Should I be 
confirmed, I hope to use the lessons learned in life and my 
experience to continue working to achieve this goal.
    Lastly, I would like to thank my mother and father, both 
now retired and enjoying the love and admiration of their 
grandchildren, and I would also like to acknowledge, again, my 
three children, Elizabeth, 10, Megan, 7, and Eddie, 5. I am 
most gratified that their experiences with voting and 
participating in our electoral system will be far different 
from that of their grandmother.
    Thank you, and I will be happy to answer any and all 
questions.
    [The prepared statement of Mr. Hicks submitted for the 
record:]
    Senator King. Thank you, Mr. Hicks.
    Ms. Perez, your statement, please.

TESTIMONY OF MYRNA PEREZ, OF TEXAS, NOMINATED TO BE A MEMBER OF 
THE ELECTION ASSISTANCE COMMISSION FOR A TERM EXPIRING DECEMBER 
                            12, 2015

    Ms. Perez. Thank you, Senator King. Thank you, Senator 
Roberts. Thank you for holding this hearing and giving me the 
opportunity to discuss with you my qualifications to serve on 
the U.S. Election Assistance Commission. I care deeply about 
the fair, impartial, and accurate administration of elections 
and I would be honored at the chance to serve, should the 
Senate choose to confirm my nomination.
    I have been extremely fortunate in my life and career. I am 
a native Texan, a resident of New Jersey, and a lawyer working 
in New York City. My parents were born in Mexico and moved to 
the United States as children and grew up with limited means. 
They raised me and my brother to be proud Americans in an 
environment which respected public service. My father served in 
the U.S. Air Force and worked many years for county government. 
My mother works for the U.S. Postal Service. And they made 
possible my ability to attend Yale College, Harvard 
University's School of Government, my ability to attend law 
school at Columbia, and for my brother to pursue a career in 
law enforcement.
    I have been given a great many gifts and I believe that 
responsible stewardship of those gifts means I must explore 
opportunities to use my good fortune in service of others, 
whether it be by correcting Bible study lessons for people in 
prison, or serving breakfasts to those in my neighborhood who 
are food insecure, or in a variety of many other ways through 
my professional experiences in the private, nonprofit, and 
government sector.
    It is with great gratitude that I experience your 
consideration for the opportunity to serve my country and the 
democratic principles for which it stands.
    Elections are the cornerstone of our democracy and all 
Americans have an interest in their efficient and secure 
administration. Administering elections, however, is a 
difficult task. State and Federal election laws governing 
election administration are complicated. Resources for election 
administration are scarce. The technology is always changing. 
And it can be challenging to inoculate the administration of 
elections from the politics of elections.
    The EAC's mission, in my view, is to provide resources and 
reliable information to election administrators and voters on 
issues of election administration. I believe I can further that 
mission because I understand election administration from a 
variety of perspectives.
    My interest in voting and election administration started 
the summer in college that I worked for my county's election 
administration office, processing registration forms and 
identifying potential polling locations. Professionally, as a 
Deputy Director of the Democracy Program and the Director of 
the Voting Rights and Election Project at the nonpartisan 
Brennan Center for Justice at NYU's School of Law, I represent 
voters, talk frequently with election administrators, study 
Federal and State election laws, and research election 
practices.
    Congress gave the EAC the duties of conducting research, 
collecting and disseminating information, certifying voting 
systems, and maintaining the Federal form. I have certain 
skills which I think will be very useful to the EAC in 
performing these duties, if I am confirmed.
    First, I have substantial experience in researching and 
collecting and disseminating information. I was a Policy 
Analyst for the GAO and I had to perform qualitative and 
quantitative research on issues requested by Congress. At the 
Brennan Center, I conduct research on election administration 
and I have to pay close attention to methodologies and make 
information accessible to a variety of audiences.
    I also have a deep subject matter knowledge on issues 
related to election administration. I have spent the better 
part of the past seven years working on issues related to 
election administration, from list maintenance efforts to 
statewide voter registration databases. And while my focus has 
been on the experiences of voters, one cannot effectively serve 
voters without understanding the realities faced by election 
administrators.
    Finally, I have strong strategic and public management 
skills. In my personal and professional life, I have worked for 
organizations where resources are limited, the organizational 
purpose has been defined, and the operational environment has 
been key to mission achievement, very much like the EAC.
    It would be premature for me to commit to any particular 
course of action without being more familiar with the internal 
workings of the EAC and talking with State and local election 
administrators who are the end users of the EAC services, but I 
can tell you that, if confirmed, my approach to my role and 
duties would reflect the following.
    A clear understanding of the role of the EAC. State and 
Federal laws govern election administration, not the EAC. It is 
my view that the EAC will function best if it focuses on the 
nuts and bolts of election administration and is not distracted 
by questions that are best suited for the legislatures and the 
courts.
    A desire to work closely with election administrators. I 
have a great deal of respect for the work that they do, and 
part of my job involves learning from them on almost a daily 
basis.
    A responsible attitude toward public funds. These are tough 
fiscal times and I will expect the EAC to use its resources 
effectively and thoughtfully. I will work with others to make 
sure that its administration is top notch.
    And, finally, a respect for data. My work on election 
administration is guided by research about what works and what 
does not. I would ensure that any advice and assistance 
provided to election administrators be thoughtful and well 
researched.
    A significant part of my career has been dedicated to 
protecting and preserving the right to vote and improving our 
election system. As a voter, as a person who has represented 
voters, I know that election administration is critically 
important to our democracy. The EAC, if operating well, is a 
valuable resource to election administrators because of its 
nationwide scope, targeted focus, and expressly delineated 
responsibilities.
    If confirmed, I would look forward to working 
collaboratively with the members of this committee to achieve 
the goal of an efficient and effective EAC.
    Thank you for this opportunity to appear before you today, 
and I am very pleased to respond to questions.
    [The prepared statement of Ms. Perez was submitted for the 
record:]
    Senator King. Each of us will have a round of questions.
    This is an unusual situation in that--I cannot speak for my 
colleague, but for myself, each of you is superbly qualified by 
a variety of different backgrounds and, I think, complement one 
another. The issue, really, is the effectiveness and the 
necessity for the Commission. So, that is what I want to 
address my questions to.
    I would like to ask both of you, let us change the focus of 
this hearing from you to the Commission, and the basic question 
before us that I think is going to be discussed on an ongoing 
basis is why we need this Commission and what role do you think 
that it plays in our democratic system. Mr. Hicks, do you want 
to tackle that.
    Mr. Hicks. Thank you, Chairman King. The Commission is 
still needed. We have elections every two years, and every two 
years, there are similar problems that occur. Ranking Member 
Roberts talked a little bit about the President having a 
Commission on Elections, as well, but the truth of that is that 
the commission only exists for six months. They are tasked with 
a very narrow scope of issues that they have to face, mostly 
long lines.
    The EAC delves into all sorts of aspects in the 
administration of elections. They are the only place in the 
Federal Government that certifies voting equipment. They are 
the only place that is the clearinghouse for a lot of the 
information that State and local election officials depend upon 
in their smaller budgets to get out to their constituents and 
make their elections run more effectively.
    The agency itself, like all Federal agencies, has certain 
problems that I think need to be addressed, and if I am 
confirmed, I hope to address those problems. One of the added 
features that I have had the opportunity to work on in my role 
as Senior Elections Counsel and observed from afar, because I 
have had to recuse myself from a lot of these things, is the 
fact that our committee, the Democrats on the committee offered 
a bill to reform the EAC to address a lot of the problems that 
Senator Roberts addressed and a lot of the other members have 
talked about. So, I think that looking at reforming the agency 
in the way that makes it more effective to address the needs 
that the American people have, because we are not running 
elections as we were ten years ago and those problems that were 
occurring in Florida.
    There are people who still support the agency, a lot of 
State and local election officials, a lot of Democrats, and 
some Republicans, as well, and I hope to be confirmed so that 
we can move the agency forward.
    Senator King. Ms. Perez, would you like to make a statement 
on--not on your own qualifications, which are impressive, but 
on the importance of the agency as you have studied and 
reviewed it.
    Ms. Perez. Certainly, Senator King. Our elections are a 
source of national pride and international inspiration, and we 
have our election administrators, thousands of them at the 
State and local level across the country to thank. And, 
currently, they are under-resourced. In these tight fiscal 
times, their budgets are increasingly being cut and yet 
elections are dynamic. It is constantly changing. The 
technology is changing. The laws that they operate under are 
changing. They have staff turnover. And they simply do not have 
the resources to be able to perform all of their incredibly 
important functions.
    A national organization is incredibly useful, if it is 
operating well, to the achievement of that task. Its national 
scope allows it to have a birdseye view and connect far flung 
offices such that best practices can be shared, ideas for 
innovation can be shared, people can learn what it is that they 
do not know and the way some of their partners in other States 
are handling some of the important matters of the day.
    Beyond that, there are economies of scale and economies of 
scope that accrue when you have one national organization doing 
incredibly resource-intensive activities, and I am thinking 
primarily of voting system certification. It should not be the 
case that we need to reinvent the wheel 50 times and have each 
State come up with its own system of testing and certification, 
just for something as foundational as making sure that our 
voting systems are secure and reliable.
    The EAC has the opportunity to be able to provide important 
resources for State and local election officials at a time 
where they need those resources and when the American public is 
demanding good customer service in the realm of election 
administration.
    Senator King. As I understand both of your answers, the 
agency is not regulatory in the sense of issuing regulations 
that are binding on States or localities. It is more 
information providing and then the function that you just 
mentioned, of being the kind of Underwriter Laboratories of 
voting machines. Is that accurate, that it is not a regulatory 
agency?
    Ms. Perez. Certainly, the enabling legislation sets forth a 
number of responsibilities, including conducting studies, 
serving as a clearinghouse, maintaining the Federal form, and 
certifying voting systems. The EAC does not set policy, but it 
does provide resources to election administrators who have a 
very difficult task that is constantly changing in a dynamic 
environment.
    Senator King. Mr. Hicks.
    Mr. Hicks. The only piece I would add is that the EAC does 
have a small piece of regulatory authority with the National 
Voter Registration Act, and that is it. All the other pieces 
are just basically providing guidance and resources to the 
States.
    Senator King. Senator Roberts.
    Senator Roberts. Well, thank you both for your statements 
and for coming.
    Mr. Chairman, the EAC has been in operation since 2002, I 
think. The primary purpose, as I recall, was to distribute 
grants to States so they can better serve their people with 
regard to voter participation and to eliminate voter fraud and 
the sanctity of the ballot. But those funds are not forthcoming 
anymore and those grants have been distributed.
    Again, I remember taking part in the Motor Voter 
legislation. Al Swift, a Democrat friend of mine from 
Washington, and myself, as the Ranking Member then in the 
House, we had considerable debate.
    I just mention this to--I wish we could have a real hearing 
with regard to the need for the EAC. I am not trying to 
denigrate it, I am just saying we have never done that.
    Let me just ask the question of both of you: Do you agree 
the EAC must operate in a bipartisan fashion? Obviously, the 
answer to that is yes. We can get past that pretty quickly, 
probably. But, how would you work toward that goal if the 
leadership on both sides can come to some kind of an agreement 
as to whether we go forward or whether we have a hearing and 
get you in a position--I know you have been at work, but in 
terms of being truly effective with the mission of the EAC as 
envisioned. Again, I have to apologize to you, but how would 
you do that? How would you work toward that goal?
    Mr. Hicks, do you want to try that one on?
    Mr. Hicks. Thank you, sir. One of the unique opportunities 
that I have had in my life is when I worked at Common Cause and 
working on the Help America Vote Act. That piece of legislation 
was passed--it was the quickest civil rights piece of 
legislation ever passed in history, to my knowledge. And the 
way that it passed, it did not pass with just Republican 
support. It did not pass with just Democratic support. It 
passed with House support. It passed with Senate support. It 
passed 98 to 2 in the Senate. And we brought everyone into the 
room, where we had civil rights organizations, we had State and 
local election officials, we had voter integrity groups come 
in, and we had good government groups come in. The only way 
that it was able to pass was because everyone was in the room 
and everyone was able to talk and get their information out and 
get those issues on the board.
    And I think that in order for this to truly work, we have 
to have bipartisan support and we have to have Democrats, we 
have to have Republicans, we have to have Independents. And I 
think that is why I have not given up my nomination. I have 
been in a holding pattern for three-and-a-half years, and I 
believe in the agency. I believe that it can work effectively. 
And I believe that for me just to give up would be me just 
turning over and saying, I quit, which I cannot do. I believe 
that the agency can work, but it has to work in a bipartisan 
manner.
    Senator Roberts. I appreciate that very much. Ms. Perez.
    Ms. Perez. I think there is no dispute among any American 
that we need elections to be fair, impartial, accurate, and 
secure, and I believe that there is significant common ground 
that can be achieved by focusing on the core mission of the 
EAC, which is to provide resources and information to the local 
election administrators who are trying to do an incredibly 
important task and are under-resourced in doing so.
    I think the best way for the EAC to function is, again, to 
focus on the nuts and bolts of election administration, to look 
for best practices on how you find polling locations, how do 
you train poll workers, how do you send out election notices, 
how do you certify election results. And I do not think there 
is significant disagreement among people of any political 
background that these tasks are vitally important.
    The way that I would proceed is the way that I proceed in 
my practice, which is with a collaborative spirit, an open 
mind, and approaching information with respect to data and 
evidence, talking to all of the stakeholders, and trying to 
achieve and celebrate the common ground when it is found.
    Senator Roberts. I appreciate that, and thank you for your 
comments.
    Let me just point out the EAC has been forced to make 
payments to victims of hiring discrimination in the past, in 
one case, the discrimination against a candidate on the basis 
of party affiliation, and another due to military service 
status. If confirmed, how would you handle this kind of 
situation so we would not see a reoccurrence of these kind of 
episodes? We will do it in reverse. Ms. Perez.
    Ms. Perez. I think one important way is to be very clear 
about State and Federal laws and best practices with respect to 
hiring. I think it is incredibly important to focus on the 
qualifications and to focus on the mission. Personal attributes 
and backgrounds, those kinds of things, are not relevant to the 
tasks that the EAC needs to perform.
    I was not there when that happened and I do not know all of 
the details, but I can assure you that I have a strong interest 
in making sure that the open positions are filled by the 
highest-caliber people and to ensure that the management of the 
EAC is top notch and that the public feels very confident that 
its taxpayer dollars are being well spent and in an appropriate 
and fair manner.
    Senator Roberts. Mr. Hicks.
    Mr. Hicks. I believe that it is going to be a challenge to 
ensure that we have the best-qualified candidates for any 
position at the EAC. The agency has taken so many hits over the 
years in terms of financial and other problems that they have 
faced. I think that with any sort of candidate that comes 
before the Commission, they should be evaluated under the law 
and the best way that HR's provisions establish.
    Senator Roberts. I appreciate that.
    Let me just say that both of you, I think, have indicated 
that the EAC should have an advisory mission as opposed to more 
of a regulatory agency. Am I correct in assuming that is the 
case? Ms. Perez.
    Ms. Perez. Congress has set forth the EAC's duties, and its 
primary duties are to provide resources and information. 
``Advisory'' is even a different word than I would use. It 
serves as a clearinghouse function. It brings people together. 
It allows election administrators to hear how other people are 
handling similar problems in their States. It performs studies 
that are designed to assist election administrators with the 
jobs that they do.
    It does have a couple of functions with respect to 
certifying voting systems and the maintenance of the Federal 
form, but the primary responsibility, in my mind, of the EAC is 
to provide accurate, cutting edge, and needed data and 
information that election administrators want in order to be 
able to provide good customer service to their voters.
    Senator Roberts. And with that information, they would make 
their own decisions, hopefully. Mr. Hicks.
    Mr. Hicks. I believe that the agency's functions are 
spelled out in HAVA correctly, and I think that unless Congress 
expands those, that we should follow the only roles that the 
Commission has set out in the law.
    Senator Roberts. I appreciate that. Mr. Chairman, just on a 
personal note, since the GAO apparently will be making some 
advisory comments, hopefully, with the State of Tennessee and 
Kansas, and I think perhaps Indiana, maybe Arizona, this issue 
is extremely important to me. My great-grandfathers came to 
Kansas before it was a State. One established the second-oldest 
newspaper and the other about the fourth. They did not 
particularly care for each other, and they wrote editorials 
that would make both of us blush with the adjectives and 
adverbs used back in the day. We think it is tough today. You 
should see those.
    But the one thing that they were committed to is that they 
came as abolitionists and they fought through bleeding Kansas. 
Both newspapers were threatened by Quantrell when he rode in 
from Missouri.
    I mention this personal history only that we have a 
commitment in Kansas with regard to ballot sanctity and with 
regard to voter access that, I think, represents a very fine 
effort to try to follow through with that historical 
precedence. So, for me personally, I think I want to indicate 
how strongly I feel about this.
    Thank you for appearing. Again, I wish we had better 
direction for you. Both of us will work on that, so I truly 
appreciate it. Thank you so much.
    Senator King. I want to also thank you, and I think you 
have presented yourself very well today and been helpful to us, 
and now it is our job to find a way to move forward.
    It is my understanding that a quorum requires more than 
just two members, is that correct? So, you cannot act--if the 
two of you are confirmed, you could still not act as the 
Commission, lacking a Republican--actually, two Republican 
members, is that correct?
    Ms. Perez. Yes.
    Mr. Hicks. [Shaking head.]
    Senator King. Okay. Well, we have some work to do 
ourselves, but I want to sincerely express my appreciation on 
behalf of myself and Senator Roberts to your commitment and 
willingness to step forward in these somewhat difficult 
circumstances.
    I also notice your very young man has joined us and I want 
to welcome him to probably his first hearing in the United 
States Senate.
    Again, I want to thank both of you and we are going to be 
meeting as a committee to talk about some of these issues to 
see if we cannot resolve the differences between the two 
parties and get this Commission into a place where it can 
perform the function that the Congress has assigned it and 
protect this basic important right of all Americans to vote.
    Before we close, I have one other matter. The Chairman and 
the Ranking Member have received a report from committee staff 
regarding a petition contesting the special election that took 
place in New Jersey on October 16, 2013. This petition was 
referred to the committee on October 28, 2013. Committee staff 
for both the majority and the minority reviewed the petition, 
found it to be without merit, and concluded that further 
consideration by the committee is not warranted. Without 
objection, the committee adopts the staff recommendation and 
will take no further action on the petition.
    Thank you, again, to both of you. Thank you for your 
families.
    The record will remain open for five business days for 
additional statements and comments and post-hearing questions 
submitted in writing for the nominees to answer.
    Again, thank you very much for joining us here this 
morning, and since there is no further business to come before 
the committee, the committee meeting this morning is adjourned.
    [Whereupon, at 10:44 a.m., the committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                HEARING--SENTRI ACT (S. 1728) IMPROVING
                     VOTER REGISTRATION AND VOTING.
                       OPPORTUNITIES FOR MILITARY.
                          AND OVERSEAS VOTERS

                              ----------                              


                      WEDNESDAY, JANUARY 29, 2014

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Committee, presiding.
    Present: Senators Schumer, King, Roberts and Blunt.
    Staff Present: Jean Bordewich, Staff Director; Stacy 
Ettinger, Chief Counsel; Veronica Gillespie, Elections Counsel; 
Benjamin Hovland, Senior Counsel; Ellen Zeng, Counsel; Phillip 
Rumsey, Legislative Correspondent; Lynden Armstrong, Chief 
Clerk; Matthew McGowan, Professional Staff; Lean Alwood, Chief 
Auditor; Mary Jones, Republican Staff Director; Shaun Parkin, 
Republican Deputy Staff Director; Paul Vinovich, Republican 
Chief Counsel; and Rachel Creviston, Republican Professional 
Staff.

               OPENING STATEMENT OF SENATOR KING

    Senator King. The Rules Committee will come to order.
    Good morning, and I see that our--well, if you--oh, let's 
have our witnesses take their seats at the table.
    Our hearing today is on the SENTRI Act, legislation 
intended to improve voter registration and voting opportunities 
for military and overseas voters.
    I am Angus King, Senator from Maine, sitting in at the 
beginning of today's hearing for Senator Schumer, who is at a 
meeting of the Judiciary Committee. He will be joining us a 
little bit later.
    With me is Senator Roberts of Kansas, who is the Ranking 
Member of this Committee, and we will proceed.
    Voting is our most fundamental democratic right. Today we 
are going to discuss legislation which is aimed at ensuring 
that members of our military and other American citizens who 
are overseas are able to cast a ballot and participate in our 
democracy.
    Americans who are on the other side of the world clearly 
face barriers to voting that most of here in this country do 
not. Congress has previously passed two pieces of legislation 
to improve access and participation for our military and 
overseas populations.
    The first was the Uniformed and Overseas Citizens Absentee 
Voting Act, known as UOCAVA, and that was passed in 1986.
    And, as with most legislation--all legislation, in my 
experience--after implementation, we learned that improvements 
can and should be made. This is particularly true where 
advancements in technology allow for new innovation and can 
help modernize existing practices. With these factors in mind, 
many improvements were made to the UOCAVA legislation in 2009 
with the passage of the Military and Overseas Voter Empowerment 
Act.
    Reports from the 2012 general election, however, show that 
only 70 percent of the ballots sent to military and nonmilitary 
voters were returned--only 70 percent. On top of that, many of 
the ballots that were returned were unable to be counted 
because they arrived after the deadline.
    We think we can do better than this. We must do whatever we 
can to ensure that the men and women who serve our country in 
uniform are not disenfranchised by unnecessary administrative 
barriers.
    I am also a member of the Armed Services Subcommittee on 
Personnel, and this is an issue which I take very seriously.
    The SENTRI Act builds on past legislation to provide many 
of the solutions that our military and overseas voters deserve. 
This bipartisan bill makes improvements to military and 
overseas voting that I believe Congress can reach agreement on.
    The SENTRI Act provides important safeguards to the right 
to vote for military and overseas voters in a number of ways.
    First, the SENTRI Act improves voter registration and 
voting opportunities for service members through the use of an 
online system, certainly not part of the original Act in 1986. 
It requires voter assistance as a routine part of service 
members' annual training. Simplifying, streamlining and 
reducing the time associated with voter registration will 
ensure that more of our citizens overseas are able to vote in 
future elections.
    Also, this legislation ensures requests for absentee 
ballots remain valid for one full Federal election cycle, 
thereby eliminating some of the confusion and variance in 
implementation that has been seen across the country.
    Another important feature of the SENTRI Act requires 
reporting on implementation and effectiveness of new voter 
assistance obligations that would allow for better monitoring 
and deeper understanding of the voting experience of our 
military and overseas citizens.
    Overall, the SENTRI Act strengthens protections of voting 
rights of military and overseas voters. For this reason and 
others, the SENTRI Act enjoys support from a number of 
nonpartisan organizations dedicating to serving members of our 
military, veterans and protecting the right to vote for all 
Americans.
    I am proud to be a co-sponsor of this important piece of 
legislation, and I would like to thank everyone who is able to 
join us today to discuss this topic, and I look forward to 
hearing the testimony of the experts on our panel.
    Now I would like to turn to Senator Roberts for his opening 
remarks.

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. Why thank you, Mr. Chairman. I appreciate 
your willingness to preside here again so we can stay on 
schedule.
    I want to thank the witnesses for agreeing to testify, and 
I look forward to their remarks.
    I also want to thank my friend, John Cornyn, for his work 
on this issue. I look forward to hearing from him later.
    We have a good panel of witnesses before us, and I want to 
hear from them. So I will not take up too much time.
    I am glad we have witnesses from both the Federal and state 
agencies because they have to work together to ensure our 
service personnel are able to vote and have that vote counted.
    As a Marine, I obviously care deeply about those who serve 
us abroad and want to make sure we are doing everything 
possible to make sure that those who wish to vote are able to 
do so.
    This Committee produced, as the Acting Chairman indicated, 
the Military and Overseas Voter Empowerment Act, the MOVE Act, 
in 2009, to make sure ballots were sent out in sufficient time 
for them to be received and returned in time to be counted. Now 
we have gone through two general elections since those 
requirements went into effect, and it appears some problems 
remain.
    The question is where those problems lie and what really 
needs to be done to address them. Is the problem at the state 
and local level, or the Federal level, or both?
    I hope our hearing today will shed some light on that 
question. We need to know where the problem is before we can 
figure out how to fix it.
    The SENTRI bill proposes some changes at both the state and 
Federal levels. I look forward to its consideration and the 
testimony of our witnesses here today.
    Thank you, Mr. Chairman.
    Senator King. Senator Blunt, we are just getting underway. 
If you would like to make a statement, we would be delighted to 
hear from you.

               OPENING STATEMENT OF SENATOR BLUNT

    Senator Blunt. Mr. Chairman, I have a statement for the 
record.
    This is obviously an important issue. It is one that when I 
was the chief election official in Missouri for eight years, 
and the secretary of state, I was very involved in.
    I hope we can continue to find things that ensure that 
people who are serving in the military not only get to cast 
their votes but get that vote counted, get it back in a way 
that gets it counted.
    And I look forward to the testimony, and I am glad that we 
are talking about this bill.
    [The prepared statement of Senator Blunt was submitted for 
the record:]
    Senator King. Thank you.
    We will move to our first panel, who is at the table.
    We have Mr. Matt Boehmer--we are going to go in 
alphabetical order--Director of the Federal Voting Assistance 
Program in the U.S. Department of Defense. Second is Mr. Kevin 
Kennedy, the Director and General Counsel of the Wisconsin 
Government Accountability Board, and third, Mr. Donald Palmer, 
the Secretary of the Board of the Virginia Board of Elections.
    Thank you all, gentlemen, for joining us today.
    And I would like to ask, if you possibly can, to limit your 
statements to five minutes, and if you have provided the 
Committee with a longer written statement, we would be 
delighted to accept that for the record.
    Mr. Boehmer, please proceed.

STATEMENT OF MATT BOEHMER, DIRECTOR, FEDERAL VOTING ASSISTANCE 
     PROGRAM, U.S. DEPARTMENT OF DEFENSE, WASHINGTON, D.C.

    Mr. Boehmer. Chairman King, Ranking Member Roberts and 
distinguished members of the Committee, thank you for the 
opportunity to discuss the Department of Defense's voting 
assistance activities and our view on the SENTRI Act.
    Senator Cornyn and Senator Schumer, for the record, thank 
you for your continued commitment to our men and women in 
uniform.
    As Congress and the courts have repeatedly affirmed, voting 
is a citizen's most fundamental right.
    The Federal voting assistance program is committed to two 
voting assistance tenets--promoting the awareness of the right 
to vote and eliminating barriers for those who choose to 
exercise that right.
    Last year, FVAP and the Department exemplified this 
commitment by advancing three major initiatives--creating a 
robust information portal, implementing greater voter 
assistance capabilities and commencing work to increase the 
efficiency of mail delivery.
    We recently optimized our web site, which is FVAP.gov, by 
reorganizing content to enhance the user experience, 
implementing a section of the portal to track performance 
metrics for our voting assistance officers and updating online 
training which will be released in the early spring of 2014.
    To improve our voting assistance capabilities, FVAP created 
a suite of materials in 2013 to provide absentee voter-specific 
information.
    We are also providing online and in-person trainings for 
our voter assistance officers and election officials to make 
sure they are prepared to assist our UOCAVA voters.
    Realizing that the time required to redirect mail once 
overseas may serve as a hindrance to casting an absentee 
ballot, the Military Postal Service Agency is serving as the 
lead agency in an effort with the Department of State and the 
United States Postal Service to lead an effort to modernize 
military mail delivery. The system will redirect election 
materials to military and diplomatic addresses, similar to how 
the civilian change of address system works, and should be 
available in October of 2014.
    These activities illustrate the continuous work of the 
Department, and the proposals in the SENTRI bill enhance the 
notion of change and offer some real benefits to our UOCAVA 
voters.
    The Department supports the initiatives in the SENTRI bill 
as written. However, we would like to work with the Committee 
to clarify some of the technical requirements to make sure that 
we are successful in meeting the intent of the bill.
    FVAP is already working to address some of the initiatives 
listed in SENTRI.
    We currently link voters to state systems where they are 
available.
    And, we are working with an internal department system to 
prompt service members when they update their address to 
complete a new Federal Post Card Application upon every single 
address update.
    We are also willing and capable to create an annual 
training by the 2016 general election for our active duty 
military members, which would then lead them to FVAP.gov to 
complete a new FPCA or to decline assistance. We would then be 
able to provide you with the aggregate numbers on the users who 
chose to go to FVAP.gov for assistance and for those who 
declined.
    The language in Section 201, which requires electronic 
transmission of a completed FPCA by the Department to the 
appropriate state and local election officials, is where we 
have our greatest concern. The bill, as written, appears to 
focus entirely on an electronic process which would prove 
costly and could be incompatible with the 55 states' and 
territories' election rules, specifically in regard to the 
different rules governing physical signatures and the approved 
method of transmission of elections.
    Removing this requirement would remedy the Department's 
concern with this section and recognize the role of states to 
field their own systems and offer electronic voter 
registration. The cost associated with the requirement to 
simply pre-populate our forms would be relatively low.
    Senator King, Ranking Member Roberts and the Committee, 
thank you for the opportunity to share the Department's view on 
the SENTRI Act. We appreciate the Congress's ongoing interest 
in improving military voting. I look forward to your questions.
    [The prepared statement of Mr. Boehmer was submitted for 
the record:]
    Senator King. Thank you, Mr. Boehmer.
    I presume you will give to the Committee the details of the 
suggestions you have on those matters that you just mentioned.
    Mr. Boehmer. Absolutely, sir. Thank you.
    Senator King. I appreciate it.
    Mr. Kennedy.

   STATEMENT OF KEVIN KENNEDY, DIRECTOR AND GENERAL COUNSEL, 
     WISCONSIN GOVERNMENT ACCOUNTABILITY BOARD, MADISON, WI

    Mr. Kennedy. Thank you, Chairman King, Ranking Member 
Roberts and distinguished Committee members. I appreciate the 
opportunity to provide information to this Senate Committee on 
the SENTRI Act.
    A little bit of background. I am Wisconsin's Chief Election 
Officer. I am a nonpartisan, appointed official and have served 
in that capacity for more than 30 years.
    Wisconsin has been--I am also a former president of the 
National Association of State Election Directors.
    Wisconsin has been a leader in making changes to facilitate 
voting for our military and overseas voters. In Wisconsin, we 
administer our elections at the local level. I have 1,852 local 
election officials who are responsible for getting the ballots 
out to all of our voters, including our UOCAVA voters.
    We have developed an electronic delivery system that we put 
in place in 2012 that has cut the ballot transit in time and 
allowed us, even when some of those clerks fail, to ensure that 
ballots are delivered and returned in time for counting before 
the election.
    When you are herding a group of cats, such as we often do, 
we find some human failings, but we have found with our 
electronic ballot delivery system, even with a handful of 
ballots that might have missed what was then the 45-day 
deadline, we were still able to get the ballots back in time.
    The SENTRI Act makes a number of reforms and improvements 
to safeguard elections, and the spirit behind these reforms and 
improvements is commendable and has the support of state 
election officials. However, implementation of some aspects of 
these reforms, while not insurmountable, could be problematic.
    For example, with data collection, the time frames for 
collecting and reporting data present challenges, especially 
around the deadline for transmitting ballots--46 days before 
the election.
    If a Federal election is held on a Tuesday, as is the norm, 
day 46 is always a Friday. This means local election officials 
are scrambling to get the UOCAVA ballot requests filled before 
the mail goes out. The next two days are not business days. 
Yet, state officials must collect and compile data from local 
election officials and submit a report on the Monday following 
the transmission deadline.
    This is particularly challenging for a state like 
Wisconsin, and other states, where the municipal election 
officials are responsible for fulfilling UOCAVA absentee ballot 
requests.
    The SENTRI Act provides for express delivery of ballots 
that are not transmitted by the deadline.
    We can still effectively implement the reporting deadline 
if we move it to 5 or 7 days after the 46-day deadline. This is 
particularly true when the UOCAVA voter has requested to 
receive the ballot electronically. Because the SENTRI Act 
provides for express delivery of ballots that are not 
transmitted by that 46-day deadline, the required information 
would still be captured with a slightly later reporting 
deadline, but it would also have the advantage that it would 
not be an incomplete report.
    What you are going to get under the current provisions is a 
report, if there are failures, of incompleteness.
    If we postpone that deadline by two or four more business 
days, what you will get is a report that tells you if the 
ballots were not delivered, how that was remedied, because the 
SENTRI Act provides for the express. Instead of having several 
reports, you will get one complete report, and the Department 
of Justice and the Federal Voting Assistance Program will know 
where there was a problem but also how that problem was solved.
    So I really encourage you, instead of having that day 43 
reporting, that it be day 41 or, even better, day 39 because 
you will get one report that will be much more complete.
    Our goal has been to make it as easy as possible for our 
local election officials to complete the reporting requirement 
so that they can maximize the time they spend serving the 
voters as we do at the state level.
    Another suggestion is that the Department of Defense and 
the U.S. Elections Assistance Commission have coordinated their 
collection of post-election data. Yet, there are two different 
deadlines for filing and getting that information. I would 
suggest that rather than the 90-day deadline we have currently 
that we dovetail that with the deadline that is available for 
reporting to the U.S. Elections Assistance Commission.
    As has been said, elections are the cornerstone of our 
democracy. A citizen's right to vote is one of our most 
enduring principles. Our uniformed services and overseas voters 
make extreme sacrifices to protect that right for us. They 
deserve the commitment and effort of all of our public 
officials to enable them to fully participate in the electoral 
process.
    I appreciate the opportunity to share my thoughts with you, 
and I would be happy to answer any questions Committee members 
have.
    [The prepared statement of Mr. Kennedy was submitted for 
the record:]
    Senator King. Thank you, Mr. Kennedy.
    Your testimony about what day election day is allows me, 
perhaps for the only time in my service in this body, to share 
one bit of knowledge that I have carried around for a long 
time.
    Do you know the definition of when a presidential election 
occurs? It is the first Tuesday after the first Monday in 
November of every even-numbered year, equally divisible by 
four.
    [Laughter.]
    Senator King. Isn't that a wonderful rule to have?
    Mr. Kennedy. That is a great rule.
    Senator King. I am afraid that may be taking up room in my 
brain for other more useful things, but--Mr. Palmer, please.

STATEMENT OF DON PALMER, SECRETARY OF THE BOARD, VIRGINIA BOARD 
                   OF ELECTIONS, RICHMOND, VA

    Mr. Palmer. Thank you, Chairman King, Ranking Member 
Roberts and members of the Committee. Thank you for the 
opportunity to testify today on the SENTRI Act, which continues 
the improvements to the military voting process under the MOVE 
Act.
    The recent release of the report from the Presidential 
Commission on Election Administration noted the continued 
difficulties of UOCAVA voters in registering to vote, receiving 
their ballots in a timely manner and returning their ballots to 
election officials in time to be counted.
    The SENTRI Act recognizes that military voters have lower 
registration and participation rates and much lower rates of 
absentee ballots that are successfully returned and counted. 
The rate of successful return for overseas military ballots 
remains in the high 60s while the successful return of domestic 
absentee ballots is closer to 98 percent.
    In a world full of technology, we must not forget the very 
human purpose of this legislation, and that is to allow all 
members of the republic to vote, no matter where they are on 
the globe.
    The Presidential Commission also noted the difficult 
situation that UOCAVA voters continue to find themselves. The 
sponsors of the SENTRI Act have shown focus and foresight to 
determine where the MOVE Act is succeeding and where it must be 
amended. While the language was drafted well before the 
Commission report, the legislation reflects many of the 
bipartisan recommendations on how to improve that registration 
and absentee ballot process.
    The Presidential Commission also specifically called for 
online mechanisms for UOCAVA voters to easily and quickly 
update their address or registration status. The SENTRI Act 
requires annual voter assistance and updates of registration 
data by the military member with online tools. DoD would 
facilitate the update of registration information at the same 
time that members would normally update their information due 
to deployments, overseas duty or changes in duty station or 
some other change in status.
    Based on my military experience, there are more than a 
dozen different forms that must be updated online each year, 
not only before deployment or a new duty station but for 
training purposes or for a calendar, or fiscal, new year. This 
process should fit nicely into existing procedures for updating 
materials.
    The Commission noted in its report that military and 
overseas voters represent the population most likely to benefit 
from the increased use of the internet and the registration 
process. And, again, DoD members are a very mobile population 
of voters. Because of this mobility, inaccurate addresses and 
information lead to significant delays in ballots reaching the 
military or result in undeliverable ballots where the ballots 
never reach the voter at all.
    The SENTRI Act would provide online mechanisms to maintain 
accurate voter registration information on UOCAVA voters for 
the benefit of all state and local election officials.
    My experience with electronic registration in Virginia 
shows that an online process can be secure with appropriate 
verification of identity and will improve the overall integrity 
of the registration process and voter rolls.
    The Presidential Commission specifically recommended the 
data exchange of voter registration information between states. 
Data from other states allow state and local election officials 
to maintain accurate voter rolls by keeping up with a mobile 
population. Similarly, any DoD system that provides a 
consistent and reliable flow of updated data for military 
voters would dramatically increase the accuracy of the 
registration data at the local and state levels.
    The Commission also noted that compliance with UOCAVA and 
the MOVE Act for military and overseas voters continues to be 
inconsistent and inadequate, and enforcement must be 
strengthened.
    The SENTRI Act does provide special rules in the case of 
failure by state or local officials to transmit their ballots 
on time. Despite good efforts, there have been some failures in 
2010 and 2012. State election officials often do not have the 
authority to require local election officials to report the 
transmission of ballots and are not aware of failures.
    As time goes by, jurisdictions get better with this 
process. However, the failures have resulted in a great deal of 
litigation.
    The SENTRI Act may resolve the litigious nature of the MOVE 
Act. The law would require jurisdictions to automatically send 
ballots by express delivery if they fail to meet the 45-day 
deadline. The proposed law would reduce the amount of lawsuits 
by immediately providing a built-in remedy for the voter. 
Federal law would prioritize the express transmittal of the 
ballot over waiting for post-election litigation and 
appropriate judicial relief.
    The SENTRI Act is a bipartisan piece of legislation on 
which election community has been consulted on a number of 
occasions. The authors have responded to the input of state and 
local election officials and other stakeholders. Many sections 
of this bill are aligned with the major bipartisan 
recommendations of the Presidential Commission.
    In my estimation, the use of technology, data-sharing and 
other common-sense reforms will help UOCAVA voters more 
efficiently register and request absentee ballots, improve the 
integrity of UOCAVA registration data and improve election 
administration in the United States.
    Thank you for the opportunity to testify on this important 
issue.
    [The prepared statement of Mr. Palmer was submitted for the 
record:]
    Senator King. Thank you, gentlemen.
    We will now have a five-minute round of questions, and 
there will be, hopefully, some opportunity for follow-up.
    Mr. Kennedy, you testified about the deadlines and moving 
the 46 days to 39 or some other number.
    I guess the first issue is, is there an issue with making 
that change?
    It seems sort of straightforward. But, is there a counter 
argument as to why not to shorten those deadlines or, actually, 
lengthen them?
    Mr. Kennedy. Well, the main argument would be to have the 
data as quickly as possible, but I think what cuts against that 
argument--you know, to have the data in the hands of the 
Department of Justice and the Federal Voting Assistance 
Program.
    What cuts against that--and I base this on our experience 
from 2012--is that if there has been a failure, that 
information is going to be incomplete and the state officials 
are going to be working hard to remedy this.
    I think Mr. Palmer made the point--and I tried to as well--
that we have built in remedies that normally would be part of 
litigation or a discussion. And, by moving that deadline by two 
days, we are going to give one report that is going to say the 
ballots were sent out, or if they were not, this is what was 
done to make sure that they got sent out even though they 
missed the 46-day deadline.
    Senator King. Is there any cost on the local election 
officials to implementing this whole structure?
    Mr. Kennedy. It is a time cost. As I said, they are busy 
trying to make sure that they fulfill the absentee ballots. It 
is a matter of how much time they have.
    We have built in Wisconsin a very good data collection tool 
which we will refine to ensure that we have that. As I said, we 
spent a lot of time in Wisconsin with a handful of 
municipalities that were difficult to track down, contacting 
them by e-mail, phone, to make sure that they got their data 
into us. That is really the challenge--is making sure that that 
information is available.
    Senator King. Mr. Palmer, you talked about online 
registration, and clearly, we are moving in that direction. 
Talk to me about security of online registration and utilizing 
the internet for these kinds of transactions. Are local 
election officials comfortable that there is not a high risk of 
fraud in this kind of situation?
    Mr. Palmer. Mr. Chairman, I believe that local and state 
officials are very much leaning toward online or electronic 
registration because you are usually taking the registration 
and the information from the voter and you are actually 
comparing it to a database such as at the Department of Motor 
Vehicles. So you have confirmation of the person's identity. 
You have confirmation of the person's--you will have their 
signature online, and you will have their photo.
    So there is already a process where that individual has 
been confirmed with another state agency, and so once there is 
that match, it raises the level of confidence of election 
officials on the integrity of that registration.
    Senator King. Mr. Boehmer, would you like to comment on 
moving in this direction?
    Mr. Boehmer. Sir, from the Federal Voting Assistance 
Program, as I mentioned in my oral testimony, we actually on 
our web site will link to the states that have these online 
voter registration systems.
    So, from an assistance standpoint, you know, the use of the 
internet and the tools will really help our voters. And, from 
that point, we hand it off to the states and let the states do 
the administration of elections.
    Senator King. So, in the states that have those systems, a 
young member of the military who had not registered at all when 
they left the country could register in Virginia or in 
Wisconsin from abroad and then go through the voting process; 
is that correct?
    Mr. Kennedy. Absolutely. Wisconsin has the same online 
system, and it has worked very well in 2012 for us.
    Senator King. And how many states have this kind of system?
    Mr. Palmer. Mr. Chairman, I believe it is probably up to 
18. It is just above 15 to 18, I would say--the number of 
states that have some sort of online registration.
    Senator King. And I presume that is growing each election 
year, that states are adding this capacity.
    Mr. Palmer. Yes, Mr. Chairman.
    Senator King. Mr. Boehmer, what are the gaps that you see 
the SENTRI Act filling that you are unable to do under the 
current law?
    Mr. Boehmer. Mr. Chairman, I believe that regardless of the 
SENTRI Act we are always looking to improve our processes and 
improve the assistance that we provide our military and 
overseas citizen voters.
    The SENTRI Act offers provisions that we think will be very 
helpful for our voters. A couple of these, for example:
    Increasing the validity period of the Federal Post Card 
Application from one calendar year to one general election 
cycle makes sense, particularly from a voter's expectation 
standpoint. You know, a voter expects to be able to request to 
register, excuse me, to register and then request an absentee 
ballot only once in a general election cycle, and so increasing 
the validity of the FPCA to one general election cycle should 
align with our voters' expectation.
    In addition, we mention the issue is not necessarily all 
about registration. Sometimes it is about the fact that our 
military population is particularly mobile. And, as I mentioned 
again in my opening statement, we are working on initiatives 
already that are mentioned in SENTRI on making sure that our 
military members know the importance of every time they move to 
notify their local election official. That provision is 
actually in SENTRI.
    And we are actually working on taking some of the 
Department's internal systems, where military members naturally 
go to update their address information for health care 
benefits, for example, and then prompting them at that time, to 
say, you just changed an address; it is important for you to 
remember that you need to notify your local election official.
    And they can then go to FVAP.gov and actually fill out a 
new FPCA to change their address right there online.
    Senator King. Senator Roberts.
    Senator Roberts. The Election Assistance Commission's 
Election Administration Voting Survey for 2012 found that of 
33.1 million domestic absentee ballots transmitted, 83.5 
percent were returned and submitted for counting.
    For military and overseas voters, 876,000 were 
transmitted--and that prompts one question, if you have 3 
million people in the military why only 876,000 requested to 
vote--but then only 66 percent were returned and submitted for 
counting.
    So, obviously, the lower rate of return for military and 
overseas voters is cause for concern, but the question arises--
whose fault is this? Where is the problem?
    Let's start with you, Mr. Boehmer.
    Mr. Boehmer. Thank you for the question, sir.
    I think what we really want to take a look at are 
assistance activities and what we can do to help our military 
members.
    We say that the military is registered at a higher rate 
that their civilian counterparts, and what we need to make sure 
is the fact that the military members, who, again, are a very 
mobile population--we need to recognize that. So making sure 
that military members receive their absentee ballot is going to 
be incredibly important.
    Again, voting is an absolutely personal choice, and we want 
to make sure, though, that for those who want to vote that they 
really do have the tools and resources to do that.
    Therefore, initiatives such as the Military Postal Service 
Agency, you know, working hand in hand with the Department of 
State and the United States Postal Service to modernize the 
mail delivery system is something that is going to be really 
important--so that a change of address, that the local election 
officials will send out the absentee ballot. A change of 
address will happen right there at the local post office 
instead of having to wait all the way to an overseas location 
for that to change.
    So we know that the issue of time is something that is 
against our military members, and this should go towards 
helping solve that.
    Senator Roberts. Mr. Kennedy, any comments?
    Mr. Kennedy. Yes. I think increased use of technology will 
help. The states like Wisconsin and Virginia that have 
electronic ballot delivery have been able to ensure that our 
end of the bargain has been fulfilled. Even in Wisconsin, where 
out of about 10,000 ballots we had 4 that missed the deadline, 
those ballots went out with electronic transmission and were 
returned before the election and counted.
    And I think the emphasis has to be looking at the 
electronic return of the ballots and improving the return 
rate--the focus of the Federal Voting Assistance Program on 
increased communication with the members.
    Senator Roberts. So it is electronic capability----
    Mr. Kennedy. I think that would----
    Senator Roberts [continuing]. That you are talking about 
our technology.
    Mr. Palmer, do you have anything to say about this.
    Mr. Palmer. Yes, sir. It is time and distance. It is the 
age problem that we have with the mail system getting to a 
remote voter in a land far away, and there is really no margin 
of error in the absentee balloting process. If there are any 
errors, there is a potential of delay that may impact the 
voter.
    I think Kevin Kennedy talked about the ballot return. The 
return of the ballot is the problem. It seems to be in most 
cases. Thirty states allow the return of the ballot by some 
sort of e-mail or fax to sort of mitigate that problem, and 
that is not an issue with this legislation, but it shows that 
the Postal Service has some issues with getting the ballots 
back on time.
    Senator Roberts. Let me just say that on page 4 of the 
Act--and my reference here--Mr. Chairman, pardon my delay. I am 
not sure I can even--oh, dear.
    Well, under G and 1 and A and B and then the capital letter 
I, Roman number II, iii, we finally get down to this should not 
be paid by the voter but may be required by the state to be 
paid by a local jurisdiction if the state determines election 
officials in such jurisdiction are responsible for the failure 
to transmit the ballot by any state required under this 
paragraph.
    In 105 counties in Kansas, that is not in the bill.
    There is Harriet out there, who is the local county 
election official. She has been doing a good job for many 
years. She would like to retire, but everybody wants to keep 
her on because they have had no ballot fraud. We do not know 
what ballot fraud is in Kansas, thank goodness.
    But I just wonder; is the county going to pay for this if, 
in fact, you know, they do not get this ballot back?
    What kind of costs are you incurring in the State of 
Wisconsin with regard to county election officials?
    This is a follow-on of the Chairman. This looks like to me 
it could be a real problem with another unfunded mandate.
    Mr. Kennedy. Well, it may be an unfunded mandate, but it is 
a mandate that is created by the failure of the local election 
official.
    We do it at the municipal level. So, rather than my 72 
counties, it is my 1,852 municipalities. As I indicated, we had 
4 that missed the 45-day transit time----
    Senator Roberts. Right.
    Mr. Kennedy [continuing]. And we were all over them.
    And, to me, the fact that we have a remedy built into the 
system--I can point to this and say, you are going to pay the 
cost for this, and this will be a lesson learned.
    Our compliance has gone up tremendously with the more 
oversight that we do.
    Senator Roberts. Well, you only had 4, but 34 percent did 
not return them, and that seems to me to be a big problem.
    I am out of tine, Mr. Chairman. Thank you, sir.
    Senator King. Senator Blunt.
    Senator Blunt. Thank you.
    Senator Roberts, I may be wrong on this, but I think a lot 
of that 34 percent did not receive them in time.
    One of the things that Senator Cornyn and I have worked 
on--and others I am sure have, too--is to get the Post Office 
to buy the equipment for military mail that they have for 
everybody else, and they have just agreed in the last defense 
discussion to do that.
    If something was mailed to anybody in this room who is not 
in the military, in almost all cases, if there is a forwarding 
address that gets disrupted in the process of the first 
delivery.
    In the military, they do not have that equipment yet for 
military mail. So it either goes to the location, as I think 
Mr. Palmer suggested it might, where the person was when they 
first requested the ballot, or it comes back to the APO address 
and then goes again.
    So just getting an investment in equipment here, which the 
Defense Department has agreed to do--so, hopefully, by the next 
cycle, that part of this problem will minimize the rest. But, 
if you do not get the ballot before the election is over, you 
obviously cannot mail it back.
    And I agree totally with Mr. Kennedy that the penalty needs 
to be on the election official that does not get the job done. 
There is no reason for the Federal Government to make it easy 
for that person not to do their job. And it is a minimal kind 
of penalty, but it is one you do not want to explain to your 
boss, if you are the local election official, why it is.
    And what would the remedy be again, Mr. Kennedy? Is it you 
have to send it under some sort of expedited mail?
    Mr. Kennedy. You send it by express mail, and if it is 
delayed, the local election official will pay the express mail 
cost as well.
    Senator Blunt. Right, right.
    On the registration--the electronic registration--
apparently, Mr. Boehmer, you are concerned that there may be 
some conflict here with state laws that require the application 
for a registration to come in writing. Am I right on that?
    Mr. Palmer. That is correct, sir.
    Senator Blunt. And in the states that have electronic 
registration, do any or all of them have that just for 
military, or military and overseas, registrations?
    In the states that have electronic registration, Mr. 
Palmer, is it your view that anybody can do that, or are there 
categories of people that have that electronic registration 
available to them?
    Mr. Palmer. If you are a registered voter in a state which 
has a program like that, you could either update your 
registration online or update your status with that program.
    Senator Blunt. Online. And you think about 18 states are 
doing that now?
    Mr. Palmer. Eighteen states. And I believe that, obviously, 
a lot of different states have different requirements on what 
they want on the document, either the registration document or 
the FPCA, which is the military absentee ballot request form.
    But, if that information could be sent--prepopulated and 
then sent to the jurisdiction, it would serve the same purpose 
until the individual state makes the policy decision to go with 
online registration.
    Senator Blunt. And we could override the registration in 
writing for Federal offices, I believe, but we could not 
override it for state and local offices. And you want to be 
sure that everybody can participate in every election they 
should be eligible to participate in, no matter how they 
register. Is that right, Mr. Boehmer?
    Mr. Boehmer. Our assistance is for Federal elections.
    Senator Blunt. Right.
    Mr. Boehmer. So what we want to make sure of is that our 
voters from the Department of Defense standpoint do not get 
confused about the requirements of individual states. So, when 
we can link off to states' own registration systems, it really 
serves our voters well, and as you mentioned, states are 
actually moving towards these online registration systems.
    To Mr. Palmer's point, what we can definitely do at the 
Federal level is prepopulate that form to make it easier on the 
voter so that when they can send it to the state that 
information would already be filled out.
    Senator Blunt. And does anybody disagree with--Mr. Kennedy, 
as I understand your view on the deadline, you just think a few 
days there would make a big difference. From the deadline we 
have in the legislation to what deadline would you suggest?
    Mr. Kennedy. I would suggest that it be day 39.
    Senator Blunt. Instead of 40?
    Mr. Kennedy. Instead of 43.
    Senator Blunt. Three.
    Mr. Kennedy. In other words, it is one week after the 
deadline that ballots should be out. What you will get is a 
more complete report that says: Yes, we hit our target. If we 
missed on four, this is how we solved the problem because the 
SENTRI Act puts the remedy right in there.
    Otherwise, what you are going to get is a report that says: 
We have not got all of the data yet. Or, if we have the data, 
here is what we have. And, if it is incomplete, this is what we 
are doing.
    And then you get another report under the Act.
    This way, you get one report that is more complete.
    And, if you do have an outlier clerk or local election 
official, that will be focused. But most of these problems are 
going to get solved in that time period.
    Senator Blunt. Okay. I see the Chairman and the principal 
sponsor of the bill is here, and my time is up.
    Senator Roberts. Mr. Chairman, I would like to ask 
unanimous consent, with the permission of the distinguished 
Chairman, that the Senator from Missouri be granted another two 
minutes and if he would yield for a question.
    Senator Blunt. I will be glad to yield.
    Senator Roberts. I am sorry. I did not see you leaving. I 
would not have interrupted.
    Senator Blunt. I am on the way to the floor.
    Senator Roberts. Well, you have some unique experience with 
the State of Missouri, obviously, with your past experience. I 
am still troubled by the 3 million people in the military and 
876,000 requested ballots, and then of that, only 66 percent 
were returned. There is 34 percent missing right there.
    And then on the top of it, something seems to be wrong.
    I mean, you know what? Well, I guess you would like to have 
a system where it was 100 percent.
    But the thing that bothers me is that I think from your 
expertise and from the panel's discussion and their expertise 
that you have got a lot of problems with the Post Office and 
the Defense Department.
    I am not trying to point anything to you, sir.
    And I just do not want, again, Harriet out there in some 
county that does not have the technology yet, that that is 
going to cost the state something and that the burden of cost 
is on that county despite the fact that they have had a 
spotless record to date. If, in fact, it is a Post Office 
problem or a DoD problem, they ought to pay for it.
    I do not like unfunded mandates, which I know everybody 
here agrees that is not the case, but I worry about it.
    Senator Blunt. Right. I think the challenge on the delivery 
is not that the local election official does not get the ballot 
in the mail on time. But you do have a very mobile population 
that in the normal delivery system their mobility would be 
taken care of in transit of the mail itself wherein the way 
that DoD does it, they do it like they would have done it 20 
years ago, where it has to go somewhere and then be forwarded 
or maybe go back----
    Senator Roberts. Right.
    Senator Blunt [continuing]. To the original APO box.
    And I do not know how much of that problem will be solved 
by new equipment, but a significant amount of this problem is 
an equipment problem, and the Department of Defense has agreed 
to buy for the Post Office the equipment the Post Office needs 
to treat military mail like they treat all other mail now, and 
the way mail moves forward. So that will take care of a lot of 
it.
    But that is not a case where the local election official 
got the ballot in the mail late. They do not get it not because 
it got in the mail late but because it does not catch them 
where they are until perhaps it is too late to cast the ballot.
    Senator Roberts. I appreciate that insight, and I thank you 
very much.
    Senator King. No further questions?
    [Pause.]
    Senator King. Thank you very much, gentleman.
    Chairman Schumer [presiding]. Well, thank you.
    I want to thank our panel and thank Senator King for 
stepping in and chairing the hearing. He is a great new member 
of the Senate and of this Committee.
    We are proud to have you on.
    Senator King. Thank you.
    Chairman Schumer. And now we will call our next panel, our 
next witness, Senator Cornyn.
    Okay. I want to thank my good friend, Senator Cornyn, for 
speaking with us this morning about the SENTRI Act, for 
sponsoring this important bill.
    He and I have worked together as a team because we feel it 
is so important that the men and women who are risking their 
lives for our right to vote have that right themselves. We 
share a deep commitment to protecting and strengthening voting 
rights of military and overseas voters.
    So, Senator, I have read your statement. I could not agree 
more with it and with your statement on the Senate floor four 
years ago, that if our soldiers can risk their lives for us, we 
can at least allow them to vote.
    And I thank you. You are so concerned about this, and your 
diligence is helping us move this forward.
    I will ask unanimous consent my statement be put in the 
record and call on our witness, Senator Cornyn.
    [The prepared statement of Chairman Schumer was submitted 
for the record:]

STATEMENT OF THE HONORABLE JOHN CORNYN, A UNITED STATES SENATOR 
                    FROM THE STATE OF TEXAS

    Senator Cornyn. Well, thank you, Mr. Chairman.
    And thank you, Ranking Member Senator Roberts, for your 
important work on this subject, and I am glad to be before you 
this morning.
    Of course, Senator Roberts is the most senior Marine in the 
United States Congress, and of course, there is no doubt about 
his commitment and our collective commitment to making sure 
that our men and women who are deployed overseas can exercise 
the most basic right of a citizen, which is to cast their vote 
effectively.
    The 2012 election made clear that there are too many 
barriers to military service members and their families voting, 
and to having their votes actually counted, and we need to do 
more.
    In the weeks before the last election, November 2012, I 
heard from many military service members from Texas, both 
overseas and stateside, because they were having trouble 
casting their ballots. They reached out for help because 
election day was rapidly approaching and they still had not 
gotten their absentee ballot.
    I heard from the grandmother of one Texas Marine, who was 
serving in Afghanistan, and the father of another because both 
deployed Marines were missing their ballots.
    I heard from the mother of an Airman from Texas that was in 
the middle of moving from one Air Force base to another and did 
not know where his ballot was going to be sent and whether it 
would reach him in time.
    These are just examples of the hurdles that our military 
voters have in every election cycle.
    Of course, we all understand--and Mr. Chairman, you just 
acknowledge again--that these Americans make tremendous 
sacrifices in the defense of our Nation and those sacrifices 
should not include giving up their most basic rights as 
citizens.
    Without question, it remains much more difficult today for 
military service members and their families to exercise their 
right to vote than their civilian counterparts. Most problems 
experienced by the military stem from their being gone from 
their home voting jurisdiction on election day, which is a 
direct result of their service. While it may never be as easy 
to vote for service members who are away from home, we owe them 
our best efforts to remove as many obstacles as possible.
    To that end, this past November, I introduced--along with 
the Chairman, Senator Schumer--the Safeguarding Elections for 
our Nation's Troops Through Reforms and Improvements Act, the 
so-called SENTRI Act. This represents the third effort, Mr. 
Chairman, you and I and others have made together to improve 
military voting, and I want to thank all of those members who 
have joined us in this important bipartisan effort.
    Congress has already removed some major hurdles that have 
hampered military voting in the past, for example, in 2009, by 
enacting a number of important reforms through the so-called 
MOVE Act that was supported by Senators Schumer and Chambliss, 
among others. And I was proud to support the MOVE Act and 
author two parts of it.
    The 2012 election was the first presidential election since 
the MOVE Act, and post-election analysis shows that this law 
has improved various aspects of the process, including reducing 
the number of marked ballots that were rejected by local 
election officials.
    But this data also reveal a large number of military and 
overseas voters who continue to experience problems. For 
example, all of the blank absentee ballots that were sent out 
to military and overseas voters--of all of them, only 30 
percent--I should say 30 percent did not make it back.
    Let me state that again just for clarity. For example, of 
all the blank absentee ballots that were sent out to the 
military and overseas voters in 2012, more than 30 percent 
never made it back to local election officials to be counted. 
This suggests that many of those ballots never reached the 
intended voter likely due to outdated voter registrations or 
ballot delivery problems.
    So the MOVE Act made a difference, but clearly, there is 
more that needs to be done.
    The area perhaps most demanding of our attention is 
military voter assistance. The significant drop in absentee 
ballot requests in 2012 points to the need for the Department 
of Defense to enhance its military voter assistance to put them 
more on par with motor voter-style assistance programs that 
benefit civilians stateside.
    Blank absentee ballots have a significantly better chance 
of reaching registered military voters at the correct mailing 
address if those service members are able to keep their voter 
registration current, which can be challenging because of the 
transient nature of military service.
    In the MOVE Act, we attempted to address this issue by 
creating a voter assistance office on every military 
installation, but the DoD was resistant, honestly, to that. And 
I had conversations with the Chairman of the Joint Chiefs of 
Staff, among others, about that.
    So the SENTRI Act would require the DoD to offer military 
voters an affirmative annual online opportunity to fill out a 
voter registration and absentee ballot request form.
    Helping military voters to keep their voter registration 
current would also aid local governments, which I know is a big 
concern of the Ranking Member--the burdens on them. So this 
would help facilitate that.
    So, in conclusion, the SENTRI Act is aimed at fixing the 
system's most glaring deficiencies which continue to inhibit 
our service members' ability to vote, and I hope the Committee 
will vote this out favorably.
    There is no one-size-fits-all solution to the various 
problems that our military face when it comes to voting, but I 
am hopeful that we can continue to make good progress.
    And I am grateful to you, Mr. Chairman, and to Senator 
Roberts, the Ranking Member, for your commitment to this noble 
cause. And so I look forward to working with you to see its 
final passage.
    Finally, Mr. Chairman, I would ask unanimous consent that 
various letters of support I have in favor of the SENTRI Act be 
made part of the record, following my remarks.
    [The prepared statement of Senator Cornyn was submitted for 
the record:]
    Chairman Schumer. Without objection.
    [The information was submitted for the record:]
    Chairman Schumer. And thank you, Senator Cornyn, not only 
for your eloquent testimony on behalf of the men and women 
serving us overseas but also your just steadfastness on this 
bill and on the whole issue. We are not going to get things 
done without your--it would not get done without your 
leadership. So thank you for caring.
    I do not have any questions.
    I have submitted my statement in the record.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    I would like to submit three questions--one to Mr. Boehmer 
with regard to the law requiring voting assistance for military 
voters and clear must be enforced, et cetera, et cetera, and we 
did not have enough time to really get into that, and then one 
with the MOVE Act and its requirements.
    The Defense Department Inspector General attempted to 
contact every one of the installations' voting assistance 
offices but was unable to do so 50 percent of the time. So that 
is a real problem. And he, the IG, simply recommended we change 
the law to get rid of the requirement and make it 
discretionary, which is pretty--it notes a significant 
difference with regard to the testimony today. So that would go 
to Mr. Boehmer.
    And then one other question--I do not need to go into it 
other than to make the statement that if the distinguished 
Senator from Texas has any problem, any area in Texas, we can 
send pretty fast horses with saddle bags from Dodge City 
anytime he needs it.
    Chairman Schumer. Or, from Brooklyn, New York.
    [Laughter.]
    Chairman Schumer. I would like to thank Senator Roberts and 
assure him--first, without objection--those questions are 
submitted for the record. We would ask the witnesses to respond 
within a week in writing, if that is okay.
    Okay, without objection.
    And I want to thank Senator Cornyn.
    I want to thank Senator Roberts and assure him we want to 
work with him to try and deal with the problems he has so we 
can move forward.
    So, without objection, the hearing record will remain open 
for five business days for additional statements and post-
hearing questions submitted in writing--okay, I gave a week. I 
will modify that to five days--for our first panel of witnesses 
to answer.
    I want to thank my colleagues for participating, 
particularly Senator King, who pinch-hit for me, and sharing 
his thoughts.
    And, since there is no further business, the Committee is 
adjourned.
    [Whereupon, at 10:54 a.m., the Committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 



                      HEARING--BIPARTISAN SUPPORT.
    FOR IMPROVING U.S. ELECTIONS: AN OVERVIEW FROM THE PRESIDENTIAL 
                 COMMISSION ON ELECTION ADMINISTRATION

                              ----------                              


                      WEDNESDAY, FEBRUARY 12, 2014

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer presiding.
    Present: Senators Schumer, Klobuchar, King and Roberts.
    Staff Present: Jean Bordewich, Staff Director; Stacy 
Ettinger, Chief Counsel; Veronica Gillespie, Elections Counsel; 
Benjamin Hovland, Senior Counsel; Ellen Zeng, Counsel; Abbie 
Sorrendino, Legislative Assistant; Phillip Rumsey, Legislative 
Correspondent; Lynden Armstrong, Chief Clerk; Lean Alwood, 
Chief Auditor; Benjamin Grazda, Staff Assistant; Mary Suit 
Jones, Republican Staff Director; Shaun Parkin, Republican 
Deputy Staff Director; Paul Vinovich, Republican Chief Counsel; 
Trish Kent, Republican Professional Staff; and Rachel 
Creviston, Republican Professional Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. Okay, the Rules Committee will call to 
order.
    Our hearing today is on The Presidential Commission on 
Election Administration, the report and recommendations on best 
practices in election administration.
    At the core of our national identity as Americans is a 
pride that we live in a democracy and, of course, have the 
right to vote.
    It is a beautiful thing to me that on November nights in 
New York, cold November nights, citizens, tired, coming home 
from work--they want to get home and put dinner on the table 
for the kids, just get home because they have had a hard day at 
work, put their feet up on the table, and on the coffee table, 
and watch their TV show.
    But, in quiet dignity, they line up, go into the polling 
place, do their duty, and the next morning we all abide by the 
decision.
    It is an amazing thing that does not happen in most 
countries still to this day and has not happened in any country 
for as long as it has happened in ours. So it is a beautiful 
thing.
    And, in the 225-year journey since the first presidential 
election, many things about elections have changed. Of course, 
more people are eligible to vote.
    As I look around the room here, I do not know if either 
King or Roberts is a property owner, but half of us would not 
be allowed to vote when the Republic was founded.
    And, if you guys--your ancestors did not own property----
    Senator Roberts. I am a property owner.
    Chairman Schumer. That is right. I should not have brought 
that up.
    Yes, you are.
    Senator Roberts. Do you want to emphasize that?
    Chairman Schumer. No, no, it was unintended. Okay.
    Anyway, more people are eligible to vote--African-
Americans, 18 to 20 year-olds. Today's expanded electorate is 
much more reflective of our Nation. But, as recent examples 
have shown, there are still problems with our elections, many 
of which could be addressed by improving the way we administer 
them.
    Election administration is a difficult, often a thankless, 
task. So, before I go any further, I would like to thank the 
election administrators and officials for all of the Election 
Days that have gone right over the years. It is not an easy 
job. Because it is so important to our democracy, we have to 
aspire to perfection.
    In reality, most Americans do not even think about running 
of an election until something goes wrong. We all remember 
Florida 2000 and Minnesota's 2008 Senate race, where recounts 
put our election process under a microscope. As recently as the 
2012 election, many polling places throughout the country had 
unacceptably long lines, and this was not the first election 
with that problem, but we would all like it to be the last.
    In his election night victory speech, President Obama 
referenced those long lines, declaring, ``We need to fix 
that.''
    That is a difficult task because elections in the United 
States are uniquely run at the state and local level. With our 
50 states, we have 50 unique election systems and thousands of 
election districts, with this patchwork system sometimes 
creating challenges.
    Former Supreme Court Justice Louis Brandeis famously called 
the states ``laboratories of democracy.'' They sometimes 
provide us with examples of innovation that can be shared 
throughout the country.
    Soon after the last election, the President acted and 
created a bipartisan commission to study election 
administration and best practices for improving voting in 
America. The President insisted this not be a partisan 
exercise. The Commission was supposed to seek out the best 
ideas for making voting easier and better no matter where they 
came from, and that is just what the Commission did.
    The Presidential Commission on Election Administration was 
made up of 10 members, included current and former election 
officials, executives from successful customer service-oriented 
businesses and two chairs--both well known, one a Republican, 
one a Democrat, but each with a long storied history in this 
area.
    And so, Mr. Bauer and Mr. Ginsberg, you have been on 
opposing sides in political campaigns and in the courtroom. You 
both have top-notch credentials as advocates and champions of 
your respective parties. So you are uniquely qualified to 
identify areas where we should move forward.
    And I think on behalf of our whole Committee, those present 
and those not, I would like to thank you for serving on the 
Commission and finding places where we can move beyond 
partisanship and focus on the nuts and bolts of making running 
elections easier and better for voters and administrators 
alike.
    Your Commission's report, in my judgment, is an outstanding 
piece of work, a valuable road map for improving election 
administration in this country.
    While the Commission's charge did not include 
recommendations for Federal legislation, the report makes it 
clear there are areas of existing law and its enforcement that 
must be improved, and our Committee will study your report and 
your testimony today carefully.
    So I hope my colleagues on both sides of the aisle will 
join me in using this report to help improve our election 
system and strengthen our democracy.
    So we thank you for your work and look forward to hearing 
your testimony.
    And, with that, let me turn it over to Senator Roberts.

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. Well, thank you, Mr. Chairman.
    I look forward to hearing the presentation of our 
witnesses.
    I want to thank you for your service. They are to be 
commended for giving their time on this project, and lending 
their experience and their expertise, which is considerable.
    I know there were a number of other well-qualified 
commissioners who are not with us today, but I thank them as 
well for their efforts.
    The Commission was charged with making best practice 
recommendations rather than legislative recommendations, and 
that is what the report has done. It recognizes that elections 
are carried out at the state and local level and that is where 
we must focus our attention.
    For our elections to function properly, we need all of the 
parties--election officials, poll workers, and the voters 
themselves--and the voters themselves--to do their part. This 
requires proper planning and effective administration.
    I hope the work that the Commission and the recommendations 
that it has made will help advance the effective administration 
of our elections and improve the voter experience.
    I look forward to the testimony of our witnesses.
    Thank you, Mr. Chairman.
    Chairman Schumer. Thank you, Senator Roberts.
    I welcome opening statements by the other members of the 
panel.
    Senator Klobuchar.

             OPENING STATEMENT OF SENATOR KLOBUCHAR

    Senator Klobuchar. Well, thank you very much, Senator 
Schumer.
    I just want to, again, as a member of the Judiciary 
Committee and having looked at some of these voter issues from 
that perspective, want to thank our witnesses today for their 
good work.
    And also, I would note while you did mention Minnesota with 
the recount, okay, and the fact that, as we all remember, 
someone did vote for someone named Lizard Person in that 
particular election when we painfully looked at every single 
ballot in the State, our State actually has a very proud 
tradition of high voter turnout. We are always, consistently in 
the top few states of voter turnout, and a lot of that has to 
do that we have same-day registration.
    And I studied and looked, and of the top six states for 
voter turnout they are not necessarily Democratic or Republican 
states. Iowa is usually one of the top ones. Maine is one of 
the top states. But they tend to have something in common; most 
of them have same-day registration.
    So I know that is not necessarily part of what you looked 
at in terms of legislation, but I think that it would go a long 
way. And I have a bill with Senator Tester to look at rolling 
that out on a national level.
    Thank you very much, Mr. Chairman.
    Chairman Schumer. Thank you.
    I would say my experience is as broad as either of yours. 
Minnesota has one of the best election systems and really tries 
to do it fairly and in a nonpartisan way, as does Maine 
actually.
    Senator King.
    Senator King. I do not really have a statement, Mr. 
Chairman, except that since Minnesota and Maine have been 
brought up, Jesse Ventura and I always thought it was states 
with independent governors that had the high voter turnout.
    [Laughter.]
    Senator Klobuchar. But I will point out that Senator King 
did not wear a feather boa at his inaugural party.
    Senator King. Well, you do not know that, Senator.
    [Laughter.]
    Senator King. No, I have.
    Chairman Schumer. This hearing is proving to be much more 
interesting than anyone ever imagined.
    Senator King. I will reserve my comments, and I look 
forward to hearing from the witnesses. Thank you, Mr. Chairman.
    Chairman Schumer. Okay. So we want to thank our witnesses--
first, Mr. Bob Bauer.
    In addition to serving as a Co-Chair of the Presidential 
Commission we are here to discuss, Mr. Bauer is a partner in 
the law firm of Perkins Coie. He is general counsel to the 
Democratic National Committee and, in the 2008 and 2012 
election cycles, was general counsel to Obama for President. 
So, as you can see, his credentials on the Democratic side are 
strong.
    Equally strong is Mr. Ben Ginsberg. In addition to serving 
as Co-Chair of the Commission, Mr. Ginsberg is a partner in the 
Patton Boggs Law Firm. In 2012 and 2008, he served as national 
counsel to the Romney for President campaigns. And I will not 
get into it, but he has had a profound effect in our electoral 
system.
    In 1992 and 1994, you changed America, not in a way I would 
like, but it was amazing what you did.
    And, with that, let me turn it over to Mr. Bauer.
    We would ask each of our witnesses to limit their 
statements to five minutes, and additional statements, without 
objection--additional remarks, without objection, will be read 
into the record.
    Mr. Bauer.

    STATEMENT OF ROBERT F. BAUER, CO-CHAIR AND MEMBER, THE 
PRESIDENTIAL COMMISSION ON ELECTION ADMINISTRATION, WASHINGTON, 
                              D.C.

    Mr. Bauer. Thank you very much, Senator Schumer, Senator 
Roberts, members of the Committee. Thank you for the 
opportunity of testifying here today with my Co-Chair, Ben 
Ginsberg.
    We discussed in advance how we would organize this. So I am 
going to open with, very quickly, some general considerations 
identified in the report that we asked our readers to keep in 
mind as we laid out then our recommendations and the best 
practices we identified, and then I am going to illustrate a 
little bit of the approach that we took by talking about the 
signature issue--the issue most associated with the 
Commission--and that is the problem of long lines at the polls.
    There are, of course, a number of other issues that Ben 
will cover that we address in six major recommendations along 
with, as I said, highlighted best practices.
    But let me say first that the Commission was structured, 
and its membership was selected, on the theory that election 
administration is a topic of public administration and needs to 
be treated as such and that the voters ought to be considered 
very much as we would consider any other recipients of services 
provided. That is to say, elsewhere in their lives, Americans 
think a good bit about customer service and about how customer 
service is rendered to them in their roles as consumers and in 
other walks of life.
    And, likewise, our view was--and I think the President's 
intention was--that the Commission consider the voters as 
entitled to that level of customer service and provided the 
kind of service in the voting process that we all believe, as 
the drivers of our democracy, the voters deserve.
    So this theme of public administration was essential to our 
work.
    One illustration of the importance to the Commission and 
the approach the Commission took in this thought about public 
administration and this emphasis on public administration is 
our reliance on data. Our view was that we ought to look at 
election administration as thoroughly as possible through the 
lens of the best possible information, social science and 
research that was available.
    And we were very fortunate that some of the witnesses who 
came before the Commission were able to fashion fresh data for 
purposes of their testimony that the Commission could rely 
upon, and that included an extraordinary survey of several 
thousand state and local election administrators conducted by 
some of the country's top political scientists and survey 
research experts. And we gleaned very significant information 
about some of the issues that we addressed from that survey.
    But, overall, throughout the report, the effort was to look 
very closely at the evidence--how the electoral system was 
performing. And, in that connection, one of the recommendations 
that we make is that we need, in this country, much more 
systematic collection and analysis of data to enable us to 
pinpoint both the strengths and the weaknesses in the 
performance of our electoral process.
    Beyond that, there were a few other--and I will tick 
through them very quickly--considerations that we discuss at 
the outset of our report.
    Does one size fit all? We have many different 
jurisdictions. Some believe that you cannot generalize reforms 
across all jurisdictional lines. To some extent, that is true, 
but it is also true that there is enough in the way of common 
features to election administration across the United States 
that one size in many respects can fit all for many of these 
recommendations. And the recommendations we have made, we have 
made on the basis that they truly fit all.
    Issue of resources. Election administration costs money. 
And, too often, we heard from administrators that budget 
priorities are such, and the fiscal pressures on the states and 
local jurisdictions are such, that too often the needs of 
election administrators--the fiscal needs of election 
administrators--are shuffled to the bottom of the deck.
    We do not make specific recommendations. That was not our 
charge. But, clearly, it was important for us to note that we 
cannot have soundly conducted elections without money.
    Thirdly, the technology challenge. I will leave this to my 
colleague, Mr. Ginsberg, to discuss in greater detail, but it 
is clear that one warning bell that we rang here was the 
impending crisis in voting technology.
    Enforcement of existing law. It is very important, even 
though we do not make legislative recommendations, for us to 
call attention to problems in compliance with existing Federal 
statutes that were enacted to protect certain populations of 
voters--language minority voters, disabled voters and the 
voters among our uniformed military and overseas populations.
    Some of these statutes, like the MOVE Act, have had 
significant salutary effect, but there are still gaps in 
compliance we identify in our report--compliance with the 
Americans with Disabilities Act, compliance with the Voting 
Rights Act and the provisions that protect language minorities 
and performance of public assistance agencies under the 
National Voter Registration Act in supporting the registration 
process.
    So those are some fundamental points that we make.
    And then let me say very briefly the point about lines. I 
just have a few seconds left.
    There are many factors that feed into lines. We tried to 
analyze what those factors might be. They raise a whole host of 
issues that each can be individually addressed, and then in the 
aggregate the problem of lines can be substantially resolved.
    And we also--and this is something we call attention to--
are publicizing certain online tools now on our web site and to 
be permanently hosted on the Cal Tech-MIT Voting Technology 
Project web site, that administrators can use immediately and, 
over time, improve upon that will enable them to efficiently 
allocate resources within the polling place and plan for long 
lines and address them.
    This is a report, but it is also a project. And our work 
begins now, to work with you, the Congress, state legislative 
leaders, community leaders and election administrators around 
the country, to see to their effective implementation.
    Thank you, Mr. Chair.
    [The prepared statement of Mr. Bauer was submitted for the 
record:]
    Chairman Schumer. Mr. Ginsberg.

  STATEMENT OF BENJAMIN L. GINSBERG, CO-CHAIR AND MEMBER, THE 
PRESIDENTIAL COMMISSION ON ELECTION ADMINISTRATION, WASHINGTON, 
                              D.C.

    Mr. Ginsberg. Thank you, Mr. Chairman, for having us here 
today.
    It has been a pleasure to work with Bob on this, and it is 
fair to say we are both proud of the work of our Commission.
    We were charged with making recommendations to the state 
and local officials who actually put on our elections, to 
remove barriers to duly qualified citizens being able to cast 
their votes easily.
    Elections and voting is an area where there can be conflict 
between Republicans and Democrats, but it is also a subject 
where Republicans and Democrats can agree on the basic 
principle and on common-sense solutions to make the voting 
experience better.
    Bob and I were fortunate to work with eight other 
commissioners and a talented research director from whom we 
learned a tremendous amount.
    We were able to reach bipartisan and unanimous agreement on 
the report's recommendations and best practices. We found that 
the basic principles on which Republicans and Democrats agree 
is that every legally registered voter has the right to be able 
to cast his or her ballot easily and without impediments.
    As to the details of voting, Bob and I had some history to 
fall back on. We have been on the opposite side of many 
partisan battles over the years and, undoubtedly, will be again 
as we amble along the path to the old election lawyers' home.
    Among those battles have been a lot of recounts. All those 
recounts were instructive to this exercise because they provide 
an unparalleled view of how the system works.
    We will both tell you that there are problems with our 
system of voting. The Commission presented a unique opportunity 
for us to address some of those topics that both Republicans 
and Democrats know are problems and which we need to do 
something about.
    That is not a partisan issue. It is trying to get right 
something that very much needs to be gotten right. In fact, it 
is so important to get it right that it deserves doing even if 
it does not satisfy everything that one party or another 
believes needs to be fought in this area.
    As for fixing these problems, the Commission recognized 
that our elections are administered by approximately 8,000 
different jurisdictions, largely using volunteers who do not 
receive much training. As a result, achieving uniformity in our 
elections has proven challenging.
    Let me turn to a couple of the big-picture issues that 
jurisdictions face.
    As Bob mentioned, the state of our voting equipment and 
technology is an impending crisis. The machines now being used 
in virtually every jurisdiction, purchased 10 years ago with 
HAVA funds after the Florida recount, will no longer be 
functional within the next 10 years.
    Voting equipment, generally, has not kept up with 
technological advances in our daily lives. The current 
equipment is expensive and unsatisfactory to virtually every 
elections official with whom the Commission spoke. That is 
heavily due to a Federal certification process that is broken 
and must be reformed. This is a subject to which few are paying 
attention and which will not end well on its current path.
    One of the issues we heard about consistently was having 
adequate physical facilities for polling places. In most 
communities, those facilities are schools, but officials in an 
increasing number of jurisdictions cite safety concerns as a 
reason for not making schools available for voting.
    Adequate facilities to vote and safety for our children 
cannot be competing interests. The Commission felt a strong 
need to call attention to the problem and to recommend that 
security concerns be addressed by making Election Day an in-
service day for students and teachers.
    Bob already talked about long lines. Let me touch quickly 
on some of the other subjects of the Commission's specific 
recommendations and best practices to the state and local 
officials.
    Early voting was one. Our Commission charge was to make it 
easier for all eligible voters to vote. A majority of states, 
with both Democratic and Republican state officials leading the 
way, now have early voting and told us that early voting is 
both here to stay and increasingly demanded by voters. The 
details of the number of days and hours will vary by state and 
county and locality, and the decisions are best made there.
    More accurate voting lists. Whether to help ensure that 
only dually qualified voters vote or to facilitate more people 
being able to vote more easily, the Commission found agreement 
and support across the political spectrum for more accurate 
voter lists. We made two recommendations in that regard.
    One is the adoption and use of more online registration. 
The SupportTheVoter.gov web site has examples of tools that can 
do that.
    And, secondly, we recommend that all states join two 
existing and complementary programs--the Interstate Voter Cross 
Check, or Kansas, Project and the Election Registration and 
Information Center. Both allow states to share data in ways 
that will make their lists more accurate on their own 
initiative.
    Finally, the report also touches on a number of subjects 
that are summarized in my testimony:
    Military and overseas voting;
    Disabled policies and law that require accessible polling 
for the Nation's voters with disabilities, a group that is 
growing larger with the Baby Boom generation, recommendations 
that entail state and local voting officials meeting with 
members of the disabled community and those with language 
proficiency issues to be able to work out solutions for local 
polling;
    And, data and testing. There should be testing of our 
machines after each election to see how well they performed and 
to share information among jurisdictions. And there should be 
more uniform collection of data because, as our political 
scientist friends--led by our research director, Nate Persily, 
of Stanford University--told us, more data leads to better 
solutions.
    With that, thank you again for having us, and I know Bob 
and I would be happy to answer questions.
    [The prepared statement of Mr. Ginsberg was submitted for 
the record:]
    Chairman Schumer. Well, thank you both for your great 
report and excellent testimony.
    I will start off.
    The report recommends that states adopt online voting 
registration, a reform that improves accuracy and saves money. 
Nineteen states have done it. So that means 31 have not, if my 
math is correct.
    What is the barrier to the other states doing it, and is 
there anything that we can do to overcome those barriers?
    [Pause.]
    Mr. Bauer. You will notice we continue the bipartisan 
effort with each other----
    Chairman Schumer. I see that.
    Mr. Bauer. --to make sure that we do not interrupt. We will 
start interrupting as soon as we return to our day jobs, yes.
    We are not seeing a barrier so much. Sometimes it takes a 
while for the discussions to take place within a state and, 
ultimately, decisions to be reached in favor of changes like 
online voter registration.
    We are optimistic that this is one of the developments, a 
key and, I think, well-tested introduction of a technology into 
the electoral process that is going to sort of move 
irresistibly across the country.
    And one of our goals in keeping with the slogan--this is 
not a report; it is a project--is to go out and, as we have 
been invited to do, make the case wherever we can.
    And wherever, Senator, that case can be made, whether it is 
by Federal legislative leaders, state legislative leaders, 
voting rights groups, community leaders or election 
administrators, that case does need to be made. I think it will 
wind up being an effective case.
    Chairman Schumer. Is there an up-front cost?
    Mr. Bauer. There is an up-front cost, but the----
    Chairman Schumer. How much? Is it significant?
    Mr. Bauer. No, it is not significant, and over time it is 
clear from studies that have been done in states that have 
adopted online registration that that cost is more than 
recovered. It is a net savings--fiscal savings.
    Chairman Schumer. Right. We have a lot of instances in our 
government where an up-front cost is recouped over the next 10 
years, but because of budget processes, which are not that 
different in the states, people do not want to make the 
expenditures in year 1 and year 2.
    But that is not proving to be barrier. That is not a 
barrier in your eyes as of yet.
    Mr. Bauer. No, Senator, it is not.
    Chairman Schumer. Right.
    Second, the report states that electronic poll books have 
the potential to solve Election Day issues, that election 
officials want this technology. Can you discuss how electronic 
poll books make a difference and what is the delaying the 
adoption of that one?
    Mr. Ginsberg. It is much easier to describe how they make a 
difference than to describe why it has been a problem so far.
    Chairman Schumer. Okay.
    Mr. Ginsberg. They make a difference because the 
information that can be put on an electronic poll book takes 
care of a lot of sort of the antiquated paper that is in a 
polling place. You can call up much more information, including 
signature verification and photo IDs for people. It can cut 
down on the traditional line problems that have plagued some 
jurisdictions on Election Day. So they are a low-cost simple 
solution to putting a lot of paper in one place where poll 
workers can access it easily.
    Chairman Schumer. What is delaying their implementation?
    Mr. Ginsberg. Well, this goes into the whole sort of morass 
we have fallen into with technology. Part of the problem is 
that the certification program for new ballot systems is kind 
of fatally broken, and new systems are having a great deal of 
difficulty coming online because the certification process now 
takes so long and is virtually impossible to get through. Some 
of these solutions are just proving very nettlesome for 
manufacturers to find a market to put them in place.
    Chairman Schumer. Got it. Okay.
    Next, Delaware is highlighted in your report as a national 
leader in implementing the National Voter Registration Act. 
Delaware seems to seamlessly transfer information from the 
DMV--motor vehicles--to the election rolls. Can you tell us a 
little bit more about this and explain why it is better than 
what most other states do and, again, why aren't more states 
doing it?
    Mr. Bauer. We, Senator, laud Delaware in particular because 
of our concern about the inconsistent performance of 
Departments of Motor Vehicles across the country in 
implementing their responsibility under the National Voter 
Registration, or Motor Voter, Act. This is a significant issue.
    One of our commissioners, Chris Thomas, is intimately 
familiar with this issue, twice Director of the National 
Association of Election Directors, and has really called 
attention to this as a major, major shortfall in compliance 
with Federal law.
    And we are calling attention to the fact that (A) there is 
no reason why this DMV performance cannot be improved and (B) 
there are models like Delaware to which states can look that 
really illustrate how effectively this can be done and what a 
difference it makes in election administration.
    There really needs to be major consistent attention to the 
fact that this is a serious, serious problem in the operation 
of current Federal statutes. That is to say compliance with 
those statutes.
    Chairman Schumer. Thank you.
    My time is expired.
    Senator Roberts.
    Senator Roberts. Well, thank you, Mr. Chair.
    I want to talk about the long line problem, and we often 
hear about long lines are the result of some kind of a real 
plan of some sort that certain areas are being targeted and the 
lines are a result of a deliberate effort to disenfranchise 
groups.
    My question is, did you find any evidence of that?
    Second, are these lines resulting from management problems 
or deliberate schemes to disenfranchise people?
    Mr. Ginsberg. Well, I will let Bob address this as well.
    What we saw is that almost exclusively----
    Chairman Schumer. Please turn the microphone towards you. 
Yes. Thank you.
    Mr. Ginsberg [continuing]. That this was a management 
issue, that there are any number of solutions that we put 
forward in the report to deal with the specific problems of 
long lines.
    We held extensive hearings with the jurisdictions, in the 
jurisdictions, where long lines had occurred, and we found that 
there are--the problems are all identifiable, and they are all 
solvable, and there were no plots or conspiracies that caused 
the lines.
    In fact, if you--we spent some time in the jurisdictions in 
south Florida and held a hearing in Miami, and what we found 
was that in the polling places where there were long lines in 
those counties that occurred in less than 1 percent of the 
polling places in that particular county. That would suggest a 
resource allocation issue and a way to look at management 
techniques and facilities to be able to improve that.
    And one of the things that Bob mentioned in his testimony 
was the providing of online tools for precinct officials to be 
able to gauge the flow over the course of the day and better 
allocate the equipment that they have within a county----
    [Audio system malfunction.]
    Senator Roberts. . . . casting ballots a month before the 
actual Election Day, don't we want voters to be casting their 
ballots based on the same set of facts?
    Is there a value in the communal act of voting [inaudible]? 
Are we wise to sacrifice that in the name of convenience?
    Does early voting increase turnout, or does it just spread 
it around?
    Is it bringing in people who otherwise would not vote, or 
is it just making it more convenient for those who would be 
voting anyway?
    The thing that I am trying to point out here is you are 
voting 45 days before the Election Day and then within the 45 
days several big issues come up with regard to the campaign and 
the voters who have voted 45 days early have no chance to 
factor that in, in regard to the Election Day period.
    Now I have asked you about four or five questions. I will 
stop there.
    You know, I have not heard from Bob. Why don't you go 
ahead?
    Mr. Bauer. Certainly, Senator. Thank you.
    Senator, the----
    Senator Roberts. You will have to speak up. I am sorry.
    Mr. Bauer [continuing]. There are two points that I would 
make about the early voting and the issue that you raise about 
whether or not it cuts off the opportunity for citizen 
deliberation prior to the casting of ballots.
    The first is that without speaking now to the amount of 
early voting that a state might be prepared to provide, the 
expense of the early voting provided, voters actively resist 
the notion that they all need to be funneled through on one 
day, on Tuesday, from 7:00 a.m. until 8:00 p.m. or 9:00 p.m. at 
night. The traditional Election Day model has not only broken 
down from the standpoint of administrators--it is less feasible 
from their perspective--but it simply runs up against the grain 
of voter expectation that they should be cramped in, if you 
will, to this one day to vote.
    I think it creates a whole host of problems and does 
contribute, for example, to issues like lines.
    The second point I would make, Senator, is that the studies 
show that the voters who vote early are the voters who are the 
most settled on their choice. They are voters who have made up 
their minds, whether you call them the most partisan or the 
most ideologically committed, but one way or the other, those 
are the voters least likely to be moved by any sort of 
anticipated changes in the campaign agenda over the remaining 
days of the season.
    So, on balance, when you weigh what voters expect and what 
they believe they ought to be offered in the way of options for 
voting against the risks that they will be denied an 
opportunity for information they really need for deliberation, 
our Commission concluded that early voting in some form or 
another wins out.
    Mr. Ginsberg. I believe this is an area where the 
individual states really have the best feel for how much early 
voting their voters want. And we did hear across the political 
spectrum from officials of both parties, who say that voters in 
many jurisdictions really appreciate and expect to be able to 
have some options at the time that they cast their vote.
    In terms of resources, it can be more efficient for 
jurisdictions to have early voting and not have to jam 
everything onto Election Day. That is not always true.
    But I think this is one of those areas where we aim the 
report at state and local officials, and they are the ones who 
end up deciding.
    Senator Roberts. Thank you.
    There is an article by Norm Ornstein, and it is back in 
2004, but I feel I still think it is very relevant. The 
headline said ``Early Voting Necessary But Toxic in Large 
Doses.''
    The article forcefully details the dangers inherent in 
early voting, and the points he makes, I think, are at least 
worth considering. I commend it to the attention of all of our 
colleagues.
    I have some other questions, but my time is expired. Maybe 
we can get back on another round, or I could submit them for 
the record.
    Chairman Schumer. Well, thank you, Senator Roberts.
    I have a prior commitment. Senator King has graciously 
agreed to continue to chair the hearing. No problem with the 
second round if it is okay with the Chairman.
    Senator Klobuchar is next.
    And we do have an executive session to nominate two people 
to the Election Assistance Commission--Thomas Hicks and Myrna 
Perez. We will do that off the floor at about noon, when we 
have a series of votes.
    So, with that, let me call on Senator Klobuchar and thank 
Senator King for once again generously agreeing to chair.
    Senator Klobuchar. Thank you very much.
    I first want to start by thanking you for that kind of 
consumer model you have developed here--that people should not 
be waiting in line. And you can look at it in that simple 
fashion.
    But I did want to follow up on something that Senator 
Roberts was asking about, of you, Mr. Ginsberg, and that was 
when you looked at these and studied these things, were people 
trying to disenfranchise people or was it management issues, 
and you said it was management issues.
    And I could see that in our State sometimes when we have 
problems at polling booths. Mistakes are made.
    But I do think that some of the efforts that are going on 
right now in some of the states--you have come out for early 
voting. Yet, North Carolina and Florida recently started 
efforts or enacted laws that would cut back on early voting, or 
North Carolina stopped same-day registration, or some of these 
other things that you see states doing.
    What I am concerned about is the effect of this is to 
disenfranchise voters, whether it is done at the individual 
precinct level or not. This is about laws that are being 
enacted with stringent license requirements and things like 
that.
    So my question is, one, do you think that some of that is 
going on.
    And, number two, just to get the stuff done that you want 
to get done, is there the political will to do it in these 
states and in Congress, when we see the kinds of things that 
are going on in so many of the states and, in fact, 
backtracking from this idea that we should allow more people to 
vote?
    I guess I start with you, Mr. Bauer.
    Mr. Bauer. Senator, two quick responses to your comment.
    The first is we were surprised--maybe not surprised. I do 
not want to overstate the case. But we certainly were struck, I 
will put it this way, by the wealth of testimony around the 
country--Democratic and Republican, in jurisdictions that might 
be thought, you know, much redder than bluer or, in some cases, 
much bluer than redder--at the uniform wish once the lights 
were off and the doors were closed, or in hearings where the 
agenda was well-defined, a wish to see election administration 
in fact be first-rate public administration for the benefit of 
the voters.
    I mean, across the board, that is what we heard.
    And we had, after all, an opportunity at all of our 
hearings for anybody who wanted to be heard to be heard, and so 
we might have had an opportunity then for discordant voices 
then and very partisan voices. But, by and large, the hearings 
and the other discussions we had seemed to have welcomed as an 
opportunity for people to voice their wish that we had an 
election system that we could be proud of.
    Now, granted, outside of many of the issues we discuss, 
there are controversial enactments that the parties are quite 
divided about.
    And I assure you that if Ben and I went off into a room in 
our non-Co-Chair capacity we would wind up brawling about just 
those issues again. Right now, we are in statesmanship mode.
    Mr. Ginsberg. It is sort of painful.
    Mr. Bauer. It is painful, but we are holding out as long as 
we possibly can.
    But that is not the whole story.
    The second point I would make--and this is a critical 
point--is that if we strengthen some of the key administrative 
sort of features of our electoral infrastructure, if, for 
example, we have an understanding that we are going to strive 
toward the 30-minute wait time maximum that we articulate in 
the report, and address some of the issues that lead to long 
lines, then we are going to risk the vulnerability of the 
system to partisan mischief.
    Senator Roberts raised the question, could you have plots 
to sort of create long lines?
    Well, there is more vulnerability in the system to those 
sorts of shenanigans if the system itself is weak, and it will 
break down under pressure.
    If it is strong, it is less likely that it will break down 
under political pressure or by political design.
    So those would be two of the responses I would offer you.
    Senator Klobuchar. Okay. Thank you.
    Mr. Ginsberg.
    Mr. Ginsberg. I think this area is fraught with partisan 
feelings. I think that is unfortunate.
    I think you cannot equate cutting back hours in early 
voting with trying to disenfranchise people.
    The simple fact of the matter is in North Carolina and 
Florida, as an example, no one has suggested ending early 
voting. What people have suggested is that there are 
administrative concerns about having unlimited early voting.
    That is a fair debate to have. It does not entail voter 
disenfranchisement. And we get into sort of nasty rhetorical 
detours on this issue all too often.
    I would also point out that in all the studies that we saw 
early voting does not increase turnout. That is an unproven 
assertion--that having more hours actually does increase 
turnout.
    Senator Klobuchar. But does same-day registration--a 
different matter, of course. Do you think that increases it?
    Mr. Ginsberg. Well, it is a different matter. It is a 
little bit hard to say because the states that you mentioned as 
having early voting do have a history of increased 
participation.
    So I think the laboratory of the states to see if same-day 
registration works or not has not yet been taken on.
    And I think in some of the states where there is low 
turnout same-day registration would create all sorts of 
problems for the administrators that might in fact devolve into 
problems like longer lines if you had same-day registration.
    So I think it is an unproven, untested area so far.
    Senator Klobuchar. For eight years, I enforced our election 
laws and looked back through every single painstaking--every 
single account of double voting. Ninety percent of them were a 
father and son with the same name. And we just saw so little 
fraud in a major county with over two million people.
    And every so often there would be someone who was mad and 
voted twice or a felon who did not know that they were on 
probation and that they could not vote. We had things like that 
happen. It was true.
    But, for the most part, people were not going to go out 
there and try to commit a felony and vote.
    So that is just my general concern, and why I am so glad 
about what you are doing is that I just do not see that as the 
major problem as much as it is that it has become hard for 
people to vote. Or, for some reason they do not want to go 
stand in these lines because they hear about the lines, and 
then they do not want to go out and vote. And that is why I 
appreciate what you are doing.
    And I would just have one more question along the lines of 
your recommendations. That was on the schools. I wanted to know 
more about what they identified as these security issues. Have 
there been incidences at schools?
    We still have a lot of voting at schools in Minnesota, 
obviously, and it is the central place where people feel 
comfortable to go.
    And how do you think we fix it?
    Mr. Ginsberg. I think this area was one of the greatest 
areas of surprise to us when we heard from so many local 
officials that it was a problem.
    The concern is that since the incidents at schools with 
shootings and violence, that having strangers walking around in 
the schools and on the campuses was a source of concern, and 
that is the reason that some states, some localities, are 
cutting back the use of schools.
    It is a tremendous problem because in the majority of 
jurisdictions schools provide the best facilities for voting. 
There is ample space. They are accessible--all the things that 
you want in a polling place.
    So the conflict between the interest of safety to children 
and voters is a conflict that should not be allowed to exist.
    Senator Klobuchar. And you had suggested like having 
volunteers there or something?
    Mr. Ginsberg. Well, to have a school holiday basically, on 
Election Day so that it would be a training day for teachers.
    Mr. Bauer. So that would mean, in effect, you are not 
changing the school calendar; you are not costing them a day, 
because they would take the in-service training they always 
schedule anyway and move it to Election Day.
    Senator Klobuchar. And have it scheduled on Election Day, 
with their time to vote as well put in there--that makes sense.
    Thank you.
    Senator King [presiding]. Gentlemen, thank you.
    I am sure my kids would vote for an extra day off.
    Mr. Ginsberg. Not an extra day.
    Senator Klobuchar. No, they are just changing the in-
service day.
    Senator King. I know. I know. I know.
    Senator Klobuchar. All right. All right.
    Senator King. Senator Schumer mentioned laboratories of 
democracy, and I have often thought that in fact the states are 
laboratories of democracy. The problem is no one reads the lab 
reports and we do not do a very good job of sharing the 
information.
    So I commend you because I think what you have done here is 
exactly that function of collecting data and information across 
the states and sharing best practices. This is principally a 
state and local issue.
    I will--in echoing Senator Roberts, we had a situation in a 
Maine election recently where we had very early voting. I 
cannot remember how. It was a month or more before the 
election. The dynamics of the election changed in the last 
several weeks, and we actually had people going into their town 
offices, trying to retrieve their early vote to change it 
because of developments in the election.
    So I do think that there is a legitimate issue about how 
far in advance because elections do tend to sometimes come into 
focus in the last several weeks.
    And we actually had that experience. I knew people that 
went to their town office and said, how can I get my vote back? 
I want to change it.
    And they could not.
    It was a very distinct situation.
    The long lines issue--how widespread is it? Is it a 
national problem, or is extremely localized?
    You mentioned in one district it was 1 percent of the 
precincts or something like that.
    I mean, are we searching for a Federal solution to what is 
really a very isolated local problem that needs to be dealt 
with by local officials?
    Mr. Bauer, do you want to tackle that?
    Mr. Bauer. Certainly. We are not recommending a Federal 
solution. We are definitely recommending, however, a series of 
reforms and best practices by which state and local governments 
can keep the wait lines down and, hopefully, comply with the 
30-minute standard that we have articulated.
    But we did point out that--and this, by the way, is not 
intended as an adverse reflection in any way on the Election 
Assistance Commission, which has other duties which it has 
performed extremely well. Our report is replete with references 
to the top-flight work that they have done developing best 
practices and disseminating them to the jurisdictions.
    But here, knowing that there is going to be continued 
conflict about its role, there is a structural blockage here 
that simply needs to be addressed. And we cannot wait for some 
day we might hope for, when partisan fevers will subside and 
the Election Assistance Commission will somehow sort of 
experience a new dawn in this particular area.
    The problem that Ben has identified is just simply too 
urgent, and therefore, some answer has to be found.
    Senator King. Senator Roberts, second round.
    Senator Roberts. Mr. Acting Chairman, it occurs to me, 
coming back at this point, that as usual you have focused on 
the very questions that I was going to ask. And our witnesses, 
with their expert knowledge, have already answered them.
    So the question is, do I simply repeat the questions that 
you have asked and have them do it over again or simply ask 
permission to put this article by Norman Ornstein--it is clear 
back in 2004, ``Early Voting Necessary But Toxic in Large 
Doses.'' I am not going to read it to you, but I would commend 
it to the attention of everybody. I think it still is very 
viable today.
    Senator Roberts. And I want to thank the witnesses and 
everybody concerned with this.
    And, since my questions are a duplication of the questions 
already asked, I yield back and I thank you, sir.
    Senator King. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    I have a few more questions about some actual individual 
recommendations you had. The first I thought was interesting 
was the internet feed idea.
    I come from a state where we literally put a camera on 
rising waters on a river, and everyone in the community tunes 
in to see what is exactly happening so they can see it.
    Or, we use this all the time, obviously, for weather. 
People are constantly checking today, right, when the storm is 
coming in tonight.
    And the simple idea that people could, with simple 
technology, check to see what is happening with voting lines in 
their precincts--could you talk a little bit, how you would 
envision that working? Would you be tuning a camera on the 
people, or would you just be giving reports?
    Mr. Bauer. I think what we would envision is that the 
administrators would be continuously assessing wait times and 
then posting accessible reports that citizens could consult as 
they sort of plan out when it would be most convenient for 
them, most efficient for them to vote.
    And, as you point out, Senator, quite correctly, this is 
fairly straightforward. It is one of the ways in which we 
believe we have to be continuously thinking about the 
introduction of technology to support the voting process.
    Senator Klobuchar. So you are just thinking election 
administrators in each precinct saying that there are no wait 
times or something like that?
    Mr. Bauer. Twenty minutes, half an hour, forty-five 
minutes, correct.
    Senator Klobuchar. Okay. Then you had another one on poll 
working training. You spent a lot of time discussing the 
importance of that and professional workers operating in the 
polling places and training standards for poll workers. How 
would this work?
    Mr. Ginsberg. Again, it is something that really can be 
talked about by the state but implemented by either the state 
or local jurisdictions.
    And poll workers are the point of contact for most voters. 
So having well-trained poll workers is extremely important to 
the smooth functioning of the system and just the way voters 
feel about voting. It comes down to training and whether that 
is a top priority or not with local administrators--to be able 
to recruit poll workers.
    One of the laments we heard from elections officials was 
how difficult it is to recruit poll workers, to find enough to 
be in the polling places.
    So we have some suggestions about using college students 
and even high school students. Apparently, high school students 
are more reliable in showing up than college students. Go 
figure.
    And, to encourage businesses to allow their employees to be 
able to help out as poll workers on Election Day and then to 
have sufficient training.
    Senator Klobuchar. Your report also talked about the 
importance of access to information in languages other than 
English, including ballots in other languages, outreach to non-
English media outlets, bilingual poll workers.
    I know we have made some efforts in Minnesota with voters, 
with Asian and Pacific Islander groups.
    Why are efforts to make voting accessible to these 
different groups so important?
    Mr. Bauer. We want to stress, and have stressed throughout 
the entire report, that the broader theme that the Commission 
struck--and I think it is well within its charge--was improving 
the voter experience.
    For language minority voters to go to the polls and to find 
that there is nobody there to help them, who can speak their 
language successfully, is simply just not consistent with 
offering the kind of experience that all of our voters deserve.
    And, as we pointed out, there is support that by Federal 
law this Congress has tendered to these voters, and the 
statutes that provide for this protection are not drawing 
universally consistent compliance.
    And so, in a variety of ways, both in the localities 
recruiting--systematically recruiting--poll workers with 
language capability and then on the more--sort of on the next 
scale, next point up the scale, devoting their efforts in 
compliance with the Voting Rights Act provisions, protecting 
language minorities, there is a significant amount more to be 
done. And it is absolutely critical to reflecting respect for 
the voter.
    Senator Klobuchar. One of the things you also talk about in 
here is the people serving overseas in our military and how 
having online registration materials would be so helpful to 
them. I think that it makes a lot of sense. But, do you want to 
explain that?
    Mr. Ginsberg. We found inconsistencies among the states in 
the sort of usefulness of their web sites for people serving in 
the military, especially people serving in the military 
overseas or living overseas. And so there are some states that 
seem to have more robust sites than others.
    Web sites are kind of the easiest way to communicate if you 
are overseas or in the military, much more so than a postal 
service or even a direct delivery system. And so we would 
encourage at least the provision of registration materials on 
state web sites to be enhanced in the states.
    Senator Klobuchar. Okay. Thank you very much.
    Senator King. I want to follow up again on the question of 
certification because you both identified there is a kind of 
coming-at-us wave of replacement of machines with new 
technology, and yet, if the certification system is broken, 
that could be a real problem in 4 to 6 to 10 years.
    Is the problem the structure and the lack of functionality 
of the EAC, or is it the idea of Federal certification itself?
    I see those as two separate issues.
    In other words, if the EAC tomorrow became fully 
functional, would this open the process and we would take care 
of this in an expeditious manner, or should we seriously 
consider saying, hey, this is a state and local responsibility; 
why do we need Federal certification?
    Mr. Ginsberg, your thoughts?
    Mr. Ginsberg. It is an area where a Federal certification 
process makes sense in which the states, in some ways, desire 
it. There certainly needs to be a central body to be able to 
judge machines and to give the states some comfort in the 
quality of machines.
    Senator King. Like UL, Underwriters Laboratories for 
appliances.
    Mr. Ginsberg. Well, perhaps something like that. Again, the 
state election directors forming a group was the model before 
the EAC.
    I would agree that the EAC and its functionality is a 
completely separate question wrapped up in a lot of other 
different things.
    Senator King. But it is a question that is important 
because if it does not get fixed then we do not get the 
certification, right?
    Mr. Ginsberg. Correct. So it should be fixed.
    Personally, I am partial to the state election directors 
solution for it. I think that could happen much more 
expeditiously, with kind of a greater need. There would be a 
Federal role in terms of the expertise that would need to be 
brought to it, but that is not necessarily through the current 
certification process.
    Senator King. Mr. Bauer, your thoughts on my question?
    Mr. Bauer. Yes, I think you posed the question exactly 
correctly.
    I mean, I think that there are--it is possible to confuse 
the issues.
    I do believe that we would not have arrived at this 
conclusion, I do not think, and made this recommendation if the 
EAC in this particular area had not been in somewhat of a state 
of paralysis.
    And so, if your question is had this never developed and 
the EAC was sort of fully functioning, could it discharge this 
role successfully, the answer in my judgment is yes.
    We had to take into account the reality that that may not 
be prove to be the case. And we cannot wait for a solution that 
may not be available to us in the political or public policy 
sphere, or in the political sphere, and so other alternatives 
have to be developed on a fairly urgent basis.
    Senator King. Would it take legislation for those 
alternatives because right now isn't the certification--I mean 
it is just behind the dam, right?
    I mean, it cannot happen.
    What do we do?
    This is a problem that is going to come at us in the next 
two to four years.
    Mr. Bauer. I think that that is where--my Co-Chair will 
correct me if I am wrong. I think that that is part of the 
discussion that I think needs to take place right now, which 
is, what steps should be taken and how could they be taken to 
fully develop out those alternatives?
    We indicated only in broad brush strokes what those 
alternatives might be, but we did not grapple with the details 
in this report.
    Senator King. Mr. Ginsberg suggested he thought an 
alternative where the state directors created a certifying 
agency would be an acceptable alternative. Would that be 
acceptable to you, or do you think this has to be a Federal 
responsibility?
    Mr. Bauer. I would certainly be prepared to consider all of 
the alternatives.
    I would not want any position that we take to be--again, 
one of the concerns we have always had is that it would be 
taken to be sort of a damning sort of conclusion about the EAC 
and its future. That is not our intention, certainly not my 
intention.
    But I think any alternative that promises to be the most 
effective and efficient alternative is one I certainly would 
consider.
    Senator King. No, my question is even assuming the EAC is 
perfectly functional, does this need to be a Federal 
responsibility, I guess is the question I am asking.
    Mr. Bauer. I do not know that I would define it as a 
Federal responsibility by necessity, but I am also not prepared 
to say that there is an alternative that--I am not prepared at 
this point because I am not sure I have studied it closely 
enough or reached a conclusion in my own mind, which of the 
alternatives, the one Ben suggested or potentially another with 
more Federal involvement, might be the most effective.
    All, in my mind, that we need to do is sort of focus on 
what would be most effective, and on that I do not have a 
conclusion.
    Senator King. Well, we have to do something.
    I mean, the alarm bells are ringing.
    Mr. Bauer. Yes.
    Mr. Ginsberg. If I might, Senator, the way the system works 
is that different states have different standards. Almost 
inevitably, they say the machines that are used in their state 
need to have been certified by, right now, the existing 
structure.
    It is not that there is Federal legislation or a Federal 
role that particular blesses a particular machine when it gets 
done.
    I mean, there is still state legislation that refers back 
to a central testing facility for the machines to be sure that 
they are worthy of use. That can or cannot be a Federal 
function--that group that is judging the quality of the 
machines.
    Senator King. Thank you.
    Mr. Bauer. Or, if I may, Senator, it could be a function 
that is not federally directed but federally supported.
    Senator King. Right. Well, thank you both for your thoughts 
on this.
    And, if you have additional thoughts on this important 
issue, please file them with the Committee. I would appreciate 
having them.
    Any other questions, Senator Klobuchar?
    Senator Klobuchar. No.
    Senator Klobuchar. On behalf of the Committee, I would like 
to thank both of you, Mr. Bauer and Mr. Ginsberg, for your 
important testimony and particularly for your work on this 
Commission. It is important. It is important to the people of 
America. It is important to our processes. It is important to 
who we are as a country.
    And I really appreciate the work that you have done on 
this, and thank you very much.
    This concludes the panel for today's hearing. On behalf of 
the Rules Committee, I would like to thank all of our 
witnesses.
    Without objection, the hearing record will remain open for 
five business days for additional statements and post-hearing 
questions submitted in writing for our witnesses to answer.
    I want to thank my colleagues for participating in this 
hearing and sharing their thoughts and comments on this 
important topic.
    This hearing is now adjourned.
    [Whereupon, at 11:12 a.m., the Committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                   HEARING--ELECTION ADMINISTRATION:.
        INNOVATION, ADMINISTRATIVE IMPROVEMENTS AND COST SAVINGS

                              ----------                              


                       WEDNESDAY, MARCH 12, 2014

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:51 a.m., in 
Room 301, Russell Senate Office Building, Hon. Charles E. 
Schumer, chairman of the Committee, presiding.
    Present: Senators Schumer, Warner and Roberts
    Staff Present: Jean Bordewich, Staff Director; Stacy 
Ettinger, Chief Counsel; Veronica Gillespie, Elections Counsel; 
Ben Hovland, Senior Counsel; Abbie Sorrendino, Legislative 
Assistant; Phillip Rumsey, Legislative Correspondent; Jeff 
Johnson, Clerk; Benjamin Grazda, Staff Assistant; Mary Suit 
Jones, Republican Staff Director; Shaun Parkin, Republican 
Deputy Staff Director; Paul Vinovich, Republican Chief Counsel; 
and Rachel Creviston, Republican Professional Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. The Rules Committee will come to order. 
Good morning. You cannot say good morning before you say that 
the Rules Committee will come to order, I have learned.
    Anyway, this hearing is the Committee's second in a planned 
series on improving the administration of elections. Today's 
hearing focuses on innovation, administrative improvements and 
cost savings. Last month, the Committee met to hear from the 
bipartisan co-chairs of the President's Commission on Election 
Administration. The president established the Commission to 
study how elections are administered across the country and 
identify best practices for improving our elections. And as we 
heard from two very bright and very thoughtful co-chairs, Bob 
Bauer and Ben Ginsberg, there are a number of improvements that 
can be made as to how elections are administered, and they had 
some bipartisan suggestions.
    As Americans, we are and should be proud of our Democratic 
traditions. Expansion of the voting franchise over the past two 
centuries reflects the best of America. And part of being 
American is recognizing the importance of giving a voice to all 
Americans to participate in our democracy, and that is why we 
plan to introduce legislation that builds on the best practices 
recommended by the Presidential Commission on Election 
Administration.
    American voters deserve an election system that allows 
every eligible American who wants to participate in our 
democracy the opportunity to do so without unnecessary burdens. 
Common sense reforms that utilize our existing technology can 
make our election administration more voter-friendly while 
increasing efficiency and reducing costs.
    Many of our colleagues have been very interested in this 
issue, and at the top of the list are the two senators 
testifying first on our panel--they are Senator Boxer and 
Senator Coons. They are committed to improving the 
administration of elections and to talk about their 
legislation, very thoughtful, good legislation that each of 
them has offered.
    Senator Boxer is here to discuss the Lines Interfere with 
National Elections Act, known quite coincidentally as the LINE 
Act, which seeks to create accountability and ensure voters 
never have to wait more than 30 minutes to vote. This goal, 
also highlighted by the Presidential Commission, is an 
important one for which we should strive. I think it is a great 
idea. Nothing pains me more than to see people on a cold 
November night waiting to go home, put food on the table, 
relax, waiting in the cold, in line, that goes--and we have it 
in my home neighborhood and my home borough. So I think Senator 
Boxer's legislation is needed and thoughtful.
    Senator Coons was gracious enough to join us today to 
discuss the Fair, Accurate, Secure and Timely Voting Act, known 
as the FAST Voting Act, coincidentally as well. The bill 
creates an incentive for race-to-the-top structure to encourage 
states to adopt many of the best of the best practices, and I 
think that is a great idea too, to have the states compete to 
do better and give them a reward for doing better, work very 
well and race to the top. And I think it will work very well in 
elections too where you have the same idea. Federal interest 
but basically state laws govern.
    At the Presidential Commission, we heard an overview of the 
reforms, and today we are going to hear a more in-depth 
explanation of the benefits of online registration and 
electronic poll books from our second panel of witnesses, which 
includes state and local elected officials. I look forward to 
their first-hand accounts of how technological upgrades can 
help in providing good customer service to voters, and we 
should regard the voters as customers, as well as cost savings, 
by eliminating unnecessary data entry. These are the types of 
common sense, cost-effective reforms we hope to move forward in 
this Committee.
    So at the end of the day, I am going to ask that the rest 
of my statement be read into the record. It talks about the 
kinds of things that the Committee is going to pursue.
    [The prepared statement of Chairman Schumer was submitted 
for the record:]
    Chairman Schumer. But I want to get right to our witnesses, 
who have been patient and on time. So I will ask Senator 
Roberts if he wishes to make any opening remarks, ask Senator 
Warner if he does, and then we will go right to the testimony.

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. Well, thank you, Mr. Chairman. Sorry I am 
late, and special greetings to Senator Boxer and Senator Coons.
    I appreciate your calling this hearing and thank the 
witnesses for their appearance here today. We will hear from 
folks representing all levels of our government, from our 
Senate colleagues, state and local election officials as well. 
I appreciate their commitment to improve our election process.
    This is our second hearing to consider the recommendation 
of the President's Commission on the Election Administration. 
The Commission recognized that reforms must be implemented at 
the state and local level, and that is where recommendations 
were focused.
    Wisely, the Commission did not call for federal legislation 
to implement their recommendations. Our Committee can call 
attention to the Commission's recommendations and promote their 
adoption, I think, without seeking to impose and through 
enactment of federal legislation, with all due respect to my 
colleagues.
    I know my colleagues here today have legislation that seek 
to do just that, but I think the Commission found, and I agree, 
that for these reforms to be effective, they must be adopted by 
and tailored to the needs of the local communities that will be 
responsible for implementing them. Imposition of federal 
requirements, though perhaps well intentioned, could make 
things worse rather than better, as we have seen with the 
Federal Voting Machine Certification Program which has stifled 
innovation and increased costs while actually impeding 
utilization of the best, most modern technologies.
    I am pleased to see that states are adopting many 
recommended improvements on their own, and seen very positive 
results. I hope we will not advance any federal legislation 
that could hinder that progress.
    With that, Mr. Chairman, I want to thank you again. Thank 
the witnesses for appearing here today, and I look forward to 
their remarks.
    Chairman Schumer. Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Mr. Chairman. Thank you for 
calling this hearing, and looking forward as well to the 
testimony of Senator Boxer and Senator Coons.
    I just want to point out one of the things that drives such 
interest for me in this issue is that we can and must do 
better. In Virginia in 2012, we saw folks wait up to five hours 
in line in America to vote. That is just unacceptable. We saw 
in Fairfax County, in a precinct in Skyline, folks waiting 
until about 10:00. We saw in Woodbridge, Virginia folks waiting 
until 10:45, and I would say our voting hours end at 7.
    We saw lines, similar lines downstate in Chesapeake. And 
the idea that this should be accepted as a status quo is 
totally unacceptable to me. Part of this may be ratios of 
machines to voters. Maryland, I think they are at 1 to 250; 1 
to 750 in Virginia.
    So those are things that probably should be dealt with at 
the state level. But one of the reasons why I am such a 
supporter and original co-sponsor of Senator Coons' bill is 
that this does not take the one-size-fits-all federal approach 
but says, let us go ahead and put some incentive dollars out 
there for states to compete on best practices; how we can 
assure that we get this fair, swifter approach. I think my 
staff pointed out, if we can find ways to deliver beer to ice 
fishermen in Michigan in a timely manner in tough conditions, 
we ought to be able to find a way, through using technology and 
improve systems, to not have folks wait three and four hours to 
vote in America at this point.
    So I appreciate you calling the hearing, and I know we are 
a little pressed by time, so anxious to get to witnesses.
    Chairman Schumer. Thank you. And now let us call on our 
witnesses. We are honored to have Senators Boxer and Coons with 
us. We share their interests--or I do--in finding ways to 
improve the administration of elections. I do not agree with my 
dear friend Senator Roberts that we do not need any federal 
legislation. There are things where the Federal Government can 
improve things. But that is why we have hearings here.
    So I will first call on Senator Boxer, then Senator Coons, 
to proceed as they wish. Their entire statements will be read 
into the record.
    Thank you so much for coming and caring about this vital 
American issue. Senator Boxer.

   STATEMENT OF THE HONORABLE BARBARA BOXER, A UNITED STATES 
              SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you, Mr. Chairman, Senator Roberts, 
Senator Warner, my friends. I am here very briefly--because I 
know you have a lot of other things you need to do--to talk 
about a bill that I introduced with Senator Bill Nelson. I am 
here to talk about a bill that Senator Bill Nelson and I worked 
very hard on called the LINE Act of 2014, S. 2017.
    The right to vote is something we all share, regardless of 
what state we come from. It is really the essence of our 
democracy. It is really a gift that we inherited from our 
founders. But when you make people wait in line for hours and 
hours and hours, and you force them to choose between voting or 
perhaps caring for a sick child or going through severe pain as 
they wait in line, or perhaps even risking their jobs if they 
wait in line, and so many other reasons why people suffered 
through this last election, I think their right to participate 
in our democracy is fundamentally denied, because many of them 
did give up. We know that.
    So they say a picture is worth a thousand words, and I have 
brief words for you and I have two photos for you. Here is what 
we witnessed in states across the nation on Election Day 2012. 
If you take a look at this picture--and I can give you smaller 
versions of it--this is Florida, Miami, people waiting for 
hours and hours to vote. And here are a couple of quotes from 
them. Mr. Blake Yagman said, quote, ``I was there for about 
three and a half hours. Each of the lines was four to five 
hours. It took my mom eight and a half hours to vote,'' 
unquote.
    This gentleman is severely hypoglycemic. He actually--
excuse me for using this word because it is not a nice word--he 
spent several hours actually vomiting after standing in the sun 
for so long. Ultimately, he had to give up. So this is a 
gentleman who we know about, and I am sure, Senator Roberts, he 
would be happy to come up here and explain how painful it was 
for him.
    And who could forget 102-year-old Florida voter Desiline 
Victor, who waited in line for three hours to cast her ballot--
102. She almost turned 103 waiting in line. She persevered--
what a patriot--until she got to the ballot box. But many like 
her, and younger than her, gave up.
    Now, the second one is going to be close to Senator 
Warner's heart. At College Park Elementary School in Virginia 
Beach, Virginia, the line went all the way from that basketball 
court all the way into the building around here. It is just 
unbelievable. They were heart breaking stories. At this 
precinct, Virginia voter Mary Atkinson said, and I quote, 
``Some of us have been out here four hours. I have been here 
three and a half hours. I had knee surgery and my knee is 
killing me,'' unquote. Another Virginia voter, Robin Marohl 
said, quote, ``I cannot tell you how many people I have counted 
leaving and saying, 'the heck with it. I am not going to vote 
because I cannot get in there,' '' unquote.
    Unbelievably, many voters in Florida, Virginia and other 
states were still standing in line, as Senator Warner 
described, hours after the polls closed and into early 
Wednesday morning. Mr. Chairman and Ranking Member and Senator 
Warner, we should not apply survival of the fittest to the 
right to vote. You should not have to be a marathon runner. 
That is not what our founders envisioned.
    So when we force people to stand in line for hours, our 
right to vote becomes ephemeral. It is not really a right if 
you cannot make it. And that is why Senator Nelson and I wrote 
this bill. Let me quickly explain what it is, and I hope when 
you consider legislation, you can take this idea. I mean, I am 
not wedded to every word, but what we said was, we had this 
test case in the last national federal election, and we had all 
these problems in certain places. In other places, it was 
smooth as silk.
    So what we say is if you had a situation where voters 
waited in line longer than 30 minutes, and this is an idea that 
the bipartisan Presidential Commission came out with really, 
that you should not have to wait more than 30 minutes. The 
Attorney General and the Election Assistance Commission should 
identify those jurisdictions where voters waited a long time--
we say 30 minutes; it could be an hour--and then they should 
talk to the state, talk to the county, and come up with a 
common sense plan to minimize waiting times at those 
jurisdictions, because they failed the test.
    Now, if there is a problem with Senator Roberts--and I 
mean, I know Senator Roberts and I know he has a problem with 
this idea of a federal law. But if you crafted it in such a way 
that it is not one size fits all, that the local people and the 
state people come up with their own ideas, this could be a 
really good way to bring experts together to fix the problems 
where they occur. So it is not rocket science. Either we have a 
right to vote or we do not have a right to vote.
    I am so proud of this Committee on all sides for holding 
these hearings, because as the senator said it breaks his 
heart. I will tell you something--I just got sick looking at 
this--on the one hand proud of our people, that they would put 
up with this, on the other hand, knowing full well that some of 
them, because of their age, because of their circumstance, 
because of illness, just could not do it, could not make it, 
and lost that right to vote.
    So I stand by ready to help you on both sides of the aisle 
in any way. We can use our common sense to make this thing get 
better, because this is not what America should look like on 
election night.
    Thank you so much.
    [The prepared statement of Senator Boxer was submitted for 
the record:]
    Chairman Schumer. Thank you, Senator Boxer, for your 
excellent testimony. These pictures are worth a thousand words.
    Senator Boxer. I will give them to you as a gift.
    Chairman Schumer. There are a thousand people, he says.
    Senator Boxer. Yeah.
    Chairman Schumer. Four thousand in one place, I guess. But 
it is an amazing thing that Americans stand in quiet dignity on 
cold nights and wait and wait and wait, and it should not be.
    Senator Roberts. Mr. Chairman, could I just go on record 
that I am opposed to long lines? I mean, I am not----
    Senator Boxer. That you are opposed to long lines?
    Senator Roberts. I am opposed to long lines and people 
waiting----
    Chairman Schumer. He is for cell phones only.
    Senator Roberts [continuing]. An inordinate amount of time. 
I just think we can settle that in Tallahassee better than 
Washington. But that is all I am saying.
    Chairman Schumer. Senator Warner knows----
    Senator Boxer. I hear you, and I think we can craft 
something that will allow that to occur if we are smart about 
it. I know that my colleagues, very pragmatic, success-oriented 
people, are sitting in front of me, and I think you can figure 
out how to do it without undue intrusion by the Feds.
    Senator Warner. I know we need to get to Senator Coons and 
the next panel, but I just want to say, you see this in a place 
like Virginia where we have not always had the best record on 
voting and protecting voting rights. I mean, this becomes in 
effect a de facto poll tax.
    Senator Boxer. Yeah.
    Senator Warner. Because those who can afford to stand in 
line for hours can do it. Those who cannot afford, cannot. And 
that is just not the way we should be operating.
    Senator Boxer. Well, that is definitely another aspect. I 
never thought of it that way. It is an endurance test and it is 
also a financial test. So whatever it is, we have to make it 
better, I think.
    Chairman Schumer. Thank you. And let us hope we can all 
work together to come to an agreement on how to deal with this.
    Senator Boxer. I stand by to help.
    Chairman Schumer. Senator Coons, who also has an excellent 
idea, that is cognizant of Senator Roberts' concerns that one 
size does not fit all. Senator Coons.

STATEMENT OF THE HONORABLE CHRIS COONS, A UNITED STATES SENATOR 
                   FROM THE STATE OF DELAWARE

    Senator Coons. Thank you Chairman Schumer, and thank you 
Ranking Member Roberts, for inviting me to testify. And thank 
you especially to Senator Warner for his leadership and 
advocacy for the legislation I am here to present on, the Fair, 
Accurate, Secure and Timely--or FAST--Voting Act.
    It is built upon the idea of a federally incentivized 
competition between states, incentivizing and rewarding those 
states that make substantial improvements to the administration 
of their elections in order to make voting faster and more 
accessible. It encourages states to put forward their best 
ideas, and then through a competitive grant program, rewards 
those with the best proposals that have the greatest impact 
with the seed money to make it happen.
    The critical metrics for this evaluation are clear. In 
fact, the bipartisan Presidential Commission on Electoral 
Administration, which you just heard from, highlights the need 
for all states to improve in a variety of areas which are also 
enumerated in this FAST Voting Act: Online voter registration 
to enhance the accuracy and efficiency of voter rolls; early 
voting by mail or in person so all people who work can also 
vote; improving the ability of our deployed members of the 
Armed Forces and other military and overseas members to access 
ballots and voting materials; electronic poll books for greater 
accuracy; enhancing the training of poll workers; and 
addressing the needs of voters with disabilities and limited 
English proficiency.
    We all know what needs to be done. It is time to work 
together and get moving. These November 2012 elections were a 
critical wakeup call. Tens of thousands of Americans, 
Republicans and Democrats in states both red and blue, saw 
their fundamental right to vote for the candidate of their 
choice limited by exceptionally long lines and confusing 
procedures.
    We saw errors in voting rolls in Ohio, delays in counting 
ballots in Arizona. We saw a waiting line, as Senator Warner 
referenced, of nearly five hours in Virginia, and more than 
eight hours in Florida. There are documented instances of 
voting machines recording an opposite vote of that cast in 
states across the country, from Colorado to Pennsylvania. 
Frankly, this is unacceptable.
    Voting is the ultimate, most foundational civil right in 
our free society, and we should treat it accordingly. When a 
polling station runs out of ballots, our friends and neighbors 
are effectively disenfranchised. When the lines at a polling 
station are too long, citizens are forced to choose between 
losing their job and forfeiting their right to vote.
    As the chairman of the Africa Subcommittee on Foreign 
Relations, I have helped lead efforts by our country to 
encourage dozens of emerging democracies to make all the 
changes recommended by the presidential commission. It is 
frankly, to me, an embarrassment that we, the oldest 
functioning democracy in the world, cannot make these simple 
fixes in a way that allows the states to lead in implementing 
reforms.
    It does not have to be this way. We can pass the FAST 
Voting Act to accelerate the adoption by states of efficient 
and effective practices for the administration of elections. 
While many states are struggling, there are also some good 
examples to follow. Not surprisingly, I offer my home state of 
Delaware. We have an exceptional state election commissioner in 
Elaine Manlove, who has helped lead the way through her 
tireless efforts. An instructive example is her leadership on 
eSignature, or electronic signatures.
    eSignature is a voter registration method that could be 
implemented in registration sites across the country to 
streamline the transmission from the Department of Motor 
Vehicles to the voter rolls, the selection of party and 
registration. In the old system--the need for a signature, 
which was accomplished on a paper application, which would then 
be collected from DMV locations, transferred to the Election 
Commission, reviewed and entered by another person and then 
archived--has been replaced with an electronic signature 
available on exactly the same interface, collected at the DMV, 
transmitted and stored directly and error free in voting rolls. 
Because of Elaine Manlove's leadership in Delaware, Delaware 
voters experience fewer errors, less wait time and lower 
operational costs.
    We owe it to our fellow citizens to help spread the lessons 
of state innovation in dealing with the challenges of election 
administration. As I mentioned earlier, as the oldest currently 
functioning--continuously functioning democracy in the world, 
we are sadly showing our age in that with these instances in 
the 2012 elections, we have failed to make the voting franchise 
fully and freely accessible to all who seek it. We cannot stand 
idly by as our elections become a ritual in embarrassment. Let 
us work together, use competition between the states rather 
than one uniformed federal mandate, and demonstrate how our 
states can conduct the elections our constituents deserve.
    I look forward to working with this Committee, to the 
Ranking and to the Chair, and I am grateful to Senator Warner 
for his early leadership both in voting and on this bill in 
particular. Thank you, Mr. Chair.
    [The prepared statement of Senator Coons was submitted for 
the record:]
    Chairman Schumer. Thank you, Senator Coons. I think it is a 
very, very creative idea to deal with this issue and maybe 
thread the needle between those who want to see the states have 
complete control and the Federal Government encourage the best 
practices.
    I thank both--I do not have any questions. I know we are 
going to have votes at 10:30. We want to get to our second 
panel I would like to get to.
    Do you have any questions, Senator Roberts?
    Senator Roberts. I was going to ask--Senator Warner said he 
had a very distinguished career as governor at Virginia. What 
initiatives did you think would really help out there with 
regard to the lines that you are experiencing or a poll tax on 
people when they are voting, or what you said would amount to? 
But I know that you probably really focused on this. Can you 
single out just a couple of things?
    Senator Warner. Yeah. I would say that what we have seen in 
Virginia was this problem dramatically increase over the last 
decade plus, because we have not changed our ratio of machines 
to people, number one. In Virginia, we have elections every 
year. And then we have seen this particularly--and 
unfortunately, since Virginia has a one-term governor 
restriction, I was not able to stay as governor through the 
Obama cycles. But you saw a dramatic upsurge in participation 
in 2008 and '12, and our system did not keep track, did not 
stay in track. So----
    Senator Roberts. Was that mostly in Northern Virginia? 
Because most of the people were in rural communities.
    Senator Warner. No. The picture that was worth a thousand 
words--Senator Boxer only got 200 words in on describing the 
picture--was actually from Virginia Beach. So we had this in 
areas across the state.
    Senator Roberts. I see. I appreciate that. I am fine.
    Chairman Schumer. Thank you. Thank you, Senator Coons. 
Great testimony. Senator Warner has graciously agreed to chair 
the second panel, so we are going to turn it over to him.
    And I apologize to the second panel. I will have to excuse 
myself, but I will assiduously go over your testimony.
    Senator Warner [presiding]. Could we go ahead and get the 
second panel up here? And with apologies on the front end, 
because we do have a series of votes starting at 10:30, which 
means we will probably have to leave here at 10:40. So I am 
going to ask the panel as they quickly get to the front--all 
three of the panelists, please quickly get to the front--that 
we keep your testimony to five minutes apiece so that hopefully 
Senator Roberts and I will get a chance to get in a couple 
questions.
    I am going to dispense with the long introductions. Again, 
apologies since we got started a little late. But we have Ms. 
Linda Lamone, who is the state administrator of elections from 
Maryland. We have Ms. Tammy Patrick, who is the federal 
compliance officer for Maricopa County Board of Elections in 
Arizona. And Senator Roberts, I actually have the individual 
who served partially as the head of state board of elections 
when I was beginning of my term of governor and has moved on to 
Fairfax County; has some ideas as well--Ms. Cameron Quinn, who 
is the general registrar for Fairfax County in Virginia--but 
she was also chair of the State Board of Elections.
    Senator Roberts. I appreciate that very much. Thank you. I 
am sorry. I apologize.
    Senator Warner. Let us get started.

STATEMENT OF LINDA LAMONE, ADMINISTRATOR OF ELECTIONS, MARYLAND 
                    STATE BOARD OF ELECTIONS

    Ms. Lamone. Thank you very much. Linda Lamone, state 
administrator of elections for the State of Maryland. I 
appreciate the opportunity to testify here today, and in light 
of your all schedule, I will try to be as brief as possible.
    I am here to talk today about how implementation of 
electronic poll books in Maryland has improved the election 
administration process. I want to note at the beginning that 
under Maryland law, I am required to maximize the use of 
technology in election administration, and to that effect, the 
governor and the General Assembly has directed me, and I have 
implemented, integrated candidacy and ballot databases, a 
statewide touch screen voting system, a statewide voter 
registration system.
    We offer online registration and a campaign filing system. 
And we have introduced technology at one of the most public 
parts of the voting process, the check-in process. The check-in 
process in Maryland, at least, has historically been a very 
paper-driven and manual process. And I have with me today, if 
the members of the Committee or the staff would like to see 
them, a printed paper registrar that used to be used, as well 
as an electronic poll book that we use in Maryland to check the 
voters in.
    With the paper process, you had this huge book of thousands 
of pages perhaps and the poll workers would have to leaf 
through them and find the voter's name and hope they checked 
off the right one--Junior or Senior, so forth--manually mark 
the registers and then manually program the cards that told the 
voting system what ballot the voter should get. And there were 
often mistakes made and voters got the wrong ballot, 
Republican, Democrat, so forth in the primaries, and then, of 
course, everything had to be manually tabulated.
    With the introduction of the electronic poll books, it 
streamed the check-in process hugely, provided automated voter 
counts, real time instructions for the poll workers, and most 
importantly, we did not have to have alpha line breakdowns. The 
poll books captured data that helped us a lot both in tracking 
patterns, i.e., what time did the polls open, what time did the 
voters vote, and gives us information on our poll worker 
performance.
    We implemented the system in 2006. We currently have 6,800 
electronic poll books that will be used in 1,700 polling places 
and 63 early voting centers this year. We chose a poll book 
that works with our direct recording voting system, touch 
screen. As you all probably know, the poll book itself programs 
the card that tells the voting system what ballot to present to 
the voter.
    While there are significant Election Day benefits for poll 
books, it would be impossible to conduct early voting, at least 
the way we do it in Maryland, with the same level of integrity 
without the electronic poll books. For example, if we were to 
use the paper registrars in Maryland, the judges would have no 
information if a voter is not in the right polling place. With 
the electronic poll books, we have all 3.8 million registered 
voters programmed on to each poll book.
    So if the voter goes to the wrong precinct, our poll 
workers can tell him or her where they should go, not literally 
but really--and as I said, equally important, there is no need 
to have the alpha check-in, so that you might have a line from 
A to C and no line and then one of the others, and people get 
very frustrated by that.
    During early voting, our poll books are all connected 
throughout the State of Maryland so that when a voter checks in 
at one early voting center, the poll books throughout the state 
know that that voter has now voted and helps protect the 
integrity of the system.
    Senator Warner. What was the cost of the system?
    Ms. Lamone. The cost of the system was, when we bought 
them, I think it was about $3,000 a piece. Baltimore County, 
for example, has 847 of them, so they spent about 2.6 million. 
Now, they were expensive; I admit that. But how do--what is the 
cost for integrity and accuracy of the election, I guess is the 
response.
    So we have the virtual private network. It protects the 
integrity. With the paper-based system, you might be able to 
eventually detect that someone voted twice, but you would never 
be able to prevent it. With the poll books, you can do that.
    And then Montgomery County, for example, which is our 
largest jurisdiction, all nine of the early voting centers have 
complete lists of all the 625,000 registered voters in 
Montgomery County. So there again is another benefit of the 
poll books. Another one is the--in a jurisdiction in Maryland, 
a gubernatorial primary there can be over a hundred different 
ballot styles in each precinct, and with the poll books, you 
guarantee that the voter is getting the correct ballot style.
    The other real big advantage--and I see my time is running 
out--is it helps the efficiency of the canvas, because after 
Election Day, we load the entire results from check-in voters 
into our central system, and that is available to the counties 
for the canvas. So when they are doing their absentee and 
provisional, they know exactly who has voted--either early 
voting or on Election Day--and therefore, either not count the 
absentee or not count the provisional ballot. Without the poll 
books, that would be very difficult.
    The other real value to them----
    Senator Warner. Can you wrap up in a minute, because we 
have a 10:30 fairly hard stop. We do not get to wait three 
hours in line voting in the Senate. We have to actually vote in 
a timely fashion, and I want to make sure we get all of the 
testimony in.
    Ms. Lamone. One of the early concerns that we had was how 
would the poll workers adopt to the poll books, and we found 
that when we gave them some training, they just simply love 
them, absolutely love them. And with that, I will stop.
    [The prepared statement of Ms. Lamone was submitted for the 
record:]
    Senator Warner. Ms. Patrick.

    STATEMENT OF TAMMY PATRICK, FEDERAL COMPLIANCE OFFICER, 
                   MARICOPA COUNTY ELECTIONS

    Ms. Patrick. Thank you, Senator Warner. It is an honor to 
be here today to discuss voter registration modernization. I 
was honored last year to be appointed by the president to the 
Presidential Commission on Election Administration, and in 
January, we issued our report on recommendations to improve the 
voting experience in America, which we recommend online voter 
registration, sound data collection, and analysis.
    In 2007, I worked with the Pew Center on the States and the 
Brennan Center and studied online voter registration, its cost 
efficiencies and quality. The result of that collaboration is 
the oft cited 80-cent processing cost savings for every online 
voter registration that we receive. And we average--325,000, or 
70 to 80 percent of our total voter registrations, annually 
come online.
    After the aforementioned reports were published, I spoke to 
election officials and state legislatures around the country 
about online registration. And I have included my testimony, in 
my written testimony, a presentation that I gave to the 
National Conference of State Legislators at their national 
conference in 2012.
    There are a couple of points I would like to highlight from 
that presentation. In addition to the cost savings, there are 
the benefits of access, accuracy and improved security. Voter 
registration, particularly for states with mobile ready 
systems, is now available any time anywhere for voters. 
Election administrators lament when voters do not keep their 
information current, but it is incumbent upon us to reduce 
every possible barrier to the voters doing just that.
    With the saturation of internet connectivity with smart 
devices, access to this channel of voter registration is no 
longer isolated to a small segment of our population. There are 
additional quality benefits to the voters themselves entering 
in their information, first, no more interpretation of 
illegible handwriting. Secondly, should a keying error occur, a 
voter is more likely to notice that their information has been 
entered incorrectly.
    In a paper-based system, applicants complete a form replete 
with personal information: their signature, date of birth, 
Social Security number, and then hand it over to a complete 
stranger. The registration of voters is a noble task, and I do 
not mean to denigrate it in any manner, nor imply that 
registration drives should be curtailed. However, we need to 
improve the process and capitalize on these efforts.
    Currently, most forms are turned in on the final deadline 
for voter registration. But if registration drives submitted 
forms electronically, the voter is more likely to make it on to 
the voter rolls on Election Day, particularly if ePoll books 
are used.
    Which brings me to my final point about the benefits of 
online systems, and that is the ease of expansion. Washington 
State improved upon the basic system interface with the 
Department of Motor Vehicles to allow for all NVRA agencies, 
registration drives, campaigns, et cetera, to get their own 
exclusive URL extension that allows for data to flow directly 
into the online system but still have the source of origin 
tracked. This encourages use of a more efficient system, while 
giving the users the information that they want--who did they 
actually register--but not providing them with the voters' more 
sensitive information and signature. This system has allowed 
the Secretary of State's office in Washington to expand their 
footprint with innovative partnerships with Rock the Vote and 
Facebook.
    Improving the data flow, particularly with the Department 
of Motor Vehicles, is crucial to success. Even in states like 
Minnesota, where they have Election Day registration, they have 
found that these applicants, the vast majority of the voters, 
had applied and updated their information with the DMV, so 
regardless of the systems, streamlining these governmental data 
sharing relationships is a benefit to the voter.
    Increasing the ability to easily track voter registration 
forms cannot be underrated. Twenty years after the NVRA was 
passed, we still have issues with the enforcement of the law 
and participation. In San Diego County, California, they saw 
this first-hand when they implemented a more robust tracking 
mechanism that allows them to identify the volume of 
registrations coming from each distinct NVRA office. This 
improvement, going from less than a thousand forms a year to 
10,000 forms from NVRA agencies in 2012. Online systems aid in 
the ability to effectively track applications and therefore, 
ensuring compliance.
    One of the most critical aspects of the expansion of the 
online system is that it can be used to reach our military and 
overseas voters. The UOCAVA voter not only benefits from online 
services but is more reliant on them than any other voting 
population. With minor additions, the fields present in the 
Federal Post Card Application that are not on a standard 
registration form can easily be added. This could, however, 
create a legal quandary for some states who do not consider our 
UOCAVA voters to be full, actively registered voters. They do 
not accrue a voting history in these states. They are not taken 
into consideration in the turnout calculations, and their voter 
registrations, not just their absent ballot applications, are 
canceled at the end of the FPCA time period.
    The real question is then why have not more states 
implanted the registration of online voters? It is my belief 
that it is probably out of fear that it somehow may benefit the 
other side of the aisle. However, there are blue states and red 
states that have implemented it, and when you look at the data 
of who is using the online registration, the political 
composition reflects that of our voting population as a whole.
    Lastly, the use of the online system was most often used to 
keep registrations current, not just as an entry into the 
system itself--the very behavior we ask of our voters.
    And with that, I will be happy to answer any questions we 
have, should there be time.
    [The prepared statement of Ms. Patrick was submitted for 
the record:]

STATEMENT OF CAMERON QUINN, GENERAL REGISTRAR, FAIRFAX COUNTY, 
                            VIRGINIA

    Ms. Quinn. Thank you very much. I appreciate the 
opportunity to speak here today. And Governor Warner, I 
appreciated your leadership when we worked together, and I am 
glad we have a chance to do so again.
    I want to make three points in talking about innovation and 
administrative improvements and cost savings. Number one, 
technology can be a huge plus, really a huge benefit. Number 
two, not all technology ends up being a huge plus or benefit, 
sometimes because the technology was not set up properly in the 
first place; sometimes because of software and sometimes 
because of people skills that are needed to use it. And the 
third point is, we do not have enough election officials 
already, and we are really lagging in being able to attract the 
ones we need with the right skill sets.
    In addressing online voter registration, technology can be 
a huge plus, and online registration is already proving the 
case in Virginia. It started in July of this last year, and 
about 23,000 people registered online, without a lot of 
publicity about the whole thing, in time for our November 
elections.
    On the day that registration closed, 3,000 people across 
the state effectively were able to register or change their 
address online. A thousand of them were in Fairfax County. That 
thousand people who registered online saved us three seasonal 
staffers spending two weeks doing nothing else but entering 
those thousand registrations. It made a huge difference for us. 
By the time we get to 2016, this is going to be an enormous 
plus.
    Tammy has talked about all of the benefits that you get, 
the ease of being able to get things right, the ease for 
everybody in doing it. I will not go over those, but that is 
going to be terrific, just terrific.
    But not all technology is a panacea, and in fact, our 
experience with electronic poll books in Fairfax County has 
been rather challenging and troubling. I think some of this may 
have been due to the particular choices made by the electronic 
poll books solution which Fairfax adopted. We continue to have 
some kind of issues with our technology and sometimes it is 
hard to tell if it is hardware or software.
    Having said that, we think electronic poll books are worth 
continuing to work with, but we are hoping when we finish our 
imminent acquisition of new voting equipment in Fairfax County, 
we will then turn around and acquire new electronic poll books 
that will be easier for everyone to use.
    I would note that in addition, one of the challenges with 
technology is introducing it early enough you have time to work 
through the kinks. And fortunately, despite all the kinks, we 
did that in Fairfax County with the electronic poll books. We 
are doing that with the new equipment. We are determined to 
have this equipment in use for this fall's elections, which is 
a relatively easy administrative election, so that when we get 
to next year, when we have the highest number of ballot styles 
in the state--for the 2015 elections, we have already worked 
through a lot of the kinks. And by the time we get to 2016, 
many of our voters who are regular voters will be comfortable 
with the new equipment, making it easier to focus on those 
people who only vote once every four years.
    And the third point, when I started in elections 15 years 
ago, election officer recruitment was already a challenge in a 
number of places usually your large suburban and urban areas 
where they struggle to get enough people to serve at a polling 
place on Election Day. It has only gotten worse. And one of the 
things that is sort of stunning--but the last week, or week and 
a half, before an election we will lose 10 to 15 percent of our 
election workers who said they would serve, which means we are 
typically struggling to get up to the number we wanted to 
recruit in the first place.
    So this is already a huge problem, and it has been 
compounded by the use of technology in the polling places, 
because one of the things we found in some of our places with 
longer lines was that our election workers were not checking 
voters in very well because they were not very comfortable 
using the technology.
    Now, understand, the nice thing in Fairfax is we can 
provide classes for people, and they can come back again and 
again and make themselves more comfortable. We still have 
people with all that training who were not comfortable and were 
trying to use the technology, and in fact, the technology made 
it harder in some places rather than easier.
    So we need to be, in addition to just recruiting more 
election officers, recruiting people who are comfortable with 
the technology which is going to become the absolute critical 
foundation for our polling place operations with new equipment 
and electronic poll books.
    So those are my points. Thank you for the opportunity to 
speak. I will be happy to answer any questions.
    [The prepared statement of Ms. Quinn was submitted for the 
record:]
    Senator Warner. Well, thank all three of you for your 
comments. I have two questions, and we are going to keep 
plowing until votes start.
    First, I guess, is as somebody who is--and I think in 
Virginia we have had our--generally speaking, a very good 
system. I cannot comment much on the others. We have the 
challenge in Virginia that we have elections every year, so we 
get to retest in a major way every year.
    It seems from a couple steps that there have been 
secretaries of states or boards of elections and others--
unfortunately, it seems like this has gotten a little more 
political, again, on both sides than it was in the past. Do you 
all feel, particularly as we look at technology and we think--
Ms. Lamone, when you mentioned you buying that in Maryland in 
'06, it is still a relatively short period of time as we move 
into this new technology. Is there enough sharing between 
states and then within states of best practices?
    Ms. Quinn. Mr. Chairman, if I could actually start that by 
saying, when I was at State Board and Linda Lamone was at the 
Maryland State Board, we were working together on a number of 
issues, and I very much appreciated the fact that I could call 
her up, she had a little more experience than I--and she would 
give me some great suggestions and ideas on how we could do 
things.
    The answer is yes. The biggest challenge is that you do not 
typically get to meet that many people outside your state to be 
able to share those ideas.
    Ms. Lamone. And the states are so different in the way they 
run elections, Senator. In Maryland, it is all centralized. I 
am the leader of the pack, and the Board and I establish the 
policy based, of course, upon the law that is enacted. So the 
local jurisdictions do not have much discretion.
    So to answer your question, we do share. We are constantly 
interacting between the state and the counties in Maryland. But 
in other jurisdictions, I think, you all would agree, I mean, 
there are some states where it is very disparate and there is 
not a lot of sharing that goes----
    Senator Warner. Ms. Patrick, I am going to ask one last 
question. You get to answer first and then we will take the 
others. I am going to--again, I think we are down to 13 
minutes.
    One of the things that I think drives a lot of us was the 
seeing of the long lines, why we are saying we have to figure 
out a way to fix this. I guess very quickly--and if you want to 
submit longer answers as we sort through a solution set--and 
recognizing the very legitimate concerns Senator Roberts raised 
that this should not be kind of a one-size-fits-all federal 
proposition, is the biggest challenge number of machines per 
voter ratio? Is the biggest challenge the check-in process? Is 
the biggest challenge not knowing the surge capability in a 
particular precinct? Obviously, the lines mostly appear in 
presidential elections. Is it, as Cameron mentioned, the 
biggest problem having election officials who are fully trained 
up?
    If you could be brief and then give me a longer answer. 
Because I think the heart of this, we are trying with ideas 
that--we think competitive grant program, or some of the ideas 
that Senator Boxer had, but you guys are the experts.
    Ms. Patrick, you get first----
    Ms. Patrick. Thank you, Senator. So the answer is yes, all 
of the above. Of course, it is----
    Senator Warner. You are not a senator, Ms. Patrick. You 
cannot give the all-the-above answer. That is what we would do. 
On the one hand . . . on the other hand.
    Ms. Patrick. If I were to say that the number one issue 
that affects most of the areas where we have long lines, it is 
voter registration. It is the archaic nature with which we 
register voters, maintain the voter registration.
    Senator Warner. Not ratio of machines?
    Ms. Patrick. I do not believe it is the ratio of machines, 
although there are issues in some cases with machine ratios, 
but that really only ties into the places where they are using 
touch screen voting machines, because that is the only point 
where a voter can cast their ballot as opposed to places that 
are using optical scan where you can hand out 100 ballots and 
people can vote them at the tables in the school cafeteria.
    So I do not think it is necessarily the voting machines, 
but it could be resource allocations as far as how many ePoll 
books there are, how many poll workers there are, how many 
booths are being present. So that is why the Commission 
conveyed in our report that we have a toolkit of resource 
allocation tools where local administrators, state 
administrators can go in and check their own formulas to see 
against the ones from MIT and some of the other places.
    But it all ties into your first question that has to do 
with the professionalism of the field, and that is something 
that we discuss in here as well. Because there are some states 
that have strong state leadership or they have strong state 
programs where the counties can share information and the best 
practices amongst themselves.
    And what you found, and what we found as the Commission 
went around the country, is that we see the same counties, the 
same representatives at all of these national meetings, because 
not everyone can afford to attend the national conferences. So 
it is very distinct across the country, whereas, if you had--
each state had a very rigorous program--to take some of that 
information they received and share it with the counties, that 
everyone would be much better off, I believe.
    Senator Warner. Lighting round, Ms. Lamone and Ms. Quinn. 
Thirty seconds each, and my apologies to the witnesses. Very 
important hearing, but I am going to have to go over and vote.
    Ms. Quinn. The answer is, the problem changes depending on 
the precinct. But, more EOs help. If you have more election 
officials, you are more likely to be able to solve problems and 
keep lines moving. But I gave GAO about a five-page outline of 
all the reasons you can have a problem with polling places, and 
there really are that many.
    Ms. Lamone. And I second that. And it is money. Money is 
always an issue.
    Senator Warner. It is interesting. I would have thought 
perhaps it was more about machines, but you are saying it is 
more about process of getting registered and the quality and--
not quality--the quality and knowledge of the election 
officials?
    Ms. Patrick. As I mentioned, the quantity of the machines 
is really only tied into the touch screen, the DRE voting 
equipment, with the exception of places like Florida where they 
had five- and six-page ballots. For the first time I think in 
many places' history, there was congestion at the optical scan 
machine because every voter had to feed in five and six pages, 
and then there would be, you know, subsequent jams when they 
try and put them all in at the same time, that sort of thing.
    So that was really an exception to the rule, and thankfully 
and hopefully an anomaly.
    Senator Warner. Recognizing that this has traditionally 
been a state function--although I would think that, you know, 
we did have Federal Motor Voter at one point that did have 
resources and others to incent states. I would, again, come 
back to Senator Coons and I are working on this notion of a 
competitive grant process that would not mandate the state does 
X, Y or Z, but if we could get the kind of best practices and 
then create some competition amongst states, I would like in 
your written answers, if you could give me some comments on 
that, and if you think it is dreadful, probably easier to say 
that in written comments versus in a hearing.
    So without objection, and with apologies to the very good 
witnesses, and the fact that we got started late, and your 
professionalism and your approach, I am going to say without 
objection the hearing record will remain open for five business 
days for additional statements and post-hearing questions 
submitted in writing for particularly our second panel of 
witnesses to answer.
    I would say that, again, just editorially, the long lines 
we experienced in Virginia and across the country, that just 
should not be in America in the 21st Century. So I urge us to 
continue to press us and press your colleagues across the 
country to figure out a way to get this right.
    With that, without any further objection, since there is 
nobody else here to object, the hearing is adjourned. Thank you 
all.
    [The prepared statement of Senator Nelson was submitted for 
the record:]
    [Whereupon, at 10:41 a.m., the Committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   HEARING--ELECTION ADMINISTRATION:.
           MAKING VOTER ROLLS MORE COMPLETE AND MORE ACCURATE

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. John Walsh, 
presiding.
    Present: Senators Walsh and Roberts.
    Staff Present: Jean Bordewich, Staff Director; Stacy 
Ettinger, Chief Counsel; Veronica Gillespie, Elections Counsel; 
Ben Hovland, Senior Counsel; Abbie Sorrendino, Legislative 
Assistant; Phillip Rumsey, Legislative Assistant; Jeff Johnson, 
Clerk; Benjamin Grazda, Staff Assistant; Julia Richardson, 
Senior Counsel; Mary Suit Jones, Republican Staff Director; 
Paul Vinovich, Republican Chief Counsel; Trish Kent, Republican 
Professional Staff; and Rachel Creviston, Republican 
Professional Staff.
    Senator Walsh. We will now proceed to our hearing schedule 
for this morning.
    This hearing is the committee's third in a planned series 
on improving the administration of elections. Today's hearing 
focuses on making the voter rolls more complete and more 
accurate.
    Chairman Schumer wanted to be here today, but was not able 
to attend due to other business. He has a statement that, 
without objection, will be entered into the record.
    [The prepared statement of Chairman Schumer was submitted 
for the record:]

               OPENING STATEMENT OF SENATOR WALSH

    Senator Walsh. I would like to now make a few opening 
remarks.
    Montanans are very proud of their election system. Our 
country's democratic tradition is something that should make 
all Americans very proud. At the core of this tradition is the 
fundamental right to vote. Of course, Americans' ability to 
exercise their right to vote is only as good as our system of 
election administration. We must work to make sure voter 
registration is accessible and accurate. That is why this 
series of hearings is so needed and why I am pleased to be here 
today to discuss these very important issues.
    This bipartisan Presidential Commission on Election 
Administration identified common sense State and local 
innovations that are improving how elections are run. These are 
not partisan proposals. They are simply matters of good 
governance that will make voting easier while saving taxpayers 
dollars. Registering to vote and voting should be as accessible 
as possible, regardless of where voters live.
    At the hearing held by this committee last month, we heard 
from State and local administrators about their implementation 
of online voter registration and electronic poll books. We 
heard how these reforms have the potential to save States money 
and free up local government.
    I support these proposals. These common sense innovations, 
like online registration, would have an enormous impact in 
rural States like Montana, where distance can be a barrier to 
voting and voter registration for seniors, voters with 
disabilities, veterans, farmers and ranchers, and Native 
Americans.
    Today, the Rules Committee is holding a third hearing on 
the Presidential Commission's recommendations. Today's focus is 
on innovations that help Americans get registered to vote or 
ensure their registration is current, while also making sure 
their voter rolls are as accurate as possible.
    The committee is fortunate to have a panel of current and 
former State elected officials who are working every day to 
improve how elections are run in their States. The reforms they 
will talk about focus on the voter registration process. As we 
learned from the Presidential Commission report and from 
Commissioner Tammy Patrick's testimony at the March hearing, 
many of the issues that occur on election day can be prevented 
by making improvements early in the registration process. 
Making registration easier and more accurate will reduce lines, 
expand access, and save money. Solving issues before they 
become problems is the type of common sense solution that we 
should be providing to our constituents.
    Also during the March hearing, Senator Coons highlighted 
the efforts of one of our witnesses, Elaine Manlove, the State 
Election Commissioner from Delaware. I am interested in 
learning more about the e-Signature program that Delaware has 
used to streamline the voter registration process at motor 
vehicle offices.
    We also have witnesses here today to tell us about a multi-
State effort known as the Electronic Registration Information 
Center, or ERIC. This program, which aims to improve the 
accuracy of voter rolls, is making a difference for the member 
States. So, I look forward to learning more about the ERIC 
program and how it is helping to engage voters, improve the 
quality of the voter list, and improve election administration.
    I would like to thank all of our witnesses, and I look 
forward to your testimony.
    With that, Senator Roberts, do you wish to make any opening 
remarks.

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. Well, thank you, Mr. Chairman, for 
agreeing to chair this hearing. It is my pleasure to welcome 
you to the committee, sir.
    We have a good panel of witnesses here today. I look 
forward to hearing their testimony. I will have some questions 
following the testimony, but at this point have no further 
statement at this time to expedite the hearing.
    Thank you, sir.
    Senator Walsh. It does not look like we have any other 
members who are going to make any comments today. Do we have 
any members that have submitted anything to be added to the 
record?
    Okay. We will now hear from our panel of witnesses. First, 
Ms. Elaine Manlove, the State Election Commissioner of 
Delaware.

     STATEMENT OF ELAINE MANLOVE, DELAWARE STATE ELECTION 
                 COMMISSIONER, DOVER, DELAWARE

    Ms. Manlove. Good morning, and thank you for inviting me to 
discuss Delaware's e-Signature program.
    Let me start with a little background. I began working in 
the Department of Elections for Newcastle County in 1999, so my 
first big election was in the 2000 general election. While the 
country focused on Florida, I was concerned about the 50 court 
orders that we had requested for voters who came to their 
polling place assuming they were registered voters but were not 
on the poll list. Sometimes, this was a husband and wife. Only 
one would be on our rolls, while they were both certain they 
had registered at DMV. Our Election Offices could check DMV 
records and see that they had been there, but we had no 
application or declination.
    Our process was paper, and if we did not get the paper, the 
voter did not get registered. There were too many reasons for 
this--there were many reasons for this, but at the end of the 
day, the voter was the loser. Some of the problems with the 
paper process were DMV would be out of applications in the 
printer, the printer would jam, the voter would leave without 
signing.
    Every day, we picked up the applications from DMV and 
matched them with the electronic list of the applications we 
should have received. They were then mailed new applications to 
those citizens whose applications we did not receive. About 
half of those came back to Elections.
    I knew there had to be a better way to do this. As is 
always the case, every idea we had cost money and there just 
was none. Then came HAVA. Since Delaware's voting machines were 
fairly new and we had already met the Statewide database 
mandate, we decided to focus on the use of technology to 
improve all of our services. Our Department of Technology and 
Information hired two HAVA-paid programmers to focus on what we 
called the Elections Wish List--all the projects that we knew 
would improve our services, but were too large in scope to be 
handled by the programmers assigned to Elections by DTI.
    I thought the struggle was behind us until we started 
meeting with DMV. No one said, no, this cannot be done. 
However, our meetings never seemed to move forward. DMV worried 
that our solution would slow their lines. Then, on the election 
side, when we were in election mode, we would have to move our 
focus back to that.
    In 2007, a new DMV Director was appointed and this project 
moved forward quickly. Early in 2009, e-Signature went live. It 
was a success from day one. I want to emphasize that this was 
not rocket science, just a common sense solution to an ongoing 
problem.
    The DMV clerks work from a script that is in front of them 
on their computer screen. They can tell if their customer is a 
new registrant or is already registered to vote. That fact 
determines which screen comes up in front of them and the 
questions they ask. They collect name, address, Social Security 
numbers, and date of birth, as well as any additional 
information for DMV use.
    The customer verifies their voter information on the screen 
of the credit card device on the counter. If their information 
is correct, they are asked if they want to register to vote or 
update their information with the Department of Elections. On 
the next screen, the voter affirms their citizenship, chooses 
their political party, and signs. All of this is captured and 
transmitted to Elections in real time.
    Customers can go to any DMV in the State. Their voter 
registration application will be sent to a queue in the 
Election Office in their home county. The Elections Office will 
determine if this is a duplicate, run a felon check, and 
process their polling place card. All voter registration 
decisions are made in the Election Office, removing that onus 
from DMV.
    My goal when we started this project was just to ensure 
that we received every application. What I did not anticipate 
were the unintended consequences. We had no paper, no paper to 
pick up at DMV, no paper to file, no paper to verify, no paper 
at all. This saved us space in all three county offices. Rows 
of filing cabinets were eventually eliminated. Time, no paper 
to file, and no files to go through on election day when we 
needed to prove that a voter was registered, and money at both 
DMV and Elections. Elections eliminated five vacant positions 
for a $200,000 annual savings.
    Once phase one was complete, we changed the process for 
mail applications. We began scanning in any paper applications 
that came into our offices, Federal mail applications, et 
cetera. Our clerks still have to do data entry on those 
applications, but they electronically link that entry with the 
paper application containing the signature. The paper 
application can then be shredded.
    Our next phase was to take this technology to Delaware's 
Health and Social Service Agencies as well as our Department of 
Labor, the other two agencies in Delaware that do voter 
registration. We began first at Health and Social Services and 
provided computers and credit card signature devices. However, 
the numbers have not increased as much as we had hoped. In 
today's economy, both agencies are being encouraged to offer 
online applications for their customers. Our solution is in the 
works. We will very soon link our online voter registration 
process to their online system for both of those agencies.
    In closing, the initial cost for DMV project was $600,000. 
With newer technology today, it would be less. It has paid for 
itself by savings to both DMV as well as Elections. It has also 
saved time. DMV's initial concern was that we would slow their 
lines, because they allocated 90 seconds for the elections 
piece of each customer transaction. It is now 30 seconds.
    Delaware has shared our solution with many States. It is an 
easy solution that works well for both agencies and could work 
well for other States.
    Thank you.
    [The prepared statement of Ms. Manlove was submitted for 
the record:]
    Senator Walsh. Thank you, Ms. Manlove, for your testimony.
    Second, Mr. John Lindback, the Executive Director of the 
Electronic Registration Information Center. Mr. Lindback.

  STATEMENT OF JOHN LINDBACK, EXECUTIVE DIRECTOR, ELECTRONIC 
       REGISTRATION INFORMATION CENTER, WASHINGTON, D.C.

    Mr. Lindback. Thank you, Mr. Chairman.
    ERIC, as you said, stands for the Electronic Registration 
Information Center. The mission of ERIC is to assist States to 
improve the accuracy of voter rolls, reduce costs, and improve 
the efficiency for State and local election offices. ERIC does 
that by using state-of-the-art sophisticated data matching 
technology to match voter registration records against motor 
vehicle licensing records in its member States. It also matches 
those records against databases such as the Social Security 
Death Index and the National Change of Address Information from 
the U.S. Postal Service.
    ERIC was initially formed with the generous financial and 
technical support of the Pew Charitable Trusts, but it is now 
fully operational, self-governing, self-supporting, and an 
independent organization governed by the States. The current 
members are Colorado, Delaware, Maryland, Nevada, Utah, 
Virginia, and Washington. Those are the seven States that 
originally formed ERIC. Since that time, the District of 
Columbia, Oregon, and Connecticut have joined.
    The organization is State run. It is governed by membership 
agreements and a set of bylaws. There are two full-time 
employees. The States are now receiving routine uploads and 
reports and we are recruiting new members.
    The reports that the States receive after the matching of 
all that data is they get information about people who have 
moved--people on their voter registration lists who have moved 
within their State, people on their voter registration list who 
have moved across State lines to other ERIC States, people on 
their lists who have died. They get information on in-State 
duplicate registrations, in case you have a registration for 
the same person in more than one county, for example. And, they 
get a report on potentially eligible but unregistered 
individuals that reside in their State.
    The numbers so far, and these are from the seven original 
States that formed ERIC that have reported back to them, is 
that there is a total of about 1.6 million records that have 
been reported back to the States. That includes almost 1.3 
million people who have moved within their State and they had a 
more recent address on file with their DMV. It includes about 
just shy of 230,000 people who have moved across State lines 
within the ERIC States, about 47,000 people who were on the 
rolls and were deceased, almost 30,000 duplicate registrations 
within those State voter registration databases. In addition, 
ERIC has reported to them the names of about 6.1 million people 
who are on their DMV list but are not registered to vote, 
spread out among all those States.
    The benefits to the States are numerous of ERIC. There are 
financial benefits. When you have a more accurate list, you get 
financial benefits, for example, because there is less returned 
mail. There are savings by joint purchases of Death Index data 
and NCOA data that the States are now individually purchasing 
on their own, but ERIC now purchases as a group.
    On election day, cleaner rolls mean savings at election 
time because there will be fewer problems at the polls. Pre-
election day, it means a reduced spike in registration activity 
at election time. It is uncanny, if you look at registration 
activity in the States. It is fairly even until you get to a 
Presidential election. Then, there is a huge spike in virtually 
every State that you look at, and that presents an 
administrative issue. You have to bring in extra people to 
hand-input all those registrations, et cetera. If you can even 
out that activity and get those updates taken care of earlier 
in time, you can reduce that spike of activity.
    Also, additional benefits include a proactive approach by 
the ERIC States. It discourages election-eve matching by 
interest groups who are sometimes fond of doing that match very 
close to an election and then claiming that the voter rolls are 
full of people who are deceased or are otherwise inaccurate. It 
also demonstrates for the ERIC States that they are doing 
everything they can to keep their rolls clean and up to date.
    And I will wrap up my testimony there, Mr. Chairman, and 
remain open to questions.
    [The prepared statement of Mr. Lindback was submitted for 
the record:]
    Senator Walsh. All right. Thank you, Mr. Lindback.
    Next, we have Dr. Judd Choate.

   STATEMENT OF JUDD CHOATE, DIRECTOR OF ELECTIONS, COLORADO 
         SECRETARY OF STATE'S OFFICE, DENVER, COLORADO

    Mr. Choate. Good. Thanks. My name is Judd Choate. I am the 
Election Director for the State of Colorado and Chairman of the 
Board for ERIC, the organization that John just described.
    Under the leadership of Secretary of State Scott Gessler, 
Colorado has implemented mobile optimized voter registration, 
worked with the Federal Government to identify non-citizen 
voters, and actively participates in the ERIC project, making 
Colorado a national leader in voter initiatives. For instance, 
during the 2012 Presidential election, Colorado helped lead the 
way with some of the highest voter turnout levels in the 
country. I am happy to be here today to share our experiences 
and best practices.
    Let me tell you about Colorado's experience as an initial 
ERIC State. Colorado joined ERIC in July of 2012, along with 
the six States that John just listed. Two months later, in 
September of 2012, we sent postcards to 723,000 people, 
encouraging them to register to vote prior to the 29-day 
registration deadline for the Presidential election. Just over 
ten percent of those contacted, 74,528, registered to vote 
prior to the deadline. Of those, 32,000, or about 44 percent, 
voted in the 2012 election.
    ERIC also provided Colorado with data to clean their voter 
rolls. ERIC has the unique ability to link files in various 
formats, using minimum matching criteria. This process marries 
data to find electors that have moved. ERIC provides the States 
four kinds of data to clean their rolls, matching data to 
indicate a move within a State, a move from one State to 
another State, matching data indicating that two files are 
actually the same person, and matching data indicating that a 
person on the State's voter rolls died outside of the State and 
is listed on the Social Security Administration Death List.
    Colorado's most recent Clean Report, which is the report we 
receive from ERIC, covered the months of January and February 
of 2014. So, for only those two months, we received from ERIC 
26,320 in-State movers, 1,181 people who have moved out of 
State--and just to clarify, that is only out of State with 
those States that are participating; if we had all 50 States 
in, we would receive a lot larger number--112 voters who have 
more than one registration--the reason why that number is so 
low is because we have used ERIC over the last several months 
and that number has been reduced because of our participation 
in ERIC--and 2,180 dead voters who died outside of the State of 
Colorado in only those two months.
    Colorado developed and rolled out online voter registration 
in 2010. By using online voter registration both in the mailing 
to voters encouraging them to register and in mailing to people 
who have moved out of State, encouraging them to cancel their 
voter registration, Colorado has maximized the integrity of 
their voter rolls. Online voter registration makes it easy and 
straightforward for people to register, update their 
registration, or cancel registration when that voter moves to 
another State.
    ERIC is the future of elections. It cleans rolls. It finds 
possible new voters. It allows jurisdictions to proactively 
work with their voters, our customers, instead of reacting to 
bad mailing addresses 12 months after that voter has moved. 
And, as more States join, the system will work better because 
there will be more data to match.
    Another program lauded by the Presidential Commission and 
important to Colorado's efforts to improve list maintenance is 
the Kansas Cross-Check. The Cross-Check is also a data matching 
program where 28 States send their voter files to Kansas 
following the general election. Since 2008, Colorado has 
identified approximately 15 people who very likely voted in 
Colorado and another State in the same election. Several of 
these suspected double-voters received a visit from the FBI, 
and a handful were charged with double-voting in our partner 
States of Arizona and Kansas.
    Colorado's experience in ERIC and the Kansas Cross-Check 
has been very positive. We have registered new voters at an 
impressive rate. Our voter registration database is improving 
all the time. And, we protect the database from fraud and 
double-voting.
    Thank you for the opportunity to speak, and I will take any 
questions you might have.
    [The prepared statement of Mr. Choate was submitted for the 
record:]
    Senator Walsh. Thank you, Mr. Choate.
    And, fourth, Mr. Chris Thomas, the Director of Elections in 
the Michigan Department of State and a member of the 
Presidential Commission on Election Administration.

    STATEMENT OF CHRISTOPHER THOMAS, DIRECTOR OF ELECTIONS, 
  MICHIGAN DEPARTMENT OF STATE--BUREAU OF ELECTIONS, LANSING, 
                            MICHIGAN

    Mr. Thomas. Good morning, Mr. Chairman and Senator Roberts. 
I thank you for the opportunity to testify today. It is a 
pleasure to be here to talk about the Presidential Commission 
on Election Administration's recommendations about the Motor/
Voter Program instituted by the National Voter Registration Act 
of 1993.
    I know of no other voter registration program that has the 
scope or diversity as motor voter. No other program offers the 
level of potential improvement to the election system of this 
country.
    I began my career in election administration in 1974 here 
in Washington and have served as Michigan's Elections Director 
since 1981. I am pleased to see the Pew Report on Election 
Performance again showed Michigan as a high-performing State.
    In 1975, Secretary of State Richard Austin came up with the 
idea of Motor/Voter. In Michigan, the Department of Motor 
Vehicles (DMV) and the elections are controlled by the 
Secretary of State, and he thought it was a great idea that if 
people are standing there to get a license, that they ought to 
be asked to register to vote. Our Motor/Voter system is totally 
integrated with the DMV data. For example, our law requires 
that people use the same address for both voting and driving, 
and all of the electronic data that comes from the DMV gets 
sent to the local clerks, which means they do not have to 
reenter that data. Over 80 percent of our annual voter 
registration transactions come through the DMV.
    I was honored to be on the Commission and to serve there. 
We did not have a legislative agenda, so I am not here 
advocating any legislation today.
    We found that the DMVs come up short in terms of 
implementing the Motor/Voter law, which is over 20 years old. 
We used the U.S. Election Assistance Commission (EAC) data and 
testimony as the basis for this conclusion. In addition to 
Michigan and Delaware, represented by my colleague who is here 
today, are the only two States that are fully compliant, in my 
view. Seven other States have made a concerted effort. In my 
view, if a State receives less than 50% of its total 
transactions, from the DMV, the DMV is not doing its job.
    The Commission took a strong position on this because the 
negative consequences of a bad administration in DMV are 
reflected on election day. So, I would like to make the 
following points about DMVs and Motor/Voter.
    First of all, DMVs have an extremely complex mission. They 
have a huge workload. In many States, they have aging legacy 
computer systems, and many of them are undergoing modernization 
now.
    The beauty of Motor/Voter is it cuts across all political 
and socioeconomic strata. For example, in Michigan, 75 percent 
of those receiving public assistance who are registered voters 
registered to vote with the DMV, not in a public assistance 
agency. An inaccurate list will increase the cost of mailings. 
About 75 percent of all transactions are change of address 
transactions, which are critical to keeping the lists accurate.
    When the lists are not accurate, you end up with increased 
provisional ballots. Provisional ballots mean you have longer 
wait times, some voters have a bad election day experience, 
there is extra work. Our neighbors to the south of us, Ohio, 
had over 200,000 provisional ballots. In Michigan, we had 2,600 
provisional ballots. Only 14 percent of Ohio's voter 
registration transactions come from the DMV. I will note they 
have made some efforts since 2012 to improve that. A good DMV 
would eliminate most of those provisional ballots.
    And it is important to remember that every voter 
registration application that comes through a DMV is from a 
person who has had a face-to-face transaction at some point, 
who has had their identity and their legal presence verified. 
So, that also increases the integrity of the voter file.
    The Commission highlighted Delaware because the state was 
able to design a system that did not integrate voter 
registration data with the DMV, which is a costly and lengthy 
process. Their e-Signature interface basically sends the driver 
license data directly to the voter registration system. They 
have created a lower cost solution without integrating their 
voter registration data into the DMV, which can be much more 
quickly accomplished.
    Twenty States, the Commission has noted, have also gone to 
online voter registration, and these systems at some point, 
will become portals for DMVs that are not in compliance.
    In conclusion, I would say that a better Motor/Voter 
performance through full compliance will substantially improve 
the accuracy of voter registration files and improve the 
election day experience of many voters. With lower-cost options 
available, DMVs now have a clearer, less expensive path to 
fulfill the letter and the spirit of the NVRA.
    Thank you very much.
    [The prepared statement of Mr. Thomas was submitted for the 
record:]
    Senator Walsh. Thank you, Mr. Thomas, and thank you to all 
of our individuals for speaking today.
    We are going to open it up for questions now, and my first 
question is for Ms. Manlove. I have two quick questions. First 
is, in discussing this e-Signature program with election 
officials from other States, have you heard any good reasons 
that this would not work in other States? And, second, because 
Delaware is also an ERIC State, I wanted to give you a minute 
to discuss your experience participating in that program, as 
well.
    Ms. Manlove. Now, I have met with other States. We have had 
several States come to Delaware. And if I have been in a 
conference in their State, I have gone to meet their DMV. I 
have not had a reason why this would not work. It is such a 
simple solution, I am actually always surprised that we get so 
much good press out of it. For us, it was just a way to solve 
the problem at the end of the day.
    And ERIC has been wonderful for us, and it has even shown 
our in-State--I think all the States show that. But, even our 
in-State addresses are not always as accurate as we would like, 
and we have a great DMV process. We have removed voters who are 
deceased that were deceased in the State, and we went back and 
checked with our Vital Statistics and found out it was a time 
when they were having some change-over and we did not get good 
records. So, we have cleaned up a lot of our records. We mailed 
out, I think, 26,500 postcards to eligible but unregistered 
voters and about 4,000 of those registered to vote before 
election day.
    Senator Walsh. Thank you.
    Next is for Mr. Lindback. I want to ask you how ERIC 
protects privacy of voters. Montanans value their privacy, and 
you mentioned the privacy protocols that govern the ERIC 
program. Can you elaborate on how ERIC protects the privacy of 
voters?
    Mr. Lindback. Absolutely. Thank you, Mr. Chairman. ERIC 
uses a technique called anonymization to anonymize data that 
would be considered confidential within an ERIC State. So, they 
can--and in virtually all of the States, that would include 
data such as date of birth or the last four digits of their 
Social Security number.
    The anonymization process is also called one-way hashing, 
and this is done to the data before it leaves State control. 
And so the States are issued the anonymization program by ERIC. 
They run their date of birth information and the last four 
digits of the Social Security number, as examples, through the 
anonymizer. It translates that into an indecipherable string 
of, like, 40 letters and numbers. Then when that data reaches 
ERIC, it is anonymized a second time. It is run through the 
data matching process, and so ERIC is matching anonymized data 
against anonymized data from other States.
    When the States receive their reports back, they are told, 
for example, that the date of birth matches in the other State, 
but they are not told what the date of birth actually is 
because that data has been anonymized. They do not need to know 
that. They only need to know it is a match.
    And so that data is anonymized before it leaves State 
control. The data center itself, of course, follows all the 
security protocols.
    When ERIC was created, we ran the plan through the Center 
for Democracy and Technology, one of the leading privacy and 
advocacy organizations in the United States. They were 
impressed with the plan. They issued a report that is on the 
ERIC Web site issuing recommendations on how ERIC should 
minimize risk to security and privacy, and ERIC is following 
each of those recommendations. So, I think it is fair to say 
that we are doing everything possible to minimize risk of 
disclosure of that data.
    Senator Walsh. Thank you very much.
    I would now like to open it to the Ranking Member, Mr. 
Roberts, to ask any questions that you may have. Senator 
Roberts.
    Senator Roberts. Well, thank you, Mr. Chairman.
    Ms. Manlove, your statement references your use of the Help 
America Vote Act, i.e., Federal money, to build your system, 
and you also talk about the savings that it has generated. I 
think I read your statement to the effect that $600,000 enabled 
you to get up and running----
    Ms. Manlove. Yes.
    Senator Roberts [continuing]. And that you were able to 
achieve $200,000 savings. Within your oral statement, you 
indicated that came from letting five people go. Is that 
correct?
    Ms. Manlove. We did not let five people go. We had vacant 
positions----
    Senator Roberts. Oh, I see.
    Ms. Manlove. At that point in time, there was a hiring 
freeze in the State----
    Senator Roberts. I cannot imagine anybody in government 
letting anybody go.
    Ms. Manlove. No. We did not let anyone go.
    Senator Roberts. All right. But, do we need Federal 
incentives to get States to adopt reforms that will save them 
money? I think it is obvious. I mean, you have stated it very 
clearly that once you explain it to States--I guess my question 
is, why do we need the Federal start-up money when States know 
they are going to save themselves money?
    Ms. Manlove. I do not know. We would not have been able to 
do it without the HAVA money. It just was a project that was, 
in scope for Delaware, too big at that point in time.
    Senator Roberts. Right.
    Ms. Manlove. We really did not look at it as a money saving 
process. We looked at it--it started as just a way to get 
everything. We were----
    Senator Roberts. But now, you are----
    Ms. Manlove. In hindsight, yes, we did save funds.
    Senator Roberts. Yes. All right. Okay. You are the proof of 
the pudding. In other words, you did not know you could have 
the pudding until you made it, and then after you made it, you 
saved money. And so I guess my message to other States is that 
you do not have to ask us, and we have very limited help 
because of the budget and all of that.
    Are other States starting to realize they can quickly 
recoup any initial cost by the savings when you talk with them?
    Ms. Manlove. Well, I explain that with every presentation I 
give. I use practically the same presentation every time I talk 
about e-Signature. But, we have continued on using our HAVA 
funds to do other projects that otherwise would not have been 
able to happen.
    Senator Roberts. Pardon my lack of experience here, but how 
do you use the e-Signature? Is it compared to anything, or is 
it just e-Signature?
    Ms. Manlove. Well, it comes to us in real time, was the 
biggest issue. What was happening with the paper process is, we 
just were not getting the actual application and we needed that 
signature to process the voter registration application. So 
now, rather than picking up paper and physically bringing the 
paper, everything comes to us electronically in real time. So, 
none of the issues of losing applications happen.
    Senator Roberts. I understand that, but is it legible? I 
mean----
    Ms. Manlove. Oh, yes, it is.
    Senator Roberts. It is legible?
    Ms. Manlove. Yes.
    Senator Roberts. So, it is not like my signature when I am 
trying to sign on a credit card screen----
    Ms. Manlove. It is the same credit card screen, but it is--
--
    Senator Roberts [continuing]. It looks like some child who 
is three years old.
    Ms. Manlove. I think it is pretty stable, and because 
everyone at DMV is signing on that, so they are secured to the 
countertop, and we are getting really pretty good signatures.
    Senator Roberts. Is it compared to a signature on paper?
    Ms. Manlove. No, because in a lot of cases, we do not have 
another signature. That is the only signature we have.
    Senator Roberts. No, I mean just in terms of legibility. 
You think it is roughly the same?
    Ms. Manlove. Yes.
    Senator Roberts. I see. Thank you.
    Mr. Lindback, you mentioned the National Voter Registration 
Act, or motor voter requirements for the removal of 
registrants. My question is, how do States participating in 
your program that receive death notices remove voters? Is that 
immediately or after going through the NVRA process? And, I 
would add, it is my understanding that that process requires 
the voter be mailed a notice. They are only removed if they do 
not respond to the notice and then fail to vote in two 
subsequent Federal general elections, is that correct?
    Mr. Lindback. Thank you, Mr. Chairman. I think there may be 
a difference between--maybe my other panel members can confirm 
for me, but I think there may be a difference between what the 
NVRA requires for confirmation of death notices and 
confirmation of voters who have moved. But, there are processes 
in place by the NVRA. There is nothing about membership in ERIC 
that changes any of those requirements. The only thing that 
changes for the States is that they are getting information 
about voters who have moved and voters who have died sooner 
than they otherwise would receive it.
    Senator Roberts. Okay. That is what I was trying to get at. 
My next question was, and you have just answered it, does ERIC 
speed up that process?
    Mr. Lindback. Yes.
    Senator Roberts. And that answer is yes.
    Mr. Lindback, Mr. Thomas mentioned a House bill to require 
States to remove registrants who have moved to another State 
and declared that State as their voting residence. How do 
States in the ERIC program remove voters when they receive a 
change of address notification? Do they still go through the 
NVRA process or are they removed immediately?
    Mr. Lindback. Thank you, Mr. Chairman. The States go 
through the NVRA process, and the bylaws are specific that the 
NVRA mandated mailings must be followed by the States.
    Senator Roberts. Mr. Chairman, my time has expired. I would 
like to ask permission for another, oh, two minutes so I may 
conclude.
    Senator Walsh. Permission granted.
    Senator Roberts. Thank you, Mr. Chairman.
    Last week, there was an ABC report about a couple in 
California that received a registration application with their 
party affiliation premarked. They were already registered 
Republicans, but they were mailed a registration application 
with the Democrat box premarked. They received an application 
because they had signed up for health care through an Obamacare 
exchange run by the State of California.
    Apparently, some groups have been arguing that the States 
are obligated to offer registration services through the 
Obamacare exchange and then find out that their party 
affiliation has already been premarked. Just a question for the 
panel. What is your view of that and how is your State handling 
this issue, or are you even aware of it?
    Mr. Choate. So, the State of Colorado has determined, based 
on our interpretation of both State and Federal law, that our 
exchange is not obligated to give the opportunity to register 
to vote because our exchange is not technically operated by the 
State of Colorado. However, under the NVRA, if the exchange or 
health care provider, the provider of that service, is operated 
by the State, then I think under the NVRA, they would have to 
provide an opportunity to register.
    Senator Roberts. So, you have both the DMV and the State 
exchange operating together?
    Mr. Choate. So, the DMV has to do it. That is one section 
of the NVRA. But then, also, the agencies that provide social 
services have to provide an opportunity to register to vote, as 
well, under a different section.
    Senator Roberts. Where you get hunting licenses, is that 
also----
    Mr. Choate. That would not be a social service that would 
be covered by the NVRA.
    Senator Roberts. I was part of that voting determination in 
the House 23 years ago. I am not going to go into that, but at 
any rate----
    Well, I think it was you, Mr. Choate, that said that there 
were 15 votes that were double-counted in Kansas and Colorado.
    Mr. Choate. Yes. So, Kansas----
    Senator Roberts. Do you realize you just cost me 15 votes 
during that check?
    [Laughter.]
    Mr. Choate. Well, they were not all in Kansas, but some of 
them were in Kansas. I think----
    Senator Roberts. Do you know how hard it is to find the 
State line in Western Kansas and Eastern Colorado?
    [Laughter.]
    Mr. Choate. I do, actually. I am from Hays, so that is--I 
am a little familiar with Kansas.
    Senator Roberts. Hays City, America?
    Mr. Choate. I am from Hays City, America. That is right.
    Senator Roberts. How about that. Have you climbed Mount 
Sunflower?
    Mr. Choate. I have climbed Mount Sunflower. I am one of the 
many.
    [Laughter.]
    Senator Roberts. Yes. The trick is not to climb it. The 
trick is to find it.
    Mr. Choate. Exactly.
    [Laughter.]
    Mr. Choate. Well, there is a big post there identifying it.
    Senator Roberts. I know that, but you drive to Colorado 
first and then somebody tells you, whoops, you are in Colorado. 
Go back.
    Mr. Choate. That is usually the way it works.
    Senator Roberts. I have a feeling that is where those 15 
votes came from.
    [Laughter.]
    Mr. Choate. That is certainly possible.
    Senator Roberts. All right. I have obviously overstayed my 
time, Mr. Chairman. Thank you all. Thanks to the panel.
    Senator Walsh. Thank you, Senator Roberts.
    Dr. Choate, as an election administrator from a State that 
participates in both the ERIC program and the Interstate Voter 
Registration Cross-Check program, can you highlight the 
differences between the two, focusing on costs and potential 
savings?
    Mr. Choate. I would be happy to. So, the Kansas Cross-
Check, which is the second of the two that you just described, 
and ERIC are actually very different programs that sort of get 
you to a similar spot. So, the way that the Kansas project 
works is that 28 States send their data after a major election, 
after a Presidential election, to Kansas. Then Kansas checks 
all of those, compares all of those to identify who may be on 
multiple lists, so, whether a voter is potentially listed as a 
registrant on a list in, say, Colorado or in Kansas. Then we, 
as a staff, then go through that and figure out if that data 
was correct and if those voters voted, and then drill down to 
whether, in fact, we have people who have voted across State 
lines. That is a pretty labor intensive process, so the cross-
check requires quite a bit of labor on the back end.
    ERIC, by contrast, does not actually involve all that much 
work on the back end. It is much more labor intensive on the 
front end. So, once you have collected the data and sent that 
data to ERIC, ERIC gives you a report and you then distribute 
that report to your jurisdictions. So, in our case, that would 
be the counties, and the counties use that information to 
process their voters. So, it is actually very seamless.
    Kansas is much more labor intensive. So, one costs money, 
so ERIC costs money to be in, to be a member, but you save 
money because you are not using that for personnel costs that 
you would have to use for the Kansas project. So, they both 
have expenses. They both have time obligations. But, the ERIC 
one is much more front-loaded and Kansas is sort of on the back 
end.
    And in our particular circumstance, we use ERIC for a much 
broader kind of analysis. So, we use ERIC to analyze who our 
voters are and to help clean the data and to identify potential 
new voters. We only use the Kansas project to identify people 
who have potentially double-voted.
    Senator Walsh. Thank you very much.
    On behalf of the Rules Committee, I would like to thank all 
of our witnesses today for your important testimony and 
appreciate the work that you have put into this project. This 
concludes the panel for today's hearing.
    Without objection, the hearing record will remain open for 
five business days for additional statements and post-hearing 
questions submitted in writing for our witnesses to answer.
    Again, I want to thank my colleagues for participating in 
this hearing and sharing their thoughts and comments on this 
important topic.
    This hearing is now adjourned.
    [Whereupon, at 10:50 a.m., the committee proceeded to other 
business.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                   BUSINESS MEETING--TO CONSIDER THE.
                      NOMINATIONS OF THOMAS HICKS.
                     AND MYRNA PEREZ TO BE MEMBERS.
                 OF THE ELECTION ASSISTANCE COMMISSION.
               AND S. 1728, S. 1937, S. 1947, AND S. 2197

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:50 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. John Walsh, 
presiding.
    Present: Senator Walsh.
    Staff Present: Jean Bordewich, Staff Director; Stacy 
Ettinger, Chief Counsel; Veronica Gillespie, Elections Counsel; 
Abbie Sorrendino, Legislative Assistant; Phillip Rumsey, 
Legislative Assistant; Jeff Johnson, Clerk; Benjamin Grazda, 
Staff Assistant; Mary Suit Jones, Republican Staff Director; 
Paul Vinovich, Republican Chief Counsel; Rachel Creviston, 
Republican Senior Professional Staff; Trish Kent, Republican 
Senior Professional Staff.

               OPENING STATEMENT OF SENATOR WALSH

    Senator Walsh. Now, I would like to gavel in for the 
Executive Session. Good morning. The committee will now come to 
order for the business meeting noticed for this morning.
    Unfortunately, we do not have a quorum of ten members 
present, and thus, we cannot proceed to vote on the two 
nominations and four pieces of legislation on this announced 
agenda for this business meeting.
    Since a quorum is not present, the committee will recess, 
subject to the call of the Chair, and take up these matters 
when we obtain a quorum. The Chairman intends to convene 
another meeting at 11:15 a.m. in Senate 219, Second Floor, 
Capitol, immediately following the 11:00 a.m. roll call vote on 
the floor.
    The committee stands in recess until the call of the 
Chairman.
    [Whereupon, at 10:51 a.m., the committee was adjourned.]
    The committee reconvened, at 11:19 a.m., April 9, 2014, in 
Room S-219, United States Capitol Building, Hon. Charles E. 
Schumer, chairman of the committee, presiding.
    Present: Senators Schumer, Feinstein, Durbin, Pryor, Udall, 
Warner, Leahy, King, Walsh, Roberts, Cochran.
    Staff Present: Jean Bordewich, Staff Director; Stacy 
Ettinger, Chief Counsel; Abbie Sorrendino, Legislative 
Assistant; Phillip Rumsey, Legislative Assistant; Jeff Johnson, 
Clerk; Benjamin Grazda, Staff Assistant; Mary Suit Jones, 
Republican Staff Director; Shaun Parkin, Republican Deputy 
Staff Director; Paul Vinovich, Republican Chief Counsel; Rachel 
Creviston, Republican Senior Professional Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. Thank you all for coming. We now have a 
quorum of 10 Members to continue our markup. We will consider 
the two EAC nominations individually, followed by consideration 
of four bills. As usual, we will make these voice votes. 
However, if the Ranking member requests a recorded vote, I will 
ask the clerk to call the roll. Is there any debate on the 
nominations of Thomas Hicks and Myrna Perez to be Commissioners 
of the EAC?

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. Mr. Chairman--as you know I have called 
for the elimination of this agency as I believe it has outlived 
its usefulness. I have also said, however, that if it is going 
to exist it should be bi-partisan as the statute that created 
it stated.
    I cannot support moving these nominations forward without 
any Republican nominees to join them. It is my understanding 
the White House is currently in the process of reviewing 
potential Republican nominees. Hopefully we will have those 
nominations before the nominees we consider today reach the 
Floor so they can all be considered together by the full 
Senate.
    I cannot, however, support moving these nominations without 
Republican counterparts and accordingly will vote no. I am not 
calling for a recorded vote.
    Chairman Schumer. Thank you, Ranking Member Roberts. As 
soon as we get republican nominations I give you my word, we 
will move them expeditiously. The nominations just haven't been 
submitted yet but I appreciate your comments.
    Chairman Schumer. The question is on reporting the 
nominations favorably to the Senate. Unless there is a request 
for a roll call vote this will be a voice vote.
    First, Mr. Thomas Hicks. Is there a second?
    Senator Leahy. Second.
    Chairman Schumer. All those in favor, say aye.
    [Chorus of ayes.]
    Chairman Schumer. All those opposed, say no.
    [Nays.]
    Chairman Schumer. The ayes have it. The nomination of 
Thomas Hicks is ordered favorably reported to the Senate with 
recommendation the nomination be confirmed.
    Next up, Ms. Myrna Perez. Is there a second?
    Senator Udall. Second.
    Chairman Schumer. Is there a demand for a recorded vote?
    [Pause.]
    Chairman Schumer. Then let us have a voice vote.
    All those in favor, say aye.
    [Chorus of ayes.]
    Chairman Schumer. All those opposed, say no.
    [Nays.]
    Chairman Schumer. The ayes have it. The nomination of Ms. 
Myrna Perez is ordered favorably reported to the Senate with 
recommendation the nominee be confirmed.
    The next item for consideration is S. 1728 the SENTRI Act. 
We have a pending amendment from Senator Roberts and a 
Chairman's Mark.
    Senator Roberts, would you like to offer your amendment for 
consideration?
    Senator Roberts. Mr. Chairman, I know ours staffs met and 
agreed to some very good changes to this bill so I thank you 
for including me, pardon me, for including those in your Mark. 
I do have concerns about one remaining section of the bill 
though and will offer an amendment to strike it. Specifically, 
I seek to delete Section 101, which would require States and 
every county official, and Aunt Mildred out in Hamilton County, 
Kansas, to provide reports to the Department of Justice on the 
status of their ballot transmissions. I understand the 
Department of Justice has sought to impose a requirement of 
this nature, but I cannot support it.
    I fear this section will impose an onerous reporting 
obligation on thousands of jurisdictions that are fully 
compliant with the law. We do not need to require every 
jurisdiction to compile these reports just to get at the few 
that may be out of compliance.
    As you know, election administrators operate under tight 
timeframes with limited resources. Their time and resources 
should be dedicated to serving our voting population, not to 
filling out reports for the Department of Justice.
    Furthermore, the timeframes in the bill are unrealistic. 
The timeframes are likely to result in incomplete reports. 
States are given a mere three days to produce these reports 
which are immediately made public. When those reports do not 
contain all of the required information, as they inevitably 
will not with the limited time provided to gather the 
information, the false impression will be created that 
jurisdictions are failing to deliver ballots when in reality 
they have failed only to report having done so.
    If we want our election officials to serve military and 
overseas voters, we should allow them to do it. If the choice 
is between sending ballots to soldiers or reports to 
Washington, I choose the former and I want election officials 
to be able to do the same.
    I therefore offer this amendment to strike Section 101 and 
would ask for a recorded vote and urge Members to vote in favor 
of it.
    Chairman Schumer. I recommend a vote against this 
amendment. The reporting provisions strengthen protection of 
voting rights of military voters by providing the Department of 
Defense and the Department of Justice with critical information 
on whether absentee ballots were timely transmitted to our 
service men and women.
    The question is on the adoption of the amendment. And now 
we will ask the Clerk to call the roll.
    The Clerk. Ms. Feinstein.
    Senator Feinstein. No.
    The Clerk. Mr. Durbin.
    Senator Durbin. No.
    The Clerk. Mr. Pryor.
    Senator Pryor. No.
    The Clerk. Mr. Udall.
    Senator Udall. No.
    The Clerk. Mr. Warner.
    Senator Warner. No.
    The Clerk. Mr. Leahy.
    Senator Leahy. No.
    The Clerk. Ms. Klobuchar.
    [Pause.]
    The Clerk. Mr. King.
    Senator King. Aye.
    The Clerk. Mr. Walsh.
    Senator Walsh. No.
    The Clerk. Mr. Roberts.
    Senator Roberts. Aye.
    The Clerk. Mr. McConnell.
    Senator McConnell. [No response.]
    The Clerk. Mr. Cochran.
    Senator Cochran. Aye.
    The Clerk. Mr. Chambliss.
    Senator Chambliss. [Aye by proxy.]
    The Clerk. Mr. Alexander.
    Senator Alexander. [No response.]
    The Clerk. Mr. Shelby.
    Senator Shelby. [No response.]
    The Clerk. Mr. Blunt.
    Senator Blunt. [No response.]
    The Clerk. Mr. Cruz.
    Senator Cruz. [No response.]
    The Clerk. Chairman Schumer.
    Chairman Schumer. No.
    The Clerk. On this vote, the ayes are three (3). The nays 
are eight (8). The Amendment is not agreed to.
    Chairman Schumer. Thank you. The no's have it, the 
amendment is not adopted.
    Chairman Schumer. Next up is the Chairman's Mark. The 
question is on reporting the Chairman's mark--an amendment in 
the nature of a substitute--favorably to the Senate. Unless 
there is a request for a roll call vote, this will be a voice 
vote. Is there any further debate on the mark?
    Senator Roberts. Thank you, Mr. Chairman for allowing a 
vote on my amendment.
    In spite of my concerns about that section, which I may 
bring to the Floor, I believe on balance the bill is worth 
supporting and I will do so. I hope this legislation will 
improve the voting experience for our military and overseas 
voters, and am pleased to vote in favor of reporting it.
    Chairman Schumer. Any request for a recorded vote?
    [Pause.]
    Chairman Schumer. All those in favor, say aye.
    [Chorus of ayes.]
    Chairman Schumer. All those opposed, say nay.
    [Pause.]
    Chairman Schumer. The ayes have it. The bill is reported to 
the Senate.
    Chairman Schumer. The next item for consideration is S. 
1937--The Elections Preparedness Requires Early Planning Act, 
known as the Elections PREP Act.
    The question is on reporting the bill favorably to the 
Senate. Unless there is a request for a roll call vote, there 
will be a voice vote. Is there any further debate?
    Senator Roberts. Mr. Chairman, I oppose this legislation 
and intend to vote no. The states are perfectly capable of 
developing disaster contingency plans without federal 
compulsion or assistance. The National Association of 
Secretaries of State just convened a task force to study this 
subject and issued a report with recommendations for how to 
deal with it. That report is available to states to formulate 
their contingency plans and federal legislation is not required 
to affect the goals of this legislation. Accordingly, I will 
vote no. I am not requesting a recorded vote.
    Chairman Schumer. Any other debate? All in favor, say aye.
    [Chorus of ayes.]
    Chairman Schumer. All those opposed, say nay.
    [Nays.]
    Chairman Schumer. The ayes have it. The bill is ordered 
reported to the Senate.
    Chairman Schumer. The next item for consideration is S. 
1947--The Government Publishing Office Act of 2014. Is there 
any debate?
    Senator Roberts. Mr. Chairman, I support this legislation 
to more accurately reflect the modern mission and structure of 
the Government Printing Office and ask other Committee Members 
to do the same. We are changing printing to publishing. I guess 
it is all in the name. There is nothing in here about carbon 
paper.
    Chairman Schumer. Is there any further debate? I think that 
settles it. Anyone want a recorded vote, if not we will do a 
voice vote.
    Chairman Schumer. All in favor, say aye.
    [Chorus of ayes.]
    Chairman Schumer. All those opposed, say nay.
    [Pause.]
    Chairman Schumer. The ayes have it. The bill is reported to 
the Senate.
    Chairman Schumer. The final item for consideration is S. 
2197--The Senate Stationery Bill. This question is on reporting 
the bill favorably to the Senate. Is there any debate?
    Senator Roberts. Mr. Chairman, I am a co-sponsor of this 
bill and ask the other Members to support it. It eliminates an 
archaic requirement and will help the Senate procure the best 
products at the lowest cost. I will vote aye and I ask other 
Members to do the same.
    Chairman Schumer. Any further debate? Any request for a 
recorded vote? We will do a voice vote.
    Chairman Schumer. All in favor, say aye.
    [Chorus of ayes.]
    Chairman Schumer. All those opposed, say nay.
    [Pause.]
    Chairman Schumer. The ayes have it. The bill is reported to 
the Senate. And I want to thank everyone for coming, I know you 
had busy schedules. We got a lot done. This was a record day 
for the Rules Committee. Senator Roberts, do you have any 
further remarks you might wish to make?
    Senator Roberts. No, sir.
    Chairman Schumer. Then the meeting is adjourned.
    [Whereupon, at 11:29 a.m., the Committee was adjourned.]



                      HEARING--DOLLARS AND SENSE:.
                         HOW UNDISCLOSED MONEY.
                      AND POST-McCUTCHEON CAMPAIGN.
            FINANCE WILL AFFECT THE 2014 ELECTION AND BEYOND

                              ----------                              


                       WEDNESDAY, APRIL 30, 2014

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:15 p.m., in 
Room SH-216, Hart Senate Office Building, Hon. Angus S. King, 
Jr. presiding.
    Present: Senators Schumer, Udall, Klobuchar, King, Walsh, 
Roberts, and Cruz.
    Staff Present: Jean Bordewich, Staff Director; Kelly Fado, 
Deputy Staff Director; Stacy Ettinger, Chief Counsel; Veronica 
Gillespie, Elections Counsel; Ben Hovland, Senior Counsel; 
Julia Richardson, Senior Counsel; Abbie Sorrendino, Legislative 
Assistant; Philip Rumsey, Legislative Correspondent; Jeff 
Johnson, Clerk; Matthew McGowan, Professional Staff; Benjamin 
Grazda, Staff Assistant; Mary Suit Jones, Republican Staff 
Director; Shaun Parkin, Republican Deputy Staff Director; Paul 
Vinovich, Republican Chief Counsel; Sarah Little, Republican 
Communications Director; Trish Kent, Republican Senior 
Professional Staff; and Rachel Creviston, Republican Senior 
Professional Staff.

               OPENING STATEMENT OF SENATOR KING

    Senator King. The Rules Committee will come to order. Good 
morning, everyone. The format that we are going to follow for 
the next few minutes will be that I will deliver an opening 
statement, then followed by Ranking Member Senator Roberts, and 
Chairman Schumer, and then we will hear from Justice Stevens, 
and following his testimony, we will have the panel, and if 
other Senators join us during the course, they will deliver 
their opening statements after Justice Stevens joins us.
    I am deeply worried about the future of our democracy. For 
over 100 years, we have struggled with the issue of money and 
politics, always seeking to find the right balance between 
freedom of political expression and the corrosive influence of 
the unchecked flow of money to public officials.
    We have had periodic scandals and periodic corrections. We 
have had new laws and new ways to evade those laws. But we have 
never before seen what is happening today. As we will learn 
this morning, a perfect storm of new forces--court opinions, 
clever political operatives, and the high stakes inherent in 
governmental decisions--have created a qualitatively new 
political landscape where candidates are compelled to raise 
more and more money, and yet, at the same time, have to contend 
with virtually unlimited spending by shadowy entities 
representing nameless donors.
    What has occurred in the past five years represents 
revolutionary, not evolutionary, change in the way campaigns 
are financed in America. These are changes I view as a threat 
to undermine the fundamental principle of American democracy--
one person, one vote. There are well-intentioned people, people 
who I respect, who believe that restrictions on who can give to 
campaigns and how much they can give trespass on cherished 
First Amendment freedom of speech protections.
    Others, and I am among them, are worried that the recent 
decision's elimination of even modest limits on campaign 
contributions, combined with a Byzantine system that, in too 
many cases, masks disclosure of who is giving and allows a 
flood of so-called dark money into the process, has the very 
real potential to corrode the integrity of the system itself.
    Historically, the flow of money has rested in and out of 
political campaigns on three pillars: Regulation of sources, 
regulation of amounts, and disclosure. Recent decisions have 
severely restricted our ability to control sources and amounts. 
But in those decisions--and I am referring, of course, to 
Citizens United and McCutcheon, the Court has explicitly 
invited Congress to utilize disclosure as the protection of the 
public interest in these situations.
    Justice Kennedy and Justice Roberts, in their opinions, 
cite disclosure as the reason that the limitations do not have 
to be upheld. Unfortunately, the disclosure requirements that 
they mention in those opinions as the bulwark against abuse and 
corruption simply do not exist.
    For example, according to a new study by the Center for 
Responsive Politics, total individual expenditures reported to 
the FEC by outside groups totals about $70 million to this 
point in 2014, nearly three times more than was spent at this 
point in 2010. That is the point I want to emphasize, is that 
this is not a gradual growth of a change of a few dollars here 
and there. What we have is an explosion of this kind of money, 
not only of outside expenditures, but also of expenditures 
where we do not know the source.
    We have created a kind of parallel universe of campaign 
finance, the traditional candidate-based system with clear 
limits on sources and amounts and strict disclosure 
requirements and the independent system with no control of 
sources, no limits, and no disclosure.
    Naturally, this troubling new world of campaign finance 
impacts how we as elected officials interact with the fund-
raising process, quantitatively, in the amounts of money that 
elected officials need to be made. An average U.S. Senator--and 
of course, all Senators are above-average--but an average U.S. 
Senator running for reelection has to raise something on the 
order of $5,000 to $8,000 a day every day, 365 days a year for 
six years in order to accumulate the funds necessary to run for 
reelection. And I can tell you, at the rate of $5,000 to $6,000 
a day, you very quickly run out of friends and family.
    My concern here is the system. This is not a Democratic or 
a Republican issue, and the country does not benefit from an 
undisclosed contribution and an arm's race in contributions. 
Disclosure in this context is not an infringement on the First 
Amendment. But what we are allowing to happen before our eyes 
is already having its inevitable effect, the erosion of 
confidence in our system and in us as stewards of our country's 
future.
    The challenge here, the challenge before us is to find the 
balance between competing goods, the freedom to exercise our 
political voice on the one hand, and the public's interest in 
safeguarding the integrity of the political process on the 
other, to restore that balance in what feels like an 
increasingly unbalanced system.
    I welcome our witnesses today and look forward to their 
contributions to these important deliberations. Senator 
Roberts.

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. Well, thank you, Mr. Chairman. I am 
pleased to be here today on this very important subject, and I 
brought my own chart. We in the minority do not have enough 
money for another display unit over there, so I would ask 
unanimous consent. We could put our chart up where you had your 
chart.
    Senator King. Without objection.
    Senator Roberts. The chart bears the text of the First 
Amendment to the Constitution of the United States. And I 
believe that is what we are talking about today, the rights of 
citizens to express themselves, to make their views known on 
the issues that affect their daily lives and pocketbooks, or 
any other issue they wish to discuss.
    The First Amendment protects those rights and it prevents 
the Government from restricting them. The exercise of those 
rights does not threaten our democracy. It is the attempt to 
restrict these rights that we must fear. We are living today 
with the consequences of the failed attempt to restrict them. 
This failure was not hard to perceive. It is not the fault of 
the courts or the Federal Election Commission.
    It is the direct consequence of the poor decision Congress 
made when it passed the McCain-Feingold bill. I opposed that 
bill. I and others who voted against it did so because we knew 
it would restrict people's right to participate in the 
political process. It would not get money out of the system, 
but would simply divert it to other avenues.
    Supporters of the bill, of course, denied it. They assured 
us it would not happen, that our system would be better. It 
should be clear now who was right and who was wrong. But rather 
than admit they were wrong, the proponents of speech regulation 
have just proposed new regulations. Because the courts have 
properly found much of their last efforts to be 
unconstitutional, they have proposed new regulatory schemes 
under the guise of disclosure.
    No longer able to simply prohibit speech they do not like, 
they seek to prevent it by imposing onerous disclosure 
requirements on those who wish to speak. Now, respectfully, Mr. 
Chairman, as we consider suggestions for ways to improve the 
system, the last people we should be asking for advice at this 
hearing are those who helped write the law that created the 
problem in the first place.
    Let us stop this fool's errand of speech regulation. Let us 
stop trying to prevent people from criticizing us. Let us stop 
demonizing citizens who exercise their First Amendment rights. 
Let us stop pretending more speech somehow threatens our 
democracy. We have nothing to fear from a free marketplace of 
ideas. We do, however, need to fear a Government empowered to 
investigate its own citizens for exercising their rights. The 
revelations of the Internal Revenue Service targeting of 
conservative groups and others have shown this to be a real 
danger.
    We hear a lot about corruption when this issue is debated. 
I think for many people that the definition of corruption is 
the promotion of ideas with which they disagree. It is amazing 
how for years George Soros has been spending millions of 
dollars to promote liberal and progressive causes. None of my 
friends on the other side of the aisle seem to be concerned 
about it.
    Now that the Koch family is spending money to promote free 
markets and private enterprise, we are supposed to believe that 
our democracy is at risk. That is absurd. Corporate spending is 
supposed to be a concern, but corporations have long exercised 
unfettered rights to express themselves, provided they were 
media corporations.
    I am pleased to say that the Citizens United case changed 
that. The Supreme Court recognized the First Amendment does not 
allow this Congress to choose who gets to speak and properly 
ended this nonsensical distinction with the only consequence 
being that now more voices are heard. And I know, I know, there 
are some in this body who do not want those voices to be heard 
and they are doing everything they can to silence them.
    Our majority leader, unfortunate, who has a fixation with 
the Koch family that can only be described as bizarre, takes to 
the floor on an almost daily basis to attack them. Why? I think 
it is because he fears they pose a threat to his hold on power, 
or the majority. He wants them to stop talking. Well, that is 
why the First Amendment begins, Congress shall make no law. The 
First Amendment does not allow us to silence those who oppose 
us. That applies to corporations, labor unions, Mr. Soros, and 
the Koch family. It applies to everyone.
    Let us stop trying to do so, Mr. Chairman. Let us stop 
trying to impose regulations designed to deter and harass our 
opponents. Instead, let us just admit the mistake we made when 
we tried to regulate political speech in the first place. Let 
us remove those restrictions. Let us allow those who want to 
contribute and engage in our political system to give money 
where they want as long as they follow the law.
    Everyone in this country has the right to express 
themselves, Mr. Chairman, even people who do not manage to get 
themselves invited to appear on television shows or to testify 
at Senate hearings. People, all people, individually and as 
groups, have every right to make their views known. Instead of 
trying to stop them, let us reinvigorate our system.
    New restrictions and regulations are not going to improve 
the system. Getting rid of those we already have imposed will. 
That is the course we should take, Mr. Chairman. Simply, let us 
just do it. Thank you for your time.
    Senator King. Senator Schumer.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. Thank you. First, let me thank you, 
Senator King, for suggesting this hearing and for your chairing 
the hearing, as well as your invitation to Justice Stevens, who 
I look forward to hearing from.
    Well, I think McCutcheon is a real turning point in our 
debate about money in politics. McCutcheon seemed to say that 
free speech absolutely defined, as McCutcheon does, allows 
anyone to spend any amount of money in any way in our political 
system. McCutcheon, carried to its logical extreme, will get 
rid of individual limits, will get rid of limits on 
corporations, will just allow money to totally, totally 
envelope our system.
    It is frightening. It is frightening. And the reason we 
have this hearing is not because of some new ads--Koch Brothers 
have been doing ads for years and years--but because of the 
McCutcheon decision and its implications for our democracy. The 
bottom line is very simple. I respect my colleagues' fidelity 
to the First Amendment, but no amendment is absolute.
    Most of my colleagues on the other side of the aisle 
support anti-pornography legislation. That is a limitation on 
the First Amendment. Most everyone here believes you cannot 
falsely scream fire in a crowded theater. That is a limitation 
on the First Amendment. We have many, many, many different laws 
that pose limits on the amendments because through 200-and-
some-odd years of jurisprudence, the Founding Fathers and the 
Supreme Court have realized that no amendment, no amendment is 
absolute.
    We have noise ordinances. Everyone accepts them. That is a 
limitation on the First Amendment. So if you impose a view that 
just when it comes to allowing one person to put the 7,112th ad 
on television that the First Amendment is absolute, but in so 
many other areas it is not, you have to ask why. You have to 
ask why.
    And then, when many on the other side of the aisle do not 
support disclosure, which is actually an enhancement of the 
First Amendment, free debate, free knowledge, one wonders why. 
One wonders why. The First Amendment protection of free speech 
is part of what makes America great. So is the concept of one 
person, one vote. And when a small group of people, 700 in this 
case, who were affected by McCutcheon, have so much more power 
to influence the political process than everybody else, our 
democracy is at risk. That is the problem here.
    There is a balancing test and there are many concepts in 
the Constitution, the concept of having a somewhat level 
playing field so that those who have overwhelming wealth and 
choose to spend it, whether they be on the left or the right, 
the laws we are proposing affect the Koch Brothers and George 
Soros, and should.
    And so, because now legislation could bring disclosure, but 
could now will not stop the path McCutcheon is on, Senate 
Democrats are going to vote this year on my colleague, Tom 
Udall's constitutional amendment which once and for all would 
allow Congress to make laws to deal with the balance between 
equality, each vote is equal, each person is equal, and the 
First Amendment, a careful balance.
    But not what the five members of the Supreme Court have 
said, no balance. We will bring that amendment to the floor 
shortly, and we will vote on it, and I will be working with 
Senator Udall and Majority Leader Reid, and hopefully every 
Republican who cares about honest elections, to bring it to the 
floor this year.
    When the Supreme Court, or any of my colleagues, say that 
the Koch Brothers' First Amendment rights are being deprived, 
that they are not being heard, it defies common sense, it 
defies logic. And the same would apply to some very liberal 
person who put on 10,000 ads. The ability to be heard is 
different than the ability to drown out every other point of 
view using modern technology simply because you have a lot more 
money than somebody else who has an equally valid view.
    So I hope that Senator Udall's amendment will track 
bipartisan support, but it will draw to a fine point where we 
are at, and that is that the First Amendment is sacred, but 
that the First Amendment is not absolute. And by making it 
absolute, you actually make it less sacred to most Americans.
    We have to bring some balance to our political system. If 
people lose faith in this system, which they are rapidly doing, 
in large part, because they feel, correctly, that people with a 
lot of money have far more say in the actual political dialogue 
than they do, this great democracy could falter. We do not want 
it to happen. And the best way to stop it is to show the 
Supreme Court or limit the Supreme Court, show them that their 
absolutist view is wrong and support and amendment like Senator 
Udall's. Thank you, Mr. Chairman.
    Senator King. For the information of Senator Cruz, Senator 
Walsh, and Senator Udall who arrived after my introduction, the 
schedule we are going to follow is I am now going to invite 
Justice Stevens to speak, and then each of you will be asked to 
provide a statement, if you wish to do so. Justice Stevens, if 
you would join us at the table?
    Justice John Paul Stevens is a retired Justice of the 
United States Supreme Court, was appointed to the Court in 1975 
by President Gerald Ford, I think the third longest sitting 
Justice of the Supreme Court. Justice Stevens, I knew that you 
were a distinguished jurist, but my eye was caught by a 
headline in the paper over the weekend that says, Pope to Move 
John Paul for Sainthood. I realized later it was not the same 
John Paul.
    In any case, we are delighted to have you here today. Thank 
you very much for joining us, Justice.

STATEMENT OF THE HONORABLE JOHN PAUL STEVENS, ASSOCIATE JUSTICE 
     (RET.), UNITED STATES SUPREME COURT, WASHINGTON, D.C.

    Justice Stevens. Thank you very much, Senator. Senator 
King, Chairman Schumer, Ranking Member Roberts, and 
distinguished members of this Committee, I thank you for the 
opportunity to appear before you today to discuss the important 
issue of campaign finance.
    When I last appeared before this body in December of 1975, 
my confirmation hearing stretched over three days. Today, I 
shall spend only a few minutes making five brief points. First, 
campaign finance is not a partisan issue. For years, the 
Court's campaign finance jurisprudence has been incorrectly 
predicated on the assumption that avoiding corruption or the 
appearance of corruption is the only justification for 
regulating campaign speech and the financing of political 
campaigns.
    That is quite wrong. We can safely assume that all of our 
elected representatives and candidates for office are law-
abiding citizens, and the laws against bribery provide an 
adequate protection against misconduct in office. It is 
fundamentally wrong to assume that preventing corruption is the 
only justification for laws limiting the First Amendment rights 
of candidates and their supporters.
    Elections are contests between rival candidates for public 
office. Like rules that govern athletic contests or adversary 
litigation, those rules should create a level playing field. 
The interest in creating a level playing field justifies 
regulation of campaign speech that does not apply to speech 
about general issues that is not designed to affect the outcome 
of elections.
    The rules should give rival candidates, irrespective of 
their party and incumbency status, an equal opportunity to 
persuade citizens to vote for them. Just as procedures in 
contested litigation regulates speech in order to give 
adversary parties a fair and equal opportunity to persuade the 
decision-maker to rule in their favors, rules regulating 
political campaigns should have the same objective.
    In elections, the decision-makers are voters, not judges or 
jurors, but that does not change the imperative for the 
equality of opportunity.
    Second, all elected officials would lead happier lives and 
be better able to perform their public responsibilities if they 
did not have to spend so much time raising money.
    Third, rules limiting campaign contributions and 
expenditures should recognize the distinction between money 
provided by their constituents and money provided by non-
voters, such as corporations and people living in other 
jurisdictions. An important recent opinion written by Judge 
Brett Kavanaugh of the D.C. Circuit, and summarily affirmed by 
the Supreme Court, Blumen against the Federal Election 
Commission, upheld the constitutionality of the Federal statute 
that prohibits foreign citizens from spending money to support 
or oppose candidates for Federal office.
    While the Federal interest in preventing foreigners from 
taking part in elections in this country justified the 
financial regulation, it placed no limit on Canadians' freedom 
to speak about issues of general interest. During World War II, 
the reasoning behind the statute would have prohibited Japanese 
agents from spending money opposing the reelection of FDR, but 
would not have limited their ability to broadcast propaganda to 
our troops.
    Similar reasoning would have justified the State of 
Michigan placing restrictions on campaign expenditures made by 
residents of Wisconsin or Indiana without curtailing their 
speech about general issues. Voters' fundamental right to 
participate in electing their own political leaders is far more 
compelling than the right of non-voters such as corporations 
and non-residents to support or oppose candidates for public 
office.
    The Blumen case illustrates that the interest in protecting 
campaign speech by non-voters is less worthy of protection than 
the interest in protecting speech about general issues.
    Fourth, while money is used to finance speech, money is not 
speech. Speech is only one of the activities that are financed 
by campaign contributions and expenditures. Those financial 
activities should not receive precisely the same constitutional 
protection as speech itself. After all, campaign funds were 
used to finance the Watergate burglaries, actions that clearly 
were not protected by the First Amendment.
    Fifth, and this perhaps is the most important thing I want 
to say, is the central error in the Court's campaign finance 
jurisprudence is the holding in the 1976 case of Buckley 
against Valeo that denies Congress the power to impose 
limitations on campaign expenditures. My friend, Justice Byron 
White, was the only member of the Court to dissent from that 
holding.
    As an athlete and as a participant in Jack Kennedy's 
campaign for the Presidency, he was familiar with the 
importance of rules requiring a level playing field. I did not 
arrive at the Court in time to participate in the decision of 
the Buckley case, but I have always thought that Byron got it 
right.
    After the decision was announced, Judge Skelly Wright, who 
was one of the Federal judiciary's most ardent supporter of a 
broad interpretation of the First Amendment, characterized its 
ruling on campaign expenditures as, quote, tragically 
misguided, unquote. Because that erroneous holding has been 
consistently followed ever since 1976, we need an amendment to 
the Constitution to correct that fundamental error.
    I favor the adoption of this simple amendment, quote, 
Neither the First Amendment nor any provision of this 
Constitution shall be construed to prohibit the Congress or any 
state from imposing reasonable limits on the amount of money 
that candidates for public office or their supporters may spend 
in election campaigns, unquote.
    I think it wise to include the reasonable, the word 
reasonable, to ensure that legislatures do not proscribe limits 
that are so low that incumbents have an unfair advantage or 
that interfere with the freedom of the press. I have confidence 
that my former colleagues would not use that word to justify a 
continuation of the practice of treating any limitation as 
unreasonable.
    Unlimited campaign expenditures impair the process of 
democratic self-government. They create a risk that successful 
candidates will pay more attention to the interests of non-
voters who provide them with money than to the interests of the 
voters who elected them. That risk is unacceptable. Thank you.
    [The prepared statement of Justice Stevens was submitted 
for the record:]
    Senator King. Mr. Justice, thank you very much for your 
considered remarks. We appreciate your willingness to share 
them with us here today. Thank you.
    Justice Stevens. Thank you very much.
    Senator King. You are excused.
    In accordance with the process that we discussed at the 
beginning, I will now turn to Senator Cruz for an opening 
statement, if you choose to make one.

               OPENING STATEMENT OF SENATOR CRUZ

    Senator Cruz. Thank you, Mr. Chairman, and I would like to 
thank Justice Stevens for being here and joining us. Prior to 
being in the Senate, I spent much of my professional career as 
an advocate before the Court, and I must say it is a different 
position to be on this side of the dais rather than answering 
questions from Justice Stevens. And I will note that of all the 
Justices, Justice Stevens most often disagreed with the 
position of my clients.
    And there was no Justice whose questions were more 
incisive, more friendly, and, frankly, more dangerous than 
Justice Stevens. Always with a twinkle in an eye, he would ask 
a question, ``Counsel, would you not just agree with this small 
little thing?'' And if you said yes, it would walk you down a 
road that would unravel the entire position in your case. So it 
is very nice to have the good Justice with us.
    I want to thank all of the witnesses who are here for our 
second panel as well. This topic is a topic of great 
importance. Of the entire Bill of Rights, the First Amendment 
is the most important. It is the foundational right of every 
other right of citizens that is protected.
    I will say that the issue of campaign finance reform, is 
perhaps the most misunderstood issue in all of politics, 
because campaign finance reform restrictions are always pitched 
as, ``Let us prevent corruption, let us hold politicians 
accountable.'' And they do exactly the opposite. Every single 
restriction this body puts in place is designed to do one 
thing; protect incumbent politicians.
    And it is powerfully good at that because, at the end of 
the day, there are three speakers in a political debate. There 
are politicians, there is the media, and there are the 
citizens. Campaign finance reform is all about silencing number 
three so that the politicians can speak unimpeded. And I will 
say there are colleagues of mine in both parties who will stand 
up and say, ``These pesky citizen groups, they keep criticizing 
me.''
    Well, that is the nature of our democratic process. If you 
choose to run for public office, there are 300 million 
Americans who have a right to criticize you all day long and 
twice on Sundays. That is how our system was built. And I will 
tell you this, I am certainly one who will defend the rights of 
our citizens to speak out, whether I agree with their speech or 
not.
    The Sierra Club has an absolute right to defend their 
views, as does the NRA. Planned Parenthood has an absolute 
right to defend its views, as does the National Right to Life. 
That is the way our system operates. And campaign finance 
reform is all about lower the limits, lower the limits, 
restrict the speech, restrict the speech.
    And what happens is the only people who can win elections 
then are incumbent politicians, because incumbent politicians 
have armies of lobbyists and entrenched interests that raise 
the money and fund them, and any challenger that comes across 
has to raise the money. And if you do not have an army of 
thousands upon thousands of bundlers, you cannot effectively 
challenge an incumbent, and that is not the unintended effect 
of these laws. That is the intended effect.
    Our current system makes no sense. Right now we have super 
PACs that are speaking on the sidelines. And you have 
politicians who play games. Since they cannot speak directly 
under the law, they simply will say, ``Who will rid me of this 
troublesome cleric?'' And a group springs up and speaks and if 
this group is supporting you, you kind of hope what they say 
bears some resemblance to what you believe, but you are not 
allowed to talk to them. So if they happen to get it wrong, 
there is not a darn thing you can do.
    A far better system would be to allow individuals unlimited 
contributions to candidates and require immediate disclosure. 
As John Stuart Mill said, let the marketplace of ideas operate, 
let more speech counter bad speech, rather than this silly game 
we play right now.
    Now, I will note there are a series of canards that get 
discussed in this issue. The number one canard is money is not 
speech. We can restrict money because it has nothing to do with 
speech. That statement is categorically, objectively false. 
Money is and has always been used as a critical tool of speech, 
whether publishing books, or putting on events, or broadcasting 
over the airwaves.
    And I would suggest to each of the witnesses and to 
everyone thinking about this issue, ask yourself one question. 
For every restriction that members of Congress or advocates put 
forth, ask yourself one question. Would you be willing to apply 
that same restriction to the New York Times? And let me know. 
The New York Times is a corporation, so anyone who says 
corporations have no rights, fine.
    There are some who say, ``Let us restrict political speech 
within 90 days of an election.'' Very well then. Would you be 
willing to say the New York Times may not speak about politics 
within 90 days of an election? McCutcheon said you cannot tell 
citizens they can only support nine candidates. If they want to 
support 10 or 11 or 12, they are entitled to do so.
    If you think McCutcheon is wrong, would you be willing to 
tell the New York Times, ``You may only speak about nine 
candidates, or only candidates in New York?'' Look, those 
restrictions are all obviously and facially unconstitutional, 
and I would ask you, Why does a corporation like the New York 
Times or CBS or any other media corporation, in Congress's 
view, enjoy greater First Amendment rights than individual 
citizens?
    Our democratic process is broken and corrupt right now 
because politicians in both parties hold onto incumbency. We 
need to empower the individual citizens, and I will say this in 
closing. I agree very much with Justice Hugo Black who famously 
said, with regard to the First Amendment, the words Congress 
shall make no law abridging the freedom of speech means exactly 
what it says.
    No law means no law, and we should be vigorous protecting 
the rights of individual citizens to be engaged in the 
political process and hold every one of us on both sides of the 
aisle accountable. It is the only thing that keeps our 
democratic process working. Thank you, Mr. Chairman.
    Senator King. Senator Udall.

               OPENING STATEMENT OF SENATOR UDALL

    Senator Udall. Thank you very much, Chairman King, and good 
morning, and thank you for holding this very important hearing. 
I want to thank the witnesses that I know are going to be here 
later to discuss what I think is a very, very important topic.
    Let me say to the Chairman of the Rules Committee, Chairman 
Schumer, I really appreciate your statement that we are going 
to have a vote this year on a constitutional amendment. I think 
it is about time. We have had several votes. I think we had one 
in 1997, we had one in 2001, but these rulings by the Supreme 
Court have gone so far that we are really ripe for having a 
vote and trying to coalesce around something.
    I know that Justice Stevens has left, but I want to say the 
words I had in my statement to him. I am sure it will get to 
him. As the author, Justice Stevens, of the dissent in Citizens 
United, you wrote that, ``The Court's ruling threatens to 
undermine the integrity of elected institutions across the 
nation.''
    And I have found myself agreeing with Justice Stevens. 
Unfortunately, this is another of those times. Four years after 
Citizens United, the damage continues. The Court's decision 
this month in McCutcheon was one more step in dismantling our 
campaign finance system. It is now crystal clear an amendment 
to the Constitution is necessary to allow meaningful campaign 
finance rules.
    And as I heard Chairman Schumer talk about the issue of it 
being absolute, that is what we are talking about, is allowing 
meaningful campaign finance rules, not in any way abridging the 
First Amendment.
    Most Americans do not have unlimited dollars to spend on 
elections around the country. They only get their one vote. 
They can support one candidate, the one who represents their 
district or state, but for the wealthy and the super-wealthy, 
McCutcheon says they get so much more. That decision gave them 
a green light, full speed ahead to donate to an unlimited 
number of candidates.
    Now a billionaire in one state gets to influence the 
elections in 49 other states. Under McCutcheon, one donor can 
dole out $3.6 million every two years, just like that. Consider 
this: An American citizen working full-time making minimum wage 
would have to work 239 years to make that kind of money, 239 
years.
    The Court has shown a willingness to strike down sensible 
regulations by a narrow majority and is returning our campaign 
finance system to Watergate-era rules, the same rules that 
foster corruption, outraged voters, and promoted campaign 
finance standards in the first place.
    But our campaign finance system was in trouble long before. 
The Citizens United and McCutcheon decisions just picked up the 
pace. The Court laid the groundwork many years ago, and I know 
Justice Stevens mentioned this, in the case of Buckley versus 
Valeo. It goes all the way back to 1976.
    The Court ruled that restricting independent campaign 
expenditures violates the First Amendment right to free speech. 
In effect, money and speech are the same thing. This is 
tortured logic and ignores the reality of political campaigns. 
The outcome is not surprising. Elections have become more about 
the quantity of cash and less about the quality of ideas, more 
about special interests and less about public service.
    We have a broken system based on a deeply flawed premise. 
That is why I introduced SJ Res. 19 last June. It now has 35 
co-sponsors, and I think--I believe Senator King and Senator 
Schumer are both on it. It is similar to bipartisan resolutions 
in previous Congresses. Actually, it started with Senator Ted 
Stevens, I believe, back in 1983. So it has true bipartisan 
roots and is consistent with the amendment that Justice Stevens 
has proposed.
    It would restore the authority of Congress stripped by the 
Court to regulate the raising and spending of money for Federal 
political campaigns. This would include independent 
expenditures and it would allow states to do the same at their 
level. It would not dictate any specific policies or 
regulations, but it would allow Congress to pass sensible 
campaign finance reform, reform that withstands constitutional 
challenges.
    In the Federalist Paper Number 49, James Madison argued 
that the U.S. Constitution should be amended only--and he used 
this term--only in great and extraordinary occasions should we 
go with a constitutional amendment, and I agree with him. I 
also believe we have reached one of those occasions. Free and 
fair elections are a founding principle of our democracy. They 
should not be for sale to the highest bidder.
    This effort started decades ago. There is a long, and I 
might add, bipartisan history here. Many of our predecessors 
from both parties understand the danger. They knew the 
corrosive effect money has had on our political system. They 
spent years championing the cause.
    In 1983, the 98th Congress, Senator Ted Stevens, introduced 
an amendment to overturn Buckley, and in every Congress from 
the 99th to the 108th, Senator Fritz Hollings introduced 
bipartisan constitutional amendments similar to mine. Senator 
Schumer and Cochran continued the effort in the 109th Congress. 
And that was before the Citizens United and McCutcheon 
decisions, before things went from bad to worse.
    The out of control spending after Citizens United has 
further poisoned our elections, but it has also ignited a broad 
movement to amend the Constitution. McCutcheon is the latest 
misguided decision, but it will not be the last. It is time for 
Congress to take back control and pass a constitutional 
amendment.
    And again, Chairman King and Chairman Schumer, I thank you 
for holding this hearing and I think it is very, very timely on 
the heels of McCutcheon. Appreciate it.
    Senator King. Thank you, Senator.

               OPENING STATEMENT OF SENATOR WALSH

    Senator Walsh. Thank you Senator King, Chairman Schumer, 
and Ranking Member Roberts.
    Citizens United unleashed a torrent of dark money into our 
elections, allowing wealthy donors and corporations to shuffle 
money among third party groups to evade disclosure laws and 
influence elections.
    Last month, the Supreme Court again promoted the influence 
of the wealthy in our democracy by striking down a 40-year-old 
limit on how much the richest donors can give to candidates and 
parties.
    As it is, less than one-percent of Americans provide over 
two-thirds of contributions. Small-dollar donors, the average 
American, are being made irrelevant by a campaign finance 
system that allows wealthy donors to secretly fund attack ads.
    Concentrations of wealth and dark money have a big impact 
in Montana. Our airtime is cheap and our state contribution 
limits are relatively low. Montana's voters don't yet need to 
be able to write million dollar checks to get a candidate's 
attention, but this ease of access makes Montana's elections a 
prime target for dark money.
    Indeed, Montana has frequently been at the center of the 
campaign finance debate. Our state ban on corporate campaign 
expenditures and donations, passed by voter initiative in 1912 
after William Clark used his mining wealth to buy a Senate 
seat, was struck down because of Citizens United. Since then, 
we've seen dark money groups like American Tradition 
Partnership ignore our disclosure laws and illegally coordinate 
with candidates to influence elections.
    The role of average Americans in our democracy is in danger 
if wealthy donors and secretive groups can spend vast amounts 
of undisclosed money to influence elections.
    We must act to strengthen our disclosure requirements, and 
we must find a way to empower small, individual donors. 
Otherwise, our elections will be controlled by the few 
Americans that can afford to write million-dollar checks. I 
want to thank the Chair and the witnesses, and I look forward 
to their testimony.
    Senator King. If our next panel could take their seats, I 
will introduce you. We are going to hear from this panel in 
alphabetical order. First is Mr. Donald F. McGahn, a partner 
with the law firm of Patton Boggs. Previously he was a 
Commissioner and Chairman of the FEC. He also served as the 
general counsel for the National Republican Congressional 
Committee for ten years.
    Second is Norman Ornstein, Resident Scholar at the American 
Enterprise Institute, well-known columnist, and frequent 
commenter on campaign finance issues. Third is Mr. Trevor 
Potter, President and General Counsel for the Campaign Legal 
Center. Previously he was a Commissioner and Chair of the FEC 
and later served as general counsel to John McCain's 2008 
presidential campaign.
    Fourth, Ms. Ann Ravel, former Chair of the California Fair 
Political Practices Commission, currently Vice Chair of the 
Federal Election Commission. And finally, Neil P. Reiff, who is 
a founding member of the law firm of Sandler, Reiff, Young & 
Lamb, and a former deputy general counsel for the Democratic 
National Committee.
    Thank you all for joining us today and I welcome your 
opening statements. If you have more lengthy statements, they 
can be submitted for the record, but we look forward to hearing 
from you and then we will discuss these issues. Mr. McGahn.

    STATEMENT OF DONALD F. McGAHN, ESQ., PATTON BOGGS, LLP, 
                        WASHINGTON, D.C.

    Mr. McGahn. Chairman King, Ranking Member Roberts, and 
members of the Committee, thank you for the opportunity to 
appear before you today. It is an honor and a privilege, 
particularly in light of the appearance of former Justice John 
Paul Stevens. Per the Committee's request, I submitted written 
testimony prior to the hearing, jointly filed with another 
panelist here today, Neil Reiff.
    Mr. Reiff and I are practitioners in the area of campaign 
finance and our views are shaped by decades of experience in 
advising and representing real people who wish to participate 
in politics in a legally compliant manner.
    Although we have similar clients, and are not here to 
represent the views of any of those clients, we differ in one 
significant way. One of us represents Republicans, 
conservatives, and Libertarians; while the other represents 
Democrats, liberals, and progressives. Such a partisan 
difference in the modern world would ordinarily preclude any 
notion of common ground, but not here.
    Recently we co-authored an article that was published in 
Campaigns and Elections magazine that explained our views on 
the good, the bad, and the ugly of the current law, 
particularly the aspects imposed by the Bipartisan Campaign 
Reform Act of 2002, commonly called McCain-Feingold.
    In our article which we have already submitted to the 
Committee, we explained that much of what many perceive to be 
the problems in the current system can be traced back to the 
underlying statute itself. As we predicted back in 2002, 
McCain-Feingold has become a warped version of itself, where 
heavily regulated candidates and party committees have taken a 
backseat in our current system.
    We suggest a different approach, one that flows from a 
different premise firmly grounded in our shared First Amendment 
tradition, that in order for voters to be truly informed, they 
need to hear directly from the candidates themselves. Thus, the 
candidate's voice ought to be the central voice in American 
democracy. In our view, the parties are the best vehicles to 
assist with achieving that goal. In other words, political 
parties are uniquely situated to echo their candidate's 
message.
    Critically, our views and suggestions are not designed to 
simply transfer relevancy back to the parties for relevancy's 
sake. Recall that the plaintiff in Buckley versus Valeo, 
Senator James Buckley of New York, was not nominated by either 
of the two major parties, and it was precisely that sort of 
candidate, one outside of that era's establishment, that felt 
the burdens of that wave of reform the most.
    We care, first and foremost, about grassroots and local 
activity by ordinary citizens, and believe that McCain-Feingold 
in its effort to change the culture of Washington, D.C. has 
reached too far into state and local politics and contributed 
to pushing local activists outside the parties.
    Unfortunately, current law has placed parties at a 
competitive disadvantage and has federalized virtually all 
state and local party programs, which brings us to the 2014 
campaign landscape. Certainly direct contribution limits 
remain, albeit at artificially low levels that do not match the 
rate of inflation that has occurred since they were first 
instituted.
    For example, the $10,000 state party limit in today's 
dollars ought to be, if adjusted for inflation, about $48,000. 
In addition to regular inflation, the cost of campaigning has 
skyrocketed, particularly due to the cost of television 
advertising. Other prophylactic measures imposed by the law 
have been struck by the courts, except those that limit the 
ability of political party committees to effectively assist 
their candidates.
    Candidates are struggling to be heard over the din of 
single issue and other groups and the party committees who 
historically had been a candidate's natural ally has 
significantly diminished and essentially been replaced by 
independent super-PACs and single-issue non-profits. So that 
just seems backwards and, ironically, is the opposite of the 
so-called reform.
    Some claim more disclosure is the answer. Separate and 
apart from my work with Mr. Reiff, in my own view, this is not 
the answer. Certainly campaign disclosure has survived judicial 
review, albeit in a more limited form than that which was 
originally passed. But disclosure has had a mixed record in the 
courts, sometimes upheld, but often struck or limited.
    Whether one looks to Talley versus California, Thomas v. 
Collins, NAACP versus Alabama, Buckley versus Valeo, or most 
recently, Davis versus FEC, disclosure has its limitations. As 
Justice John Paul Stevens himself said, writing for the Court's 
majority in McIntyre versus Ohio, quote, Anonymity is a shield 
from the tyranny of the majority. It exemplifies the purpose 
behind the Bill of Rights and of the First Amendment in 
particular, unquote.
    Justice Stevens also said, speaking for the Court, quote, 
the freedom to publish anonymously extends beyond the literary 
realm, unquote. Continuing, On occasion, quite apart from any 
threat or prosecution, an advocate may believe her ideas would 
be more persuasive if the readers are unaware of her identity. 
Anonymity, thereby, provides a way for a writer who may be 
personally unpopular to ensure that readers will not be 
prejudge her message simply because they do not like its 
proponent. Thus, even in the field of political rhetoric where 
the identity of the speaker is an important component of the 
many attempts to persuade, the most effective advocates have 
sometimes opted for anonymity, unquote.
    And what of McCutcheon versus FEC? We anticipate that 
McCutcheon will help address the unfairness, the parties, and 
most candidates to some degree, but it did not strike 
limitations and prohibitions on direct contributions to 
candidates and party committees. What was struck was the so-
called biennial limit, essentially an umbrella limit that 
prevented citizens from giving to more than a few handful of 
candidates and party committees.
    Thus, the impact of McCutcheon. More candidates, including 
challengers and those that are not seen as safe bets, will have 
access to additional financial support. Hopefully, direct 
contributions will no longer be the province of a select few 
well ensconced within the ruling class.
    Similarly, the upstart challenge of candidates' natural 
ally, the political party, will no longer have to compete with 
each other for resources to the degree caused by McCain-
Feingold. But this sort of change is not enough to fix what 
ails our system of privately funded campaign finance. McCain-
Feingold must be revisited. Thank you for the opportunity to 
present these views.
    [The prepared joint statement of Mr. McGahn and Mr. Reiff 
was submitted for the record:]
    Senator King. Thank you, Mr. McGahn. Mr. Ornstein.

STATEMENT OF NORMAN J. ORNSTEIN, AMERICAN ENTERPRISE INSTITUTE, 
                        WASHINGTON, D.C.

    Mr. Ornstein. Thanks so much, Mr. Chairman, and it is 
really a pleasure to be here to talk about this issue. I want 
to start by commending Senator Cruz for his full-throated 
support of disclosure, and I look forward to his vote for the 
DISCLOSE Act when it comes up in the Senate.
    Senator King. I wrote that down myself.
    Mr. Ornstein. I also want to thank Senator Roberts for 
putting up the text of the First Amendment, which I read and 
re-read as I have done so many times and I am still looking for 
the word money in the First Amendment. And I just have to say 
that if money is defined as speech, then the rights of citizens 
as equals in this process to participate simply gets blown 
away. Those who have lots of money have lots of speech; those 
who have little money have very little or no speech.
    Having said that, I want to really talk about two larger 
concerns that are generated by the multiple recent moves that I 
believe have knocked the pins out from under the regulatory 
regime that has long operated in American politics.
    I wrote my testimony going back to the Tillman Act in 1907, 
but as I have reflected on it, it really does take us back at 
least to the 1830s, and the two things I want to talk about 
are, first, the corrosive corruption that has caused when you 
remove the modest limits on money that have existed, and 
second, a real focus of the hearing, of course, is the efforts 
to limit disclosure and enable these huge flows of dark money 
to enter the system without the accountability necessary in a 
democratic political system.
    As I look through history, what we know is that the focus 
on corruption, the concerns about corruption and money are not 
new at all. They go back at least to an attempt, in 1837, to 
prohibit the parties from shaking down Government employees and 
giving contributions.
    As historian John Lawrence noted, Abraham Lincoln, who I 
believe was a Republican, warned that concentrated capital had 
become, quote, enthroned in the political system, and he 
worried about an era of, quote, corruption in high places until 
the republic is destroyed. I have to believe that if Abraham 
Lincoln were around today, he would be reinforced in that 
particular judgment.
    As we went through the corruption in the Grant 
Administration that led to the Pendleton Act in 1883, the 
corruption involving outsized corporation influence on 
President Theodore Roosevelt that led to the Tillman Act in 
1907, the Teapot Dome scandal that resulted in the Federal 
Corrupt Practices Act of 1925, the abuse of Federal employees 
that led, in 1938, to the passage of the Hatch Act, the Taft-
Hartley Act in 1947, the Watergate scandal spurring the Federal 
Election Campaign Act of 1974, and that was revised, of course, 
by Buckley, and on through the abuses of soft money and in 
other ways that brought about the Federal Election Campaign--
the Bipartisan Campaign Reform Act of 2002.
    It was scandals that led to corruption that led to change. 
All of that focus was turned on its head by Citizens United 
brought as a very narrow, as applied, decision and then 
broadened out to basically take away almost all of those 
protections, at least going back to 1907, and then to 
McCutcheon.
    Now, I want to make a couple of broad points, particularly 
about McCutcheon. Despite some of the other focal points, what 
has alarmed me the most about the McCutcheon decision was 
Justice Roberts basically now taking corruption out of the 
equation, and the appearance of corruption entirely out of the 
equation, and defining corruption in the narrowest way, as a 
quid pro quo that would only be applicable in a case like 
ABSCAM or its more popularized American Hustle variety where 
you have videotape and an exchange of money in return for a 
favor.
    That is so far away from the real world, and in particular 
now with McCutcheon, where officials, elected officials can 
solicit large contributions, something that we tried to 
restrain deeply in the McCain-Feingold bill. It takes me back 
to an era that I remember well where we had president's clubs 
and speaker's clubs and leader's clubs around here with a menu 
of access.
    Give $10,000 and you get to meet with all the Committee 
chairs. Give $25,000, you could have a one-on-one with the 
Speaker. This is a trade of access-for-money and it leads down 
a dangerous path and a path that becomes even more dangerous 
when we do not have disclosure of who is involved with a lot of 
these contributions.
    Frankly, the notion that McCutcheon is going to enhance 
disclosure was, I think, blown out of the water by Justice 
Breyer's very compelling dissent, and what we have already seen 
happening within a day after McCutcheon was passed where high-
priced lawyers, some of whom are in this room, are working very 
feverishly to make sure that these contributions get channeled 
through multiple committees back and forth in different ways so 
that we will not have any effective disclosure.
    Let me end with just a few recommendations for the 
Committee or for what Congress could do from now on. First, 
Congress should make every effort to pass the DISCLOSE Act. Let 
us get some reasonable disclosure. Second, the Senate should 
hold public hearings, and this Committee, on the dysfunctional 
Federal Election Commission and look to reform it to make it a 
reasonably functional body that acts to enforce the law, not to 
thwart it.
    Third, for every hearing that we see on the purported 
scandal at the IRS, which is trying to apply the law now, which 
says that organizations called 501(c)(4) shall be exclusively 
social welfare organizations, we should have a hearing on the 
real meaning of social welfare organizations and the need to 
clarify those regulations.
    Fourth, the Senate should pass a rule amending its ethics 
code to make it a violation for Senators or senior staffers to 
solicit the large contributions for party committees now 
allowed under McCutcheon. Next, you should consider the broader 
reform of the campaign finance system, and I am delighted that 
there will be a vote on Senator Udall's constitutional 
amendment.
    We have a lot of work and a lot of heavy lifting to do. The 
next huge scandal is going to bring about a new drive for 
reform, but before that, I fear that things will get a whole 
lot worse. Thank you.
    [The prepared statement of Mr. Ornstein was submitted for 
the record:]
    Senator King. Thank you, sir. Mr. Trevor Potter.

    STATEMENT OF TREVOR POTTER, ESQ., PRESIDENT AND GENERAL 
        COUNSEL, CAMPAIGN LEGAL CENTER, WASHINGTON, D.C.

    Mr. Potter. Mr. Chairman, thank you for the opportunity to 
testify today, Senator Roberts, Senator Udall. I appreciate the 
opportunity to be here to talk about these important issues.
    I know, Mr. Chairman that you have said that you would like 
the focus to be on the McCutcheon case and the issue of 
disclosure and the lack of disclosure. I would make two brief 
points in response to testimony and comments today about the 
McCain-Feingold law.
    First, I was pleased to see the endorsement by my 
colleagues on this panel, Mr. McGahn and Mr. Reiff, in their 
written testimony today of the McCain-Feingold goal of 
prohibiting, ``six and seven-figure contributions'', to 
national party committees, ``in exchange for access to 
Executive Branch personnel as well as members of Congress.''
    I agree such huge contributions were and are potentially 
corrupting and give rise to the appearance of corruption, and 
thus, are bad for our democracy. I worry that they will 
resurface after the McCutcheon decision through the device of 
contributions to party committees participating in joint 
fundraising committees. I also worry that the Supreme Court's 
majority in Citizens United and McCutcheon does not share the 
same concern about the corruption inherent in Congress or the 
Executive Branch selling access that Mr. McGahn, Mr. Reiff, Mr. 
Ornstein and I do.
    My second point about party committees under McCain-
Feingold is that they have actually done quite well 
financially. Look at the picture of two elections, 2000, the 
last presidential campaign before McCain-Feingold, and 2012, 
our most recent.
    In 2000, the two political parties and their presidential 
candidates raised and spent a combined total of $1.1 billion in 
that election, a huge sum. Today, adjusted for inflation, that 
would be $1.45 billion. Compare that to the amount spent in the 
most recent election by the parties and their candidates. In 
2012, the total was $2.5 billion, double the actual amount, up 
80 percent in inflation-adjusted dollars.
    It is true that outside groups also spent significant sums 
in 2012, but the national party committees and their candidates 
clearly were well-resourced, better than before McCain-
Feingold.
    In terms of disclosure, or the lack of disclosure, my 
written testimony describes how we have ended up in a situation 
where the Supreme Court stated in Citizens United the 
importance to our democracy of full disclosure of the sources 
of campaign funding, but we have less and less of it. My 
written testimony says that the FEC has deadlocked repeatedly 
on whether to issue a Notice of Proposed Rulemaking to deal 
with the question of disclosure after Citizens United. That is 
correct. The Commission appears to still be deadlocked on this 
issue.
    However, I would like to note for the record that the 
Commission, in late 2011, managed to issue a Citizens United 
rulemaking notice that did not mention disclosure. The 
Commission even had a hearing, but that is the end of the 
story. No new regulation, no action on disclosure.
    Mr. Ornstein's written testimony demonstrates how 
dramatically disclosure of the sources of funding of public 
advertising has fallen. In 2004, the first election under 
McCain-Feingold, 98 percent of outside groups running campaign 
ads disclosed their donors. A few years later, that number was 
down to 34 percent. In absolute dollars, the amount spent on 
advertising, only 40 percent was disclosed as to source in 2012 
by these outside groups.
    Why is this a problem? Let me turn to Justice Kennedy's 
explanation in Citizens United. He said, ``with the advent of 
the Internet, prompt disclosure of expenditures can provide 
shareholders and citizens with the information needed to hold 
corporations and elected officials accountable for their 
positions and supporters.'' Shareholders can determine whether 
their corporations political speech advances the corporation's 
interest in making profits, and citizens can see whether 
elected officials are, ``in the pocket of so-called moneyed 
interests.''
    The First Amendment protects political speech; and 
disclosure permits citizens and shareholders to react to the 
speech of corporate entities in a proper way. This transparency 
enables the electorate to make informed decisions and give 
proper weight to different speakers and messages.
    So Justice Kennedy said the deal was unlimited independent 
expenditures, but full disclosure of funders. And today, we 
have only half the deal, and as Justice Kennedy says, speaking 
for eight justices, that is a problem for our democracy.
    How can shareholders hold their corporations accountable 
for the shareholder money spent in political campaigns if they 
have no idea what is being spent, and for and against which 
candidates? How can voters hold elected officials accountable 
if they do not know which moneyed interests are financing those 
officials' election?
    Finally, how can the electorate, voters, make informed 
decisions and give proper weight to different speakers and 
messages, as the Court says is important to the functioning of 
our democracy, if voters do not know who is financing the 
constant barrage of advertising run by these groups? Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Potter was submitted for the 
record:]
    Senator King. Thank you, Mr. Potter. Our next panel member 
is Ann Ravel, former Chair of the California Fair Political 
Practices Commission and currently Vice Chair of the Federal 
Election Commission. Ms. Ravel, thank you for joining us.

 STATEMENT OF THE HONORABLE ANN M. RAVEL, VICE CHAIR, FEDERAL 
             ELECTION COMMISSION, WASHINGTON, D.C.

    Ms. Ravel. Thank you, Mr. Chairman, Ranking Member Roberts, 
and Senator Udall. Thank you for inviting me to testify today. 
As indicated, I am the Vice Chair of the Federal Election 
Commission, but I am not testifying in that capacity today, nor 
am I speaking for the Commission. Instead, my testimony 
concerns a case pursued during my tenure as Chair of the 
California Fair Political Practices Commission, FPPC, to expose 
dark money in a California election.
    FPPC versus Americans for Responsible Leadership--and I am 
going to use the word of the day--is a Byzantine story of 
campaign contributions being funneled all over the country in 
an apparent effort to avoid revealing to the public who is 
behind political campaigns.
    We discovered that networks of non-profits anonymously 
injected millions of dollars into our election by using shell 
corporate entities, wire transfers, and fund-swapping. This 
allowed donors to skirt disclosure laws and cloak their 
identities from the public view.
    Just a few weeks before the 2012 election, a California 
political action committee, which was focused on supporting one 
and defeating another ballot measure, received an $11 million 
contribution. This was the largest anonymous contribution ever 
made in the history of California elections. The contribution 
came from an Arizona non-profit, Americans for Responsible 
Leadership, or ARL, which had never before spent a dime in 
California.
    After a complaint was filed with the FPPC, we attempted to 
determine whether ARL abided by the requirements of California 
law to disclose the source of the contribution. We eventually 
had to seek relief in court. The California Supreme Court ruled 
unanimously in an emergency Sunday session that ARL had to hand 
over its records.
    Because of this, the day before the election, ARL revealed 
that the sources of the $11 million were two other non-profits, 
one based in Virginia and another in Arizona called CPPR. ARL 
admitted that it functioned solely as an intermediary to 
receive the money from the two non-profits and funnel it to the 
California political action committees.
    This is a clear violation of the law that prohibits making 
contributions in the name of another. After the election, a 
full investigation found that approximately $25 million raised 
from California donors who wished to remain anonymous went to 
the Virginia non-profit and then was transferred to the other 
non-profit, CPPR.
    There was a tacit understanding that CPPR would direct 
other funds back to California in the same amount or more 
through an intricate web of groups. After passing through 
multiple non-profits around the country, $15 million was then 
returned to California to the original political committees to 
spend on the ballot measures. $11 million of that money was 
funneled through ARL and $4 million through an Iowa non-profit.
    Because of the FPPC litigation that was pending, the 
remaining $10 million of the original $25 million raised from 
the California donors was not anonymously pumped back into the 
California election. The FPPC, which is a bipartisan 
commission, unanimously levied a record-setting fine of $1 
million, and also sought disgorgement from the recipient 
committees of the $15 million in improperly disclosed funds.
    The FPPC's investigation and litigation demonstrates 
clearly that public officials from both parties can work 
together to uphold disclosure laws, but the story of FPPC 
versus ARL also shows that dark money is a national problem 
that is best solved on the Federal level. I would be glad to 
answer your questions about this case. Thank you again for the 
opportunity to speak.
    [The prepared statement of Ms. Ravel was submitted for the 
record:]
    Senator King. Thank you for joining us today. Finally, Neil 
P. Reiff, as I mentioned, a lawyer here in Washington and 
former Deputy General Counsel for the Democratic National 
Committee. Mr. Reiff.

STATEMENT OF NEIL P. REIFF, ESQ., SANDLER, REIFF, YOUNG & LAMB, 
                        WASHINGTON, D.C.

    Mr. Reiff. Mr. Chairman, thank you for the opportunity to 
testify today. I am here today as a practitioner in the field 
of campaign finance law and I represent over 40 Democratic 
state party committees. As a recent article explains, McCain-
Feingold has had a profound effect on state and local party 
committees, and I would like to provide a couple of examples 
that illustrate how the law has federalized most of the state 
parties' activities in connection with state and local 
elections.
    As Mr. McGahn said, it ought to be revisited. In our 
article, we agree that national party soft money ban and the 
limitation on solicitations by national party officers, Federal 
candidates, and officeholders achieve the goals to address soft 
money practices at the national level at the time of its 
passage.
    However, Congress could have and should have stopped there. 
Instead, with little forethought to its consequences, McCain-
Feingold extended its reach to state and local party committees 
who, unlike national party committees, were thoroughly invested 
and acted in state and local elections.
    Under McCain-Feingold, state parties have been subject to a 
labyrinth of regulation that seeks to intercept all of their 
activities and force them in the Federal system, regardless of 
whether those activities have any relation to Federal elections 
or candidates. McCain-Feingold federalized all elections 
through its introduction of a new term, Federal election 
activity, which subjected traditionally local activities, such 
as voter registration and get-out-the-vote to Federal 
regulation and limitation.
    The implementation of this new concept has proven rocky. 
When passed, it was claimed to be a narrowly targeted anti-
circumvention measure. Defense of the law followed suit and 
minimized the reach of the new law. After the law was upheld in 
McConnell versus FEC, however, supporters changed their tune 
and argued that the Federal Election Commission, the agency 
charged with enforcing the law, was not reading the new 
mandates broadly enough. Additional litigation ensued and 
courts instructed the FEC to rewrite and broaden its rules 
governing state and local parties.
    For example, under the FEC's recently redefined definition 
of get-out-the-vote, essentially all public communications 
undertaken by a state party committee, even those made totally 
independent of any Federal candidate involvement, are subject 
to Federal law merely by exhorting the voter to go vote for a 
state or local candidate. Therefore, if a party committee 
wishes to air a television or radio ad that tells listeners or 
viewers to go vote for Smith for Governor, Federal law may 
mandate that this advertisement be paid for entirely or in part 
with Federally regulated funds.
    Prior to McCain-Feingold, state law governs state or local 
candidate support, but today, parties are governed by Federal 
law; whereas, a non-party group could run the same exact 
advertisement free of such Federal limitation.
    In addition, under the FEC get-out-the-vote definition, if 
a party committee sends out a mailing on behalf of a state or 
local candidate and merely informs the voter on when the polls 
are open, the location of their polling place, or how to obtain 
an absentee ballot, Federal law regulates and limits the 
funding of the mail piece based upon the provision of such 
information in the mailer even when the mailing makes no 
reference to any Federal candidate.
    It is common practice for state parties to avoid including 
such information in mailings in order to avoid federalizing 
those communications. Simply put, party committees have been 
muzzled when it comes to their ability to inform voters of the 
most basic voting information if they want to avoid being 
subject to Federal regulation. We cannot conceive of any policy 
justification that would support this, particularly when other 
groups who engage in the exact same sort of activity do so 
without such regulation.
    McCain-Feingold has had other detrimental effects. Its 
federalization of state parties has created disincentives for 
state parties to run joint campaigns that feature the entire 
party ticket. Prior to McCain-Feingold, it was commonplace for 
state parties to pay for communications that featured 
candidates from the top of the ticket to the bottom of the 
ticket.
    In addition, state and local candidates have bypassed party 
committees when engaging in advocacy and get-out-the-vote 
activities due to the incompatibility of Federal and state law. 
The current structure of the law has caused a significant 
demise in state and local party relevancy as funding sources 
seek out less regulated organizations such as Federal, state, 
and local super PACs who may independently spend money without 
any restriction on how those communications are funded and how 
much voting information that they can provide.
    The demise of parties has had serious implications for the 
American political system. Party committees have played a vital 
role in grassroots campaigning. Historically, parties have been 
instrumental in delivering positive party messaging, an 
increasing turnout in American elections to grassroots voter 
contact methods, now what some may characterize as single issue 
outside groups have come in to fill the void.
    Although such activities are perfectly legal, it seems to 
be exactly the opposite system of what was envisioned by 
proponents of reform. Recently, the Association of State 
Democratic Chairs passed a unanimous resolution at its meeting 
in November of last year that calls on Congress and the FEC to 
reevaluate how state and local party committees are regulated.
    We have provided a copy of this resolution and legislative 
recommendations made by the ASDC for your review. None of the 
proposals made by the ASDC advocate for the repeat of any 
contribution limit. Rather, the ASDC seeks common sense 
regulation that balances the need to have vital party 
organizations along with the need to provide safeguards against 
political corruption.
    Although Mr. McGahn and I each have a number of ideas and 
suggestions regarding specific changes to the law, we both 
believe that any common sense steps to help revitalize state 
and local party committees would be helpful. I have a few 
examples.
    Refine and simplify the existing volunteer exemptions for 
grassroots activities to make them easier to use by state party 
committees and consider expanding them to other grassroots 
activities.
    Repeal the McCain-Feingold provisions that have needlessly 
federalized joint and non-Federal campaign activities 
undertaken by state party committees. In the alternative, 
modify the FEC's current interpretation of the existing rules 
to scale back the expansive scope that essentially federalizes 
all party campaigning on behalf of state and local candidates.
    And finally, index contribution limits to party committees 
as these limits were inexplicably excluded from the 
contribution indexing provisions provided for by McCain-
Feingold. Similarly to the extent that limitations on 
coordinated party expenditures are still required, update those 
limits to more closely reflect modern economic reality.
    In the short time we have today, we can only briefly touch 
upon the Byzantine nature of Federal regulation that state 
parties are subject to. Thank you for the opportunity to 
present our views.
    Senator King. Thank you, Mr. Reiff. We are going to have 
seven-minute question rounds. I would like to begin. First, the 
term Byzantine has been used a couple of times. This is a chart 
prepared by the Center for Responsive Politics that is a chart 
of money in 2012. I think we are insulting the Byzantines, 
frankly, by likening this to their conduct. This chart will be 
available in larger form.
    It is illustrative of what is going on. I did a rough 
calculation. There are $300 or $400 million here that is 
flowing through all of these various organizations. They have 
even come up with a name which I think is a marvelous one, a 
disregarded entity. That is--I do not know quite what that it 
is. It is an oxymoron, I would think.
    Mr. Ornstein, in preparing for this hearing, to coin a 
phrase, my conclusion was it is worse than I thought. We got a 
report just yesterday from the Wesleyan Media Project, which is 
a very interesting project that does not try to track 
contributions, because a lot of them are not disclosed, but 
tracks ads on television all over the country and then 
attributes a value to them based--estimated value--based upon 
the air time in the media market. And, of course, it is only 
air time. It is not production or other costs.
    But the startling thing, this is spending by non-disclosure 
groups' cycle to date, in other words, to April 29th, 
yesterday. And what struck me is the gigantic growth in these 
independent expenditures. And that is what I meant in my 
opening statement, that this is not a little incremental 
change. This is a revolutionary change. And the same thing, 
this is non-disclosure money cycle to date. This is outside 
spending cycle to date and these are the off-year elections, 
and you can see between 2010 and 2014 an enormous growth, 
almost ten times more.
    Would you say that this is an accelerating problem and that 
is one of the reasons we should have to address it?
    Mr. Ornstein. It is an exploding problem, Mr. Chairman, and 
I think what we have seen is a set of very often explicit 
efforts to try to hide where the money is coming from. It is 
not only through these--I will not call them Byzantine--bizarre 
sets of arrangements. And Ann, I think, described very well how 
this can play out across many state lines.
    I only briefly alluded to the role of the IRS in all of 
this, and one thing that we know is that moving towards 2012, 
there was another explosion which was applications for 
501(c)(4) status from groups that, in many cases, and we knew 
leading up to this, were moving into influence elections and 
were using that IRS status simply to hide the names of donors.
    We know that American Crossroads created another entity, 
Crossroads GPS, and basically the head of it said very clearly, 
this is for people who do not want to disclose. So lots of 
groups moved in there. The IRS, in a pretty ham-handed way, 
tried to deal with this explosion by using code words.
    Of course, the reality is, if you have a group that has the 
name party in it and they say in their application that they 
want to influence elections, they should be registering under 
Section 527 of the Code. And now the IRS is moving to try and 
come up with common sense regulations that keeps these sham 
groups that are not social welfare organizations in any way, 
shape, and form from doing what the law intended and they are 
being attacked viciously.
    Senator King. We all remember the Swift Boat Veterans for 
Truth in 2004. That was a 527. But that required disclosure of 
donors. As I understand it, that vehicle has atrophied and is 
very rarely used, and now it is the 501(c)(4)s, which do not 
require disclosure of donors and that is where all the money 
seems to be going. Is that correct?
    Mr. Ornstein. That is correct. And some of the other 
501(c)s may be used as well. But we know that in 2000, before 
McCain-Feingold, Congress actually did move to try and require 
disclosure, more disclosure from 527s.
    It is also important to emphasize what Trevor Potter put 
very eloquently into his testimony, which is, so much of the 
problem here is not based on either the law or the court, which 
is very much in favor of disclosure. It is the Federal Election 
Commission which has tried to redefine--you know, take Pat 
Moynihan's term of defining deviancy down.
    They have tried to define disclosure down to make it even 
more difficult, and that is the root of some of the problems 
here as well.
    Senator King. Well, Mr. Potter, as I went back and looked 
at Citizens United and McCutcheon, it was clear that the whole 
holding was based upon a premise of vigorous disclosure. That 
was how the courts justified--those two courts--justified 
eliminating the limits, but they posited a disclosure regimen 
that does not exist. Is that correct?
    Mr. Potter. Yes. As an outsider, I think one of the 
mysteries to the Supreme Court's decision in Citizens United is 
the very strong language by Justice Kennedy where he says 
``until today, we have not had a system with unlimited 
corporate spending but full disclosure.'' And now that we have 
corporate spending allowed in Federal elections and full 
disclosure, and then he goes as I quoted in my opening 
statement, ``Citizens will be able to figure out who is 
spending the money. Shareholders will know what their 
corporations are up to.''
    So the question is, why did Justice Kennedy say that? I 
think the answer is pretty clear, which is he is looking at the 
law. He is looking at McCain-Feingold, the Bipartisan Campaign 
Act, which requires disclosure of the sources of spending of 
advertising if someone gives more than $1,000 to the groups 
that are doing it or if it is done through a separate group 
they set up for that spending.
    Senator King. Before my time expires, the issue about 
disclosure, as I have heard it articulated, that if donors' 
names are disclosed, they will be subject to intimidation and 
threats and those kinds of things. My old colleague from 
Virginia law school, who I know as Nino Scalia--I understand is 
now Antonin Scalia--said requiring people to stand up in public 
for their political acts fosters civic courage without which 
democracy is doomed.
    In Maine, we have town meetings every spring. Nobody is 
allowed to go to a Maine town meeting with a bag over their 
head. If they are going to make a speech, they have to 
acknowledge who they are, and that is part of the information 
that the voters need, it seems to me.
    Mr. Ornstein, what do you make of this argument that 
disclosure will lead to reactions and intimidation and threats?
    Mr. Ornstein. I agree with Justice Scalia very much in this 
front. I must say, Mr. Chairman, you know, as I have been 
watching the pictures from Ukraine and you see these people not 
with bags but with masks over their heads, it made me think 
about this a little bit, that there are societies where they 
try to hide identities. That is not what America is all about.
    And some of the discussion here that goes back to a case 
involving the NAACP is really not a very good parallel. It is 
one thing if you have threats of death and the like, but in a 
democracy where there is rough and tumble, and it is something 
actually that I think both Senator Roberts and Senator Cruz 
talked about, that is the nature of a democracy.
    If you are going to be involved in this process and 
somebody is going to criticize you for it, there is nothing 
wrong with that. You have to have some reasonable limits, it is 
true, if you do have direct intimidation, but there are laws 
very much that guard against that already on the books.
    Senator King. Thank you. Senator Roberts.
    Senator Roberts. I would just like to observe that no one 
spending money exercising their First Amendment rights, to my 
knowledge, is endorsing fire in theaters or pornography or 
noise pollution. I suspect, however, that many on both sides of 
the aisle have characterized their opponents as stating noise 
pollution or conducting themselves with regard to noise 
pollution.
    The other thing I would say is the exercise of free speech 
that one disagrees with is not pornography, although we all 
know it when we see it, when we put on our partisan glasses, 
nor is it necessary to label repeatedly, repeatedly to 
characterize those with whom you disagree as un-American.
    Mr. Ornstein, Norm, the IRS is not moving to promulgate the 
regulations that were in place, the exact regulations that were 
in place that some of us believe caused the problem with the 
IRS trampling on the rights, the First Amendment rights of some 
conservative groups, primarily the Tea Party.
    They are not moving because they received over 200,000 
comments, and by law, you have got to go through them and so 
they have stopped, but they have also stopped because Senator 
Flake of Arizona and myself, at least suggested to John 
Koskinen, the new Commissioner of IRS, that it might be a good 
thing to withhold writing the regulations until the Finance 
Committee of the United States Senate, Ways and Means Committee 
of the House, and the Inspector General would get done with the 
investigations.
    We are having problems, like every other investigation, 
with redaction and other things, but we are persevering and we 
are trying to do it in a bipartisan manner, more especially 
with the Senate Finance Committee. So they have held off right 
now, and I think that is a good idea, and I think once we 
finish the investigations, we can determine what actually 
happened.
    I have some feeling about that as to where that really came 
from and I think it came from more than a number of Senators 
writing basically to the IRS stating that they felt the 
activities of various groups were not in keeping with what they 
envisioned the provision to call for. But that aside, I just 
wanted to mention that.
    You referenced the Hatch Act. Yesterday it was announced 
that an FEC attorney resigned for admitted violations of the 
Act. According to a release from the Office of Special Counsel, 
the employee posted dozens of partisan political tweets, 
including many soliciting campaign contributions to the 
President's 2012 election campaign and other political 
campaigns, despite the Hatch Act restrictions that prohibit the 
FEC and other further restricted employees from such activity.
    The employee also participated in a Huffington Post live 
Internet broadcast via webcam at an FEC facility criticizing 
the Republican Party and the presidential candidate at that 
time, Mitt Romney.
    I think you can understand why reports of this nature make 
Republicans somewhat wary of the FEC and their ability to 
regulate their behavior. Are we to believe that there are not 
others at the Commission who share these views but just have 
not been caught expressing them? Now, I mentioned you, Norm, 
but really that question is directed to Ms. Ravel, who I think 
could give a better answer, although I am sure you could give a 
good answer.
    Ms. Ravel. Well, as I indicated, Senator Roberts, I cannot 
speak on behalf of the FEC, but I will tell you that the FEC 
responded very quickly to that issue when it came to the 
attention of people within the agency, and understood that it 
was totally inappropriate behavior on behalf of an employee.
    And further, there has been an investigation internally and 
there is no reason to believe that this is extensive or goes 
beyond anybody except this one individual who has since been 
terminated.
    Senator Roberts. That was my next question and you have 
already answered it. My question was, in your experience at the 
Commission, are any negative views of the Republican Party 
widespread among the employees there or members of the FEC? 
Even sitting around and having coffee and saying, My God, what 
are those crazy Republicans doing now?
    Ms. Ravel. Senator----
    Senator Roberts. Or what Roberts is doing?
    Ms. Ravel [continuing]. I have never heard your name 
mentioned----
    Senator Roberts. Thank you.
    Ms. Ravel [continuing]. At the FEC.
    Senator Roberts. At least I am not part of that dark money 
scandal.
    Ms. Ravel. No. And as I indicated, I was speaking on behalf 
of--relating to an incident, the case at the FPPC, but I, in my 
six months at the FEC, have never heard any partisan 
communications by either employees or Commissioners. While we 
all are appointed based on our party----
    Senator Roberts. That must be one agency that is an island 
in the sun. Mr. McGahn, what do you think about this? What was 
your experience in this regard? Should we view this as an 
isolated incident or as evidence of a broader problem?
    Mr. McGahn. I saw the news and I was very troubled by it. 
When the FEC has that issue, I think it is very serious. I 
think it certainly calls into question what many of the reform 
lobbyists have sold for years, which is that there is this idea 
of a non-partisan staff that can exist divorced from politics 
and provide objective advice and that sort of thing.
    That being said, what I can say is, most of the folks at 
the FEC play it straight. They show up on time, they do their 
job well, they are very committed to their job, and they do not 
have an agenda. But there are some folks who seem to get a 
little carried away with themselves from time to time and I 
think that is troubling.
    The cure for this is, one, the Hatch Act; two, keep in mind 
what the FEC is and that it is not. It is not an independent 
agency composed of career staff. It is actually six persons 
appointed by the President, confirmed by the Senate. It is not 
a non-partisan agency. It is a bipartisan agency. And under the 
statute, in order for the Commission to actually take action, 
it takes at least four of six Commissioners to confirm that.
    So if staff get a little carried away, that is not good, 
but in my view, the Commission is then--this is a reason why 
Commissioners need to remain vigilant and really exercise the 
power the Congress has given them under the statute to run the 
agency.
    The idea that the Commissioners want to delegate to staff 
and that sort of thing, I have never been a big fan of that and 
I think the unfortunate release that came out yesterday is 
evidence that my view of the law is sound that really it shows 
the wisdom of the original system of the FEC where the 
Commissioners have to act in a bipartisan manner to avoid one 
party essentially targeting the other party.
    Senator Roberts. I appreciate that. My time has expired, 
Mr. Chairman.
    Senator King. Thank you, Senator. Senator Udall. Oh, sorry.
    Senator Klobuchar. We look similar.
    Senator King. I am awfully sorry. Senator Klobuchar, 
welcome to the hearing.
    Senator Klobuchar. Thank you very much, Mr. Chairman, and I 
had two previous hearings, including the Joint Economic 
Committee where I am the Senate Chair. So I apologize for 
getting here now, but I think this is an incredibly important 
topic. I thank you for holding this hearing. I thank Justice 
Stevens for his testimony and his support for a constitutional 
amendment. I also thank my colleague here, Senator Udall, for 
his work in leading the constitutional amendment, which I am a 
co-sponsor.
    I am very troubled by the recent Supreme Court decision, 
the McCutcheon decision, extending the damage Citizens United 
caused in my mind. I looked back. I was cleaning out a back 
room in my house in Minnesota last week and found a bunch of 
things from my campaign for Hennepin County Attorney, where, 
Mr. Chairman, we had a $100 limit on contributions in the off 
election years and $500 in the election year.
    I literally found letters where we returned $10.00 if 
people had gone over the $100 limit. I then thought of my first 
days. I found a bunch of stuff from the 2006 Senate campaign 
where I knew no one to ask money from nationally. I literally 
went through my entire Rolodex and I remember setting the all-
time Senate record of raising $17,000 from ex-boyfriends.
    [Laughter.]
    Senator Klobuchar. Those days are behind us as we head into 
this new era, after the Supreme Court decisions, and I am 
incredibly troubled by these decisions when you can have a few 
thousand people be able to give hundreds of thousands of 
dollars, and I just think it destroys our campaign finance 
system.
    I guess I will start with you, Mr. Potter. There has been a 
lot of discussion about what the real world impact of Citizens 
United has been and how McCutcheon will affect it going 
forward. Can you describe what trends or major shifts you see 
in campaign finance since the Citizens United ruling and how 
McCutcheon will impact those trends in the future?
    Mr. Potter. Yes, thank you, Senator. Well, I think the 
first trend, which was noted in the Chairman's question a 
moment ago, is that contrary to what the Supreme Court said in 
Citizens United, we are seeing secret spending. The Court's 
assumption was that although we would have new sources of 
spending, corporations and then unions, that they would be 
disclosed and that shareholders and citizens therefore would 
know who was speaking, and could evaluate that speech.
    That is not what is happening now. Because of the FEC's 
position on what has to be disclosed, because of the 
proliferation of tax exempt groups that do not disclose their 
donors, we have ended up with a parallel avenue of spending in 
elections.
    Essentially, if someone wants to influence an election 
today, if they are being solicited for money, the first 
question is, ``well, am I willing to have my spending disclosed 
or not?'' And if not, then you look at all of these vehicles 
that are available to spend the same money, to run the same 
ads, but have it avoid being a matter of public record, so 
that----
    Senator Klobuchar. Yes. I remember $99.00 contributions in 
my $100 race for county attorney, and I know that, but this is 
taking it to a whole different level, as you point out, when 
there is no disclosure and the effect that will have.
    I guess the other question--you took this even a step 
further, Mr. Ornstein, when you talked about how the definition 
of corruption is so narrow in the Supreme Court case. It says 
that we can only regulate donations to prevent actual quid pro 
quo bribery. Why do you think this is problematic, and should 
we be able to regulate this?
    Mr. Ornstein. First of all, let me say that you were a 
great Hennepin County Attorney. But beyond that, anybody, I 
think, who has been around the political process at all knows 
what happens when you have money intersect with power and the 
many ways, indirect and otherwise, that you get corrupting 
influences.
    I have had some of your colleagues tell me, in the 
aftermath not just of Citizens United, but what I think was an 
equally corrosive decision, Speech Now, that followed it that 
created the explosion of the super PACs and in other ways, say 
that they are visited by somebody who says, I am representing 
Americans for a Better America, and they have got more money 
than God and, you know, pouring in $10 million in the final two 
weeks of a campaign to destroy somebody, that is easy.
    They really want this amendment. I do not know what will 
happen if somebody opposes them, but that is the reality, and 
they leave. And human beings are going to think, well, it is 
one little amendment, or will think, I had better raise $10 
million not just what I need for my campaign, but as an 
insurance fund just in case because I cannot do that in the 
final two weeks of a campaign.
    That is just one set of examples. Now in the aftermath of 
McCutcheon, I can imagine a bunch of people coming in and 
waving checkbooks and saying, each one of us has checks that 
can total $3.75 million now that we will give to the hundreds 
of committees, the joint fund-raising committees, spread it 
around, and, of course, we will have candidates we would 
prefer. The notion that this will actually keep the individual 
limit is out the window.
    We will all write these checks, but there is one little 
thing here in the legislative arena that we want in return. You 
do not have to say it directly and it will not be on videotape. 
This is corrupting. We saw it in the gilded age, and what I 
think both Justice Kennedy and Justice Roberts have now done in 
these decisions is to open up a new gilded age.
    Senator Klobuchar. And you being a political scientist and 
not just a campaign expert here understand that one of the 
problems is we have had people so polarized, you know, whatever 
special interest is to the left or the right, and one of the 
things I am worried about as I looked at this McCutcheon 
decision, even more than the expenditures decision, is that it 
will just play to the poles.
    It will make it even harder for people to do things in the 
middle where they have to compromise and they have to be able 
to kind of go in the face of some of the people from their own 
base, from their own party, if they are just going to be 
punished in a big way by major donors. Do you think there is 
any truth to that?
    Mr. Ornstein. I think you get, when it comes to big donors, 
maybe four categories of people. There are two that represent 
the poles and they are trying to use their money as electoral 
magnets to pull people further apart.
    Senator Klobuchar. That is a good analogy.
    Mr. Ornstein. A third type are those who may not have a 
deep ideological interest, but they have pecuniary interests 
and they will use money to make money. I, frankly, am surprised 
that we do not have more spending by big corporate interests in 
Washington because it is the best investment you can make. Put 
in, you know, $20 million that goes into funding of campaigns. 
Maybe you will get a billion dollar contract out of it. And we 
will see more of that now and I think we are heading down a 
slippery slope of direct contributions by corporations to 
candidates.
    And then maybe you have a category of those who are just 
looking out for the broader public interest. But I think that 
is a much smaller category than the other three.
    Senator Klobuchar. I think the last thing I would raise, no 
question, and maybe we can go back after you are done, Senator 
King, but it is just this issue where even when you are making 
a decision as an elected official to do what you consider the 
right thing for your state, you know, maybe you have a lot of 
employees in a certain area and you think it is very important 
or you think it is the right thing for the country.
    I think with this lack of trust with all these big 
contributions, people still will now look at it, even though 
you know in your heart you made the decision for the right 
reason, and they look and they see, Oh, but you got money from 
these interests. I just think even when you are doing it for 
the right reason, it completely breaks down trust from the 
public about why you are doing things.
    And that is one of the major problems and why I support 
this constitutional amendment.
    Senator King. Thank you. A couple of follow-up questions. 
In listening to this and thinking about these organizations 
that essentially are designed to disguise identify, the term 
identity laundering comes to mind. I mean, that is what is 
really going on here. It is a reverse on the whole idea of 
money laundering.
    Ms. Ravel, which was essentially exactly what was going on 
in your case, where there were donors in California who the 
money went to Virginia to Arizona back to California. It was 
all about laundering the identity out of that contribution. Is 
that not correct?
    Ms. Ravel. Yes. Yes, Mr. Chairman. The initial request for 
the money in California was, if you want your identity to be 
known, you can give directly to a PAC. If you do not want your 
identity to be known and you want to remain anonymous, it can 
go to this Virginia non-profit.
    And so, the money that went to the Virginia non-profit was 
specifically for the purpose of not revealing identity and it 
was then moved circuitously through all the other non-profits 
for the same reason.
    Senator King. Thank you, Ms. Ravel. That is exactly the way 
it appeared. Mr. Ornstein, one of the situations is, whenever 
you try to do something about an issue like this--and by the 
way, I really enjoyed this morning sitting literally in the 
center between Senator Roberts and Senator Schumer--but when 
you try to do something, everybody thinks of it in partisan 
terms. Does this advantage my party versus the other party, my 
candidate versus the other?
    But this data I referred to that came out yesterday 
indicates that the gap--the red or the more conservative-
leaning groups, the blue are more liberal groups, and the gap 
between them is diminishing significantly. It was 85 or 90 
percent conservative back in 2010. As you see here, there is 
still a big disproportionate in 2012. But the gap is now 60-40.
    Hopefully, both sides are going to realize that this is a 
danger. I think this is not a partisan issue to me. I think 
this non-disclosed money is a danger to the republic no matter 
who it favors one year to the next. As the Old Testament says, 
if you sow the wind, you will reap the whirlwind. I am afraid 
that people are sort of saying, Okay, right now today this 
benefits my party, but next year or the year after that, it 
could benefit the other party. That is why I think we need to 
make a change like this.
    Mr. Ornstein. You know, it is interesting, Mr. Chairman, 
that before McCain-Feingold, you really did have a bipartisan 
consensus on the need for more disclosure. And indeed, when 
Congress was considering, in 2000, requiring more disclosure of 
527 groups, we had overwhelming bipartisan majority support it.
    One who did not was the Senate Republican leader, Mitch 
McConnell, but what Senator McConnell said at the time was he 
did not support it because it did not require enough 
disclosure, including what he said was a requirement for 
disclosure from these non-profit groups, now what we think of 
as the 501(c)(4)s.
    We have a very different attitude now. It has become more 
polarized. And I do not see why disclosure should be a partisan 
issue at this point. I do not see why we cannot cut through 
that, and I do think that this is something where now that 
there are more avenues for money, people who have interests, 
and that includes the polar opposites as well on both sides, 
are going to start to pour more and more money into it and, in 
many cases, they are going to try and hide where that money is 
coming from.
    One of the things that we have seen is, they will often use 
inappropriate vehicles, 501(c)(3)s, the pure non-profits, to 
then give grants of money to other groups that can go to other 
groups that can go to other groups that finally end up in a 
501(c)(4) that does not get disclosed.
    There are so many opportunities here to hide identities and 
to hide money that how can voters figure out when a message is 
coming who is providing that message, which is a requirement of 
context, to know whether to believe it.
    Senator King. Well, one of the interesting data points in 
this new study from Wesleyan is that voters tend to put more 
credit to ads that come from these groups than they do from the 
candidates, even though they do not know who the groups are. 
The groups may be Americans for Greener Grass and voters tend 
to think, well, it is not a candidate ad, it must have more 
authority, but they do not know who is funding Americans for 
Greener Grass. By the way, I am in favor of these ads.
    Mr. Ornstein. One of the things as well, we have talked, 
and Senator--excuse me--Justice Stevens talked about a level 
playing field. One of the things that concerns me is that the 
level playing field is moving very much away from the 
candidates of both parties and in a host of ways. Candidates 
have to raise money in $2,600 increments and groups that now 
can spend untold amounts, that can pour it in at the end of a 
campaign when a candidate does not have an opportunity to 
answer those messages have now, I think, an overweening 
influence.
    And it is not that that money will necessarily be spent. 
The threat of spending, unless something is done, is enough. In 
many cases, we will see actions taken by Government behind 
closed doors or by changing amendments that nobody will know 
about without a dime being spent under these circumstances as 
anonymous groups apply that threat. It is not a good way to run 
business in a democracy.
    Senator King. Mr. Potter, I thought one of the most 
interesting moments today was when Senator Cruz said, unlimited 
contributions and immediate disclosure. React to that concept.
    Mr. Potter. Well, I think there are two different issues 
here. One is the idea of full and immediate disclosure, which 
is the one Senator Cruz talked about, I believe, in the 
context, in fairness to Senator Cruz, in the context of 
contributions to candidates. The other is the issue of how much 
candidates should be able to accept as contributions, or party 
committees which are comprised of candidates, without citizens 
thinking that they have been bought.
    That has been the debate, really, since certainly Watergate 
where you had million-dollar contributions.
    Senator King. But if you have full disclosure, the citizens 
can make that decision. They can say, look, my candidate took 
half a million dollars from XYZ and I do not like that.
    Mr. Potter. They can and that is where we were in the early 
1970s when there were million-dollar contributions to the Nixon 
reelection campaign. The reaction was, something is being sold 
or something is being bought for a million dollars. The Supreme 
Court in Buckley said, it is not an irrational conclusion. It 
is common sense that people will believe that huge 
contributions are intended to buy access and influence 
legislative results, and that people who take those 
contributions are in some way being bought.
    So that is why the Court in Buckley said it makes perfectly 
good sense to limit the size of contributions to candidates and 
party committees because of the perception, the danger and the 
perception that there is a transaction.
    If you have an unlimited contribution that is fully 
disclosed, you still have the million dollars coming in. And 
the question, Justice Stevens' question asked is, so what about 
people who do not have a million dollars? They just do not get 
to buy any access or influence?
    That has been the justification for the contribution 
limits. The debate has been, what size should they be? The 
assumption has been that those contributions will be disclosed, 
and as far as we know they are all fully disclosed, but that 
the independent expenditures that the Court allowed in the 
Buckley decision, which the Court said were not going to be 
corrupting because they would be totally, wholly, completely 
independent of candidates, would also be fully disclosed.
    We have ended up, in a way, with the worst of both worlds, 
which is contrary to what the Court said, these expenditures 
are not fully disclosed, as we have discussed, or they need not 
be. There is an option there. And secondly, they are not 
wholly, totally, and completely independent of candidates 
either.
    The Court's assumption was they cannot be corrupting 
because candidates and parties will have nothing to do with 
them, but the reality, as we have seen, is that many of these 
super PACs are created by former employees of candidates and 
close associates of candidates. They are, in many ways, tied to 
the candidates.
    Candidates have appeared at events for these groups to 
thank donors for giving to them so they are not totally, wholly 
independent as the Court expected. In that sense, they are not 
fulfilling the role that the Court thought they would.
    Senator King. We have used the word--and this is a subject 
that really has not come up today--we have used the word 
perception a number of times. I do not think there is much 
question, and polls support this, that this whole money and 
politics is part of what is turning off the American people to 
the process. It is part of what is undermining the confidence 
and trust in the system, which is ultimately what our system 
rests upon.
    I think that is part of it. It does not have to be a bribe. 
It just is unseemly and people realize that. It may be one of 
the reasons that our collective approval rating around here is 
below al Qaeda. And it just strikes me. There has not been 
enough discussion of that, is the underlying distaste for this 
whole system that is undermining trust and confidence in our 
Government.
    Senator Klobuchar, you wanted to follow up?
    Senator Klobuchar. Sure. I was just listening to Mr. 
Potter, so I am a big fan of transparency, but I do not think 
in any way will it solve all the problems because I think what 
is going to happen, I want to get it, but it is going to 
happen, I know it. Certain people who give in certain states 
where maybe their entity or what they have done is not as 
unpopular, and then someone else will give money in another 
state.
    They will just find a way. I think with good disclosure 
law, they will have to disclose, but I just do not think it is 
going to fix the problem of the trust that Senator King just 
talked about, as well as the amount of money that can be spent. 
Not just the unseemliness, but it is a thin line between what 
is unseemly and what is almost a bribe.
    So, Mr. Potter, what do you think? Do you think disclosure 
is enough?
    Mr. Potter. Well, as you point out, if you get full 
disclosure, you now know what is happening. Will people like 
what is happening? That is a different question. And it may 
well be that full disclosure leads the American public to think 
that only a limited number of people are being able to buy 
access, that these campaigns cost so much that members have to 
spend so much time raising money and they are going to spend it 
logically with the people who have money.
    So full disclosure does not get you everywhere. Full 
disclosure is, I think, a start to a larger discussion of how 
we want to finance campaigns.
    Senator Klobuchar. So you think it is very possible we need 
to do more than just disclosure?
    Mr. Potter. Oh, absolutely.
    Senator Klobuchar. Okay, good. But I think that your 
argument would be that if you have disclosure, then maybe that 
will more easily lead to other measures.
    Mr. Potter. Right. My concern here, going back to the 
McCutcheon decision--is that I think the five Justices in the 
Court majority are in a position where they are saying, 
Congress, you cannot do more. We have said disclosure is fine, 
Internet disclosure, all that is really great, but unless it is 
bribery, it is okay.
    So this intermediate area that the Chairman talks about, 
which is it is unseemly, that it diminishes confidence in 
Government, that used to be covered by the, ``appearance of 
corruption'', the notion that Congress could legislate, as it 
did with soft money, not because there was proof of quid pro 
quo bribery with people going to jail, but because of the 
unseemliness of six and seven figure contributions, as Mr. 
Ornstein says, these were often solicited in terms of join the 
Chairman's Club, have a breakfast meeting with the Chairman of 
the XYZ Committee.
    Congress said, you cannot do that because it is bad for the 
institution and it is bad for public confidence in Congress. 
And what I worry about is that the five Justices in the Court 
majority are saying, too bad, you cannot fix that, and you 
cannot regulate that. If it is not actual outright bribery, 
Congress cannot prevent that sort of activity. And that seems 
to me to be a crisis for this institution in terms of public 
confidence.
    Senator Klobuchar. Mr. Ornstein.
    Mr. Ornstein. Senator Klobuchar, I want to add a couple of 
points to this. One is, when we think about corruption, it goes 
both ways, and I think one of the problems with removing all 
the limits is that the pressure on big donors who can no longer 
say with an umbrella of protection, I have maxed out, being 
pushed to give more and more.
    Or in some instances, as we have seen before, being told 
that if they give to the other side, then mayhem will ensue 
upon them in the legislative process, is another part of this 
that is a very real problem. And then what I would also like to 
say, if you will give me permission is, Senator Cruz said none 
of these reforms have done anything except increase corruption.
    I think it is important to set the record straight in the 
sense that, you know, Mr. Potter talked about Watergate and it 
led to a law that changed the way presidential campaigns were 
funded. And to me, it is just incontrovertibly clear that for 
decades after, we changed the presidential system.
    So there were voluntary spending limits and there were 
public grants. We had a much cleaner and better system. It fell 
apart because we did not adjust those numbers and it became 
absurd. There was not enough money there. And to be frank, 
there was not enough public support for public money in the 
campaigns.
    Now I think you are absolutely right, Senator King, that--
and we have lots of polls that show it--the sense that the 
public believes that all of politics, and particularly in 
Washington, is thoroughly corrupt, that citizens do not have 
much of a say here, that other interests are prevailing, has a 
corrosive impact on the ability of a democracy to function with 
legitimacy.
    And these two Supreme Court decisions pretty much blithely 
push that aside, to me, is a really troubling development.
    Senator Klobuchar. And I am convinced that it is not just a 
perception issue, which it is, but I think in Minnesota where 
we have had some very strong limits at the local and the state 
levels--I mentioned the ones I had for county attorney--it made 
a difference. It makes a difference in the kind of politics. It 
makes a difference in the civility.
    It has made a difference in the outcome. It gave us 
Governor Jesse Ventura, which is for sure, because we had the 
public funds. But it gave the citizens a say and we have the 
highest voter turnout in the country nearly every single year, 
and a lot of that, I think, is because people can have a better 
trust in their Government and they do not see that big money, 
at least at the state level.
    Speaking of that, Ms. Ravel, you were talking about the 
dark money and the Virginia and Arizona in the case that you 
worked on. One of the things that has been debated is the 
impact of these decisions on foreign entities to be involved in 
funding. You know, if you can do this from state to state to 
state and it is all hidden, do you think that these decisions 
could make it easier for foreign entities to fund United States 
elections?
    Ms. Ravel. I do not think there is any question about that. 
One of the positive things about transparency and disclosure 
for all groups, regardless of their tax status or how they are 
set up, is that the public will know, or prosecutors could know 
whether or not some of the contributions are made illegally, 
and that includes foreign money.
    Senator Klobuchar. All right. Just last, a trust issue. 
Under Federal law, super PACs, as you know, are not allowed to 
coordinate with their candidates' campaigns or coordinate 
activities. I already see you having a smirk on your face, Mr. 
Ornstein.
    But there has been a lot of discussion over the fact that 
the organizers of some super PACs have had very close ties to 
candidates that they have supported. This is on both sides. 
What impact do you think this has on the public trust of 
Government?
    Mr. Ornstein. When you have presumed independence and then 
you see big funders standing behind candidates as they give 
their speeches, appearing with them at fund-raising efforts, 
riding with them on their private planes and sitting right next 
to them, and then we have the idea which is infused in Citizens 
United, that because they are independent, then these entities 
can give as much money as they want and we do not need to worry 
about corruption or the appearance of corruption, it is a big 
joke, frankly. For that, we have to thank, as I said, not just 
Citizens United, but Speech Now.
    Senator Klobuchar. Right. Thank you very much.
    Senator King. Senator Klobuchar, since you brought up my 
independent gubernatorial colleague, Jesse Ventura, I have to--
--
    Senator Klobuchar. Is it true that he once asked you to be 
his running mate for President?
    Senator King. The answer to that is true.
    Senator Klobuchar. I just thought we should get that on the 
record.
    Senator King. If you would like to say no to Jesse, you are 
welcome to.
    [Laughter.]
    Senator King. But it has been attributed to him, I think, 
one of the most ingenious suggestions on this issue. He 
believes that members of Congress should have to wear jackets 
like NASCAR drivers with their sponsors on the jacket. Only 
Jesse would come up with an idea as creative as that.
    Mr. Ornstein. You would need trench coats, actually.
    Senator King. I want to thank all of you on behalf of the 
Rules Committee for your important testimony today. I also want 
to thank the Center for Responsive Politics and the Wesleyan 
Project for their help, as well as Fred Wertheimer at Common 
Cause, Dean Olsen, Citizens for Responsibility and Ethics in 
Washington who helped develop a lot of the background.
    This concludes the second panel for today's hearing. Before 
we adjourn, I would like to ask unanimous consent that a 
Supreme Court brief written on this subject by Senators McCain 
and Whitehouse be included in the record without objection.
    [Brief of United States Senators Sheldon Whitehouse and 
John McCain as Amici Curiae in Support of Respondents was 
submitted for the record:]
    Senator King. And also without objection, the hearing 
record will remain open for five business days for additional 
statements and post-hearing questions submitted in writing for 
our witnesses to answer. I want to thank my colleagues for 
participating and joining us in this hearing, sharing their 
thoughts and comments on this important topic. This hearing of 
the Rules Committee of the United States Senate is now 
adjourned.
    [Whereupon, at 12:04 p.m., the Committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 



                 HEARING--COLLECTION, ANALYSIS AND USE.
                     OF ELECTIONS DATA: A MEASURED.
             APPROACH TO IMPROVING ELECTION ADMINISTRATION

                              ----------                              


                        WEDNESDAY, MAY 14, 2014

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Amy 
Klobuchar, presiding.
    Present: Senators Klobuchar and Schumer.
    Staff Present: Jean Bordewich, Staff Director; Kelly Fado, 
Deputy Staff Director; Stacy Ettinger, Chief Counsel; Veronica 
Gillespie, Elections Counsel; Ben Hovland, Senior Counsel; 
Julia Richardson, Senior Counsel; Abbie Sorrendino, Legislative 
Assistant; Phillip Rumsey, Legislative Correspondent; Jeffrey 
Johnson, Clerk; Benjamin Grazda, Staff Assistant; Mary Suit 
Jones, Republican Staff Director; Shaun Parkin, Republican 
Deputy Staff Director; Paul Vinovich, Republican Chief Counsel; 
and Rachel Creviston, Republican Senior Professional Staff.

             OPENING STATEMENT OF SENATOR KLOBUCHAR

    Senator Klobuchar. Welcome to today's hearing of the Rules 
Committee. Good morning, everyone.
    We are going to be focusing today on the use of data to 
improve the administration of elections. I want to thank 
Chairman Schumer for calling attention to this very important 
issue and for inviting me to chair this hearing.
    I also want to acknowledge Staff Director, Jean Bordewich. 
Congratulations on your incredible service to this committee, 
and we wish you well in your new position, and I know that 
Chairman Schumer wanted to say a few words about Jean.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. Well, thank you, and first, let me thank 
Senator Klobuchar, not only for chairing this hearing, but 
being a great member of the Rules Committee and a great member 
of the Senate.
    And, I want to also welcome Heather Gerken, who was my 
daughter's teacher at Yale Law School, and I got to know her 
there, so thank you for coming, and all the other witnesses, of 
course, too----
    [Laughter.]
    Chairman Schumer [continuing]. Who did not have the 
opportunity to teach my daughter.
    [Laughter.]
    Chairman Schumer. But, today, I want to take a moment to 
recognize and thank one of the Senate's great public servants, 
the Staff Director of the Rules Committee, my dear friend, Jean 
Parvin Bordewich. Today is Jean's final hearing with the Rules 
Committee. She is retiring from the Senate after 20.5 years of 
service to the House and to the Senate, but our time goes back 
much longer than that.
    Jeanie and I met in 1969, when we were both young and 
impressionable interns on the Hill. I was interning for a 
Republican, New York Senator Charles Goodell, whose son is now 
the head of the NFL, but he represented Western New York, 
Jamestown. Jeanie was on the House side. She was interning for 
Representative Richardson Preyer of North Carolina. We met each 
other and almost instantaneously became friends as we learned 
our way around Capitol Hill and met people from all over the 
country.
    Many years later, our paths crossed again. I was running 
for the Senate. Jeanie was running for Congress in New York's 
Hudson Valley. We saw each other out on the campaign trail and 
our friendship picked up right where it left off. While Jeanie 
did not win that race, the 22nd District's loss was the 
Senate's and my gain.
    Shortly into my first term, Jean joined my staff and opened 
up the first office in the Hudson Valley that I think a Senator 
ever had. It was located in her basement in Red Hook in the 
Hudson Valley. Eventually, we let her have her house back.
    After seven terrific years, Jean left my staff to become 
Chief of Staff to newly elected Congressman John Hall. She led 
him to a tough reelection victory, and as soon as she did 
that--that was her duty, and Jean is a person of duty--I was 
able to convince her to return to the Senate and help me as 
Staff Director when I became Chairman of this committee.
    Over the past few years, Jeanie has helped guide the Senate 
community, assisting countless offices, staffs, and Senators, 
Republican and Democrat, in keeping with the grand tradition of 
this committee. Probably a week does not go by where a Senator 
does not come up to me and say thank you for just arranging 
this administrative thing which seemed impossible, and that has 
been done by the capable, non-political Rules staff under the 
guidance of Jean Bordewich.
    Among her most noteworthy achievements was her organization 
of the 57th Presidential Inauguration Ceremony. It is a huge 
task, but Jean was up to the challenge and everyone said that 
the inauguration was one of the best. One of my fondest 
memories of Jean is from that inauguration. The sight of my old 
friend Jeanie leading President Obama onto the podium as a 
billion people watched throughout the world was a sight I will 
never forget. She had sure come a long way from our days as 
young, impressionable interns.
    And now, all good things come to an end, so Jeanie is--you 
know, she is always an adventurer. She is always interested in 
new things and new ideas. Well, it is time to start another 
chapter in her life, and she and her husband, Fergus, who 
everyone knows is a very well known, insightful author and a 
delightful person, are ready to start a new adventure. She is 
retiring from the Senate to go to San Francisco, and I hope 
everyone--Jean is just public servant par excellence. When they 
used to talk about the British civil service and dedicated 
people who would just do the job through thick and thin and 
made the British Empire what it was, well, if you had to think 
of an American version of that reputed, admired British civil 
servant, it would be Jean Bordewich.
    She is a dear friend. She is part of our family, and we 
will stay friends for life, no matter where she and I end up on 
this globe. But, I want to thank her for her service to me, to 
this committee, to the Senate, to New York, to our country and 
our world. Jeanie, we will miss you.
    [Applause.]
    Senator Klobuchar. Well, we feel like we should just end 
the hearing now.
    [Laughter.]
    Senator Klobuchar. That was just beautiful. We do not 
usually have so much emotion at the Rules Committee. But, I was 
thinking as I sat here how I make the segue to the great 
stories about Jean's service and her steady hand, and I think a 
lot of the work of the Rules Committee is not just making sure 
the Senate works and that the inaugurations work, but it is 
also making sure our democracy works and that our election 
works, and Senator Schumer has taken a particular lead in 
looking at these issues.
    We had a tremendous hearing last week on campaign finance 
and what that means to our democracy and this is really a part 
of that work, because, as you all know, earlier this year, the 
Bipartisan Presidential Commission on Election Administration 
came out with a very important report about how we can do 
things like reduce lines at polling places and improve the 
experience of people that can vote. When you have 100-year-old 
women who have to wait in line for hours, as the President 
pointed out at one of his State of the Unions, then we have a 
problem.
    And, we appreciated the work of both the Bipartisan 
Commission put together from the counsel of the Romney campaign 
and counsel of the Obama campaign and coming up with some 
ideas. And one of the key conclusions of that report was that, 
quote, ``despite the fact that elections drown in data, 
election administration has largely escaped this data 
revolution.'' The private sector has already figured out that 
using data to improve performance is the wave of the future. 
People going to the polls to exercise their right to vote 
deserves no less.
    As our witnesses will discuss, collecting and analyzing 
data about how we run our elections can help us figure out what 
is going wrong and point us toward some cost effective 
solutions. Data can help us answer questions about these nuts 
and bolts things like, why are the lines so long? Did the Ward 
2 polling place have enough workers at 8:00 a.m.? We have over 
171,000 precincts across America. How do they do things 
differently and how does this affect someone trying to squeeze 
in picking the kids up from a soccer practice and getting that 
moment in to cast their vote, as is their right?
    I have introduced a bill with Senator Tester, the Same Day 
Registration Act, which would try to make the voting process 
easier by allowing people to register on the same day as they 
cast their ballot. And we actually looked at the data when we 
introduced this bill and found that in the States that have 
some of the highest voter turnout, the vast majority of them, 
if you look at the top ten, have the same day registration. And 
when you look at the ones at the bottom, none of them have same 
day registration.
    And, I would point that these are blue States and red 
States and purple States and it does not necessarily have to do 
with their political bent as much as it has to do with the 
States' interest in having election participation and not 
limiting people's right to go to the polls.
    What have we found from the data? Well, it turns out that 
something around 70 percent of people needed to update their 
address because they had moved since the last election. They 
were already registered, but this change needed to happen 
before they could vote. That is something that our State 
discovered from the data.
    Because we had this information, our State looked at how we 
could fix the underlying issue. Just last week, our State 
legislature passed a bill that lets the Secretary of State 
automatically update voter registration rolls when people move 
within our State. We have consistently had one of the highest 
turnout rates in the country, and that is why Senator Tester 
and I and Congressman Ellison in the House are so devoted to 
this idea of same day registration.
    With that, we are going to move to our panel of witnesses. 
We have, as Senator Schumer noted, Ms. Heather Gerken, the J. 
Skelly Wright Professor of Law at Yale Law School and the 
author of the book, The Democracy Index.
    We also have with us Mr. Charles Stewart, who is a 
Distinguished Professor of Political Science at the 
Massachusetts Institute of Technology and Co-Director of the 
CalTech-MIT Voting Technology Project.
    We have Mr. Kevin Kennedy, the Director and General Counsel 
at the Wisconsin--that is our neighbor, we do not always like 
the Packers--Government Accountability Board--but we will still 
have you as a witness.
    We have Mr. David Becker, the Director of Election 
Initiatives at the Pew Charitable Trusts.
    And, my personal favorite, because I was not wearing my 
glasses when I came in and saw the name ``Justin Riemer'' and 
thought we had Justin Bieber as a witness.
    [Laughter.]
    Senator Klobuchar. I was wondering why, perhaps, we did not 
have more press here----
    [Laughter.]
    Chairman Schumer. With you, Madam Chair, have a long 
history----
    Senator Klobuchar [continuing]. Yes, I have a long history 
which we do not want to get into right now. If someone is out 
there watching this hearing on C-SPAN, he and I had a dispute 
about a bill I had.
    [Laughter.]
    Senator Klobuchar. But, in any case, we have Justin Riemer, 
who serves as the Deputy Secretary and the Governor's 
Confidential Policy Advisory at the Virginia State Board of 
Elections.
    I thank you all for joining us today and I would like to 
ask each of you to limit your statements to five minutes. If 
you have provided the committee with a longer written 
statement, without objection, the entire statement will be 
entered into the record.
    Ms. Gerken, please proceed.

 STATEMENT OF HEATHER K. GERKEN, J. SKELLY WRIGHT PROFESSOR OF 
          LAW, YALE LAW SCHOOL, NEW HAVEN, CONNECTICUT

    Ms. Gerken. Senator Schumer, Senator Klobuchar, and members 
of the committee, I am a professor of election law and 
constitutional law at Yale Law School and I have written 
extensively on data-driven management and election 
administration. It is an honor to be here to discuss this 
important topic, although I will say, two Senators are a hard 
act to follow.
    We measure what matters. The public and private sectors 
routinely collect and analyze data on virtually every aspect of 
our lives. As you just pointed out, Senator, data-driven 
management is not the ideal anymore, it is the norm, for 
corporations and the public sector alike. Good data help us 
spot, surface, and solve existing problems. They do not just 
allow us to identify policy making priorities, but they help 
move the policy making process forward. If you want a democracy 
worthy of our storied history, you must have 21st century 
management practices, and 21st century management practices 
require 21st century data collection.
    This hearing could not be more timely, because data 
collection is at an inflection point in election 
administration. Things have improved in recent years, with a 
number of dynamic election administrators and State policy 
makers deploying data to identify problems and find solutions. 
Thanks to the effort by the public and private sector, most 
notably the Election Assistance Commission and the Pew Trusts, 
we now have the nation's first Election Performance Index, an 
idea I proposed several years ago but believed would take at 
least a decade to bring about.
    For the first time, we have a baseline to compare State 
performance and evaluate the effects of reform over time. 
Thanks to the Pew Trusts and the efforts of, actually, many of 
the people sitting beside me, that index will provide a crucial 
policy making tool going forward.
    Nonetheless, election administration still lags behind many 
public and private institutions on the data collection front. 
We still lack sufficient data on a wide variety of important 
issues, including the cost of elections, local performance, and 
voter experience. In some instances, the data are being 
collected, but they are not collected in a form that is 
accessible, let alone one that enables comparisons across 
jurisdictions.
    The absence of good data handicaps our efforts to fix the 
problems we see in the elections process, to anticipate the 
problems we do not yet see, and to manage the reform process 
going forward. Unless we capitalize on the data collection 
efforts of recent years, we will never have an election system 
that meets the expectations of the American people.
    The Federal Government is uniquely well suited to assist 
the States in nascent data collection efforts. The market 
variation in State and local election schemes lives up to 
Justice Brandeis' aphorism about the laboratories of democracy. 
But the laboratories of democracy can only work if someone is 
recording the results of the experiments. The Federal 
Government can provide what the States cannot supply on their 
own, a cost effective, easy to use strategy for collecting, 
aggregating, and comparing State and local data.
    As a scholar not just of elections but of Federalism, I 
know many worry about Federal interference with State policy 
making. But here, Congressional action will vindicate rather 
than undermine Federalism by making it easier for States to do 
their jobs.
    All of the States--all of us--benefit from more and better 
data on election policy. Without more and better data, we risk 
turning the great promise of decentralization, that it can help 
us identify and implement better policy, into an empty promise. 
Data helps States identify the drivers of performance, pinpoint 
the cost effective strategies for solving shared problems, and 
decide when the reform gain is not worth the candle.
    It would be a terrible waste of time and resources to ask 
the already cash-strapped States to move toward 21st century 
data collection practices on their own. Local election 
administrators are already asked to do too much with too 
little. The Federal Government must play its proper role. It 
should fund standardized data collection systems to record the 
results of the States' non-standardized practices. It should 
maintain a clearinghouse for policy makers so that States learn 
from one another's best practices and fix their own worst ones. 
It should make it easier for States to collect the data that we 
need with the limited resources that they have. The Federal 
Government can foster the competition and innovation that 
Federalism is supposed to produce without intruding on State 
policy making.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Ms. Gerken was submitted for the 
record:]
    Senator Klobuchar. Thank you very much, Ms. Gerken.
    Mr. Stewart.

  STATEMENT OF CHARLES STEWART III, KENAN SAHIN DISTINGUISHED 
PROFESSOR OF POLITICAL SCIENCE, THE MASSACHUSETTS INSTITUTE OF 
              TECHNOLOGY, CAMBRIDGE, MASSACHUSETTS

    Mr. Stewart. Thank you, Senator Klobuchar. It is an honor 
today to be before the committee and to speak about the 
collection, analysis, and use of data to improve elections for 
all Americans.
    I have three points I would like to make today. The first 
is, there is a need for a more data-centered approach to making 
election policy in the United States. Imagine if we had a 
national debate about the state of our educational system 
without any reference to measures like graduation rates, 
enrollment statistics, student-teacher ratios, or school 
budgets. Yet, this is exactly how we often talk about elections 
policy in the United States. We struggle to improve access and 
security in voting without much, if any, attention to metrics 
in many places in this country. Instead, policy gets made based 
on anecdote, beliefs that are grounded in sparse facts and 
wishful thinking.
    Now, the good news is that elections are awash in data, as 
you mentioned previously, Senator Klobuchar. There is a growing 
network of election officials, academics, and other experts who 
are developing a fact-based science of election administration 
to parallel similar networks in areas like education, health 
care, and law enforcement. A major barrier to approaching 
elections policy more scientifically is the continued 
uncertainty about the future of the EAC, which alone among 
Federal agencies is charged with promoting research and 
disseminating best practices in election administration through 
its research and clearinghouse mandates.
    The second point I would like to make is that the two 
Federal data collection efforts related to election 
administration in the United States need to be supported and 
strengthened. The grand-daddy of all Federal election data 
efforts is the Voting and Registration Supplement of the 
Current Population Survey, which is conducted after each 
Federal election by the Census Bureau. It is the indispensable 
source of data that tracks the improvement of elections due to 
Federal laws, like the Voting Rights Act and the National Voter 
Registration Act.
    The second of these Federal election data efforts is the 
Election Administration and Voting Survey, or the EAVS, which 
is administered by the EAC. The EAVS, which was begun in 2004, 
is the only national census of basic information about local 
election administration. Because of the EAVS, election 
officials, legislators, and the general public are now privy to 
statistics about a wide range of facts on topics ranging from 
voter registration to the staffing of polling places.
    The future of the EAVS remains cloudy, due, again, to the 
uncertainty about the EAC's continued existence. Thankfully, 
the Commission staff continues to administer the EAVS in the 
absence of Commissioners. Still, no important Federal data 
gathering program can evolve under these conditions. Whatever 
the future of the EAC, the EAVS needs to be protected.
    The third and final point is that local governments need 
help in converting the mountain of data that is generated in 
the conduct of elections into information they can use to 
better manage these elections. Addressing problems at the 
polling place, such as long lines at the polls, requires that 
local election officials have very precise information at their 
fingertips. They need to know basic facts, such as the arrival 
times of voters at the polls and the amount of time it takes 
them to cast ballots. Retailers know that service data like 
this is critical for effective management. Why do not all 
election officials have access to similar data? A major reason 
is that election equipment is rarely set up to produce the 
types of reports that would be useful to election officials as 
they make their plans to conduct elections.
    Two focused Federal actions could help local officials 
manage their polling places more precisely. First, the EAC 
could fund a small grant program to spur the development of 
computer tools to take existing service data and turn it into 
information that local officials could use to manage elections 
more effectively.
    Second, the Federal Government could continue to encourage 
the efforts that are underway to develop common data standards 
that would allow the seamless sharing of data across different 
types of computerized election equipment. One such effort is 
being undertaken by a working group under the Voting System 
Standards Committee of the IEEE computer society. The work of 
groups like this ultimately depends on forward progress in the 
EAC's Voluntary Voting System Standards. Without a functioning 
EAC, it is impossible to approve new Voluntary Voting System 
Standards, and without these standards, the work of creating a 
common data format for elections-related data will be slowed 
significantly.
    So, to conclude, I thank the committee for their time and 
for holding hearings on these important topics and I look 
forward to your questions.
    [The prepared statement of Mr. Stewart was submitted for 
the record:]
    Senator Klobuchar. Thank you very, very much for your work.
    Next, we have Mr. Kennedy.

 STATEMENT OF KEVIN J. KENNEDY, DIRECTOR AND GENERAL COUNSEL, 
 WISCONSIN GOVERNMENT ACCOUNTABILITY BOARD, MADISON, WISCONSIN

    Mr. Kennedy. Thank you, Senator Klobuchar. I very much 
appreciate the opportunity to provide information to this 
committee on the collection, analysis, and use of election 
data. It is an honor to be here. This is a subject that State 
and local election officials in Wisconsin recognize as an 
essential element in conducting elections.
    Numbers are what elections are all about. The basic concept 
of elections is the person with the most votes wins. There are 
some exceptions, as we know, in Presidential elections and the 
Electoral College. Rank choice voting also adds some more 
complicated math to the process. And, we also know that the 
prayer of all election officials involves numbers: ``May your 
margins be wide.''
    As Wisconsin's chief election officer, I have developed a 
mantra when I talk to our local election officials. That is, 
``know your numbers.'' Let me give you some numbers related to 
Wisconsin.
    Wisconsin is, arguably, the most decentralized election 
system in the nation. The State administers elections with the 
support of 72 counties, and our 1,852 municipalities conduct 
each election. About 62 percent of those municipal clerks are 
part-time. We have over 6,700 wards, often referred to as 
precincts in other States, organized into more than 3,500 
reporting units. Those 3,500 reporting units are the data 
points that we use in elections.
    We do not give county-level results or municipal results. 
We give those reporting unit results when we are collecting 
data. It helps us identify problems within particular polling 
places. For example, working with Charles Stewart in our recent 
reporting, we found that our municipal data was accurate, but 
within that, we found errors in the polling places where they 
were misallocating numbers.
    Other numbers in Wisconsin, we have 4.3 million voters. We 
have had Election Day registration since 1976. Like Minnesota, 
we have learned from those numbers that 80 percent of all of 
our voters entered the voter registration system through 
Election Day registration. That is an important fact for us to 
know. Our numbers are very similar to Minnesota's when it comes 
to what happens on Election Day. We know what those numbers 
are, and Wisconsin has had a long history of tracking voter 
turnout and voter registration numbers.
    We also have been, as a result of those numbers, competing 
with Minnesota, we are usually first or second in Presidential 
voter turnout in every election. A little ahead in Super Bowls.
    Senator Klobuchar. Oh, so unnecessary.
    [Laughter.]
    Senator Klobuchar. You know, my dad wrote a book called, 
Will the Vikings Ever Win the Super Bowl, in the, I think, 
early 1980s, and sadly, it is still relevant today, but----
    [Laughter.]
    Mr. Kennedy. Well, my son-in-law will let me know when they 
do, I am sure.
    [Laughter.]
    Mr. Kennedy. Also, with these numbers, we have learned that 
Wisconsin, along with Minnesota, routinely performs in the top 
five in the Pew Charitable Trusts Performance Index of 
Elections.
    Wisconsin's long history of data collection has been 
amplified by the fact that in 2008, we took our paper-driven 
system, where we had our 1,850-plus municipalities giving us 
paper data, using a grant from the U.S. Election Assistance 
Commission, we took that data and made that electronic. We now 
get that data more cost effectively. We no longer have boxes of 
paper sitting in our office. Instead, we get that data and this 
is something that can easily be replicated across the States.
    We use this data for a number of things. In the last 
legislative session that just ended, 18 separate pieces of 
legislation were introduced. We were able, as a result of that 
legislation, to provide clear data analyzing the impact of, 
say, reducing the hours of in-person early voting, when those 
occurred, so that people could actually measure that. We could 
also measure what would be the cost if we eliminated Election 
Day registration.
    From our experiences collecting and analyzing data, we can 
identify several valuable lessons learned. Data collection 
should be purpose-driven. With data, more is not necessarily 
better. Data collection, audit and analysis requires extensive 
resources and time and effort should be spent wisely. It is a 
commitment.
    Data should be ``smart'' data. It should be simple, 
measurable, actionable, relevant and timely. It is also 
important that those reporting data clearly understand what you 
are asking of them and what they are reporting. This requires 
providing training for our local election officials that is 
clear, detailed, and easily understood. I cannot emphasize that 
enough, given the number of election officials we have.
    With that, I will end my testimony. I look forward to 
answering questions from the committee.
    [The prepared statement of Mr. Kennedy was submitted for 
the record:]
    Senator Klobuchar. Well, thank you very much.
    Next, we have Mr. Becker.

 STATEMENT OF DAVID J. BECKER, DIRECTOR, ELECTION INITIATIVES, 
          THE PEW CHARITABLE TRUSTS, WASHINGTON, D.C.

    Mr. Becker. Senator, thank you for the opportunity to be 
here today to discuss this important topic.
    We at the Pew Charitable Trusts began to look at the issue 
of using data to measure performance in the field of election 
administration several years ago, partially in response to what 
we heard from election officials who felt bombarded by news 
stories driven by anecdotes, not data. These stories about long 
waiting times to vote, or polling places opening late, or 
registration problems are important, but it is never clear 
whether they truly represent systemic problems or if they are 
simply one-time challenges. We knew that in other policy areas, 
such as health and education, there must be a way to use data 
and empirical evidence to get a clearer picture of what is 
happening across the States.
    Following important research by Professor Gerken and many 
others in the elections field, Pew partnered with Professor 
Stewart and MIT in 2010 to pull together an advisory group of 
State and local election officials from around the country, as 
well as leading academics in the field of elections and public 
administration, to determine what data was available to 
accurately and objectively measure the performance in this 
field.
    In 2013, Pew unveiled the results of this research, the 
Elections Performance Index, or EPI, the first comprehensive 
assessment of election administration in all 50 States and D.C. 
The release introduced the Index's 17 indicators of 
performance, including such data relating to wait times at 
polling locations, voter registration rates and problems, 
military and overseas voting, and mail ballots. This data, 
collected from five different data sources, including the 
Census and the EAC, provided a baseline of performance using 
2008 and 2010 data, giving users a way to evaluate States' 
elections side by side.
    Pew's latest edition of the Index, released just over a 
month ago, adds analysis using data from the 2012 election. 
This provides the first opportunity to compare a State's 
performance across similar elections, the 2008 and 2012 
Presidential contests, and presents a rich picture of the U.S. 
democratic process that will be enhanced as new data are added 
each election cycle.
    The results from the 2012 EPI were generally good news for 
the States and for voters, as elections performance improved 
overall. Nationally, the overall average improved 4.4 
percentage points in 2012 compared with 2008, and the scores of 
21 States and the District improved at a rate greater than the 
national average.
    In addition, we had several findings. First, high 
performing States tended to remain high performing, and vice 
versa. Most of the highest performing States in 2012, those in 
the top 25 percent, including States such as Wisconsin and 
Minnesota, were also among the highest performers in 2008 and 
2010. The same was true for the lowest performing States in all 
three years.
    Second, gains were seen in most indicators. Of the 17 
indicators, overall national performance improved on 12 of 
them, including a decrease in the average wait times to vote 
and an increase in the number of States allowing online voter 
registration.
    Third, wait times decreased, on average, about three 
minutes since 2008.
    Fourth, although voters turned out at a lower rate in 2012 
generally, fewer of those who did not vote said they were 
deterred from the polls by illness, disability, or problems 
with registration or absentee ballots.
    Fifth, 13 States offered convenient and cost effective 
online registration in 2012, compared with just two in 2008, 
which may have contributed to the reduction in voter 
registration problems.
    Sixth, more States offered online voter information look-up 
tools in 2012.
    And, seventh, States are reporting more complete and 
accurate data. Eighteen States and the District reported 100 
percent complete data in 2012, compared with only seven in 
2008.
    We present all these data in an interactive report, which 
can be found at pewstates.org/EPI, that allows policy makers, 
election officials, and citizens to dig through each piece of 
information.
    We make a series of recommendations in this report, but two 
are particularly relevant to this hearing. First, States should 
work to upgrade their voter registration systems. By adopting 
innovative reforms, such as online voter registration, better 
sharing data within a State between motor vehicles agencies, et 
cetera, and using a tool like the Electronic Registration 
Information Center, or ERIC, to better share voter registration 
between States--voter registration data between States, all 
recommendations of the Bipartisan Presidential Commission on 
Election Administration, States can see a marked improvement in 
their performance. For instance, of the bipartisan group of 
seven States who founded ERIC in 2012, including Virginia, five 
of those States were among the highest performers in that year.
    Second, we encourage that States report and collect even 
more elections data. Several States, such as Wisconsin, have 
pioneered efforts to better collect source data from local 
election jurisdictions, but many do not. As the Presidential 
Commission notes, if the experience of individual voters is to 
improve, the availability and use of data by local 
jurisdictions must increase substantially.
    And, we continue our work toward this end. Just last week, 
we released a report entitled, ``Measuring Motor Voter,'' where 
we attempted to rate how well States were providing voters with 
the opportunity to register or update their registrations at 
motor vehicles offices. What we found was that States' 
performance in this area could not be fully measured because 
States were not collecting or reporting adequate data to 
document the provision of these important services. We, 
therefore, made several recommendations, including that States 
prioritize, automate, and centralize motor voter data 
collection. We went on to highlight several States, such as 
Delaware, Michigan, and North Carolina, that have already made 
great strides in this area.
    Pew continues to see this data-driven approach lead to 
higher performance in the States. The EPI is being cited by 
policy makers and others in official testimony and is being 
used in a geographically and politically diverse group of 
States to help reform policy and technology in election 
administration. We will continue this work as we look forward 
to publishing the 2014 edition of the Index and ensuring the 
data-driven performance measurement is enshrined in this field 
for years to come.
    Thank you.
    [The prepared statement of Mr. Becker was submitted for the 
record:]
    Senator Klobuchar. Thank you very much.
    Mr. Riemer.

 STATEMENT OF JUSTIN RIEMER, FORMER DEPUTY SECRETARY, VIRGINIA 
          STATE BOARD OF ELECTIONS, RICHMOND, VIRGINIA

    Mr. Riemer. Senator, thank you for the opportunity to 
address you today regarding data in elections. I am a former 
Virginia election official and co-author and editor of a recent 
report from the Republican National Lawyers Association 
reviewing the Presidential Commission on Election 
Administration's report and providing additional suggestions to 
improve election administration.
    I would first like to discuss issues pertaining to ranking 
State election performance, then to offer a few reasons why we 
have such challenges in obtaining good data, and, finally, to 
express concerns regarding how ever-increasing election data 
and records requests have become an administrative burden on 
local election officials.
    Using data to rank States' performance has value to 
identify both deficiencies and best practices, but there are 
also concerns. First is a worry that graders will penalize 
States for not adopting policies, such as expanded early 
voting, vote by mail, and election day registration. The RNLA, 
many nonpartisan election officials, and other stakeholders, 
have significant policy reservations regarding these issues and 
they should not be included as indicators of performance.
    Similarly, graders should reward, not penalize, States for 
implementing voter integrity measures, such as reasonable voter 
ID requirements and enhanced voter registration list 
maintenance activities. Election officials and organizations 
with particular concern for the integrity of our elections will 
be more likely to embrace these performance indexing efforts if 
they recognize State efforts to prevent fraud.
    Second, I would like to discuss a few of the many 
challenges election officials have when gathering and reporting 
election data. The first lies in limitations with State voter 
registration databases, and second is a difficulty in 
collecting accurate data from the polling place.
    Statewide election databases, created as a result of 
requirements in the Help America Vote Act, suffered from many 
problems commonly associated with large government IT projects. 
In the scramble to meet implementation deadlines, building in 
adequate data reporting and analytics capabilities became a 
secondary concern to complying with the specific database 
requirements outlined in HAVA.
    In Virginia's case, it was impossible to reverse-engineer 
the system after it was launched to add better data collecting 
and reporting capabilities. While HAVA's database requirements 
mostly address voter registration functions, many States design 
these systems to be much more comprehensive. For example, 
Virginia's database administers most of the electoral functions 
at the State and local levels, including absentee voting, voter 
registration, and data collected at the polling place on 
election day, and part of the system's job is to gather data 
related to those processes. Consequently, these database 
limitations impact a broad array of a State's electoral 
functions and make it difficult for officials to provide the 
data sought by the EAC and other interested parties.
    A second challenge is that much of the data used to analyze 
elections is collected on election day by poll workers who 
receive minimal training, work only a few days out of the year, 
and are paid very little. Poll workers must complete a 
significant amount of complex paperwork after a long day and 
frequently make mistakes or omit important information on 
forms. This information is often impossible to correct or 
collect later if not captured properly on election night. Poll 
workers also, understandably, treat supplemental data reporting 
as a secondary priority to reporting precinct vote totals and 
ensuring the security of ballots, voting equipment, and other 
important election materials.
    Fortunately, State and local officials are gradually 
overcoming some of these hurdles. First, States have improved 
their databases and analytics capabilities. In addition, the 
adoption of electronic poll books at the polling place will 
result in better data collection on election day. The 
nationwide trend towards online voter registration and 
electronically sending registration applications completed at 
DMVs to registration officials will also help improve the 
quality of voter registration records. Multi-State data sharing 
programs, like the Interstate Voter Registration Cross Check 
and ERIC, are also further helping improve the quality of 
States' voter registration data.
    The PCEA and RNLA endorse these reforms, and RNLA also 
recommends that States pair electronic poll books with ID card 
bar code scanners to improve the reliability of voter history 
data.
    A final issue for policy makers to consider is how 
increasing demands for data and records impose significant 
administrative burdens on election officials. Survey 
obligations from the EAC, Federal Voting Assistance Program, 
and other stakeholders are tedious, but manageable. However, 
adding an increased request from FOIAs, State and local 
governments, litigation, and a public records disclosure 
provision in the National Voter Registration Act have turned 
basic data and records reporting obligations into a significant 
administrative burden. Combined with an increasingly shorter 
election off-season, because of 45-day absentee ballot mailing 
deadlines and expanded early voting, these obligations make it 
more difficult for election officials to perform their core job 
functions and make improvements to their election processes.
    Thank you for the opportunity to appear before this 
committee.
    [The prepared statement of Mr. Riemer was submitted for the 
record:]
    Senator Klobuchar. Thank you very much to all of you.
    I will start with you, Ms. Gerken. I know you have made the 
point that it is hard for us to really take advantage of the 
States as the laboratories of democracy, as you noted, if we 
cannot figure out the way to compare what they are doing. And, 
States and localities have a big role to play in actually 
carrying out our elections, but that makes it harder to have 
uniform data. So, I figure we need to make sure we are not 
comparing apples and oranges and that we are actually trying to 
compare things in the right way to figure out how we make the 
voting experience better and how we get more people to vote. 
What do you think the Federal Government's role is in improving 
election administration, and what should Congress be doing to 
increase the supply of quality data while respecting our State 
and local partners who carry out the election?
    Ms. Gerken. There are many things that the Federal 
Government should do, in my view, and I will just begin by 
agreeing with Professor Stewart that one of the most important 
things is to support current ongoing efforts to provide data 
from the States, which is done through the Elections Assistance 
Commission. The Elections Assistance Commission has a somewhat 
inconsistent reputation among election administrators. However, 
I think there is little question that----
    Senator Klobuchar. Why is that?
    Ms. Gerken [continuing]. Because I think that there has 
been some frustration with the way that it is administered, 
both its grants and its surveys. While those criticisms are 
well taken, the importance of the EAC survey cannot be 
underestimated. It is the best set of data we have on a variety 
of practices. The EAC has also done something very useful, 
which is to help us standardize what kinds of terminology are 
used, so we are comparing apples and apples rather than apples 
and oranges.
    As Professor Stewart has mentioned, I think there are many 
other ways that the Federal Government can be supportive here. 
Some of them are as simple as assisting the States through 
modest funding to figure out how to get the data that they do 
have and put it in an accessible form that everyone can share.
    I would also love to see more work on the costs of 
administering elections. One of the things one begins to 
believe in working in these areas is that there will be no 
reform unless Almighty God comes down to dictate it. But 
sometimes the almighty dollar does the trick. One of the real 
reasons why we have seen such a push for online registration 
has been the immense cost savings that come from it. Having 
data on those kinds of questions is extremely important to the 
States in helping do their job----
    Senator Klobuchar. You mean how much money it saves to do 
the online?
    Ms. Gerken [continuing]. Exactly. It is not only more 
accurate, but it turns out to be much more efficient in terms 
of cost. So, having just that kind of information in no way 
intrudes on State policy making, but enables them to make 
better decisions going forward.
    Senator Klobuchar. Okay. Why do we not move on to the 
online, since you brought that up, and whether a State allows 
online registration is one of the 17 factors included in the 
Index. Why do you think--I will start with you, Mr. Stewart, 
and maybe Mr. Becker--why do you think this is a good thing to 
do online registration, and how do you think we get the other 
States to adopt it?
    Mr. Stewart. Well, maybe I can say why this is a good thing 
and Mr. Becker probably has some well thought out ideas about 
getting States to adopt it.
    I think there are two good things about online 
registration. One, picking up from what Professor Gerken said, 
is the cost. The second, as well, is accuracy. I think we all 
wish to see more accurate voter rolls. It is easier for voters. 
More accurate rolls dispel many concerns about fraud and can 
help us to hone in on where there are, in fact, problems with 
people coming and trying to vote who should not.
    So there is the accuracy side and the cost side, and I know 
Mr. Becker has thought a lot about getting States to say yes.
    Senator Klobuchar. Mr. Becker.
    Mr. Becker. Yes, that is right. We just put out a brief on 
this in January called ``Understanding Online Voter 
Registration,'' which can be found at pewstates.org/OVR. And, 
what we found in our research in this field over many years is 
that online voter registration is one of those rare win-wins in 
government. It saves money and it produces a better product by 
making voter registration more complete, more accurate, and 
more convenient.
    So, for instance, with regard to costs, every State that 
has kept data on this has found tremendous cost savings, 
ranging----
    Senator Klobuchar. Now, maybe you told me this in your 
testimony, Mr. Becker----
    Mr. Becker. Yes----
    Senator Klobuchar [continuing]. But do we know how many 
States are doing it?
    Mr. Becker [continuing]. So, by our count, we show 19 
States that are currently offering their citizens an 
opportunity to register to vote online without ever having to 
print, mail, or----
    Senator Klobuchar. And, how long has it been going on?
    Mr. Becker [continuing]. Since 2002. Arizona was the first 
State, but it took six years until the second State offered 
online voter registration, Washington in 2008. They were the 
only two States that offered it in 2008. That number went up to 
13 in 2012, and now it is up to----
    Senator Klobuchar. Okay. You really know these numbers, 
so----
    [Laughter.]
    Senator Klobuchar [continuing]. Let us continue on. It went 
up to 13 when?
    Mr. Becker. It went to 13 in 2008, and now there are 19 
States, almost 100 million Americans who currently can complete 
a voter registration application entirely online, without ever 
having to handle a piece of paper in any way or mail anything 
in. And, this is leading to huge cost savings. States are 
seeing cost savings ranging from about 70 to 80 cents in States 
like Colorado, Arizona, to over $2 per registration transaction 
in a State like California. California----
    Senator Klobuchar. And they still make the mail available 
for people that do not have----
    Mr. Becker [continuing]. Absolutely.
    Senator Klobuchar [continuing]. And, what is the resistance 
in some of the States?
    Mr. Becker. I do not think we are really seeing much real 
resistance.
    Senator Klobuchar. It is just----
    Mr. Becker. I think it is just a matter of time. There is a 
capital expenditure that is needed to put it in place. Our 
research indicates that, on average, it costs about $240,000, 
which is not very much, to install an online voter registration 
system. But, still, some States are working towards that end. 
But, we are going to see many more States. I think, easily, 
half the States will be offering it, if not many more, by the 
2016----
    Senator Klobuchar [continuing]. And, have you been able to 
show direct correlation with increasing voting?
    Mr. Becker [continuing]. I do not think we have been able 
to see that online voter registration directly leads to 
turnout. We have not had a controlled experiment in that 
regard. What we do know about online voter registration is it 
transfers a lot of the not cost effective and not convenient 
paper activity that would ordinarily occur that can lead to 
duplicates and errors to electronic activity, which is much 
more convenient and cost effective. So, at a minimum, it is 
saving election offices a lot of money and leading to a lot 
more convenience for the voters.
    Senator Klobuchar. Very good. Anyone else want to comment 
on that? Do you have that in Wisconsin yet?
    Mr. Kennedy. We do not have that in Wisconsin.
    Senator Klobuchar. Ah, that is why I asked that question.
    [Laughter.]
    Mr. Kennedy. I know that Minnesota just did. I will tell 
you that Wisconsin has done a cost-benefit analysis on this. We 
partnered with our University of Wisconsin La Follette School 
of Public Policy and have determined that, if properly 
implemented, we will save over a million dollars, most of that 
at the local level, where it is really effective. It is the 
cost of that. So, Wisconsin has been using our data for things 
like that.
    Senator Klobuchar. Mm-hmm.
    Mr. Kennedy. We had a hearing on that two weeks ago and 
that data was prominent.
    Senator Klobuchar. And, you have same day?
    Mr. Kennedy. We have Election Day registration.
    Senator Klobuchar. Yes. I think that is probably why--
probably, in States like ours that--while I think it is a good 
thing, it maybe matters a little less when we already have the 
higher--you will not see quite the dramatic increase because of 
the fact that people can always register.
    Mr. Kennedy. No, and it is not really a question--turnout 
is driven by so many other things, but one of the things I 
always emphasize is that we talk about numbers. We talk about 
election administration. Ultimately, it is all about the voter, 
and certainly, online registration, which is one thing that was 
not mentioned, provides a service to the voter. It makes it 
convenient.
    This is why Election Day registration has worked very well 
in Minnesota and Wisconsin, because we find it serves the 
voter. It provides them convenience. They are not thinking 
about elections every day. They are thinking about it when the 
elections come around. That means being prepared. So, online 
registration fits in very well with that. It is a nice pairing 
with Election Day registration.
    Senator Klobuchar. Mr. Riemer, what do you think about the 
electronic registration?
    Mr. Riemer. Well, Senator, Virginia implemented online 
voter registration approximately a year ago. It was passed with 
broad bipartisan support and it is very popular. The voters 
love it. The local election officials love it and the State 
Board of Elections, the State election officials love it, as 
well. It works well, and for all the reasons described.
    Senator Klobuchar. Okay. Good. A different topic, now. Ms. 
Gerken, I was interested in your testimony about using the 
Census as a model for comprehensive gathering of information on 
election administration. You advocated for some basic 
information to be gathered nationwide, but with a deeper dive 
into some randomly selected polling places. Can you elaborate 
on how this system would work and the challenges it would face. 
Having been at hearings, I think it was with the Joint Economic 
Committee, about the Census and some of the political things 
that surround it--whether true or not--we all know it is very 
important and many of us are always working to protect the 
Census and making sure it continues. Let me hear what you think 
we could do to make it even better, and then try to put on my 
political hat and figure out if we could get it done.
    Ms. Gerken. Sure. The analogy to the Census was simply that 
the Census has a very widely known strategy for getting 
information. It asks for a little bit of information from 
everyone, and then a lot of information from a few people, and 
in doing so is able to get at the kinds of things we need to 
know.
    This strikes me as a particularly good model for local 
elections. One of the things that you learn very quickly 
whenever you talk to Secretaries of State is that they all know 
of one or two localities that really are outliers within the 
State. They all are nervous that those outliers are going to 
make the State the next Florida 2000, or the next Ohio in 2004, 
but they have very little ability to influence what is going on 
there because, one, they do not have data, and two, they do not 
actually have much by way of regulatory authority over 
localities. In many places, localities are very powerful.
    Having more and better information on the variation within 
localities is just as important as it is to have information 
about variation among the States for the same kinds of reasons. 
The trouble is, and here, I agree entirely with Mr. Riemer, 
localities are strapped and they are often staffed by people 
who work part-time, or who run the elections and run many other 
things in their towns, so you cannot ask them to do the kind of 
sophisticated data drops that you can ask from State officials.
    That is why the Census is a nice model, to get a little 
information from all of them and then have more and better in-
depth information from a number so we can learn how things are 
going.
    And, the last thing I will say on this----
    Senator Klobuchar. I am not an expert on the Census, so, 
this would be, like, additional questions you would add on, 
or----
    Ms. Gerken. It would be like a short form and a long form. 
I do not know if you have ever gotten the long form. It takes a 
while to fill out.
    Senator Klobuchar. Oh, yes.
    Ms. Gerken. But, the other thing I actually just added, and 
again, I will agree----
    Senator Klobuchar. And so in the long form, they sometimes 
add different questions.
    Ms. Gerken. Yes, a lot of different questions. Exactly.
    Senator Klobuchar. So, this would be something, and this 
would be to supplement what we are getting from the Election 
Administration and Voting Survey?
    Ms. Gerken. Exactly. If you randomly selected localities, 
it would help us glean information about the variation among 
them.
    And, the last thing I will just say is I agree with Mr. 
Riemer that one of the great dilemmas of election 
administration is that a lot of the data comes from poll 
workers who are part-time and not always well trained. Here, I 
think the way to think about that problem is to think about it 
in exactly the way that Burger King and McDonald's think about 
that problem. If I remember from high school, the pimply faced 
16-year-olds that used to work behind the counter there were 
not sophisticated data collectors, and yet they were part of a 
sophisticated data collection system that was adapted to their 
abilities. And so anything that the Federal Government can do 
to help us think about how to get information from poll workers 
without having to train them or to expect more than we can 
expect from them would be very useful.
    Senator Klobuchar. Very good.
    Mr. Stewart, do you think this Census idea is a good one, 
or do you think there is more we should be doing with the 
Election Administration and Voting Survey?
    Mr. Stewart. As you can tell from my testimony, I am a big 
EAVS fan. I would emphasize assisting the States that are 
currently not reporting and complying with the EAVS data 
requests to actually report the data that they need to report. 
So, that is one thought.
    The other thing, I think that you hear a lot of agreement 
on this panel--is that diving deeply into precincts and 
localities requires the creation of a technology that allows 
relatively untrained and unsophisticated poll workers to gather 
the data that is needed. That is why things like electronic 
poll books are very promising, because you can automate a lot 
of this data gathering. If you could automate a lot of data 
gathering in electronic poll books, in the voting equipment 
that is used, then county officials or State officials who have 
the capability to aggregate data could become more involved.
    So, I would push a bit more on the technology side and on 
encouraging States to report the EAVS data. It seems to me if 
Wisconsin can do it, and Mr. Kennedy and his folks are my data 
heroes in this regard, I think any State can do it.
    Senator Klobuchar. Very good. And, so, this is an example 
where you got some funding, Mr. Kennedy, from the Election 
Assistance Commission, a $2 million grant. So, how did you use 
that money?
    Mr. Kennedy. Basically, because Wisconsin already was 
committed to collecting certain data, we wanted to get it as 
granular as possible, and we recognized when we applied for the 
grant we could go from municipality-based reporting right down 
to the reporting unit. You know, Milwaukee has 202 polling 
places, but there are 324 separate reporting units, and knowing 
how each of those wards collects that data.
    So, what we did is provide a portal where that data can be 
easily entered. We are using the polling place data. And what 
we learned is it is training. Now, we did start out with a 
bribe. The first time around, we paid every municipal clerk 
$100----
    Senator Klobuchar. Now, not everyone in elections wants to 
use the word ``bribe.''
    [Laughter.]
    Mr. Kennedy. I understand. I understand.
    Senator Klobuchar. We are in a small room.
    Mr. Kennedy. It was an incentive.
    Senator Klobuchar. There is not a lot of media here, but 
I----
    [Laughter.]
    Mr. Kennedy. It was an inducement or incentive----
    Senator Klobuchar. An inducement. An incentive.
    Mr. Kennedy [continuing]. To get them to do this.
    Senator Klobuchar. Uh-huh.
    Mr. Kennedy. And I think it is important to find some way 
to convince election officials why this is important. In 2011 
and 2012, Wisconsin got a lot of attention because we had a 
number of recall elections. We had 16 separate recalls.
    Senator Klobuchar. I remember hearing about those.
    Mr. Kennedy. Yes. And one of the big policy debates was, if 
we are going to have a Statewide recall, what is that going to 
cost? And it landed in 2012. We did some surveying to estimate 
that, and then, based on that surveying, we built a data 
collection cost tool with a lot of give and take with the 
municipalities. We were able to demonstrate that the $37 
million that we spent on administering elections at the county 
and municipal level in 2012, 14 million of that was directly 
related to the 2012 recall elections, money that was not 
budgeted for. That provided good information for the governing 
bodies that had to support this, you know, why did the costs go 
up? Where did they come from?
    Senator Klobuchar. Another issue that we talked about or 
touched on with the long line issue--and who was giving me the 
numbers, was it you, Mr. Becker, on the decreasing--that there 
was some decrease in three minutes per voter, was that what it 
is, from the last Presidential--was it from 2008 to 2012?
    Mr. Becker. That is right, from 2008 to 2012, three 
minutes----
    Senator Klobuchar. So, then, how is the--what is the total 
wait? What is the----
    Mr. Becker [continuing]. Right now, it is at 11 minutes, on 
average, nationally.
    Senator Klobuchar [continuing]. So, what we are dealing 
here with--because I think most people think they can wait ten 
minutes--so, what we are dealing with here is the fact that 
there are some--would it be, in Ms. Gerken's words, outliers of 
some areas that have really bad problems that we have to try to 
get at?
    Mr. Becker. Well, of course, that is one of the reasons 
that the work of people like Professor Stewart is so important 
and why we hope the Index can be helpful, is that it is 
important to assess this not based on just the anecdotes of all 
the cable news stations outside that one polling place in Miami 
at 2:00 a.m. on election night, but to really see what is going 
on all across the country, because the cable news stations are 
not camped out at polling places in other States looking at 
what is happening.
    So, what we found was, in fact, yes, Florida was the worst 
reported wait times, of around 45 minutes in 2012. Many States 
saw wait times of below ten minutes. The Presidential 
Commission, I believe, came to the----
    Senator Klobuchar. The average in Florida was not 45, was 
it?
    Mr. Becker [continuing]. I am sorry?
    Senator Klobuchar. Was the average in Florida 45----
    Mr. Becker. That was the average reported wait time of 
those that were surveyed on this issue.
    Senator Klobuchar [continuing]. So, would that mean across 
polling places in Florida?
    Mr. Becker. Yes, across the State, across polling places--
--
    Senator Klobuchar. That seems like a real problem----
    Mr. Becker [continuing]. In a survey conducted by Professor 
Stewart.
    Senator Klobuchar [continuing]. And that would seem like a 
deterrent to getting people to vote.
    Mr. Becker. It is probably not a good thing. I think 
election officials in Florida would be the first to say that. 
They did see an increase in their reported wait times. The 
Presidential Commission came to the conclusion in their 
research that about--that under 30 minutes was the target. I 
think that was a reasonable conclusion. And, I think States 
getting that data is very important to them, because once they 
can assess the depth of the problem, they can start looking at 
ways to try to correct that problem.
    Senator Klobuchar. Yes.
    Mr. Becker. One of the conclusions we consistently reach is 
that having inaccurate voter rolls is one of the key things 
that can drive lines, that can lead to delays at the polling 
place and cause a logjam when people are trying to get their 
ballot and cast their ballot. So, States that are seeing 
improvements in that area are seeing lower lines--smaller 
lines.
    Senator Klobuchar. And this would be because of technology, 
they are seeing improvements? This is the voting roll issue? 
What do you think, Mr. Stewart?
    Mr. Stewart. Well, part of it is technology, in terms of 
shorter lines. Part of it is technology. Part of it is also 
that some States and localities are becoming more sophisticated 
in using data to move resources around. I mentioned in my 
testimony the field of industrial engineering, which does these 
things. Some of the larger jurisdictions are able to put some 
brainpower behind optimizing where their resources go.
    It is also the case, that States are beginning to 
experiment with moving some voters off of election day into the 
early voting period. One of the things that does is take some 
of the pressure off of election day voting. Little bits and 
pieces here and there can take pressure off and can reduce 
lines.
    Senator Klobuchar. So, you know, I used to administer--
prosecute the cases for eight years of any voting issues that 
came out of our county in Minnesota. We had the biggest county. 
It was over a million people and was an urban county, but also 
had 45 suburbs. And we had a Secretary of State who was pretty 
aggressive at the time, and so I was very careful that we would 
look at every case that came our way. And so I have actually 
had this on-the-ground experience with this.
    We would have, at first, hundreds of cases that looked like 
they were a problem, and I had a full-time investigator--I do 
not know why we--but this was my job--that would look at these 
cases, and 80 percent of them were father and sons that had the 
same name and so they were not voting fraud. Then we would have 
a number of ones where felons would still be on probation and 
they would actually, I think, be either gotten some wrong 
information or just not understood that they were still on 
probation, and those were sort of sad cases, because then we 
would prosecute these felons on probation for voting. They 
would attempt to, then not be allowed to vote the next time, 
and then would be restored or something like that.
    But, there were not that many of those cases, and so that 
is going to be one of my questions, because I am wondering if 
with this online--and, I know States have different rules--if 
we could do a better job of taking care of that, because a lot 
of times, they just did not quite understand. They were still 
on probation. Minnesota puts tons of people on probation. We 
use less prison time.
    And then the second one, which I will just tell you for 
your own amusement, my investigator called a guy and said, 
``Sir, it looked like you voted twice,'' and the guy goes, 
``Yeah, I did.'' And the investigator goes, ``Well, sir, do you 
mind if I turn on my tape recorder here so I can get your 
story,'' because we had to legally do that, and the guy goes, 
``No, no, I will just write you a letter, because I live in 
Minneapolis and it is so hard for a Republican to get elected, 
I just decided to vote twice.''
    [Laughter.]
    Senator Klobuchar. So, the guy wrote him a letter and went 
on and on about how he had voted twice, and then we had to 
issue some kind of a complaint, and then he was much more 
sheepish when he came in, and I think he was banned from voting 
one more time.
    But, we had a few of those type of cases, but they were 
very, very rare. And what bothers me, having looked at this, 
like, around the five years, having been in a State that had 
this dramatic recount in the Franken-Coleman race, that we did 
have some issues with felons voting, there is no doubt, but a 
lot of it, from my view, was mistakes. It was not some 
intentional thing, both on the election administrator side and 
on the felon side.
    And then the ones that actually deliberately voted twice, 
like the person who--this was another one I had--the school 
board line goes through their house, and the husband and wife 
decided that they are going to vote in both elections because 
they wanted to vote in both school board races, but then did 
not really realize that they were then actually also voting 
double, and they would each vote on each race for President. 
And then when we told them we had to do research for them, 
because they wanted to know where they should vote when the 
line goes through your house, we said, well, you vote where you 
sleep, and then they called back and said, well, what if we say 
we sleep in separate rooms?
    [Laughter.]
    Senator Klobuchar. That was the level of detail we got to 
with them.
    [Laughter.]
    Senator Klobuchar. Those cases, where someone actually 
votes twice, either for some crazy reason, because a line is 
going through their house and they do not understand it, or 
because their mom fills out the form and then they then vote--
they voted by mail, and then they vote again--were very rare. 
And what bothers me is that a lot of our election laws and 
these reasons that we are not talking about today, about some 
of the things that ban people from voting or do not allow them 
to register to vote, we have so used one or two examples of 
these when the vast majority of them, to me, could most likely 
be solved by data, especially some of the felon information, so 
we get that straight.
    And I just wondered if you think that this technology could 
help us to ferret through what is clearly mistakes in most of 
the cases, as opposed to this guy who was intentionally voting 
twice, which is such a rarity. So, a lot of times, it might 
involve mental illness when people do it. But, the point is, it 
is a rarity, and so, yes, it is used as the defining reason why 
we have to have all these strict registration laws and why it 
makes it so hard so people cannot same day register like they 
do in Minnesota and Wisconsin, which, by the way, produces very 
different results, as you know, Mr. Kennedy, in our Governors' 
political parties, in our legislators' political parties, and 
yet we make it easy for people to vote.
    So, if you could just address this, if there is some way we 
could get at this online with some of this technology to make 
it not even--not just the voting experience better, but also to 
make it so that we have a defense, almost, against some of 
these claims so that we do not keep limiting people's ability 
to register and make it easier for them to sign up. Does anyone 
want to go for that one?
    Mr. Kennedy. I could mention that in Wisconsin, we have 
similar rules in terms of felon voting, and there has always 
been an issue about what is the extent of voter fraud, and most 
of the cases that we have identified, I mean, the technology 
that has been put in place since 2006 with our Statewide voter 
registration system, we have identified those rare cases of 
double voting. Usually, it is because they own property in two 
places and want to vote because they pay taxes and it is a 
conscious decision, or they have just moved, and again, very 
rare. But, mostly, it is the felons, and so we have--we do----
    Senator Klobuchar. And you understand what I mean about 
that they are on probation, but it is not clear. Like, they 
really do not want to commit another felony by voting, most 
likely.
    Mr. Kennedy [continuing]. Well, using those numbers, we 
have built in a couple of checks. We have Election Day 
registration, at the polling place we have access to a list of 
all the felons in that municipality or county, depending on the 
size, so it can be double-checked so that people can be 
advised.
    I mean, the best anecdote was someone who came in to vote 
who was on the felon list, was not eligible. The person said, 
``Oh, one more thing I cannot do,'' once the poll worker said, 
``I am sorry, we cannot let you vote because of this.'' But, 
the technology was there. It was available. I think that is 
very helpful.
    But, it also allowed us to build some checks into the 
process so that when the person is sentenced, part of the 
instructions the judge gives is, you will not be allowed to 
vote until you complete the terms of your sentence. When they 
are released from incarceration, they get the same information, 
and they also sign paperwork. So, we use that----
    Senator Klobuchar. Now, some States, when they get released 
from incarceration, then they just get to vote, I think, right? 
Or, can they vote while they are on probation? I mean, that is 
the other way to think about it.
    Mr. Kennedy [continuing]. A few States can do that, but the 
general norm is you have to complete the terms and get off 
paper, as they say.
    Senator Klobuchar. Right. Exactly. And, I think that is 
what creates that confusion. If someone has been in prison, 
they get out and they think they can vote then, like everyone 
else, even though they may have been--so, I am just trying to 
find a way to double-check this so they do not get in trouble 
and so it does not create this aura about our elections.
    Mr. Kennedy. And it is something that, by matching the data 
with the Corrections Department, you can have that so that they 
are flagged in the voter registration list. As I said, 
Wisconsin produces lists that we make available for the clerks 
to download that give that information.
    Senator Klobuchar. Does anyone want to add to that?
    Mr. Becker. I would just add that I think you are 
absolutely right. Technology is important in two very key 
areas. First, it can help ensure that all eligible voters, but 
only eligible voters, have access to the process, using things 
like e-Poll books to ensure that people do not sign on the 
wrong line in a paper poll book, which can lead to these 
problems. Things like online voter registration, which can 
actually walk someone through the voter registration process, 
require that they affirmatively click on and check a box that 
clearly describes what the eligibility requirements are before 
they proceed, and as you pointed out, often accidentally come 
into a violation of the law. Things like ERIC, which can help 
whittle down the number of people that might be reached out to 
that should not be--that are not eligible to vote and should 
not be encouraged to register. Doing that, all these things can 
help ensure that all eligible, but only eligible, can take 
part.
    And, I think a very important thing that technology can 
also do is ensure that we correct some of the data collection 
problems that we currently experience. So much of data 
collection right now is done after the election, where local 
election officials have to reconstruct the election after the 
fact, report up to the State election officials, who then 
report that to the Election Assistance Commission, often 
without many checks in between in each of those processes. So, 
the data often is not of high quality. We have to go through 
and reconnect with all of the States and many of the localities 
to ensure that the data is correct and up to date.
    And what we see with technology now is there are systems 
put in place--election management systems, e-Poll books, et 
cetera--that can be designed at the start with collection of 
data in mind. So, the data is collected as it is ongoing and 
you can just push a button and report it out after the fact. I 
think Wisconsin has done some tremendous things in that regard.
    Senator Klobuchar. You know what I love about this data 
collection is that you can then get the information out there 
and then it creates incentives--as opposed to bribes, Mr. 
Kennedy----
    [Laughter.]
    Senator Klobuchar. It creates incentives for States, 
because they want to compete with each other. And, I just think 
about when we talked to our electric companies, one of the 
things they found is the best way to get people to turn down 
the heat and save electricity--it is so interesting--it is not, 
oh, it is good for the environment. It is not, oh, you can even 
save money, and showing them how much money they save. It is 
showing what an unknown neighbor saves in a similarly sized 
house. And then they see that and they think, well, why am I 
not saving that much?
    And with elected officials, of course, it is much more 
public, so that if you have a State, like your story of 
Florida, where the lines are so much longer than other places 
and you can get that data out, it creates incentives for the 
citizenry to start asking their elected officials, what are you 
going to do to improve this? This is outrageous.
    So, when I hear this, in a very marketplace way, Mr. 
Riemer, I am thinking that there is a huge advantage to getting 
this data out, just to create the incentives so the States can 
change their processes. But, if we do not get the data out, we 
are just putting our heads in the sand and hiding.
    So, I assume most of you agree with that, but, so, what do 
you think is the best thing we can do? I know--if we could go 
down the line here, from the Federal Government perspective. It 
is keeping on funding the Voter Survey. Is it also expanding 
into Census, from your line, Ms. Gerken, from your perspective, 
or what can we be doing?
    Ms. Gerken. Well, I have already given a little bit of my 
spiel on this one, but the one thing I will add is just to 
build on the point that you made. It is remarkable how much the 
right to vote is protected by a well-run bureaucracy that 
believes in best practices.
    Senator Klobuchar. Yes.
    Ms. Gerken. And one of the things you quickly learn about 
election administration is that it does not have yet the sense 
of robust professional practices the way, for example, lawyers 
or doctors or accountants do. Anything that the Federal 
Government can do to support that--and that means something as 
simple as providing a clearinghouse with a menu of options for 
different States, because States do look to one another in 
trying to figure out what they do. The peer pressure that you 
described works as well for States and institutions as it does 
for teenagers, and as a result, they will look to each other.
    Giving them an accessible, easy to use system where they 
can see what other States are doing to solve the same problems 
is very, very useful. That is something the Election Assistance 
Commission is all but built to do. It is nonpartisan. It does 
not interfere with States' decision making. It just helps them 
make better decisions. And so I would certainly encourage the 
Federal Government to do that, as well.
    Senator Klobuchar. Mr. Stewart.
    Mr. Stewart. Much of the same record. The clearinghouse and 
research function of the EAC are invaluable, and that is really 
the core of the EAC. They do this one big election data 
gathering effort and they fund basic research. I think if that 
core can be maintained and developed, that would be a----
    Senator Klobuchar. How about getting the research out 
there? So, you get the research. So, I am finding this out for 
the first time. I kind of watch the news, read things probably 
more than a lot of people, very aware of the States that are at 
the top for voting. And, I even gave, like, an hour-long talk 
on this, but I did not really have--I was not conversant with 
which States had these long lines and things like that. How do 
we get that out there nationally so it gets States to have that 
incentive to move themselves up in the rankings?
    Mr. Stewart [continuing]. Well, part of it is the Election 
Performance Index and ideas in Professor Gerken's book. Another 
thing I have seen develop which I mention in my testimony is 
that we need a marriage of election officials and researchers 
together who can understand each others' worlds. Quite frankly, 
there has been mistrust between the two, because researchers 
oftentimes just want data to write papers and do not understand 
the challenges that are faced by local election officials. So, 
part of it is the creation----
    Senator Klobuchar. And there are a lot of challenges.
    Mr. Stewart. Yes. Part of it is creation of this network of 
people with shared interests and concerns with each others' 
problems. That is an important thing. The EAC has a role in 
that, but universities and foundations also have a role in 
that, too.
    Senator Klobuchar. Mr. Kennedy.
    Mr. Kennedy. I would say that the States have a very 
prominent role that needs to be done here. You know, one, the 
Wisconsin idea in our education has always been to bring the 
University of Wisconsin and its satellite campuses into the 
communities, and one of the reasons we are very successful is 
that we have a tremendous relationship with the University of 
Wisconsin's political scientists and they show a lot of 
interest. We have been trying to feed their needs by giving 
them a lot of data. So, the marriage that Professor Stewart 
talked about is very important and it is something that comes 
natural from our experience.
    The other thing is for the State to be taking a leadership 
role. I mentioned in my testimony how important it is to get 
buy-in from our local election officials, giving them reasons 
why this data is important, addressing their very real concerns 
about, well, it is not fair that we are getting compared 
against each other, and it is, like, well, this is part of the 
exchange of information. It is going to help you improve and it 
forces you to explain your case, why your costs might be 
higher, for example, because it is something we have gotten a 
lot of data on.
    But, the other thing is the State can take a leadership 
role in the technology that we are talking about. Electronic 
poll books, we have been talking about, is going to make sure 
that that data is collected in real time. We know what time 
people are coming into the polling places with electronic poll 
books. Making sure that the voting equipment that people are 
using has--will also show the kind of data that can then be--
you know, the State can take the lead in taking it, as long as 
it is in electronic format, leveraging technology. So, this is 
where the State provides a leadership role to the locals on 
that. So, that is where I would see it.
    Senator Klobuchar. Okay. Thank you.
    Mr. Becker.
    Mr. Becker. Well, I would say several things. First, 
obviously, we should make everyone aware that there is a 
baseline that exists out there. At pewstates.org/EPI, the Index 
exists. And not only the 17 indicators, but you can isolate any 
particular indicator. If you just want to look at wait times or 
voter registration rates or turnouts, or look at a combination, 
or compare States, that is all available.
    And I think one of the things that comes up----
    Senator Klobuchar. Well, maybe we could have, like, some 
kind of a little press event on the Hill when the numbers come 
out, or----
    Mr. Becker [continuing]. We have got them----
    Senator Klobuchar [continuing]. The Rules Committee, we 
could do a very exciting press conference----
    Mr. Becker. We have got a wonderful interactive that people 
can play with that enables them to compare regions, States, one 
State over time, look at any particular indicator or 
combination of indicators.
    Senator Klobuchar. Yes.
    Mr. Becker. You know, some of the interesting things that 
come out of it is though Florida was the worst on wait times in 
2012, Florida actually performed about in the middle of all the 
States----
    Senator Klobuchar. I saw that in the thing. So, I did not 
mean to, like----
    Mr. Becker [continuing]. No, I----
    Senator Klobuchar [continuing]. There are a bunch of people 
from my State who move down there and everything, but I----
    [Laughter.]
    Mr. Becker. A bunch of people from every State move down 
there.
    [Laughter.]
    Mr. Becker. But, it is one of those things, that if 
anecdotes drives this debate, everyone would think Florida is 
ground zero for worst election administration----
    Senator Klobuchar. No, but there are other issues, and so 
it is trying to rationally get that out there, and hopefully in 
a bipartisan way----
    Mr. Becker [continuing]. Exactly.
    Senator Klobuchar [continuing]. Which was so much of the 
issue with this. It can be very--okay.
    Last, Mr. Riemer, and then I have to go to another hearing 
on bulletproof vests, which will be a little different than 
this one.
    Mr. Riemer. Thank you, Senator. I think the combination of 
the EAC survey, the Census data, combined with organizations 
like Pew doing these performance index measures, is the way to 
go. And, I think the States are beginning to produce better 
data. The EAC survey was, in many ways, just--it floored State 
election officials about the amount of data that was asked for, 
and I think, while we have been doing this for a decade, it is 
only done once every Federal election. So, this survey has only 
been done four or five times and States are getting 
progressively better at it.
    I know in Virginia, our first EAC survey response was, 
frankly, a joke. I do not think--I think we only reported about 
a quarter of the information that was asked for. Now, we are 
getting much better at it. We have made changes to our database 
and polling place practices to obtain this data. So, I think we 
are getting there.
    And, I think what has been discussed is the more that 
things are automated at the polling place, from electronic poll 
books, to scanning IDs, to the equipment having better metrics, 
I think we are going to get there----
    Senator Klobuchar. Right, and you have all these 
decentralized local election people that are really into this 
stuff. As much as some of them are overburdened, they do like 
to--I think it is their thing they do. And, I would think that, 
eventually, for some of them, getting that data is kind of fun 
and interesting and they are able to look at what is going on 
across the country and how the State, at least, measures up. 
So, do you think that is true, or is it not fun, Mr. Riemer?
    Mr. Riemer. Virginia is a very diverse State----
    Senator Klobuchar. Yes.
    Mr. Riemer [continuing.] From very cosmopolitan and urban 
in Northern Virginia----
    Senator Klobuchar. Yes.
    Mr. Riemer [continuing]. To Appalachian----
    Senator Klobuchar. Right. Well, we have this, too. Yes.
    Mr. Riemer. Exactly. So, I think some definitely are. You 
have election policy wonks that are the local registrars. And 
then some, frankly, are just there--some of them are part-time. 
We have 17 part-time registrars in Virginia----
    Senator Klobuchar. Yes.
    Mr. Riemer [continuing]. And, I will be honest, they are 
not really that interested in what you are talking about.
    Senator Klobuchar. What is happening across the thing, yes.
    Mr. Riemer. Not all of them, and I do not mean to----
    Senator Klobuchar. I will have to check in on Finland--
Finland, Minnesota. I just know the rural ones that I have 
worked with, they get really concerned about the cost issue, 
and so they are interested in it that way, that if they think 
things can make it better or things can make it worse, they are 
going to be outspoken. So, in that way, I just think that while 
they may not be into the wonkish part of it, they actually may 
be into knowing some facts about how it is going and what is 
working and what is not working, because they do speak out on 
it. I know that from having been around our State, and I am 
sure you know that, too, so----
    Mr. Riemer [continuing]. Absolutely. They care very much 
about the process.
    Senator Klobuchar. They do.
    Mr. Riemer. They still want to fix the process, it is 
just----
    Senator Klobuchar. They do, and so that is why I think 
getting that information out there is a good thing.
    Well, with that, I am going to include Senator Schumer's 
statement, without objection, that he asked to have entered 
into the record.
    [The prepared statement of Chairman Schumer was submitted 
for the record:]
    Senator Klobuchar. And, on behalf of the Rules Committee, I 
would like to thank all of our witnesses today for their 
important testimony this morning.
    This concludes the panels, and without objection, the 
hearing record will remain open for five business days for 
additional statements and post-hearing questions submitted in 
writing for our witnesses to answer.
    We will miss you, Jean, but we know you are going to do 
great out there.
    Thank you. The hearing is adjourned.
    [Whereupon, at 10:51 a.m., the committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 



                   HEARING--ELECTION ADMINISTRATION:.
                    EXAMINING HOW EARLY AND ABSENTEE.
                      VOTING CAN BENEFIT CITIZENS.
                           AND ADMINISTRATORS

                              ----------                              


                        WEDNESDAY, JUNE 25, 2014

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:00 p.m., in 
Room SR-301, Russell Senate Office Building, Hon. John Walsh, 
presiding.
    Present: Senator Walsh.
    Staff Present: Kelly Fado, Staff Director; Stacy Ettinger, 
Chief Counsel; Veronica Gillespie, Elections Counsel; Ben 
Hovland, Senior Counsel; Julia Richardson, Senior Counsel; 
Abbie Sorrendino, Legislative Assistant; Jeffrey Johnson, 
Clerk; Benjamin Grazda, Staff Assistant; Mary Suit Jones, 
Republican Staff Director; Paul Vinovich, Republican Chief 
Counsel; and Rachel Creviston, Republican Senior Professional 
Staff.

               OPENING STATEMENT OF SENATOR WALSH

    Senator Walsh. The Rules Committee will come to order. I 
want to wish everyone a very good afternoon and thank you for 
being here.
    We have had a series of votes scheduled to start at 2:30, 
so in order to hear from all of our witnesses, we are going to 
stick to the time limits and I will keep my statement brief for 
the sake of time.
    This hearing is the committee's fifth in a series on 
improving the administration of elections. Today's hearing 
focuses on how early and absentee voting can benefit citizens 
and administrators. Chairman Schumer wanted to be here today, 
but was unable to attend.
    Today, we will discuss how common sense reforms, like early 
voting and absentee voting can help more Americans, especially 
those in rural areas or in Indian Country, participate in our 
democracy.
    Tuesday has been our official Election Day since 1845, but 
it is not always possible for voters to make time to vote on 
the second Tuesday in November. This is especially true for 
voters in rural areas, Indian Country, farmers, ranchers, the 
disabled, our veterans, and working parents. Many Americans 
face significant time and distance-related barriers to voting 
on time.
    My home State of Montana is also known as Big Sky Country, 
and for good reason. If you have ever driven around Montana, 
you have seen that there is a lot of open space. We have 
counties that would swallow Rhode Island. This means many 
Montanans do not live close to their polling place or election 
office. If you live in Indian Country or in many of our rural 
counties, you could face several hours' drive to the voting 
ballot.
    The pressures of time and space mean Tuesday just does not 
work for a wide range of folks, whether they are working, a 
working parent that wants to get home to see their kids, or a 
Tribal voter that faces a hundred-mile journey to vote. 
Expanding early and absentee voting will provide more Americans 
with an opportunity to vote. That is why this hearing is so 
needed.
    These reforms are not about favoring one party over another 
or any particular group of Americans. They are simply matters 
of good governance that benefit all Americans and that will 
strengthen our democracy.
    The committee is fortunate to have an excellent panel of 
witnesses. Today, we have with us the Oregon Secretary of 
State, Kate Brown. Kate oversees elections that are entirely 
run by mail, helping voters exercise their right on their 
schedule.
    Larry Lomax, who served as the Registrar in Clark County, 
Nevada, implemented what is certainly one of the best examples 
in the country of citizen-focused early voting.
    I am particularly pleased to have my fellow Montanan, 
Rhonda Whiting from Western Native Voice, here today to discuss 
how election administration reforms can help ease some of the 
difficulties Americans face in getting to the ballot box. 
Rhonda, thank you for being here. If we can implement reforms 
that help overcome the barriers of time and space that Rhonda 
routinely sees in Montana's Indian Country, I am confident that 
we can expand voting access to voters across the country.
    With that, I would like to thank all of our witnesses and I 
look forward to our testimony.
    At this time, we will now hear from our panel of witnesses 
in alphabetical order. First, we will hear from Secretary of 
State Kate Brown, who, again, serves as Oregon's Secretary of 
State. Kate.

 STATEMENT OF KATE BROWN, SECRETARY OF STATE, STATE OF OREGON, 
                         SALEM, OREGON

    Ms. Brown. Good afternoon and thank you, Mr. Chair and 
committee members. I am Kate Brown. I am currently serving as 
Oregon's Secretary of State, and I am honored to be here with 
you today. I applaud your efforts to provide American voters 
with choices on how and when to vote.
    In Oregon, we believe that your vote is your voice and that 
every single voice matters, and vote by mail is a great way to 
put a ballot in the hands of every eligible voter. Our 30-year 
experience with vote by mail has been a smashing success. Vote 
by mail enhances turnout, is cost effective, and is secure.
    Oregonians love vote by mail because it is convenient and 
accessible to cast an informed ballot. Voters with disabilities 
can vote independently in their own homes. And, rural 
Oregonians who live miles from an elections office can simply 
drop a ballot in the mailbox.
    Oregon has been at the top ten of States in voter turnout 
amongst registered voters in the last two Presidential cycles. 
It is the only State in the top ten that does not have same-day 
voter registration.
    But where I think vote by mail shines is in turnout in 
primary and special elections. In May of 2014, 35.9 percent of 
registered Oregon voters voted in our primary. As the Chief 
Elections Officer, I normally would not brag about this figure, 
but so far, excluding yesterday's primaries, it is greater than 
any of the other 20 States have held primaries so far this 
year. For example, Kentucky had 27 percent turnout and Georgia 
had 19 percent turnout.
    And then in special elections, we shine, as well. In 2011, 
both California and Oregon had special elections to fill 
Congressional vacancies. Oregon's turnout in our special 
election for that particular Congressional race was 51 percent 
and California's was 25 percent, a huge difference.
    Also, in these financially strapped times, the savings from 
vote by mail are critical. We estimate the savings are 20 to 30 
percent over polling place elections.
    Vote by mail is also secure. To combat fraud, we have a 
number of security measures in place. To ensure the integrity 
of every single ballot, we check every single signature. We 
track ballots with bar codes, and voters can now confirm that 
their ballot has arrived at the elections office.
    In the over 30 years of vote by mail, we have absolutely no 
evidence of coercion, either, and the penalties for both fraud 
and coercion are very, very severe.
    Some folks are critical about vote by mail because they say 
we no longer share the ritual of waiting in very long lines to 
vote. Well, I would argue that it has been replaced by a much 
richer version of civic engagement. Voters' pamphlets come 
three weeks before the election and our ballots arrive about 
two-and-a-half weeks prior to the election. Families sit down 
at the dinner table and talk about who is on the ballot and 
what is on the ballot. And, I know, at neighborhood 
associations, they meet to discuss both candidates and the 
issues that are on the ballot. This gives voters ample 
opportunity to consider all of the issues on their ballot.
    Across the West, voters are embracing vote by mail. 
Colorado and Washington have also joined us in only serving 
their voters via the mail, and not only through the mail, but 
primarily mail ballot. And, many voters in States like Arizona 
and California and Hawaii have made their choice. Secretary of 
State Wyman from Washington is submitting a letter in support 
today, as well, so it has broad bipartisan support.
    I urge you to support efforts across the States to put 
ballots in the hands of every eligible voter using our Postal 
Service. Thank you so much.
    [The prepared statement of Ms. Brown was submitted for the 
record:]
    Senator Walsh. Thank you, Ms. Brown.
    Next, we will have John Fortier, the Director of the 
Democracy Project at the Bipartisan Policy Center. John.

  STATEMENT OF JOHN C. FORTIER, DIRECTOR, DEMOCRACY PROJECT, 
           BIPARTISAN POLICY CENTER, WASHINGTON, D.C.

    Dr. Fortier. Great. Thank you, Senator Walsh, and thank you 
for inviting me to testify today.
    I am the author of a book, Absentee and Early Voting, of 
several years ago and I wanted to give a little bit of 
background of the rise of two types of convenience voting, one, 
vote by mail, and also in-person early voting, and then lay out 
some of the pluses and minuses.
    If I could first start by noting two commissions, one which 
you will hear from, Larry Lomax, the President's Commission on 
Election Administration, which I have some connection with in 
that we are going to be working closely with the Commission on 
their recommendations, and also a commission that put out a 
report yesterday, the Commission on Political Reform out of the 
Bipartisan Policy Center. Both have recommendations regarding 
early and absentee voting.
    Quickly stated, the PCAA calls for the States to expand 
opportunities to vote before Election Day, but notes that they 
do not want the expansion of pre-Election Day voting to come at 
the expense of facilities and resources dedicated to Election 
Day.
    And then the other, the Commission on Political Reform, has 
a recommendation for a seven- to ten-day intense period of 
early voting, which includes at least voting on one day of the 
week before Election Day.
    What I will note is both of these methods of voting have 
risen dramatically. If you went back 35 years ago, you would 
have found only about five percent of America voting before 
Election Day, mostly by mail, for a reason, for a specific 
reason, being away from the polls or being infirm or overseas. 
That number has risen to about a third today, and both types 
have significant participation, with about 17 percent or so--a 
little bit more--voting by mail, and another 14 percent of the 
electorate voting early in person.
    But, I will note that there is very great variation among 
the States. Many of the Western States are much more vote by 
mail. Many of the Eastern States, Northeastern States, have a 
very traditional single Election Day polling place-focused 
election without much of either type of voting. And, then, 
States like Texas and Tennessee and now Georgia and North 
Carolina have a lot of in-person early voting. So, there really 
is a great variety of practices across the country.
    I want to address quickly the issue of turnout in these 
methods of voting. I guess my big message is, I do not think 
moving to either in-person early voting or voting by mail, the 
primary reason you should do so is to dramatically increase 
turnout. When I used to testify, I would say I think that, 
really, the research showed that there was not much at all 
increase in voter turnout. I think there is some more recent 
evidence or studies in the vote by mail which show a small 
increase in voter turnout. But, really, I think, these changes 
are not dramatic, but the reasons for adopting them are more 
convenience or to help election officials spread out the vote 
across elections.
    I will note two exceptions to this, and I think Secretary 
Brown pointed to one. On very low turnout elections--local 
elections or ballot initiatives or perhaps primaries--there is 
a significant increase based on vote by mail, not so much when 
you see the larger general elections.
    And then on the early voting side, we do see some increase 
in turnout based on vote centers, the ability to choose among 
different locations within your county on a pre-Election Day or 
sometimes even on Election Day itself basis, where you are not 
limited to one local place, that you can actually go to a place 
closer to work or on your commuting pattern. So, I think those 
are two important exceptions.
    What are my concerns? I am actually much more of a fan of 
early voting in person than voting by mail, and my concerns 
about vote by mail are some which Secretary Brown addressed. 
One is privacy and the secret ballot. It may not be the 
experience of most people that they have someone who might 
coerce their vote, but there certainly are people who are 
pressured or in a position where they are not casting their 
vote freely. And, the secret ballot, of being able to go into a 
polling place and put the curtain behind you, allows you to 
escape those pressures.
    Secondly, there are some problems in transmission of the 
ballot. If we see vote fraud--people argue whether there is a 
lot or not a lot, but I think most people would agree that most 
of the cases we have are in the absentee or vote by mail realm.
    And then, finally, there is some question of error 
checking, whether the ballot that you cast by mail does not 
have the error checking that you would have at the polling 
place, and more ballots are lost, either because they do not 
have the signature requirements or the ballots themselves have 
some errors that would have been caught.
    I will say that on early voting, the simple point is that 
there is no single formula. I would not impose a formula for 
across the country because we have rural and urban. We have 
places that do lots of vote by mail, lots of early voting, some 
who do not do a lot. But, my preference would be for a short, 
intense period of early voting, one that has significant hours, 
good locations, but that it is not a Federal matter where you 
prescribe one type for all the States. The States have to weigh 
their particular circumstances to figure out whether the early 
voting that they might adopt in their State is proper for their 
State.
    So, I will conclude my testimony with that.
    [The prepared statement of Dr. Fortier was submitted for 
the record:]
    Senator Walsh. Thank you, Dr. Fortier.
    Mr. Lomax, please proceed.

   STATEMENT OF HARVARD ``LARRY'' LOMAX, REGISTRAR OF VOTERS 
 (RETIRED), CLARK COUNTY ELECTION DEPARTMENT, LAS VEGAS, NEVADA

    Mr. Lomax. Good afternoon. I was asked here today to talk 
about Clark County's early voting program, which my personal 
belief is it is one of the most successful in the country.
    Many States claim they conduct early voting, but what they 
mean varies widely from State to State. In some States, early 
voting simply means anyone can request an absentee ballot and 
vote by mail. In others, it means voters can vote in person 
prior to Election Day, but only at the Clerk's Office.
    In Clark County, early voting means that during a two-week 
period prior to Election Day, any registered voter can vote in 
person at a time and place convenient for them. Rather than 
requiring the voter to come to a government office, which is 
invariably an inconvenient experience for the voter, we take 
the opposite approach.
    We look to see where voters go during their normal day-to-
day routines and then we take our voting machines into their 
neighborhoods to them. Most voters, in fact, will pass by one 
of our early voting locations during the two-week early voting 
period during their normal course of business. We provide early 
voting sites in supermarkets, all the major malls, in 
libraries, in recreation centers and other facilities that 
attract the local population whether or not an election is in 
process.
    So the voters will know when we will be in their 
neighborhood prior to the beginning of early voting, every 
voter in Nevada is mailed a sample ballot, which includes the 
complete early voting schedule.
    Sites that are located in the malls, in major shopping 
locations, and in a few minority areas where there are no major 
shopping locations, are open early day during the two-week 
period. In major elections, if the facility is open for 
business, so are we. Thus, in our mall sites, people can cast 
their ballot from ten in the morning until nine at night.
    We also have mobile voting teams that rotate through 
neighborhood locations, primarily supermarkets, recreation 
centers, and libraries, and conduct voting for two or three 
days in those locations. If they are in a library or recreation 
center, they are available to the voter as long as the facility 
is open. Since most supermarkets in Las Vegas Valley are open 
24/7, our supermarket teams are typically open from eight in 
the morning until seven at night.
    To serve areas in the county where there are no suitable 
facilities in which to conduct voting, often minority areas, we 
have four generator-powered self-sustaining voter trailers 
which we can position anywhere in the county. With these 
trailers, we can ensure all voters in Clark County have easy 
access to an early voting location, and their popularity is 
reflected by the fact that more than 60,000 voters have voted 
in these trailers in the last two Presidential elections.
    So, how have the voters in Clark County taken to early 
voting? The great majority of them love it and the turnout 
numbers show it. While the number of Election Day voters over 
the last five Presidential elections--and this is Election Day 
voters--has remained relatively constant at about 200,000 
voters per Presidential election, during the same time period, 
early voting turnout has exploded.
    In the 1996 Presidential election, the first year of early 
voting, 17 percent of the voters, or 46,000 people, voted 
early. Sixteen years later, in the last Presidential election, 
437,000 people voted early. That was 63 percent of everybody 
who voted in the election.
    And, let me point out, in 2012, it only took us 450 voting 
machines to support the 437,000 voters who voted in those two 
weeks. On Election Day, it took us 4,000 voting machines to 
support the 200,000 people because they had to go to specific 
polling places to cast their ballot. I point this out because 
one of the arguments against early voting is the alleged 
increase in the cost of an election. Certainly, there is a cost 
to early voting, but it also significantly reduces the amount 
of voting equipment that a jurisdiction requires, in our case, 
by 50 percent.
    In addition to allowing voters the opportunity to vote at a 
time and place convenient for them, there are additional 
benefits to early voting. Post-election audits show fewer 
mistakes are made each election because early voting workers, 
working 14 consecutive days, are much more experienced and, 
therefore, make less mistakes than the thousands of workers 
recruited to train and work only on Election Day, what we call 
our One Day Wonders.
    And, finally, as the popularity of early voting has 
increased, our voter turnout has also increased. In the 1996 
and 2000 Presidential elections, when early voting was just 
starting and on the rise, the percentage of registered voters 
who voted overall in the election was in the 60 percent range. 
In the last three Presidential elections, where early voting 
turnout has always been 50 percent or more of the turnout, our 
voter turnout has been 80 percent or more.
    In summary, Clark County's two-week early voting program 
has been an enormous success. The voters love it. Elections run 
smoothly, and Election Day lines are a thing of the past. Thank 
you.
    [The prepared statement of Mr. Lomax was submitted for the 
record:]
    Senator Walsh. Thank you, Mr. Lomax.
    Ms. Whiting, please proceed.

  STATEMENT OF RHONDA WHITING, CHAIRMAN OF THE BOARD, WESTERN 
                NATIVE VOICE, MISSOULA, MONTANA

    Ms. Whiting. Yes. Thank you, Senator Walsh. I am here as 
the Chairman of the Western Native Voice Board of Directors for 
the Tribes in Montana.
    The history of Native American voting is the story of a 
group of U.S. citizens who were compelled to be incorporated 
into the nation and then given the rights of citizens in a 
disjointed manner, in many cases, over many decades. It is the 
story of a group of U.S. citizens who were unlawfully denied 
the right to vote through illegal means, at times. Even though 
Native American citizens have served in the military, pay 
taxes, and are a major part of the United States, they were not 
able to vote until they became citizens in 1924, with the 
Indian Citizenship Act. Then, the Tribes were sent to 
reservations through the New Deal times with the Reorganization 
Act.
    Many of these reservations are isolated, and what happens 
on the reservations is that we are not able to use the--we are 
not able to use doing voting or doing anything without our 
computers and network systems, and that is not the norm for 
most reservations at this point in time. We talk about bridging 
the digital divide. We are making progress, but we do have--we 
are isolated in lots of ways. In fact, in reservations like 
Fort Peck, a lot of times, you cannot even use your cell phone. 
So, we really do need to continue to work on that.
    I would like to propose some practical solutions that will 
alleviate some of the problems to keep Native Americans from 
exercising their right to vote.
    First of all, expansion of access to registration modes 
will enable and facilitate voting. Intake of voting 
registration forms by government offices and educational 
facilities. For example, in Montana, the Indian Health Service 
and Tribally controlled community colleges, which we have on 
each reservation--not all Tribes have that--it would be a 
practical method of capturing voter registration forms. This 
would help increase the voting tremendously.
    In 2014, electronic registration options that are secure, 
safe, and verifiable are desirable, particularly for younger 
people who are used to conducting business online. Creating a 
Federal standard for electronic voting is critical to 
modernizing the Federal process.
    Another issue that we face is the distance involved for 
Native Americans and other rural voters to travel to vote. In 
Montana, with election services based in county seats, there is 
considerable distance for most Native American communities. 
Some Indians have to travel in excess of 100 miles to vote. It 
is hard to overstate the burden that is imposed upon Native 
American citizens by traveling long distances to cast their 
vote. The remote locations for many people and the economic 
problems that they face make it very difficult to get to the 
polling places.
    Placing satellite early voting locations in Native American 
communities would alleviate these barriers. One of the 
complaints that we hear, that it is a greater cost to the 
Secretary of State, we are hoping that we can overcome that and 
be able to have the satellite offices. It is important to 
emphasize the economic burdens, and that is why these remote 
communities really need the satellite offices.
    And the experience is in Montana that the same-day 
registration expands access to the polls for many citizens with 
busy lives and demanding careers. The same-day registration by 
college students, working mothers, busy professionals, and 
service people indicates that it is a basic part of the 
election administration to provide the ability to vote.
    Native Americans have benefitted in that same way. Same-day 
registration in Montana has helped lessen the negative effects 
of the electoral system for Natives, who overwhelmingly support 
it. Sadly, same-day registration is under attack in Montana 
with some ballot initiatives that were rolled out. They do not 
look at the Native Americans and what we need to do to enable 
us to vote.
    I believe that if we were able to do these practical 
solutions, which would include satellite voting and same-day 
registration, that the voting for Native Americans would 
increase. We have, at times, with a lot of work--and I have 
been working on this for a long time, formally since 1988--and 
when we had a lot of people helping us, we were able to get in 
some polling places 90 percent turnout. That is not always the 
case, and it would certainly be much more efficient if we could 
do satellite voting.
    Thank you.
    [The prepared statement of Ms. Whiting was submitted for 
the record:]
    Senator Walsh. Thank you, Ms. Whiting, for your comments.
    We now have time for a few questions. I have asked each 
Senator to limit their questions to five minutes, and I think I 
will go first.
    [Laughter.]
    Senator Walsh. With that, Ms. Whiting, thank you for 
traveling all the way from Big Sky Country to visit us today. 
It is great to have more Montanans in the District. You 
mentioned the economic barriers many Tribal members and rural 
residents face while exercising their right to vote. Could you 
elaborate on how these barriers affect their ability to cast a 
vote.
    Ms. Whiting. I know for a fact that the Superintendent of 
Schools, Margaret Campbell, had talked to me about the people 
on the Fort Belknap Reservation and those that live in Hays/
Lodge Pole. She said that with 30 percent of the people not 
being employed, and higher numbers than that, that she could go 
vote, but to drive into Harlem, which is a round-trip 100 
miles, but a lot of people do not have the ability to do that. 
So, economically, we have the highest poverty rate in the 
State, and in many States across the United States. So, 
financially, it is very, very difficult for some people.
    Senator Walsh. Okay. Thank you.
    Mr. Lomax, you have raised turnout and increased voting 
access by making early voting sites more accessible for your 
voters. Clark County, Nevada, however, has about twice the 
population that Montana has. Do you think that your early 
voting reforms, particularly innovations like mobile voting 
sites, could be applied in more rural areas that do not have 
the technology that you may have throughout your State?
    Mr. Lomax. Yes, I certainly do. Yes, sir. There is a 
variety of ways by which you can provide the voters with 
ballots, and we have a lot of very rural counties in Nevada. In 
fact, 75 percent of the population is in Clark County. About 20 
percent is in Washoe County. And, all the other 14 counties 
share the rest, and so there are lots of counties up there that 
have several thousand registered voters in total and they are 
spread out throughout the county.
    They depend--they do not use technology nearly as much up 
there. They just--they use the--they have to move the voting 
machines to where the voters are. It is still the same concept. 
And, usually, the voters are going to be concentrated in some 
areas around the counties. But, I see no reason it would not 
work.
    Senator Walsh. Okay. Thank you.
    Secretary Brown, Dr. Fortier mentioned some potential 
concerns with vote by mail, such as secrecy of the ballot, 
transmission issues, and potential voter errors that are unable 
to be corrected. Given your experience overseeing elections in 
Oregon, do you share these concerns, and can you describe any 
efforts that have solved some of the problems that you have 
faced.
    Ms. Brown. Thank you, Senator Walsh. As the Chief Elections 
Officer, my primary concern is to ensure the integrity of the 
ballot. We have a number of methods in place to ensure the 
integrity of Oregon's ballot. We have a centralized voter 
registration database. As I mentioned in my testimony, we check 
every single signature to verify it against our voter 
registration rolls. And, we have a bar code on the ballot to 
track every single ballot. So, these measures ensure the 
integrity of Oregon's ballot. These are some of the measures 
that we have.
    I will share, vote by mail was adopted by Oregon voters in 
1998. Since 2000, we have been regularly voting by mail, 
roughly 17 million ballots. We have had 13 convictions for 
voter fraud during that time period. So, the incident of fraud 
is extremely small.
    In terms of privacy of the ballot and coercion, as I 
mentioned, we have had absolutely no evidence of coercion in 
voting in Oregon since we implemented vote by mail. I reached 
out to one of the women that represents our Oregon Coalition 
Against Domestic and Sexual Violence to verify this 
information. They have reviewed restraining orders in the past. 
My predecessor, Secretary Bill Bradbury, also worked with the 
domestic violence community. We have just heard of no evidence 
of coercion in the vote by mail ballots in Oregon.
    Senator Walsh. Okay. Thank you, Secretary Brown.
    So, that completes my questions, so on behalf of the Rules 
Committee, I would like to take this time to thank all of our 
witnesses for being here today and for your important 
testimony. We will make this available to all of our members of 
the committee and we will take a look at it, and if they have 
any questions, they may reach out to you. But, again, I 
appreciate you taking the time out of your busy schedules to be 
here with us today.
    So, this concludes the panel for today's hearing. Without 
hearing any objection, the hearing record will remain open for 
five business days for additional statements and post-hearing 
questions submitted in writing for our witnesses to answer.
    Again, I apologize for none of my colleagues being able to 
be here today. They have busy schedules, a lot going on. But, 
this is very important. We want to make sure that all of our 
citizens have the ability to vote and that they can participate 
in our democracy, and I think this hearing today will help us 
move forward with that respect. So, thank you very much.
    This hearing is now adjourned.
    [Whereupon, at 2:29 p.m., the committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 



                  HEARING--THE DISCLOSE ACT (S. 2516).
 AND THE NEED FOR EXPANDED PUBLIC DISCLOSURE OF FUNDS RAISED AND SPENT.
                     TO INFLUENCE FEDERAL ELECTIONS

                              ----------                              


                        WEDNESDAY, JULY 23, 2014

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:00 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Angus S. 
King, Jr., presiding.
    Present: Senators King, Schumer, Udall, Klobuchar, Roberts, 
McConnell, Blunt, and Cruz.
    Staff Present: Kelly Fado, Staff Director; Veronica 
Gillespie, Elections Counsel; Ben Hovland, Senior Counsel; 
Sharon Larimer, Professional Staff; Julia Richardson, Senior 
Counsel; Abbie Sorrendino, Legislative Assistant; Phillip 
Rumsey, Legislative Correspondent; Leigh Schisler, Special 
Assistant; Jeffrey Johnson, Clerk; Benjamin Grazda, Staff 
Assistant; Mary Suit Jones, Republican Staff Director; Shaun 
Parkin, Republican Deputy Staff Director; Paul Vinovich, 
Republican Chief Counsel; Sarah Little, Republican 
Communications Director; Trish Kent, Republican Senior 
Professional Staff; and Rachel Creviston, Republican Senior 
Professional Staff.

               OPENING STATEMENT OF SENATOR KING

    Senator King. Good morning. The Rules Committee will come 
to order. Good morning to everyone who has joined us. Senator 
Whitehouse is at the table.
    This hearing is the Committee's second hearing following 
the Supreme Court's McCutcheon decision earlier this year that 
looks at issues surrounding money in our political system.
    In April, the Committee met to hear from a panel of experts 
about the McCutcheon decision and how our campaign finance 
landscape has changed in recent years. We know that McCutcheon 
coupled with the Citizens United decision have created an 
environment where we will see record amounts of money spent to 
influence elections around the country. Today's hearing will 
focus specifically on the issue of campaign finance in American 
politics and the need for expanded disclosure.
    Our constitutional system contains many provisions that are 
in tension with one another, important provisions which often 
touch our basic rights and responsibilities in sometimes 
conflicting and contradictory ways. One of these, which I 
wrestle with daily as a member of the Intelligence Committee, 
for example, is the tension between the fundamental charge of 
the Preamble that we are to provide for the common defense and 
ensure the domestic tranquility, while at the same time 
observing the privacy protections of the Fourth and Fifth 
Amendments.
    Another example is the subject of today's hearing: How do 
we respect and enhance the freedom of expression enshrined in 
the First Amendment while protecting the Government from being 
corrupted by the unchecked flow of money to public officials? 
We have wrestled with this problem for well over 100 years 
through periodic scandals and periodic corrections, new laws 
and new ways to evade those laws. But as I observed at the 
outset of our Committee's hearing on this subject several 
months ago, we have never seen anything like what is happening 
today.
    The average Senator now must raise more than $5,000 a day, 
7 days a week, 365 days a year for 6 years in order to be 
prepared for the next election. But as disheartening as that 
is, it is only part of the story.
    Over the last decade, and accelerating in the last 4 or 5 
years, is a new phenomenon: the unchecked, unlimited, 
undisclosed gusher of money from individuals, interest groups, 
and shadowy organizations that has become a kind of parallel 
universe of essentially unregulated campaign cash.
    In recent years, the Supreme Court has steadily chipped 
away at two of the three pillars of the campaign finance 
regulation concept, which goes back to the early days of the 
last century, and has effectively eliminated limits on sources 
and amounts. But the Court's fundamental basis for doing so was 
the assumption that the third pillar--disclosure of the source 
of contributions--remained as a bulwark against corruption 
which would otherwise threaten the heart of our political 
process.
    Justice Roberts in the McCutcheon case said, ``Disclosure 
of contributions minimizes the potential for abuse of the 
campaign finance system. Disclosure requirements are in part 
justified based upon a governmental interest in providing the 
electorate with information about the sources of election-
related spending. They may also deter actual corruption and 
avoid the appearance of corruption by exposing large 
contributions and expenditures to the light of publicity.''
    That is Justice Roberts. And he makes total sense. But, 
sadly, this kind of disclosure, the disclosure which the Court 
relied upon as a principal justification for the McCutcheon and 
Citizens United decisions simply does not exist under today's 
campaign finance laws, and the result is an almost total loss 
of accountability, the hiding of vital information from 
voters--who it is that is trying to influence their votes--and 
an inevitable slide toward corruption and scandal.
    I know that many consider this a partisan issue. I do not. 
Although the momentary advantage under the present system 
appears to favor the Republicans, the whim of a couple of 
liberal billionaires could change that perception overnight. 
This is a systemic issue which should be fixed with an eye to 
the long-term health of our democracy, not a fine calculation 
of who might gain an edge in the next election.
    Today we meet to consider a bill to remedy the shortfall. 
Senator Whitehouse has been a leader on this issue for many 
years. His bill is not the only bill. I also have a bill, the 
Real Time Transparency Act, which would require Members of 
Congress, PACs, and political committees to report $1,000 
donations electronically within 48 hours.
    Probably the purest form of free political speech in 
America is the traditional New England town meeting. It is a 
place where citizens from all walks of life gather together, 
usually on a cool Saturday morning in early March, to debate, 
argue, and decide the school budget, whether to buy a new 
police cruiser, or which roads will be paved in the coming 
year. I have been to those meetings in Maine, and I have heard 
the spirited debates and seen some folks go home angry and hurt 
when their point of view did not prevail.
    But everyone speaks up for themselves in Maine, and I have 
never seen someone stand to speak in disguise. I have never 
seen someone stand to speak in disguise. We know who is doing 
the talking, and that in itself is valuable information. And so 
it should be in November. Because what is an election but a big 
town meeting where the people decide the future of their 
community or their country? And an essential part of the 
debate, an essential part of how we make decisions is knowing 
who is doing the talking.
    Senator Roberts.

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. Well, thank you, Mr. Chairman.
    For those of us who opposed the McCain-Feingold bill, it is 
always an interesting experience to hear concerns being 
expressed about the current state of our campaign finance 
system. I opposed that legislation, along with most of my 
Republican colleagues, because we feared it would make our 
system worse, not better. We feared it would not get money out 
of the system but would simply divert it to other sources. That 
has now come to pass. It was not hard to predict.
    Unfortunately, instead of recognizing the folly and the 
futility of the last regulatory scheme, the majority seeks to 
impose a new one, this time under the guise of disclosure.
    Now, that sounds harmless enough. It sounds very 
reasonable, especially when it is articulated by my good 
friend. The bill before the Committee today has been introduced 
in one form or another in each of the last three Congresses. 
Though the provisions have varied in some respects, the goal 
has been consistent: to suppress speech by imposing costly and 
burdensome regulations on its exercise.
    While other efforts to achieve this goal have been struck 
down as unconstitutional by the courts, the majority has 
attempted to use disclosure as a means to erect a new 
regulatory scheme to silence their opponents. This effort must 
be seen in the context of their larger goal to amend the First 
Amendment to permit even more regulation of political speech.
    I have here the Constitution of the United States and also 
the First Amendment: ``Congress shall make no law respecting an 
establishment of religion, or prohibiting the free exercise 
thereof, or abridging the freedom of speech.'' It also mentions 
the press and the right of the people peacefully to assemble 
and to petition the Government for a redress of grievances, 
whether it be in Kansas or in New England.
    This effort must be seen, again, in the context of the 
larger goal to amend the First Amendment to permit even more 
regulation of political speech. I repeated that on purpose.
    The Judiciary Committee has reported a constitutional 
amendment, which our Majority Leader has said we will be voting 
on in September that would allow the Congress to impose 
reasonable restrictions on speech. Luckily, previous 
considerations of the DISCLOSE Act provide some insight into 
what the majority regards as reasonable.
    For starters, when the DISCLOSE Act was considered by the 
House in 2010, the restrictions and obligations it imposed were 
applied to groups disfavored by the majority. A number of 
corporations were simply prohibited from speaking. Government 
contractors and TARP recipients were prohibited from making 
independent expenditures. During floor consideration, an 
amendment was added to also prohibit speech by companies that 
explore and produce oil and gas on the Outer Continental shelf. 
What is that all about? Well, the bill was on the floor soon 
after the Deepwater Horizon spill, you see, so this was an easy 
target.
    Not surprisingly, the majority thought it was perfectly 
reasonable to prevent any of these companies from speaking, but 
did not think it was necessary to extend those restrictions to 
the unions that might represent the workforce in these 
companies. Republican amendments to extend the restrictions to 
these unions were rejected. The majority did not find them 
reasonable, apparently. In some cases, groups were excluded 
from the disclosure obligation solely because the votes were 
not there to include them.
    That is what happens once the Congress starts to impose 
speech restrictions. The restrictions get applied to whoever 
does not have enough votes in the Congress to prevent them. 
That is why the First Amendment begins, ``Congress shall make 
no law . . . '' Imposing speech regulations based on the whims 
of whatever party happens to be in the majority in Congress at 
a given time is not a reasonable exercise, but it is exactly 
what happens once we start down this path.
    I give this little recent history lesson, Mr. Chairman, 
because I think it is important we not try to fool ourselves or 
anybody else about what is going on here. There is no mystery 
about the purpose of the DISCLOSE Act, this version or any 
other prior one. We know the majority is upset about the ads 
that are attacking them and their agenda. We know they want 
those ads to stop. We know they hope new disclosure 
requirements will achieve that goal. We know they think the 
requirements they want to impose are reasonable. We just do not 
agree.
    We do not believe new regulations will improve our system. 
We do not think imposing new costs on the exercise of free 
speech rights will improve our democracy.
    If the IRS targeting scandal has taught us anything, it 
should be that giving Federal bureaucrats control over the 
political activity of American citizens is a recipe for 
disaster. It is time to admit the failure of the regulatory 
model and reverse the mistake we made when we passed McCain-
Feingold and the Federal Election Campaign Act before it. I 
know my friends in the majority want to silence their opponents 
by any available means, but they should stop trying. New 
regulations will not make our system better. Getting rid of the 
regulations we have will.
    If we really want disclosure, we should be advancing 
proposals that will redirect resources to the candidates and 
the parties. That is long overdue. They are fully accountable 
and fully disclose everything they spend and receive. Getting 
rid of the limits on parties and candidates would increase 
transparency and enhance disclosure. If disclosure is the goal, 
that is the way to achieve it. Unfortunately, the DISCLOSE Act 
has another goal, one no American who supports the Constitution 
should support.
    Thank you, Mr. Chairman.
    Senator King. We are pleased to have join us this morning 
the distinguished Republican Leader, Senator McConnell. Senator 
McConnell, a statement?

             OPENING STATEMENT OF SENATOR McCONNELL

    Senator McConnell. Thank you, Mr. Chairman, Senator 
Roberts. I appreciate the opportunity to be here to talk about 
the DISCLOSE Act, and I will get right to it.
    The proposal is not new. This is the third time we have 
seen it. But it is precisely because of the doggedness of the 
proponents of this bill that I have come here today to make my 
observations.
    For more than two centuries, we have had regularly 
scheduled elections in our country. Every 2 years, the major 
parties present a vision for the future with confidence in the 
people, with confidence that the marketplace of ideas, the best 
arguments, will win out. And yet every 2 years now, with near 
metronomic regularity, our friends on the other side can now be 
expected to propose some new attempt to silence their critics, 
or in the case of the DISCLOSE Act, an old attempt to silence 
critics.
    Sadly, it has now come to the point where you can set your 
clock to the Democrats' attempt to stifle the free speech 
rights of the American people. To me, this means they have 
either lost confidence in the centuries-old bargain that said 
the best political argument will prevail or they have simply 
lost faith in the First Amendment itself.
    But either way, it is now fairly clear that our friends on 
the other side have given up on the power of their governing 
vision alone to carry the day electorally. That is not just a 
shame; it is not just a commentary on the left, and it is not 
simply some political stunt aimed at exciting the base in an 
election year, because if that is all it was, we could just 
dismiss it and move on.
    But it is actually far worse than all that. Collectively 
and individually, these continued efforts to weaken voter 
participation in our elections poses a real threat to the right 
of free speech in this country, something which is guaranteed 
by the First Amendment to the Bill of Rights and which has 
ensured the integrity of the political process in this country 
for more than two centuries. We have not always lived up to the 
promise of the First Amendment as a Nation, but we have always 
had recourse to it in correcting past mistakes. And no one--no 
one--should be tampering with it.
    Yet again and again in recent years, that is just exactly 
what we have seen. We saw it on shameful display at the IRS, as 
detailed in the IG report on the agency's activities leading up 
to the 2012 election and in the administration's subsequent 
efforts to codify through regulation just the kind of targeting 
that took place. We saw it in recent efforts by Democrats to 
empower Congress, as Senator Roberts pointed out, through a 
constitutional amendment to limit the free speech rights of 
individuals and groups--a truly radical proposal that would end 
all arguments about what little regard our friends on the other 
side have for the rights of free citizens to set the direction 
of our country. And we have seen it three times now in the 
biennial revival of the DISCLOSE Act.
    Let me be blunt. This proposal is little more than a crude 
intimidation tactic masquerading as good government. And the 
fact that we have been forced to consider it once again is the 
clearest proof yet that our friends on the other side are 
fixated--on suppressing speech.
    It is no secret that the First Amendment has been a 
consuming passion of mine for many years. I have fought hard to 
defend it on the Senate floor and in the highest Court of the 
land. It has pitted me at times against members of my own 
party, including President Bush. And in its defense, I have 
occasionally formed alliances with some unlikely allies. Among 
them is the American Civil Liberties Union, and I would like to 
ask, Mr. Chairman, consent to enclose a letter from the ACLU 
opposing the DISCLOSE Act in the record at this point.
    Senator King. Without objection.
    [The letter was submitted for the record:]
    Senator McConnell. It is to the great credit of the ACLU 
that, even though largely not aligned with most members of my 
party on most issues, they have stood strong in opposition to 
the DISCLOSE Act. I am grateful for their efforts on this issue 
yet again.
    Some might say that the arguments on both sides of this 
proposal hardly need repeating since Democrats have now 
proposed it on three separate occasions, but I see it 
differently. In my view, it is precisely when we stop speaking 
out against proposals like this that we are in the greatest 
danger of ceding our rights to those who would deprive us of 
them.
    Whenever our friends spring from behind closed doors with a 
bill like this one, we need to be ready to respond in kind. And 
in this case, the first part of that response should be to 
point out the obvious. At a time when millions of Americans are 
struggling to find work, small businesses are sputtering under 
the weight of an increasingly brazen regulatory state, our VA 
system is failing our veterans, and tens of thousands of 
unaccompanied minors have been flowing across the border 
without any clear policy solution from either the White House 
or Democratic leaders in Congress, Democratic leaders should 
not be focused on a bill the primary purpose of which is to 
silence their critics. Their persistence at this particular 
moment is eloquent testimony to where the priorities lie.
    The second thing I would like to say about this proposal is 
that the entire premise for it is utterly baseless. The 
supposed justification of this bill is the need to ``do 
something'' about certain people in voluntary associations 
participating in the political process. But this, of course, 
gets it exactly backwards. We should not be trying to think of 
ways to keep people from participating in the political 
process. We should be encouraging more of it. As veteran 
columnist George Will has noted, the political process is not 
some private club in which the parties and candidates control 
the membership. And yet that is precisely what the DISCLOSE Act 
aims to do.
    Now, I know our Democratic friends are frustrated. Prior 
attempts to pass a constitutional amendment limiting political 
speech have failed spectacularly, hitting a high watermark of 
40 votes in 2001.
    The Supreme Court has also spoken clearly and emphatically 
that, under the Constitution, free speech is not limited to 
corporations that own liberal media outlets.
    The purpose of the DISCLOSE Act is to get around all of 
that. If the supporters of this proposal cannot suppress 
individuals or groups, the thinking on the left goes, then they 
should just go after the funding that amplifies the message, 
and they will do it in the old-fashioned way, through donor 
harassment and intimidation.
    We have seen this kind of thing before, my friends, perhaps 
most vividly in the 1950s when the State of Alabama tried to 
get its hands on the donor list of the NAACP. The Supreme Court 
knew what that was about, which is why they ruled against 
forced disclosure then. They knew that the forced disclosure of 
donors mitigated against the rights of free association, 
because if people have reason to fear that their names and 
reputations will be attacked because of the causes they 
support, well, then, they are less likely to support them, of 
course. And that is the last thing we should want in a free 
society.
    The FEC, interestingly enough, has applied this same 
principle, by the way, in protecting the donor list of the 
Socialist Workers Party, which most of you probably did not 
even known existed. The FEC has supported protecting the donor 
list of the Socialist Workers Party since 1979. So we have seen 
what the loudest proponents of disclosure have intended in the 
past, and it is not good government.
    The President likes to say that the only people who oppose 
disclosure are people who have something to hide. History tells 
us otherwise. The sad fact is this kind of Government-led 
intimidation is part of a much broader effort that has been 
underway within the Obama administration for years. We have 
seen parallel efforts at suppressing speech at the FCC, the 
SEC, the IRS, DOJ, and HHS. And the tactics we saw during the 
2012 campaign speak for themselves, from the enemies list of 
conservative donors on the Obama campaign's Web site to the 
strategic name dropping of conservative targets by the 
President's political advisers. And that is what this proposal 
is about. It is about harvesting the names of donors in the 
hopes of driving them off the playing field. We have seen it 
before, and we are seeing it now.
    So let me just repeat today what I have said elsewhere on 
this entire effort. No individual or group in this country 
should have to face harassment or intimidation or incur 
crippling expenses defending themselves against their own 
Government simply because that Government does not like the 
message they are advocating. It is pretty simple, really. If 
you cannot convince people of the wisdom of your policies, it 
is time to come up with better arguments.
    But tampering with our First Amendment rights is a 
dangerous business, and that is what this legislation before us 
aims to do. It is an unprecedented requirement for groups to 
publicly disclose their donors, stripping a protection 
recognized and solidified by the courts. From the NAACP to the 
Sierra Club to the Chamber of Commerce, every one of them would 
now be forced to subject their members to the kind of public 
intimidation we have seen at other moments in our history.
    The authors of this bill have sought bipartisan cover for 
this latest effort by claiming that labor unions would also be 
required to disclose their donors under this bill. Upon closer 
inspection, however, it becomes clear that through a cynical 
and elaborate scheme of thresholds and triggers, these unions 
are given, of course, a free pass, and that just underscores 
who the true targets of this legislation are. The targets are 
anyone who criticizes Democrats.
    Which brings me to the final point. For 4 years now, we 
have heard how the Supreme Court unleashed a torrent of 
corporate money into the political process through the Citizens 
United ruling. Well, here is the truth. Individuals from New 
York to California have given tens of millions of dollars to 
candidates and causes, as is their First Amendment right. But 
the big money, it turns out, is coming from the same unions 
that are exempted from this bill, which, by one count, have 
spent nearly $4.5 billion over the past 9 years on politics, 
including $800 million in 2008 alone.
    So for those who want to ``do something,'' allow me to make 
a humble suggestion. Instead of suppressing free speech, let us 
look to State models for guidance. The endless web of campaign 
finance laws we have seen at the Federal level have done 
nothing but sow confusion. But they have been good for one 
group: The election lawyers are doing great.
    A simpler, more reasoned approach would be for us to adopt 
the Virginia plan: remove the limits, allow candidates to 
accept and report all contributions, and let the citizens 
decide what is proper or not. Money will never be removed from 
politics. It is just like trying to put a rock on Jell-O. It 
just moves somewhere else. The intellectually honest approach 
is to remove the rock.
    So, in closing, Mr. Chairman, I will continue to do 
everything in my power to protect the First Amendment rights 
from this latest iteration of the DISCLOSE Act and every other 
effort to suppress the free speech rights of the American 
people. And I sincerely hope my colleagues, all of whom swore 
the same oath to support and defend the Constitution that I 
did, will stand up. The First Amendment undergirds all other 
rights. We need to defend it with everything we have got.
    Thank you.
    Senator King. Thank you. Thank you, Senator McConnell.
    Senator Udall.

               OPENING STATEMENT OF SENATOR UDALL

    Senator Udall. Thank you, Chairman King, and it is good to 
see my good friend Senator Whitehouse here, who has always been 
a champion of open and fair elections. And I very much support 
his DISCLOSE Act and hope that we can move it forward.
    We have a serious problem and a great challenge. Our 
campaign finance system is failing and it is broken. It is 
being dismantled step by step by a narrow majority of the 
Supreme Court, taking us back to Watergate-era rules, the same 
rules that fostered corruption, outraged voters, and prompted 
campaign finance regulations in the first place, from 1976 in 
Buckley v. Valeo, when the Court first tied campaign cash to 
free speech, to Citizens United, when the tortured logic 
reached its peak and corporations became people. The Court's 
McCutcheon decision in April was the latest blow, further 
opening the floodgates for wealthy individuals to donate to an 
unlimited number of candidates. At this point, five 
conservative Justices have said preventing outright bribery is 
the only legitimate basis for regulation.
    This is not about free speech, and the American people know 
it. It is about wealthy interests trying to buy elections, in 
secret, with no limits, period. Because the speech we are 
talking about here is not free, Citizens United and McCutcheon 
are not about the grassroots small donor. It is about the big 
guys, the really big guys--billionaires and millionaires.
    Politico reporter Ken Vogel has come out with a book about 
the new era of campaign spending. He calls the book ``Big 
Money.'' He reports that outside groups, super PACs, and other 
independent outfits spent $2.5 billion in the 2012 campaign. 
Open a newspaper. We are seeing more and more political 
coverage about which billionaires are spending tens of millions 
of dollars on the political system. This is all coming at the 
expense of middle-class citizens and the challenges they face. 
It is a broken system based on a flawed premise that spending 
money on elections is the same thing as free speech.
    There are only two ways to fix this: the Court overturns 
Buckley, which is not likely, or amend the Constitution to 
overturn previous misguided Court decisions and prevent future 
ones. That is why I built on bipartisan efforts going back 
decades and introduced S.J. Res. 19 last June to restore the 
historic authority of Congress to regulate the raising and 
spending of money for Federal political campaigns. This would 
include independent expenditures and would allow States to do 
the same at their level. It would not dictate any specific 
policies or regulations, but it would allow Congress to pass 
sensible campaign finance reform laws that withstand 
constitutional challenges.
    We are seeing momentum. S.J. Res. 19 was just reported by 
the Judiciary Committee last month. It now has 46 cosponsors. 
And a companion measure has been introduced in the House with 
more than 110 cosponsors. I will continue to push for a 
constitutional amendment. We need comprehensive reform, but 
then in the interim we also need to follow the money, which is 
exactly what Senator Whitehouse and the DISCLOSE Act intend to 
do.
    The DISCLOSE Act of 2014 asks a basic and more than fair 
question: Where does the money come from, and where is it 
going? The American people deserve to know who is spending all 
this money to influence their vote, and they deserve to know 
before, not after, they head to the polls. That is what the 
DISCLOSE Act will achieve. It is practical, sensible, and long 
overdue. We have a broken system. McCutcheon is the latest 
misguided decision. It will not be the last. Congress needs to 
take back control by passing a constitutional amendment. We all 
know that it will take time. In the meantime, the checkbooks 
will be out, the money will keep flowing. We should pass the 
DISCLOSE Act.
    Billionaires may keep spending, but they cannot keep 
hiding. Americans are losing faith in our electoral system. 
There is just too much money hidden in the shadows. It is time 
to restore that faith. The DISCLOSE Act is a step in the right 
direction.
    You know, it was said here several times over and over 
again that somehow this is about free speech. What DISCLOSE is 
about is the basic core principle of the voters knowing where 
the money is coming from. Hundreds of millions of dark money--
and I see a chart here on the table that I know Senator 
Whitehouse is going to talk about. Hundreds of millions of dark 
money in 2012 and in 2010 are infiltrating the system. Nobody 
knows who gives that money except the billionaires and 
millionaires who are doing it.
    So thank you, Senator Whitehouse, for being here today, and 
thank you very much, Chairman King, for holding this very, very 
important hearing on our democracy.
    Senator King. Thank you, Senator Udall.
    We have two panels today. The first is Senator Whitehouse, 
who is the principal sponsor of the DISCLOSE Act, and he has 
been involved in this issue for some years. And, Senator 
Whitehouse, we look forward to your testimony.

STATEMENT OF THE HONORABLE SHELDON WHITEHOUSE, A UNITED STATES 
             SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you very much, Chairman King and 
Ranking Member Roberts, for convening this important hearing on 
the need for public disclosure of who is behind the funds 
raised and spent to influence Federal elections, not to silence 
or limit that speech, to be clear, just to have the public know 
who is behind the funds raised and spent to influence Federal 
elections.
    I am pleased to testify about the DISCLOSE Act, which I 
introduced with 50 colleagues last month, to end the toxic 
scourge of massive, undisclosed spending in elections, a 
scourge that is undermining public faith in our democracy, 
happily for the special interests who want to pull strings 
behind the scenes and who profit from a discouraged citizenry.
    The Supreme Court's 2010 Citizens United decision opened 
the floodgates to unlimited corporate in elections. Every day 
it becomes clearer that this decision will go down as one of 
the Court's worst, like such discredited rulings as Lochner v. 
New York. Citizens United is so far the crowning achievement of 
a set of politicized, activist judges who are acting, to quote 
Justice Breyer, ``like junior varsity politicians.''
    This term's McCutcheon decision, which struck down 
aggregate limits on individual donations, has compounded the 
need for this transparency. This year, the toxic influence of 
Citizens United can be seen in the country's most competitive 
Senate races. According to the Wesleyan Media Project, roughly 
90 percent of all television ads in both the Michigan and North 
Carolina Senate races have been run by outside groups. Many of 
these independent groups mislead voters and give no clear idea 
of who is supporting or opposing the candidates.
    When groups can run ad campaigns without disclosing their 
true identities, they freely resort to vicious and dishonest 
attack ads with no fear of anyone being held accountable for 
those claims.
    The DISCLOSE Act would help rein in what one Kentucky 
columnist has dubbed this ``Tsunami of Slime.'' The bill, which 
is unchanged from the version introduced in July 2012, would 
require organizations spending money in elections, including 
super PACs and tax-exempt 501(c)(4) groups, to promptly 
disclose donors who have given $10,000 or more during an 
election cycle. The bill includes robust transfer reporting 
requirements to prevent political operatives from using shell 
corporations to hide donor identities. Provisions such as the 
high disclosure threshold protect membership organizations from 
having to disclose their member lists and allow organizations 
to exempt donors who do not wish their contributions to be used 
for political purposes.
    We do have to do this together. We tried to get this 
legislation passed in 2010, and Republicans filibustered. We 
tried again in 2012, and again Republicans filibustered. It 
will take Republicans to join us to get this done.
    There is a chance of that. It was not too long ago that 
Republicans supported disclosure. Here is what Republican 
colleagues have said about disclosure in the past:
    ``I do not like it when a large source of money is out 
there funding ads and is unaccountable,'' one said.
    As another put it, ``I think the system needs more 
transparency so people can more easily reach their own 
conclusions.''
    A third colleague summed it up nicely: ``Virtually 
everybody in the Senate is in favor of enhanced disclosure, 
greater disclosure. That is really hardly a controversial 
subject.''
    Leader McConnell back in the day said, ``Virtually 
everybody in the Senate is in favor of enhanced disclosure. 
Public disclosure of campaign contributions should be 
expedited,'' he said, ``so voters can judge for themselves what 
is appropriate.''
    They were right then, and Americans know it now.
    Americans of all political stripes are disgusted by the 
influence of unlimited, anonymous cash in our elections and by 
campaigns that prize billionaire backers and secretive slush 
funds. We need to pull together and solve this.
    Passing the DISCLOSE Act would at least make transparent 
the anonymous money pouring into elections and would signal to 
the American people that Congress is committed to fairness and 
openness. As a Republican former Federal Election Commission 
Chairman, Trevor Potter, has said, this bill is, and I will 
quote him, ``appropriately targeted, narrowly tailored, clearly 
constitutional, and desperately needed.''
    In 2010 we came within one vote in this chamber of passing 
the DISCLOSE Act. This year, let us redouble our efforts to 
contain the damage done by Citizens United with transparency. 
We must preserve Government of the people, by the people, and 
for the people from this tide of unlimited, unaccountable, and 
anonymous money polluting our elections from this tsunami of 
slime.
    Thank you very much, Mr. Chairman. Thank you for the 
opportunity to testify.
    Senator King. Thank you, Senator Whitehouse. I appreciate 
your testimony, and I appreciate your sponsorship and strong 
support of this legislation.
    I would like to ask our second panel to take their seats at 
the table, please. We will now hear from our second panel.
    First, Ms. Heather Gerken, who is the J. Skelly Wright 
Professor of Law at Yale Law School and a Commissioner on the 
Bipartisan Policy Center's Commission on Political Reform.
    And, second, Mr. Bradley A. Smith, Chairman of the Center 
for Competitive Politics.
    I see that Senator Schumer, the Chair of the Committee has 
joined us. Senator Schumer?
    Chairman Schumer. Yes, I was going to congratulate Senator 
Whitehouse on his great work here, so I will do that and now 
turn it back over to you, Mr. Chairman. And I will be back in a 
minute.
    Senator King. Thank you.
    And Mr. Daniel Tokaji, the Robert M. Duncan/Jones Day 
Designated Professor of Law at the Ohio State University, 
Moritz College of Law, was planning to be here today, but a 
plane delay has kept him from joining us. But his testimony 
will be inserted into the record. He will be available to 
answer questions for the record.
    [The prepared statement of Mr. Tokaji was submitted for the 
record:]
    Senator King. Thank you both for joining us today, and I 
would like to ask each of you to limit your statements to 5 
minutes, and then we can ask questions. And I know that you 
both have submitted longer written statements, which will be 
submitted into the record of the Committee, without objection.
    Ms. Gerken, could you proceed, please? You need to press 
the button, I think, to start your microphone.

 STATEMENT OF HEATHER K. GERKEN, J. SKELLY WRIGHT PROFESSOR OF 
          LAW, YALE LAW SCHOOL, NEW HAVEN, CONNECTICUT

    Ms. Gerken. Thank you very much, Chairman King and Senator 
Roberts.
    Robust disclosure mechanisms are an essential foundation 
for any campaign finance system, and ours are neither adequate 
nor effective. Dark money flows freely through the system and 
grows in significance each election cycle. The need for 
adequate disclosure mechanisms has become even more important 
as the Supreme Court dismantles much of our current campaign 
finance system, leaving American politics even more vulnerable 
to money's hidden influence than before.
    I want to make three points today.
    First, disclosure rules have garnered considerable 
bipartisan support, and with good reason. Disclosure sits at 
the sweet spot in policymaking, where democratic idealism and 
political realism meet. These rules provide the American people 
with the information they need to make informed decisions 
without placing restrictions on where and how donors spend 
their money.
    As a result, outside of Washington's tight circles, 
transparency measures enjoy a high level of support among 
policymakers, academics, and the American people.
    As one of the 29 Commissioners on the Bipartisan Policy 
Center's Commission on Political Reform, which was chaired by 
Senators Trent Lott, Olympia Snowe, and Tom Daschle, Secretary 
Dan Glickman, and Governor Dick Kempthorne, I witnessed 
firsthand what happens when a bipartisan and savvy group 
debates about transparency.
    After a lively debate, the Commission recommended the 
disclosure of ``all political contributions, including those 
made to outside or it groups,'' and I would like to emphasize 
that it did so unanimously.
    My academic work has also convinced me of the importance of 
robust disclosure rules. What I have called ``shadow parties'' 
have emerged--independent organizations like 501(c)(4)s and 
super PACs that exist outside of the formal party structures 
and closely cooperate with campaigns even if they do not, as a 
legal matter, coordinate with them. These shadow parties enjoy 
substantial advantages over the formal parties in terms of 
fundraising capacity. But many--specifically, 501(c)(4)s--also 
offer donors another significant advantage: anonymity.
    These shadow parties are shifting the center of gravity 
away from the formal party apparatus into private and non-
transparent organizations. An important report authored by 
Professor Tokaji and Renata Strause offers compelling evidence 
of the new problems associated with this regime, and I would be 
happy to discuss that during questions and answers.
    Second, transparency mandates stand on firmer 
constitutional footing than any other type of campaign finance 
regulation. Do not let cases from the 1950s, when lynching and 
murders occurred, mislead you. While the First Amendment limits 
Congress' ability to regulate campaign finance generally, the 
Court has concluded that transparency rules promote First 
Amendment values by providing Americans with the information 
they need to evaluate the ads that they watch. With the 
exception of Justice Thomas, the Justices who are the most 
skeptical of campaign finance regulations generally have 
consistently voted to uphold transparency measures and have 
authored many of the touchstone opinions in this area.
    Finally, there are a variety of models for ensuring that 
disclosure requirements remain robust and efficacious over many 
election cycles. Wade Gibson, Webb Lyons, and I have proposed a 
new one aimed at the central problem in campaign finance law 
which Senator Roberts mentioned, which is keeping up with the 
ever changing strategies that donors use to conceal their 
influence. Whenever regulations make it harder for wealthy 
donors to fund politics through one outlet, they tend to find 
another. And Congress and the FEC have long struggled with this 
question as each new election cycle new organizations emerge. 
We think of it as the carnival equivalent of Whack-A-Mole.
    Our proposal avoids what Senator Roberts is worried about, 
which is the Whack-A-Mole problem because it regulates the ad, 
not the organization. Rather than trying to guess which 
organizations will emerge in the next campaign cycle, we offer 
a very simple fix. Any advertisement funded, directly or 
indirectly, by an organization that does not disclose its 
donors must simply acknowledge that fact with a truthful 
disclaimer: ``This ad was paid for by X,'' which does not 
disclose the identity of its donors.
    The fix is universal and flexible enough to accommodate 
changes in future election cycles, and because it offers 
universal disclosure, it guarantees that regulations will keep 
pace with politics.
    For all these reasons, now is the right moment for Congress 
to pass new disclosure requirements. This is one of the rare 
instances where the need for change is significant, the time is 
ripe, and the American people are ready.
    Thank you very much.
    [The prepared statement of Ms. Gerken was submitted for the 
record:]
    Senator King. Our next witness is Mr. Brad Smith, Bradley 
Smith, who is the Chair of the Center for Competitive Politics. 
Mr. Smith, we are delighted to have you here. I read your 
testimony in full, and I must say very impressive and 
thoughtful testimony. I appreciate the effort that you have put 
forth to discuss this issue with us. Mr. Smith?

STATEMENT OF BRADLEY A. SMITH, CHAIRMAN, CENTER FOR COMPETITIVE 
                 POLITICS, ALEXANDRIA, VIRGINIA

    Mr. Smith. Thank you, Mr. Chairman, for your kind words, 
and thank you, Senator Roberts, as well.
    Let us start with the basic fact. There are currently more 
laws mandating public disclosure of politically related 
spending than at any time in our Nation's history. None of 
these disclosure laws have been altered in any way by the 
Supreme Court in Citizens United, in McCutcheon, or in any 
other decision. Candidates, political parties, PACs, super PACs 
already disclose all of their donors and expenditures beyond 
the most de minimus amounts. Federal law also requires 
reporting of all independent expenditures over $250 and of all 
``electioneering communications'' of over $10,000, including 
the names of donors who contribute for those purposes. This 
information is all publicly available on the FEC Web site. 527 
organizations that are not State- or FEC-registered PACs also 
report all donors to the Internal Revenue Service, which makes 
that information available to the public.
    Additionally, the FCC requires broadcast ads to include the 
identity of a spender to be made public within the ad itself 
and requires further information to be made available through 
the political file each station is compelled to maintain.
    Given this extensive disclosure regime, it is simply a 
misnomer to talk of dark money or non-disclosing groups. 
Rather, what we have is a system in which some politically 
related spending occurs with less information than some people 
would like about the spenders' members, donors, and internal 
operations.
    Assuming that this is a problem, the question is how big a 
problem is it. The FEC reports that $7.3 billion was spent on 
Federal races in 2012. Approximately $311 million of that was 
spent by organizations that did not itemize and disclose all of 
their donors; that is, a bit under 4.5 percent of total 
spending came from groups that did not itemize their donors.
    Even this number tends to overstate the issue because many 
of these groups are well known to the public, groups such as 
the League of Conservation Voters and the United States Chamber 
of Commerce. But some still ask, Why not seek still more 
information? Why not dig further into the disclosure well? 
Well, there are several reasons.
    First, studies show that compulsory disclosure 
disproportionately limits smaller grassroots organizations, 
particularly organizations that rely on volunteers. This is 
simply because of the regulatory compliance issues.
    Second, transfer provisions of the DISCLOSE Act would 
create a fundraising nightmare for nonprofits, even those that 
do no political work at all, hindering general nonprofits' 
social welfare activity in society at large.
    Third, the DISCLOSE Act creates a great deal of junk 
disclosure. Much of the disclosure required by the act would 
actually confuse the public. It would be unfair to persons who 
would have their names attached to speech they did not intend 
to or did not actually fund, and it would be misleading as to 
the amounts actually spent on political activity by requiring 
double, triple, and even more frequent counting of the same 
money.
    Finally, we cannot overlook the costs in privacy that come 
with excessive compulsory disclosure, costs which have led the 
Supreme Court to repeatedly strike down excessive disclosure 
laws, including in the 1970s, 1990s, and 2000s. DISCLOSE, if 
passed, will certainly be challenged on constitutional grounds. 
But even if it were to withstand those challenges, this body 
should recognize and show consideration for the privacy and 
other interests that would justify such a challenge. The 
purpose of disclosure is to allow citizens to monitor their 
Government. It is not to allow the Government to monitor the 
political activity of its citizens.
    As the ACLU has put it, ``Absent anonymity, some donors on 
both the left and right will simply not donate out of a 
legitimate fear that they will be harassed or retaliated 
against for their advocacy.''
    We cannot have a serious hearing today without recognizing 
the cost that compulsory disclosure has for unpopular speakers 
and new, often unpopular, ideas--that may in later years become 
quite popular, as was the case with abolition or more recently 
same-sex marriage. The CEO of a consumer business in West 
Virginia or Kentucky who believes that coal should be more 
heavily regulated; the small-town Alabama businessman who wants 
to fund a suit by the ACLU challenging prayer in the area's 
public schools; a Montana businesswoman who favors gun 
control--these people should not be compelled by the Government 
to put forward information that will lead others to boycott 
them and destroy their businesses.
    Rightly or wrongly, and regardless of what some members of 
this panel may want to hear, millions of Americans already 
believe that their Government is inappropriately spying on 
them. Tens of millions of Americans do believe--and I think 
there is enough evidence that this is hardly irrational, even 
if some think it is incorrect--that the IRS is being used as a 
tool to harass points of view that are critical of the current 
Executive. There are millions of Americans who hear a Senator 
publicly call for criminal prosecutions of political activity, 
and they see themselves as the intended target of that 
Senator's wrath.
    Too often today, disclosure is not used to evaluate 
messages; rather, people admit that they openly hate the 
message and seek to use disclosure to stop the speech 
altogether. As one organizer stated a while back, years ago we 
would never have been able to get a blacklist together so fast 
and quickly. Thanks to compulsory disclosure and computers, it 
is much easier to blacklist fellow Americans than in the past, 
but many Americans will not see this as progress.
    Frankly, the approval of this bill is unlikely to improve 
trust in Government precisely because many people do not trust 
the Government now. If you wish to increase that trust and 
create a climate in which serious improvements, bipartisan 
improvements in disclosure laws can be considered, then you 
must at least appear to take seriously the fact that the 
Inspector General for Treasury has found that the IRS targeted 
speakers on the basis of their political activity, that the key 
IRS employee involved has pleaded the Fifth Amendment and 
similarly lost a large cache of e-mails in what a poll shows a 
substantial majority of Americans believe are highly suspicious 
circumstances.
    We must stop proposing to amend the Constitution for what 
appears to millions of Americans to be nothing more than short-
term partisan gain, and we must no longer tolerate the 
disgraceful, ongoing vilification on the floor of the United 
States of individual citizens because of their lawful political 
activity.
    In other words, if we wish to create improved trust in 
Government and create a climate favorable to meaningful and 
serious revision of disclosure laws, we must first act within 
this body to create a climate of trust. This bill is not 
helpful.
    Thank you.
    [The prepared statement of Mr. Smith was submitted for the 
record:]
    Senator King. Thank you, Mr. Smith.
    We will have 7-minute rounds and questions for both 
witnesses.
    Ms. Gerken, you mentioned the NAACP case, and I believe 
Senator McConnell mentioned it as well, where the Supreme Court 
recognized in that case the importance of protecting donor 
lists. Can you distinguish that case from the situation that we 
are talking about here this morning?
    Ms. Gerken. So it has always been true that the Supreme 
Court has made sure that there are protections for people who 
are likely to suffer a real threat of harassment, and the case 
involving the NAACP is, of course, the quintessential version 
of that. We all know what was going on in the Deep South in the 
1950s. It was a dangerous time to be seen as donating and 
supporting the NAACP.
    The Supreme Court continues to reaffirm that precedent, so 
anyone who is concerned about this level of harassment need 
only show a reasonable probability of harassment.
    What we have not seen, however, is many people succeeding 
under these standards. The National Socialist Workers Party has 
done so, but in two recent high-profile cases, which are often 
invoked as examples of harassment, when Federal courts look at 
the facts, they have concluded that that level of harassment is 
not actually a problem. People taking signs off of your 
doorstep, and mooning on one occasion someone, does not 
constitute a sufficient harassment to undermine disclosure 
rules.
    And I should just note that oftentimes when people talk 
about what constitutes harassment, they talk about consumer 
boycotts. If we are going to talk about the civil rights 
movement, we should remember, consumer boycotts have long been 
a robust and treasured tool of those who believe in the First 
Amendment and use their power as consumers in order to pursue 
their aims.
    So harassment of the sort that the National Socialist 
Workers experienced is grounds for suspending disclosure rules. 
Harassment of the sort that we have seen in recent years has 
not been.
    Senator King. Thank you.
    Mr. Smith, you talk very movingly about the plight of the 
small donor, but doesn't this bill only apply to $10,000 and 
above? I would not call that necessarily a grassroots donation. 
Isn't there a distinction to be had? This bill that is before 
us has a $10,000 and above cutoff and does not deal with small 
contributions.
    Mr. Smith. Well, obviously most Americans cannot afford to 
contribute $10,000 to any type of cause. However, millions of 
Americans can, and in fact do, and they often speak for other 
Americans of more modest means who share their points of view. 
And many of these people I think will be dissuaded from 
participating in the system.
    The academic literature is really pretty clear on this that 
disclosure does dissuade people from spending--not everybody, 
not most people, but it does discourage some people from 
participating in campaigns.
    Senator King. But what about the issue of information? Part 
of the--it goes back to the beginning of the country. It goes 
back to the statement that Chief Justice Roberts made in 
McCutcheon, that knowing who is doing the talking is part of 
the information voters need in order to assess the message. 
Isn't that a legitimate public interest?
    Mr. Smith. I think that is, and I think that is why we have 
as much disclosure as we have. But the Court has never 
approved, for example, it has never given its blessing to 
something like this act. It might do so if given this act, but 
there is good reason to think that it would not. Again, in 
Buckley v. Valeo, for example, it vastly trimmed down the 
disclosure statutes, in McIntyre v. Ohio Election Commission. 
And so I think that we cannot assume that the Court is going to 
approve this, and there are reasons why we should be hesitant 
about it. What we see more and more now is that, as I 
mentioned, people are not saying, ``Boy, I need to understand 
this ad.'' Rather, people are saying, ``I hate that speech. I 
want to stop that speech.''
    A group called ``Media Matters'' is out raising funds 
specifically promising to distort and harass people's speech, 
i.e., their giving and the speech that it funds, in order to 
gin up public backlash against them and ``dissuade'' them from 
participating. And I do not think Congress should be a party to 
forcing people to provide information that their political 
opponents will use to harass and vilify them and try to 
dissuade them from participating in democracy.
    Senator King. Well, on the constitutional question, the 
issue of disclosure was specifically endorsed very strongly by 
both Kennedy in Citizens United and Roberts in McCutcheon, and 
it was not a minor matter because Justice Thomas dissented on 
that issue. So it clearly looks to me like eight members of the 
Supreme Court have asked us to enact greater disclosure 
requirements because that is the only thing left after they 
have dismantled the other protections. They have said it is 
okay that we are doing this because we have disclosure, which, 
of course, we do not.
    Mr. Smith. Well, I think that that would be something that 
you would undertake at your peril. I mean, they have not 
endorsed this particular item. What they have said is we have a 
disclosure regime and that is adequate. They have not said if 
Congress did more we would have an adequate disclosure regime. 
They have specifically talked about what we have on the books 
and viewed that as significant enough.
    It is true, however, that I think the courts--let us put it 
this way: Without those statements, I would tell you flat out I 
think this bill is unconstitutional, and I can only tell you 
that there would be a serious challenge made to it. We should 
remember, though, that anonymity has a long history in the 
United States, from the Federalist Papers; former Chief Justice 
John Marshall used to fund anonymous political speech; Thomas 
Jefferson used to fund anonymous political speech; Abraham 
Lincoln used to fund anonymous political speech. We know that 
now only years after their death, and we should be aware that, 
again, you can dissuade and discourage people from speaking, 
and we need to be sensitive to that. And I think at this point 
we have a great deal of disclosure, and one of the reasons 
people are hostile to the idea of extending it further is that 
they see this as a partisan effort and they see the IRS 
investigations and they say this is exactly why I do not want 
to disclose.
    Senator King. I can assure you that this Senator does not 
view this as a partisan issue. As I said in my opening 
statement, I think this is a democracy issue. And all we need 
is a couple of liberal billionaires to start spending in a way 
that others are, and suddenly you would see a change in the 
atmosphere around here.
    Ms. Gerken, Professor Gerken, is there a disclosure 
problem? Mr. Smith makes the case that we really do not have a 
disclosure problem; we have got lots of disclosure. But what 
about what has been happening in the last 5 years?
    Ms. Gerken. No, I appreciate Professor Smith acknowledging 
what the Court said in Citizens United. I have a lot of trouble 
imagining the Court finding this type of regulation to be a 
problem because all it is doing is leveling the playing field. 
Right now, super PACs and political parties have to do a great 
deal of disclosure. No one has suggested that this violates the 
First Amendment or burdens speech unduly. And so now all we are 
doing is extending--all that the Congress is proposing to do is 
extending this idea to organizations like 501(c)(4)s. And it is 
incredibly important to do that. If you do not level the 
playing field, then as we have seen over time, the (c)(4)s will 
become increasingly important players because they offer 
something that no one else can offer, which is unlimited 
fundraising ability and anonymity in doing so.
    So this is in some ways the game of regulatory Whack-A-
Mole. This is imperative. If you do not stop the money here, it 
is just going to keep moving into the (c)(4)s, which is exactly 
what we have seen. Between 2008 and 2012, the amount of money 
spent in the system by undisclosed dark money is roughly three 
times what it was before.
    So this is just simply extending a set of regulations that 
we have lived with for a long time that have never been subject 
to any serious constitutional doubt to the new organization on 
the block which is spending money in a new way in campaigns.
    Senator King. Thank you.
    Senator Roberts.
    Senator Roberts. Well, thank you, Mr. Chairman. Thank you 
both for coming and for giving excellent testimony.
    Ms. Gerken, your testimony did not endorse the DISCLOSE 
Act, or at least that is how I read it, but I think in terms of 
your commentary, you probably support it. Do you endorse it?
    Ms. Gerken. You know, actually no one has ever asked me if 
I have endorsed anything because I am not a Senator. So I do 
think that, one, we need more disclosure rules for the 
501(c)(3)s. I think, two, this act is constitutional. It is 
narrowly tailored and sensibly targeted at the right 
opportunities.
    Senator Roberts. So you support it.
    Ms. Gerken. I would support it. If I were in your shoes, I 
would vote for it.
    Senator Roberts. Okay. Well, you are not in my shoes.
    Chairman Schumer. Maybe one day.
    Senator Roberts. They would be a little different shoes, 
Mr. Chairman.
    You like cowboy boots?
    [Laughter.]
    Ms. Gerken. I am a New Englander. We do not wear cowboy 
boots.
    Senator Roberts. That is part of your problem.
    [Laughter.]
    Senator Roberts. Your bio indicates you were a senior legal 
adviser to the Obama campaign in 2008 and 2012. The President 
has been criticized for attending fundraisers in the midst of a 
number of international crises. Last week, he was in Manhattan 
to attend a fundraiser for the House Majority PAC. That is a 
super PAC dedicated to electing a Democratic majority in the 
House.
    The House Majority PAC is one of a number of groups that 
gets support from the Democracy Alliance. Another group that 
gets support from the Democracy Alliance is the Scholars 
Support Network. You are a member of that. Is that correct?
    Ms. Gerken. That is right.
    Senator Roberts. Following its annual meeting at the Ritz 
Carlton in Chicago this year, Politico reported on a memo to 
the board of the Democracy Alliance that contained the 
recommendations on how to deal with media inquiries about the 
conference and its participants. This is what the memo said:
    ``As a matter of policy, we do not make public the names of 
our members. Rather,'' the memo went on, ``the Alliance abides 
by the preference of our members. Many of our donors choose not 
to participate publicly, and we respect that. The Democracy 
Alliance exists to provide a comfortable environment for our 
partners to collectively make a real impact.''
    Why would disclosure make some of the members of this 
alliance uncomfortable?
    Ms. Gerken. So I actually do not know the reason for that. 
I am simply one member of the organization. But I will just say 
that there is a fundamental difference between many of the 
organizations that we are talking about here and those that are 
trying to affect politics with large amounts of money. The 
reason why----
    Senator Roberts. All right. Would you----
    Ms. Gerken [continuing]. Justice Kennedy----
    Senator Roberts. Would you agree--I am sorry to interrupt, 
but we have got 4 minutes here, although the Chairman has been 
very liberal with his time allowance. Do you agree this desire 
to remain comfortably anonymous should be respected?
    Ms. Gerken. I will say that if you are trying to use large 
amounts of money to influence politics, then you should do 
exactly what Justice Scalia says, which is to have the civic 
courage to have your name publicly listed. And so I am in 
support of this bill, and if the Scholars Strategy Network 
started to try and influence politics with large quantities of 
money, I would be in favor of disclosure.
    Senator Roberts. Does the Scholars Support Network publicly 
disclose its donors?
    Ms. Gerken. I do not actually--I do not think it does, but 
I do not know the answer to that question. As I said before, it 
is not trying to influence----
    Senator Roberts. Shouldn't that be respected?
    Ms. Gerken. It is not trying to influence Federal 
elections. And if it were, this bill would ensure that it, in 
fact, disclosed all of the donors that were trying to do so. 
That is the key to this bill. This bill allows for the privacy 
of groups engaged in a variety of public-oriented activities to 
remain anonymous----
    Senator Roberts. All right.
    Ms. Gerken [continuing]. But when they try to influence 
elections, that money----
    Senator Roberts. I got it.
    Ms. Gerken [continuing]. And donor must be disclosed. And I 
support that heartily.
    Senator Roberts. I got it.
    As a 501(c)(3), it is not supposed to engage in any 
political activity. Is that right?
    Ms. Gerken. A 501(c)(3) has--there are a variety of 
requirements about 501(c)(3), about what it means. But as a 
general matter, they are not supposed to.
    Senator Roberts. Well, how is it then that the Scholars 
Support Network has been supported by the Democracy Alliance 
which stipulates that each organization it supports be 
politically active and progressive?
    Ms. Gerken. So the Scholars Strategy Network is a very 
simple thing. It is designed to do something that academics are 
very bad at, which is to figure out how to convey their ideas 
to the broader public and to policymakers. You have thousands 
of universities across the country generating good idea after 
good idea by people who barely go outside during the day, who 
have never talked to a reporter, who have certainly never 
spoken to a Senator, and have no idea how to convey their ideas 
in a broader way. That network is designed to take a bunch of 
people who are basically nerds and help them figure out how to 
convey their ideas to the real world. That is a useful----
    Senator Roberts. Sort of a nerd network?
    Ms. Gerken. It is a nerd network, but it is a policy-
oriented network to get ideas that are already in the public 
arena to policymakers. That is a very----
    Senator Roberts. I have every confidence that the Chairman 
of the Committee sitting to my right gets calls a lot from 
nerds and all sorts of other people. I do, even in Kansas, the 
University of Kansas, Kansas State, Wichita State University. 
We have got a lot of nerds. New England has nerds, don't they?
    Senator King. I do not think there are any in Kansas.
    Senator Roberts. I can testify there are nerds in Kansas.
    [Laughter.]
    Senator Roberts. What about the American Constitution 
Society? At the Chicago conference it took credit for helping 
to make possible the Senate rule changes imposed by the 
Majority Leader that led to the confirmation of ``progressive 
judges'' to the D.C. Circuit. You have also been involved with 
the American Constitution Society. Is that correct?
    Ms. Gerken. Yes, I have.
    Senator Roberts. Do they publicly disclose their donors?
    Ms. Gerken. I do not believe that they do, but they also--
if the DISCLOSE Act were passed, if they were engaged in using 
large sums of money to influence politics, they would be 
required to disclose their donors, and that would be a good 
thing for democracy.
    Senator Roberts. Well, my point is you would recognize the 
Senate rules changes in the appointments to the D.C. Circuit 
were somewhat politicized. Would you agree with that?
    Ms. Gerken. You know, in this world almost everything is 
politicized, I suppose.
    Senator Roberts. I understand. Would the DISCLOSE Act apply 
to 501(c)(3)s?
    Ms. Gerken. The DISCLOSE Act is going to apply to any 
organization that uses money to influence politics. If 
501(c)(3)s are engaged in some politicking, then they do 
something very simple, which is they segregate their funds. 
This is a traditional strategy used by many organizations to 
keep separate these two kinds of donations. That means that 
donors, for example, who want to support the American 
Constitution Society's general activities can give money 
without having it go to politics. But if they want ACS to use 
that money to influence politics, to influence the election 
system, then they have to have a segregated fund. That is a 
very simple--it is a simple and elegant solution to the kind of 
problem that you are describing here.
    Senator Roberts. I do not know--oh, I have been informed 
here that it does not apply to (c)(3)s. So should it?
    Ms. Gerken. So this goes back to the--if a 501(c)(3) would 
like to start to influence--to do the things that are outside 
the usual ambit and it starts to take in large quantities of 
money that are going to be used to influence elections, then it 
is going to have to disclose those activities. It would pull 
itself outside of 501(c)(3)s. They would become 501(c)(4)s, 
presumably.
    Senator Roberts. I think you are talking about a regulatory 
morass, but at any rate, thank you so much for answering my 
questions.
    Senator King. Thank you, Senator Roberts.
    I understand a vote has just gone, and Senator Schumer 
wants to have a few words, and then Senator Cruz. We will 
adjourn to vote, and we will be coming back. You all will talk 
among yourselves while we go and vote, and we will be back. If 
you can get this settled while we are gone, that would be good.
    Senator Schumer.
    Chairman Schumer [presiding.] Well, thank you. And first 
let me thank Senator King. He has been chairing a series of 
hearings on this very important issue and has done it in his 
able, fair, and independent way. So thank you very much.
    First, I just wanted to note Senator McConnell came and 
spoke as a member of the Committee and talked about being 
against the DISCLOSE Act. I recall during the days when we 
debated McCain-Feingold, Senator McConnell was a leading 
advocate of disclosure and said that is what we should do, we 
should not limit contributions but disclosure would be enough. 
And that was true of most of my colleagues who were opposed to 
McCain-Feingold from the other side of the aisle. And then, of 
course, now all of a sudden they are against disclosure, and I 
would argue that is for political advantage. There is no 
principled reason to be against disclosure. This is a 
democracy. Things are disclosed. Justice Scalia's statement 
makes the same.
    And I would just ask my friend Brad Smith, who I know has 
been involved in this for a long time and opposed McCain-
Feingold and every other limitation on campaigns that is here, 
why wouldn't the same argument apply to voting? I vote. I get 
protested all the time. Some of those protests are pretty loud 
and noisy and raucous. Maybe we should keep voting secret, what 
our legislators do, because it might intimidate them. How can 
you make the distinction between the two? Both are 
participating in the political process. The public has a right 
to know.
    You know, for 200 years it has been regarded as progress 
that there is more and more openness in Government. People 
decry closed-ness in Government. In fact, there is a bipartisan 
bill coming about--I think Senator Cornyn in the Republican 
sponsor, along with Senator Leahy--to make Government more open 
and available in terms of the bureaucracy.
    It is just confounding and strikes me as perhaps self-
interested that people are actually against disclosure. There 
are all kinds of arguments about limitations, what you should 
limit and what you should not. And Senator Cruz and I have had 
an ongoing argument about the First Amendment in this regard. 
That is not what we are discussing today because, clearly, you 
would say there is no First Amendment block or any sort of 
First Amendment right to not disclose. Is that right? Or do you 
think the First Amendment argues for non-disclosure?
    Mr. Smith. Well, you have a bunch of questions, and I 
appreciate it.
    Chairman Schumer. Yes, so you can answer them all.
    Mr. Smith. And I do want to say, by the way--and you and I 
have not been face to face in, I think, 14 years, but I still 
remember the great courtesy you showed to my children at my 
confirmation hearing 14 years ago, and I appreciate that.
    Chairman Schumer. Your kids were cute then. Now they are 
probably grown up, right?
    Mr. Smith. They are.
    Chairman Schumer. But to parents, they are always cute, 
right?
    Mr. Smith. That is right.
    Chairman Schumer. Okay.
    Mr. Smith. You asked about voting, to begin with, and that 
draws, I think, a key distinction that we make at the Center 
for Competitive Policy. The purpose of disclosure is for the 
public to keep tabs on its legislators, so when legislators 
vote, of course, the public needs to know that. And that is why 
we support disclosure of contributions to candidates, parties, 
and so on.
    However, when you are talking about citizens talking to 
other citizens, I am less sure that there is a compelling 
Government interest there. Of course, we note that another type 
of voting is entirely secret. You are not required to display 
your vote in any State in the United States anymore. Now, 
Justice Scalia does not believe that is a constitutionally 
protected right to a secret ballot, and I think he has got, you 
know, a solid argument there. But as a policy matter, whether 
it is constitutionally required or not, we have agreed that 
people should have the ability to keep their political views 
quiet. And that goes to the question, when we talk about, you 
know, people are against disclosure. I think everybody is in 
favor--pretty much everybody--of some degree of disclosure, and 
the question is: What should be disclosed?
    And I think part of the colloquy between Senator Roberts 
and my colleague here relates to the question of what should be 
disclosed, and Heather would say, well, if they are engaged in 
political activity. But what is political activity? A great 
many (c)(3) organizations, such as some of the ones Senator 
Roberts was discussing, are doing things--the American 
Constitution Society is clearly trying to affect how people 
think about political issues, and that may ultimately affect 
how those people vote.
    When I was Chairman of the Federal Election Commission, I 
used to note that if you tell me, you know, what groups you 
want to silence, I can come up with a neutral method that will 
get mainly those groups and not many----
    Chairman Schumer. Well, why would disclosure silence 
people?
    Mr. Smith. Well, studies----
    Chairman Schumer. I mean, we are a democracy here, and you 
can always say that somebody could argue you are wrong. But 
that is not--I mean, if you--that is the most slippery slope 
argument I have heard. It just says anytime someone thinks they 
might be intimidated they do not have to disclose anything.
    Mr. Smith. Well, it does not necessarily go that far. But, 
again, you might ask, why do we have a secret ballot? Why were 
the Federalist Papers published anonymously? Why has the 
Supreme Court in cases like Buckley v. Valeo, McIntyre v. Ohio 
Elections Commission, Watchtower Bible & Tract v. Village of 
Stratton, Thomas v. Cullens repeatedly protected citizens' 
anonymity when engaged in various types of political activity? 
Studies do show that disclosure, mandatory, compulsory 
disclosure, has a deterrent effect on some people participating 
in politics.
    Chairman Schumer. But the Supreme Court--no court that I am 
aware of has made the argument that there is any constitutional 
requirement for that. Is that right?
    Mr. Smith. Well, the Court has repeatedly struck down 
overly broad disclosure laws. Whether it would strike this 
down----
    Chairman Schumer. But not on a First Amendment basis.
    Mr. Smith. But I have to say, Senator----
    Chairman Schumer. Right? Is that right? Not on a First 
Amendment basis?
    Mr. Smith. No. On First Amendment grounds, it has narrowed 
statutes or struck them down. And I have to say, Senator, that 
you yourself, when you earlier introduced a version of this 
act, you stated that, ``The deterrent effect should not be 
underestimated.'' So I think you do recognize that there can be 
a deterrent effect.
    Chairman Schumer. Oh, let me tell you, I think it is good 
when somebody is trying to influence Government for their 
purposes, directly, with ads and everything else. It is good to 
have a deterrent effect. If you cannot stand by publicly what 
you are doing, then you probably think something is wrong.
    Mr. Smith. So----
    Chairman Schumer. I do not think you are afraid of being 
protested or picketed or something like that.
    Mr. Smith. So the author of ``Common Sense,'' the authors 
of the Federalist Papers----
    Chairman Schumer. You know, we did not have a democracy 
then. That is not fair. The British were running the show. Tom 
Paine was worried he would be arrested. We are not worried that 
if you publish something here in America you would be arrested.
    Mr. Smith. Well, I can only, again, go back to saying that 
a great many people feel that they have fears of excessive 
disclosure, that the Supreme Court has recognized this in many, 
many contexts, including the context of political giving. And I 
think it is common sense to all of us that there are times when 
one would rather not have to be publicly identified with 
certain political views, such as, again, the examples I gave in 
my testimony. For example, a person, a small business owner in 
Kentucky or West Virginia who favors increased regulation of 
the coal industry might be very concerned about what that could 
do to his business if he were to voice those views.
    Chairman Schumer. Well, but different if he gives money to 
a political campaign to influence the candidate. The disclosure 
here is not based on what we should know about the individual 
but the effect on an elected official, and that is the 
distinction that I think you sometimes fail to make.
    Mr. Smith. But if he gives money----
    Chairman Schumer. I will give you the last word before we 
are out of time.
    Mr. Smith. If he gives money to a political campaign, then 
it is disclosed. It is only--we are talking about giving money 
to a nonprofit (c)(4) at this point.
    Chairman Schumer. Okay. I want to thank the witnesses. We 
are going to be in temporary recess, and Chairman King will 
come back, and I guess Senator Cruz will come back. Thank you 
both.
    [Recess.]
    Senator King [presiding.] The hearing will resume. The 
hearing of the Rules Committee on the DISCLOSE Act will resume.
    Senator Cruz, your questions.
    Senator Cruz. Thank you, Mr. Chairman, and I want to say 
thank you to both the witnesses for joining us today.
    You know, before we broke, I thought the exchange with 
Senator Schumer was actually quite revealing where Senator 
Schumer asked Mr. Smith, well, gosh, why can't we restrict the 
freedom of American citizens? Because, after all, when Members 
of Congress vote, our votes are public. And I think that really 
reveals the issue here, that the votes of Members of Congress 
are public because we are supposed to be public servants. We 
are supposed to be accountable to the American people. And 
indeed what this effort is about and what much of the efforts 
of this Senate is about is trying to have politicians hold the 
American people accountable, which is backwards from the way it 
is supposed to work.
    Jefferson famously said when leaders fear the citizens, 
there is liberty; but when citizens fear their leaders, there 
is tyranny.
    We are just a few months away from an election, and so 
often Congress will devolve into the silly season where we will 
have a series of votes that are not intended to pass but are 
intended somehow to be messaging votes because the majority 
party thinks it will be beneficial for the upcoming election.
    Related to this legislation is a proposal that has been 
voted on by the Senate Judiciary Committee that 47 Democrats 
have put their name to a constitutional amendment that would 
repeal the free speech provisions of the First Amendment. It is 
the most radical legislation the Senate has ever considered.
    In 1997, when the Senate considered a constitutional 
amendment along similar lines, then-Senator Ted Kennedy said 
the following: ``In the entire history of the Constitution, we 
have never amended the Bill of Rights, and now is no time to 
start.''
    I emphatically agree with Senator Ted Kennedy.
    Likewise, Senator Russ Feingold, not exactly a right-wing 
conservative, said the following: ``Mr. President, the 
Constitution of this country was not a rough draft. We must 
stop treating it as such. The First Amendment is the bedrock of 
the Bill of Rights.'' And he continued, in 2001, ``I want to 
leave the First Amendment undisturbed.''
    For 47 Senators to put their name to a constitutional 
amendment that would repeal the free speech protections of the 
Bill of Rights is astonishing. And it ought to be disturbing to 
anyone who believes in free speech, to anyone who believes in 
the rights of the citizenry to express their views and 
politics.
    And, Mr. Smith, I want to ask a question to you: At the 
Constitution Subcommittee's hearing on that proposed national 
amendment--I am the Ranking Member on that Subcommittee; the 
Chairman is Senator Durbin--I asked Chairman Durbin three 
questions about the amendment that he had introduced.
    The amendment, by the way, provides that Congress can put 
reasonable restrictions on all political speech.
    I would note, by the way, the First Amendment right now 
does not entrust determinations of reasonableness to Members of 
Congress. Congress thought the Alien and Sedition Acts were 
reasonable, and indeed the heart of the First Amendment is 
about protecting unreasonable speech, not reasonable speech.
    When the Nazis wanted to march in Skokie, Illinois, Nazi 
speech is the very definition of unreasonable speech. It is 
hateful, bigoted, ignorant, and yet the Supreme Court rightly 
said the Nazis had a First Amendment right to express their 
hateful, bigoted, ignorant, unreasonable speech. And then all 
of us have a constitutional right, and I would say a moral 
obligation, to denounce that speech, because as John Stuart 
Mill said, the best cure for bad speech is more speech, not 
restricting it.
    So the three questions that I asked Chairman Durbin, I 
said: Do you believe Congress should have the constitutional 
authority to ban movies? Do you believe Congress should have 
the constitutional authority to ban books? And do you believe 
Congress should have the constitutional authority to ban the 
NAACP from speaking about politics?
    And what I observed is that for me the answer to all those 
three questions is easy: Absolutely no, in no circumstances. 
And yet in the amendment that every single Senate Democrat on 
the Judiciary Committee voted for, Congress would have the 
constitutional authority to do all three of those.
    My question to you, Mr. Smith, is: What is your view of the 
dangers of giving Congress the constitutional power to ban 
movies, to ban books, and to ban groups like the NAACP from 
speaking about politics?
    Mr. Smith. Well, thank you, Senator. You know, I think the 
danger is obvious, and it goes to the core of why we have a 
First Amendment. And you have hit the point I think very well 
when you said, you know, the precise idea of the First 
Amendment is to prevent Congress from deciding what is 
reasonable. There is a view that this was too dangerous a power 
to cede to the Government.
    During the first panel, Senator Whitehouse mentioned that 
he did not want to dissuade anybody from speaking; he just 
wanted to have people disclose their information. But if you 
look at, for example, this bill, many parts of it require a 
regulatory regime that will dissuade people from speaking, 
including the possibility of prosecution if people make 
mistakes in knowing what other folks they are going to give 
money to will do. And Senator Whitehouse has been very vocal in 
urging criminal prosecutors against political speakers.
    So, you know, I think the First Amendment is there 
precisely to say this is just too dangerous a power to give to 
the Government. As Chief Justice Roberts said in the McCutcheon 
decision, the last people we want deciding, you know, who needs 
to speak more or who needs to speak less in a campaign or what 
is reasonable regulation is the Government itself, the people 
who have a vested interest in being returned to office.
    And as I have often pointed out, even assuming the good 
faith of all actors, if rules and regulations tend to favor the 
party in power and the incumbents, then they will remain in 
place. And if they tend to disadvantage those people, then they 
will be changed. So we do not have to assume bad faith to see 
the danger in giving Government that kind of power.
    Senator Cruz. Well, and we have seen--in the Senate 
Judiciary Committee there were some Democratic cosponsors of 
the amendment who said, ``It is not our intention to ban movies 
or ban books or ban the NAACP from speaking.'' And at that 
hearing I observed this is the Judiciary Committee of the 
United States Senate. The inchoate intentions of members of 
this Committee that may be buried in their hearts are not 
terribly relevant when 47 Senators are proposing a 
constitutional amendment to the Bill of Rights that would 
explicitly, under the language of the amendment, give Congress 
the power--and the amendment says--``to prohibit speech from 
any corporations.'' Paramount Pictures is a corporation. Under 
the language of that amendment, you could prohibit Paramount 
Pictures from publishing a movie critical of a politician.
    Indeed, Citizens United, which is the subject of so much 
demagoguery, was the Federal Government trying to find a movie 
maker who dared to make a movie critical of Hillary Clinton. I 
think the movie maker has a constitutional right to do so, just 
like Michael Moore has a constitutional right to make movies 
that I think are pretty silly, but he has got a constitutional 
right to continue to make them for all time.
    As regard to books, Simon & Schuster is a corporation. 
Under the text of the constitutional amendment, Congress could 
prohibit Simon & Schuster from speaking. As the ACLU said--for 
those of you who are here today who may say, ``Well, Cruz is a 
Republican. I am skeptical of what Republicans say.'' If you 
are skeptical of what I say, perhaps you are not skeptical of 
the ACLU. The ACLU said in writing, this amendment would 
fundamentally abridge the free speech protections of the First 
Amendment, and they said it would give Congress the power to 
ban Hillary Clinton's book, ``Hard Choices.''
    There is a reason that I have referred to the proponents of 
this amendment as the ``Fahrenheit 451 Democrats,'' because 
they are literally proposing giving Congress the power to ban 
books. That ought to trouble everyone.
    And with respect to the NAACP and La Raza and the Human 
Rights Committee and Sierra Club and Planned Parenthood, who 
are all corporations--and they should not be prohibited from 
speaking--we should be empowering the free speech of the 
citizens, not empowering the IRS and Congress and Government to 
silence and regulate the speech of the citizenry.
    Thank you, Mr. Chairman.
    Senator King. Thank you, Senator.
    As one of the sponsors of that amendment, I am not sure we 
are talking about the same document, because the one I sponsor 
talks about regulating campaign contributions. It does not talk 
about banning books or movies or in any way abridge the free 
speech. But I am sure that is a debate that you and I can have 
at a later date. Thank you for your questions.
    Senator----
    Senator Cruz. Mr. Chairman, just in response to the 
question you ask, I would note that the text of the amendment 
says, ``Congress and the States shall have the power to 
implement and enforce this article by appropriate legislation, 
and may distinguish between natural persons and corporations, 
or other artificial entities created by law, including by 
prohibiting such entities from spending money to influence 
elections.'' And since book publishers are almost always 
corporations, under the explicit text of that constitutional 
amendment, Congress would have the power to prohibit 
corporations like Simon & Schuster from publishing books, which 
I would note is exactly what the ACLU said in response to it as 
well.
    So that is the plain text of the amendment that has been 
introduced, and I think it is a very dangerous suggested 
addition to the Bill of Rights of our Constitution.
    Senator King. A discussion which we shall undoubtedly 
continue at a later date. Thank you, Senator.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to our witnesses. Good to have you back, Ms. Gerken. I 
remember the hearing that I chaired. You did a good job.
    Ms. Gerken. Thank you very much for having me again.
    Senator Klobuchar. Okay. Very good. Thank you, Mr. Smith. 
Mr. Smith goes to Washington. You can say that now, I guess, at 
the hearing. That was a little joke.
    It is good to be here. Obviously Senator Cruz and I 
disagree, and I wanted to refocus this, first of all, on the 
bill before us, the DISCLOSE Act, which, it is my 
understanding, having looked at these cases, the Supreme Court, 
the Roberts Court, actually anticipated that we might have some 
limits on disclosure and that those would not be allowed. Is 
that right, Ms. Gerken?
    Ms. Gerken. Yes. In fact, I actually think it would be fair 
to say that Citizens United at least was premised on the idea 
that there would be adequate disclosure. So Justice Kennedy, 
the author of the opinion, notes that as long as you have 
adequate disclosure, you need worry much less about independent 
expenditures. What Justice Kennedy may not have contemplated 
was the possibility that $310 million in the last election 
cycle was being spent independently by groups that were not 
disclosing the identity of their donor.
    But Kennedy was absolutely clear that disclosure promotes 
First Amendment values, the ability of everyday people to make 
decisions to hold their representatives accountable. That is 
why disclosure rules are consistent with the First Amendment.
    Senator Klobuchar. So he specifically used the words 
``disclosure rules'' in the opinion?
    Ms. Gerken. He not only specifically used the words. He 
actually specifically affirmed them and rejected the kinds of 
challenges that have been levied against the DISCLOSE Act by 
noting that because disclosure rules are not stopping someone 
from spending their money and are not putting the kinds of hard 
caps on that you see in other parts of the campaign finance 
regime, that they are subject to a much more generous 
constitutional standard, that Congress has much more leeway to 
impose them, precisely because they further First Amendment 
values rather than undermine them.
    Senator Klobuchar. And I bring this up because Senator 
Cruz's long speech there was mostly focused on the 
constitutionality of this. First of all, he was talking about 
the amendment, which I support, and I will get to that maybe a 
little later, but this is about the DISCLOSE Act today. And 
that the Court clearly contemplated the DISCLOSE Act--the 
disclose rules--I am not going to say this act--that rules 
could be constitutional.
    Ms. Gerken. Yes, exactly. And if you begin to sort of think 
a little bit about the sorts of arguments that are being made 
against the constitutionality of this provision, of this act, 
they would, I would think, also prevent you from regulating 
super PACs and the political parties. That is, there are all 
sorts of instances where we require donors to have the civic 
courage to acknowledge that they have given money to support a 
political candidate or influence elections. And that is all 
that the DISCLOSE Act does. It levels the playing field, 
subjecting (c)(4) organizations, which have become immensely 
powerful in the elections process, to the same kinds of 
regulations we see for super PACs and parties.
    Senator Klobuchar. Which have been allowed as reasonable 
limits in the past.
    Ms. Gerken. I mean, the statement--the kinds of arguments 
that would be made that would knock those down are so radical 
that----
    Senator Klobuchar. That you would not be able--that they 
could not go after you for yelling ``Fire'' in a theater.
    Ms. Gerken. Well, I will just say that the First Amendment 
law that exists on the books, written by the Justices who have 
been the most skeptical of campaign finance regulation, have, 
with all but one exception--eight of them have affirmed these 
kinds of disclosure rules, and with good reason.
    Senator Klobuchar. Good. Well, then, let us go from there.
    What I am concerned about here--and I talked about it when 
you were here; I talked about it at the Judiciary Committee--is 
just the fact that, in fact, the situation we have now with 
these hundreds of millions of dollars drowns out the speech of 
regular people so that they cannot speak because they are not 
going to be able to have a voice if you have a regular person 
running for office that basically cannot bring in millions into 
the campaign, has to raise money, let us say they do what they 
are supposed to, I know what this was like, calling, calling, 
calling, raising $500, raising $1,000, and then all of a sudden 
someone could just come in and plow in hundreds of millions of 
dollars, or in the case, I think, of some of these recent 
races, $25 million so far against individual candidates, to the 
point where it almost becomes ridiculous for you to raise your 
own money because you could be plowed down and stamped on by 
this outside money.
    And so the purpose of this bill is to simply make sure that 
we have adequate disclosure to know that money is coming from, 
to give that person an adequate fighting chance, to say look 
who is funding the attacks against me. Is that right?
    Ms. Gerken. Yes. In fact, a lot of my research has been on 
what I call the ``rise of the shadow parties,'' these 
organizations outside the formal party structure, which are 
having an increasingly large influence over the elections 
process. And the trouble with shadow parties is that unlike 
your party and unlike the Republican Party, they are not open 
to average and everyday people; that is, the price of admission 
to a 501(c)(4) is money, money, money, and more money. That 
means that the everyday people who inhabit our parties, the 
party faithful and the voters, are losing the chance to 
influence the shape of the political process precisely because 
all the power is moving in the direction of the shadow parties. 
This is a step toward halting that flow. It will not fix it 
entirely, but at least it will do something to help us hold 
these groups accountable.
    Senator Klobuchar. One of the things that the Supreme Court 
pointed to in its recent McCutcheon decision was that now more 
things are online for people to take a look at. They may be 
true, but as you know, not everything is written online. It is 
very hard for people sometimes to find things.
    Do you think that improving the technology that we use for 
disclosing money--this is outside of--it is part of the 
DISCLOSE Act but not in the bill--in elections to help make it 
easier for groups to report on this and for the public to know 
what is really happening?
    Ms. Gerken. I think that anything that can be done to make 
it easier on the public to figure out the source of an ad is 
helpful, which is one of the reasons why we made the proposal 
that we did, that for ads that are essentially paid for by 
groups that do not disclose their donors, that should be on the 
ad, because citizens have a right to know who is behind the 
money. And I will say that for the average citizen, even the 
system we have now requires an inordinate amount of work for 
them to figure out who is behind some of these ads and who is 
not.
    So, yes, anything that can be done, both in terms of 
putting labels on the ads and increasing the transparency of 
the way money flows through the system, is a good thing, in my 
view.
    Senator Klobuchar. I totally know this because even how I 
have not had a lot of independent ads run against me, they have 
had issue groups do it sometimes. I have tried to figure out 
who is financing when my name is in it, and I cannot figure it 
out.
    Ms. Gerken. No, I actually once made a joke in my election 
law class that you could have a group called ``Americans for 
America,'' and then one of my students proposed--I do not know 
if this is true--that, in fact, that group exists. So you never 
know who is behind it.
    Senator Klobuchar. There you go. So one of the things that 
has intrigued me with this is that this just has not been a 
partisan issue in the past. People have come together on trying 
to find a way to regulate campaign contributions, understanding 
that it becomes actually corrupt when there is so much outside 
money and people cannot tell where it is coming from. And I 
truly believe the integrity of our electoral system is at 
stake, and from what I am seeing, there is a bipartisan support 
in the public for doing something about all this outside money, 
but we are not seeing it here.
    Why do you think that is? How do you think we can change 
that?
    Ms. Gerken. Well, I do think that there is actually 
generally bipartisan support. The American people 
overwhelmingly favor transparency. I also think that when you 
move a little bit outside of Washington, you find that people 
on both sides of the aisle are in support of transparency.
    Certainly when McCain-Feingold was debated, virtually 
everyone on both sides of the aisle was in favor of 
transparency, and I had the pleasure of working on a commission 
with Senator Trent Lott, with Representative Henry Bonilla, 
with Senator Olympia Snowe, and we unanimously decided to 
endorse transparency rules for independent funding. And in many 
ways, I think that one way to understand what that commission's 
purpose was to think about the relationship between elections 
and governance, because governance is breaking down in 
Washington. And the group as a whole was deeply concerned with 
that. Transparency rules are part of what makes governance 
work. It helps the American people hold their representatives 
accountable. And it helps us all figure out where the money is 
flowing and how power is working in Washington.
    Senator Klobuchar. Mr. Smith, you know, one of the 
witnesses that we had at the Judiciary Committee was--actually 
I pushed him a little, and he said when--remember, this is not 
about the DISCLOSE Act. This is about the constitutional 
amendment that Senator Cruz was referring to. And he basically 
said he thought we should not have any limits at all on--any 
kind of limits on contributions. Do you share that view?
    Mr. Smith. You are asking me?
    Senator Klobuchar. Yes.
    Mr. Smith. I am sorry. Well, let us put it this way: I 
think we should have good, reasonable limits on contributions. 
The current limits on contributions are substantially less than 
what they would be had they even been raised for inflation 
since they were first enacted in 1974, and it is worth noting 
that, prior to 1974, we never had any limits on direct 
contributions by individuals to campaigns. Individuals up to 
1974 were free to contribute $20 million directly to a campaign 
if they wished to do so.
    Several States still allow that, and there is nothing that 
indicates to me that it has had detrimental effect. In fact, 
those States consistently rank near the top of the best 
governed and least corrupt States in America.
    So I guess the better question to me would be, you know, 
what really--how strong is the justification for limits, 
especially limits at the low levels that we have them now? When 
people ask me, you know, would I do away with all limits, I 
guess I always say, you know, might, but, look, I understand 
why people want limits. I think what we need are more 
reasonable limits. That would be a good starting place.
    Senator Klobuchar. But do you think it would be--it is 
constitutional to have those limits in place?
    Mr. Smith. Well, the Supreme Court has repeatedly said that 
it is constitutional to have limits on contributions.
    Senator Klobuchar. Right.
    Mr. Smith. There are several Justices, both now and former 
Justices, who have disputed that, but it has never been a 
majority position on the Court.
    Senator Klobuchar. And then do you think there is a 
constitutional issue then with actually disclosing the names of 
those people that there are limits----
    Mr. Smith. They are disclosed. I mean, if you give money to 
a campaign, your name is disclosed.
    Senator Klobuchar. But you have an issue with the DISCLOSE 
Act then?
    Mr. Smith. Yes, I do, because I think we need to recognize, 
first, the Roberts Court has not said that rules like ``this'' 
are constitutional. It has said--it has been generous toward 
disclosure. It has never ruled on rules like this. In Citizens 
United, in McCutcheon, it is ruling against a background of 
existing disclosure rules. And as I mentioned in my prepared 
testimony, we have more disclosure now than at any time in 
American history. And the Court has looked at that and said 
this is the solution, this is adequate. It should not be read 
to suggest that the Court is saying go ahead and do whatever 
things more you want to do.
    Senator Klobuchar. But what is so wrong with disclosing the 
people that give these kinds of contributions?
    Mr. Smith. Well, the question, again----
    Senator Klobuchar. Why would that make it different than 
the other rules?
    Mr. Smith. The question is who or what is going to be 
disclosed. For example, this act does not require disclosure by 
the American Constitution Society of its donors. Maybe it 
should. The American Constitution Society would escape it 
because it is a (c)(3). It does not engage in a certain type of 
political activity. But anybody who says that it is not out 
there trying to influence politics is not serious. I mean, that 
is what a lot of groups do.
    So, again, the question is not that people are opposed to 
disclosure as if this is some clear, obvious thing. The 
question is: What should be disclosed--right?--when and how? 
And to what extend do we want to tie our system up trying to 
get, you know, the last little bit of disclosure out of the 
system?
    501(c)(4)s have long done very, very hard-hitting issue 
ads. The NAACP ran ads in 2000 that re-enacted the lynching of 
a man named James Byrd, and the narrator specifically blamed it 
on then-Governor George W. Bush. It ran these ads in October 
just before the election. They did not disclose their donors. 
Nobody got upset about it at the time. This is not something 
new in that respect. It is not new since Citizens United. It 
has only been viewed as a crisis, so to speak, since Citizens 
United, and I think that really is a reaction to Citizens 
United rather than a serious, you know, re-evaluation of the 
need for added discussion in this area.
    So, you know, again my organization and I have supported 
disclosure. I have supported it in my academic writings. But it 
is a question of what should be disclosed and how much. The 
Supreme Court has not endorsed all disclosure. In many cases, 
in the 1970s, 1980s, 1990s, and 2000s, it has protected the 
right of citizens to engage in political activity anonymously, 
and nothing in Citizens United or McCutcheon overrules any of 
those decisions.
    Senator Klobuchar. Do you have concerns that once--you 
know, we do not know where this money is coming from because it 
is not disclosed, that you could have foreign money come in 
when we do not know what the money is and----
    Mr. Smith. You can have foreign money come in anyway. 
People just would not have to--they would not report it. They 
would----
    Senator Klobuchar. Yeah, but if they have to report it----
    Mr. Smith. If they want to break the law, they will break 
the law.
    Senator Klobuchar [continuing]. You can add it up and see 
what it adds to. It would take another step if you made up 
where the money was from. This time you would at least be able 
to know where it was from.
    Mr. Smith. Right. Well, as I pointed out, it is about 4 
percent of the money that is not itemized by donors that is in 
the system, and so I think we need to keep that in perspective. 
And I think the end result is I think that one could consider 
changes to disclosure rules, and there may be some things that 
we would want to do. But I think that this bill in particular 
has a lot of problems, again, as I pointed out, it brings up 
what we call ``junk disclosure,'' double counting of funds, 
relating people to money that they did not give for purposes of 
advertising, misdirecting the public about who is giving, in 
fact, or who is not giving. And so I think that we need to be 
conscious of the fact that this is simply not a good bill on 
its own technical merits. But I think also as we design bills, 
we need to be conscious of the fact--and I think the data 
supports this pretty clearly--that excessive disclosure 
discourages honest, good political participation, and we need 
to be careful about that and sensitive to that reality. And it 
can be misused in the same way that anonymity can be misused 
when people intentionally say our goal is going to be to smear 
and attack people based on political activity they might be 
vaguely related to through some financial transaction.
    Senator Klobuchar. Okay. Ms. Gerken, do you want to 
respond?
    Ms. Gerken. Well, I want to agree with Professor Smith that 
the Supreme Court said what it said about disclosure when it 
robustly and emphatically affirmed the validity of disclosure 
rules. It did so against a background in which super PACs are 
regulated, political parties are regulated in the same way that 
501(c)(4) organizations would be regulated going forward. They 
are the outlier. All that this bill does is pull 501(c)(4)s 
into the ambit of the kind of disclosure rules that we have had 
for a very long time without anyone worrying about the First 
Amendment or suppressing speech.
    Senator Klobuchar. I just think it so much weighs on the 
side of getting this disclosed, and this is just from my own--
you know, I am not the constitutional expert that you two are. 
It is just based on my practical experience. I remember when I 
had a $100 contribution limit in local office. That is what we 
had in non-election years. So, like, six of my election--six of 
my years out of eight I had a $100 limit on contributions 
during the 8 years that I was county attorney. I would still 
get numerous contributions for $99 because then people knew 
that their name would not be out there. And, okay, maybe that 
is okay when you are dealing with $99, $100. But when you are 
dealing with the millions of dollars we are looking at here, I 
just do not think it is okay. It is a difference because of the 
impact that extra money can have. And the outsize impact when 
you look at what individuals can give in an individual race, so 
you can get a max of, what, $5,000, a lot of the contributions 
I get are like $1,000, and then someone coming in with $25 
million against you and then you cannot tell who those people 
are.
    Ms. Gerken. And, Senator, Professor Tokaji is not here to 
talk about his report, but it really provides compelling 
evidence that the numbers here are important, but what is more 
important is the way it is changing the political landscape. 
There are $310 million--there is complete agreement that at 
least that amount of money was not disclosed in 2012. But the 
way that it is changing how people run their campaigns and work 
with these shadow parties is quite astonishing. The parties are 
becoming more sophisticated. This is looking a lot more like 
what anyone in the world would call ``coordination'' except for 
a few lawyers. And so it is becoming an increasingly worrisome 
problem, and it is hard to imagine 2016 is going to be any 
better.
    Senator Klobuchar. Right. And the last thing I would say 
politically, as the Chairman, as someone who likes to get 
things done and try to find some common ground, I just think 
this money in these extreme forms from the outside is not going 
to foster that at all, because people are not--they are going 
to know something is going to hit them that will just outweigh 
all that money that normal people give you at $100 or $500 or 
$50 or $20, it will just be outweighed by some interest group 
who does not agree with you on one issue or that you have not 
toed the party line on one thing, either right or left, and 
that money is just going to come in and blow you out. And that 
is why I think that in the end not only is this bad for just 
the traditional idea that we should know who is giving money, I 
just think it is bad for our democracy in terms of getting 
things done.
    So thank you very much.
    Senator King. Thank you, Senator.
    Just a couple of follow-up questions. It occurs to me, Mr. 
Smith, that the reality--and this is a change that has happened 
almost overnight, really just in the last few years. Yes, there 
were 501(c)(4)s back along--but I would argue that the 
quantitative change equals a qualitative change. And what we 
have now is it is like the legends of the Trojan War where the 
Greeks and the Trojans fought each other, but the gods were 
fighting in the skies. We have parallel universes of campaigns, 
and it is getting to the point where the candidates themselves 
are the little guys, and the real fight is between the 
billionaires who are controlling it. And we have had for 100 
years various kinds of controls that have come and gone, but it 
has all been because of scandals and the danger of corruption 
that people have recognized since Teddy Roosevelt. That has not 
gone away. Human nature has not changed. And it just seems to 
me that all we are talking about here--and you yourself have 
said we have got lots of disclosure, and I would agree that we 
do, except in this one area.
    You have indicated you think it is only 4 percent, but you 
are counting, I think, as I carefully read your testimony, you 
are counting as disclosure when a group is listed, Americans 
for Greener Grass, as the contributor, that is disclosure. That 
is not disclosure. Disclosure is knowing who gave the money to 
Americans for Greener Grass.
    So I think you are--the 4-percent number, if it were true, 
we would not be wasting our time here. But the truth is there 
is a ton of money coming in, it is accelerating, and I think 
most of us have said, okay, the Court has said what they said, 
and those are the rules about campaign finance. But the only 
tool they have left us is disclosure. And it seems to me--and 
you talk about, well, you know, there could be harassment. I 
think Justice Scalia said it very well. This is part of civic 
engagement. And if a billionaire can spend millions of dollars 
attacking my record or my character, I at least ought to have 
the opportunity to know who it is. To me, it is just--again, go 
back to the New England town meeting. No one is allowed to 
speak in a Maine town meeting with a bag over their head. Who 
the speaker is, is part of the information, and that is the 
purest form of political speech in our country today.
    Give me your thoughts. All we are talking about, I think 
Professor Gerken is right, we are talking about applying to the 
(c)(4)s and whatever the next iteration is the same rules that 
we have had for years where, if somebody contributes to my 
campaign, if it is 100 bucks, I have got to list their name, 
address, phone number, occupation, but then somebody can spend 
$20 million and have no idea who they are or where they are 
from.
    Mr. Smith. Right. No, I think those are all good points. 
Let me try to address those in some order that may not 
correspond to their importance or the order in which you raised 
them.
    But, first, let us note that I think that the McCutcheon 
decision, if that is the concern, is actually a good decision 
in that, again, McCutcheon allows more money to flow directly 
into political campaigns.
    Senator King. I understand.
    Mr. Smith. Which is fully disclosed.
    Senator King. And that may actually diminish the pressure 
toward these un----
    Mr. Smith. Yes, I do not see it having a major effect, but 
I do see it having some effect there. And I think along with 
that, as I noted earlier in response to Senator Klobuchar, we 
have not raised contribution thresholds to anything close to 
what they would be even if adjusted for inflation. And in my 
view, they should be substantially higher than that inflation 
adjustment, and that would also, I think, relieve some of the 
pressure on office holders' fundraising and help to make them, 
again, more important in their own races, so to speak. This is 
a self-inflicted wound when I hear office holders complaining 
about this.
    Now, you make a good point. You know, things change, right? 
And people change, and how things operate changes. And there is 
no doubt that is true. All I can say is that I do not think 
there is much evidence at all that these campaign finance--this 
web of regulation we have thrown at our political activity, 
mainly since 1974--before that the laws were pretty easily 
evaded, there were very few rules enforced. I do not think 
there is much evidence that it has helped. And if we look at 
States that are deregulated versus States that are highly 
regulated, there is little evidence that the latter group 
performs better in almost any measurement you choose--
educational attainment, personal income, unemployment, almost 
any measure of Government policy effectiveness you might want 
to come up with.
    And in those old days, we always heard the same sort of 
stories--``It is just not like it used to be.'' You know, in 
the 1920s, the parties were complaining about the expense of 
getting radio into everybody's house. And in the 1850s, they 
were complaining about, ``Ah, ever since Van Buren, we have to 
do all these pamphlets and so on.'' They have always been 
raising those kinds of issues.
    But there are other ways in which society has changed. For 
example, it used to be if you wanted to see disclosure reports, 
somebody had to go down and manually look them up. Nowadays you 
can sit on the computer, pull up your neighbor's finances. 
There are sites that directly link giving to people's--to maps 
to people's homes. What is the purpose of that other than 
intimidation?
    And we should be aware that there are increasingly groups 
out there--Media Matters is one; there are several others, one 
called ``Accountable Americans,'' and so on--that are very open 
about wanting to harass and vilify people.
    Now, Justice Scalia is being quoted all the time by people 
who never would quote Justice Scalia for anything else, right? 
Well, I think Justice Scalia is wrong here. I mean, if this is 
true, how did America survive until 1974? It is pretty hard to 
figure out. Why do we have the secret ballot, right?
    So, again, the question is not, you know, do we oppose 
disclosure? No, we do not oppose disclosure. What we want to 
keep reminding ourselves is our purpose is to allow the people 
to keep tabs on the Government. It is not necessarily let the 
Government or let candidates keep tabs on the people. And while 
those often are intertwined in a way that cannot be separated, 
I think if we start with that premise in mind and we are 
sensitive to honest concerns about harassment, then I think we 
might have some room to devise more effective disclosure rules 
that would get at some of the issues that seem to spur interest 
in the DISCLOSE Act.
    But what I am not seeing in this act and what I am not 
seeing in the public statements I have heard about--and I do 
not mean in this room today or anything; I mean generally when 
I hear it talked about in the press--is any sensitivity to 
those kinds of issues or to why some people might fear 
Government or unofficial retaliation and why those concerns are 
illegitimate. I think they are legitimate. The people give 
anonymously for all kinds of reasons. People give to hospitals 
anonymously, right? And I think we need to respect that. To 
have the Government compel people to disclose information on 
themselves is not something we normally do. It needs to be 
carefully done and with a strong rationale behind it.
    Senator King. I would not disagree that there are not 
issues in that regard, but it seems to me it is a balancing 
case, a balancing test of trying to weigh the public interest 
in knowing who is trying to influence their vote and also the 
corruption issue against the dangers of intimidation and this 
is--I tend to agree with Justice Scalia on this, although I do 
not agree with him on everything.
    Mr. Smith. And so that we can end on a point of agreement, 
I agree with your statement there up until the point of 
Justices. But I think obviously the devil is in the details.
    Senator King. Well, I want to thank both of you for your 
testimony, and I want to thank you for the thoughtfulness with 
which you have answered the questions and the work that you put 
into the testimony that you presented to this Committee. This 
is an important issue. It is one that is not going to go away, 
and I believe that it is going to continue to bedevil us for 
some time unless we can find some resolution.
    So, again, I appreciate your joining us, and that is on my 
behalf and on behalf of the Committee. This concludes the 
second panel of today's hearing. Without objection, the hearing 
record will remain open for 5 business days for additional 
statements and post-hearing questions submitted in writing for 
our second panel of witnesses to answer.
    I want to thank Senator Klobuchar and the other Senators 
who participated today, and there being no further business 
before the Committee this morning, this hearing is adjourned.
    [Whereupon, at 12:11 p.m., the Committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                    HEARING--NOMINATIONS OF MATTHEW.
                    MASTERSON AND CHRISTY McCORMICK.
          TO BE MEMBERS OF THE ELECTION ASSISTANCE COMMISSION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2014

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:58 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Angus S. 
King, presiding.
    Present: Senator King.
    Staff Present: Kelly Fado, Staff Director; Stacy Ettinger, 
Chief Counsel; Ben Hovland, Senior Counsel; Sharon Larimer, 
Professional Staff; Julia Richardson, Senior Counsel; Abbie 
Sorrendino, Legislative Assistant; Phillip Rumsey, Legislative 
Correspondent; Jeffrey Johnson, Clerk; Annalee Ashley, Staff 
Assistant; Mary Suit Jones, Republican Staff Director; Shaun 
Parkin, Republican Staff Director; and Paul Vinovich, 
Republican Chief Counsel.

               OPENING STATEMENT OF SENATOR KING

    Senator King. This hearing will come to order. Welcome.
    On today's agenda is the consideration of the nomination of 
Mr. Matt Masterson and Ms. Christy McCormick to be members of 
the Election Assistance Commission. Both of our nominees have 
strong backgrounds in election law and procedure. Mr. 
Masterson, recommended by Speaker John Boehner, currently 
serves as Deputy Chief of Staff and Chief Information Officer 
at the Ohio Secretary of State's Office. Ms. McCormick, 
recommended by Senate Minority Leader Mitch McConnell, 
currently serves as a Department of Justice trial attorney with 
the Voting Section of the Civil Rights Division.
    Mr. Masterson and Ms. McCormick, I would like to welcome 
both of you here today, and I congratulate you on your 
nomination to be members of the Election Assistance Commission.
    Mr. Masterson, I understand your wife, Joanna, and brother, 
Justin, are here with you, and we would like to welcome them. 
And, Ms. McCormick, your daughter, Elizabeth, and sister, 
Cecily, are here. The committee would like to welcome your 
family members and are very happy that they could join you here 
today. We are also pleased to have members of the Election 
Assistance Commission staff with us today as well.
    Following the Presidential Commission on Election 
Administration's release of its final report in January of this 
year, the Rules Committee has held five hearings on election 
administration. These hearings focused on the bipartisan best 
practice recommendations of the Presidential Commission.
    Election officials and experts from around the country have 
testified before us on many of the most successful efforts to 
improve how our elections are run. I am particularly 
enthusiastic about this project because I believe, particularly 
as a former governor, that too often, we have good solutions 
worked out in individual States and nobody knows about them. 
So, best practices--sharing best practices, I think, is 
something that we should always strive to do more of.
    A frequent topic of concern at the hearings that we have 
had was the EAC, and it has been operating, as you know, 
without a quorum of Commissioners since late 2010 and has not 
had Commissioners sitting since December of 2011. This 
Commission was established by the Help America Vote Act in 
2002, HAVA. The EAC was created to be an independent, 
bipartisan commission charged with a number of important 
responsibilities, including developing guidance for State and 
local election officials to meet HAVA requirements, adopting 
voluntary voting system guidelines, and serving as a national 
clearinghouse of information on election administration.
    Without a quorum of Commissioners, however, the EAC has 
been severely limited in its ability to fully function as 
Congress intended. Additionally, the advisory boards, composed 
of State and local election officials and members of the 
broader elections community, have been unable to convene and do 
their work.
    Despite these severe limitations, during the election 
administration hearing series, this committee repeatedly heard 
about the value and importance of the EAC's work. Several 
election experts discussed how important the Election 
Administration and Voting Survey is to understanding how 
elections are administered across the country. Beyond the 
survey, it was evident that many of the State innovations that 
were held out as best practice recommendations to be replicated 
were made possible because of EAC grant programs. We also heard 
about the need for a fully functioning EAC to help address the 
growing challenges of aging voting systems and the need for 
adoption of new voting system guidelines.
    The Presidential Commission's report and this committee's 
hearings made it clear that the EAC's role as a clearinghouse 
of election information and best practices is needed and should 
be expanded. In short, the EAC has work that needs to be done, 
and today, we have an opportunity to take the next step in 
helping this agency function as it was intended under the Help 
America Vote Act.
    I am pleased that we have two very well qualified 
candidates who have been nominated and are testifying before 
the committee today. Your experience and background in 
elections will undoubtedly help the EAC to move forward.
    I hope we can move your nominations swiftly and create a 
fully functioning EAC that our elections and voters deserve. It 
is a very tight schedule here, as you know, during the next 
several weeks, but we are hopeful that we will be able to move 
your nominations before Congress recesses later in September.
    Senator Roberts, our Ranking Member, could not be here this 
morning, but if he has opening remarks, we will certainly see 
that they are put into the record, without objection.
    So, with that as background, we will hear from our nominees 
in alphabetical order.
    I have to stop and tell an amusing story about elections. 
In Maine, as in most States, the ballot order is determined 
alphabetically. Mr. Bailey is always on the ballot ahead of Mr. 
Mitchell. One year, there was a bill in the Maine legislature--
this was many years ago--to change that rule to make it random, 
to make the order selected at random in terms of how you would 
appear on the ballot.
    In the Maine House of Representatives, we have two large 
lighted tally boards that tally the votes of the members of the 
House, yes or no, on each issue that comes before us. And, lo 
and behold, when this issue came before the House of 
Representatives to go from the alphabetical system to the 
random system, all the names in alphabetical order of the 
members of the House on the left side of the body voted no and 
all the people on the right side, who were lower down in the 
alphabet, voted yes. To my knowledge, it is the only time that 
has ever happened in the history of the Maine legislature.
    [Laughter.]
    Senator King. So, thank you, Mr. Masterson, and if you will 
proceed, I look forward to your testimony.

TESTIMONY OF MATTHEW V. MASTERSON, NOMINATED TO BE A MEMBER OF 
               THE ELECTION ASSISTANCE COMMISSION

    Mr. Masterson. Well, thank you, Chairman King, and good 
morning. Thank you for holding this hearing on my nomination to 
serve on the United States Election Assistance Commission.
    I also want to thank Speaker Boehner for submitting my name 
to President Obama for consideration and to thank the President 
for nominating me. It is truly an honor.
    I am pleased to have the opportunity to testify on my 
qualifications and interest in becoming an EAC Commissioner. My 
career in elections started, appropriately, at the U.S. 
Election Assistance Commission after I graduated from law 
school. Since that time, I have worked with both State and 
local election officials to serve voters primarily through the 
use of technology.
    While at the EAC, I worked with election officials, voter 
advocates, computer scientists, and manufacturers to help 
create the EAC's voting system testing and certification 
program. This program was the first of its kind, designed to 
allow States to voluntarily utilize federally accredited test 
laboratories to have their systems tested and certified to a 
robust set of standards.
    In 2011, I left the EAC to return home to Ohio and worked 
for the Ohio Secretary of State, where I currently serve as 
Deputy Chief of Staff and Chief Information Officer. The 
opportunity to work in the most important swing State in the 
country during a Presidential election cycle was a dream come 
true. In my time in Ohio, I have continued leveraging 
technology to improve services to election officials and 
voters. I have helped implement several programs that have 
modernized elections in Ohio and truly made it a national 
leader, including an online change of address system, a data 
sharing program with the Ohio Bureau of Motor Vehicles, and 
more user-friendly voter information tools. All of these have 
helped to make the voting process more accessible and more 
usable for voters.
    For the past three years, I have also served on the 
Executive Board of the National Association of State Election 
Directors and as a member of the EAC's Technical Guidelines 
Development Committee. I also testified in front of the 
President's Commission on Election Administration regarding the 
aging voting equipment the States are currently using and the 
future of voting technology.
    State and local election officials across the country are 
in an incredibly tough position. Most of their systems are a 
decade or more old, which is ancient by information technology 
standards, and will need to be replaced in the very near 
future. Recognizing that voters will lose confidence in a 
voting process that uses 1990s technology instead of modern 
technology, election officials are craving innovation in 
election systems. I am fully invested in trying to bring about 
these kinds of innovations, and if confirmed, I believe I can 
continue that work at the EAC.
    Finally, I want to thank some of the people who have helped 
me along the way. First, I want to thank all of the election 
officials across the country whom I have worked with and 
learned from. You all do a tremendous service to this country 
that too often goes unappreciated. I especially want to thank 
those election officials who have patiently mentored me along 
the way, teaching me that every detail matters in elections. 
Thank you to the team at the Ohio Secretary of State's Office, 
especially Secretary Husted, for welcoming me home and giving 
me an opportunity to run elections in Ohio.
    To my Mom, Pam, my brother, Brian, and my twin brother, 
Justin, who is here with me today, thanks for helping me get to 
a place where I am doing something I truly love.
    To my wife, Joanna, who is also here with me today, and my 
two children, Lilah and Nathaniel, thank you for all of your 
support.
    Finally, I want to thank my father, Vince Masterson, who 
passed away on Sunday, and who I know was very proud of this 
opportunity.
    Chairman King, I thank you for consideration of my 
nomination and will be happy to answer any questions you may 
have. Thank you.
    [The prepared statement of Mr. Masterson was submitted for 
the record:]
    Senator King. Thank you.
    We will hear from Ms. McCormick first, and then we will 
have questions for both of you. Ms. McCormick.

TESTIMONY OF CHRISTY A. McCORMICK, NOMINATED TO BE A MEMBER OF 
               THE ELECTION ASSISTANCE COMMISSION

    Ms. McCormick. Good morning, Chairman King. I am pleased to 
be here to discuss my nomination to serve on the United States 
Election Assistance Commission.
    I thank Senate Minority Leader Mitch McConnell for 
submitting my name to the President and to President Obama for 
nominating me. I am deeply honored that you are considering me 
for a position of trust in our government.
    I appreciate the opportunity to testify on my background 
and qualifications to become an EAC Commissioner. My interest 
in elections started as a young adult, when my parents involved 
our family in working on campaigns and hosting fundraisers for 
candidates at our family home in Massachusetts. I was excited 
to be able to cast my first vote at the age of 18 in New York, 
and found myself running for office in Michigan by the age of 
20. I volunteered to be an Assistant Voter Registrar in 
Connecticut in the 1980s, and again in Virginia when I moved 
there in the 1990s. Having been involved in elections and 
voting in several States early on in my life gives me a unique 
perspective.
    In 2006, I joined the U.S. Department of Justice Voting 
Section, where I continue to serve as a trial attorney. My work 
at the Justice Department involves investigating and 
prosecuting violations of Federal voting statutes, including 
the Voting Rights Act, the National Voter Registration Act, the 
Uniformed and Overseas Citizens Absentee Voting Act, also known 
as UOCAVA, and the MOVE Act, most of which have some nexus with 
the work of the EAC.
    I have been privileged throughout my career at the Justice 
Department and at the Office of the Virginia Attorney General 
to contribute to some very important cases and to have had an 
impact on First Amendment, civil rights, and voting 
jurisprudence.
    In addition to litigation, I also conduct election 
monitoring for the Justice Department and have observed 
numerous elections and polling places all across America.
    In 2009, the Office of the Deputy Attorney General sent me 
on a year-long detail to Iraq, where I served as an attorney 
advisor and Acting Deputy Rule of Law Coordinator. The Office 
of the Rule of Law Coordinator was embedded in Embassy Baghdad 
and was responsible for collaborating with the Department of 
State, the U.S. military, and other Federal agencies, along 
with our international partners, on rule of law initiatives. We 
provided advice and support to Iraqi ministries and legal 
institutions, including the Higher Judicial Council, the 
General Secretariat for the Council of Ministers, the 
Ministries of Justice, Interior, Human Rights, and Women's 
Affairs, among others. I also served as a liaison to parallel 
ministries in the Kurdish region.
    One of my main and most exciting assignments was to serve 
as the Justice Department's expert on elections in Iraq. Along 
with our State Department colleagues, I worked with the Iraqis 
on their 2010 national elections. This included providing 
assistance and advice to the independent High Electoral 
Commission during the run-up to the elections, participating in 
a team observing the elections in the Wasit Province, and 
witnessing the extensive 12-day election recount. I was deeply 
impressed to see a large number of women voting on election day 
and very encouraged by watching families bring their children 
into the polls to teach them about democracy and to dip their 
fingers in the electoral ink. It is my deepest hope that the 
idea of democracy and fair elections will still be possible in 
Iraq in the future.
    As for elections here in the United States, if confirmed, I 
will do my best at the EAC to assist our 8,000 jurisdictions in 
fairly and smoothly administering their elections. We have much 
work to do to assure that all eligible voters are able to cast 
their votes in elections that are secure and in which the 
electorate can place its full confidence.
    While the EAC is not tasked with rulemaking or running 
elections, it is in a position to provide information, share 
best practices, collect data for election analysis, and offer 
programs that support modern elections such that the public has 
full access to the ballot box and trust in our electoral 
outcomes. I believe this is essential to the health of our 
Republic and I would like to continue this important work at 
the EAC.
    As with all of us, I did not come to this place without the 
help of many others. I want to thank the many people I have 
worked with and for, including Justice Elizabeth McClanahan, 
Professor Michael I. Krauss, Commissioner Judith Williams 
Jagdmann, former Solicitor of Virginia William Hurd, many of my 
current and former colleagues in the United States Department 
of Justice and in the Virginia Office of the Attorney General 
who have provided me with amazing opportunities and helped me 
hone my legal abilities.
    Thank you, also, to the election officials I have met and 
worked with across the country over the past eight years, who 
work long hours, deal with often complex logistics, and do so 
many things that go unnoticed in running our elections.
    Thank you to my dear friends, some of whom are here today, 
with whom I am able to debate and discuss the issues of our day 
and who provide me with love, support me with prayer, and 
encourage me with many laughs.
    Thank you to my family, especially my parents, Keith and 
Carol Cutbill, who introduced me to campaigns and elections; my 
sisters, Catherine, Laura and Lynda; my brother, Chaz, and his 
wife, Corie; my nephew, Parker, and niece, Bentley. Special 
thanks to my sister, Cecily Cutbill, who is here with me today, 
and to her husband, Christopher Thorne, my niece, Caroline, and 
nephew, William, who have sacrificially housed me and fed me. 
Finally, my deepest love and appreciation go to my beautiful 
daughter, Elizabeth Mead, who is here today from California. 
Thank you for your love and for inspiring me daily.
    Chairman King, if confirmed, I am prepared to do my best to 
serve our country as an EAC Commissioner, and in that role, to 
commit to appear and testify before Congress upon its request, 
and I am happy to answer any questions you may have.
    [The prepared statement of Ms. McCormick was submitted for 
the record:]
    Senator King. I have two preliminary observations. The 
first is, I want to be sure the record shows my appreciation to 
Speaker Boehner and Leader McConnell for finding you two 
extraordinarily well qualified, thoughtful people, and I want 
to thank them publicly for putting your names forward to the 
President and thank the President for making those nominations.
    The second observation is that Senators are often in a 
position of asking questions to people who know more about the 
subject matter than they do, and that is certainly true today, 
but I am going to forge ahead anyway and ask a few questions of 
each of you, not in any spirit of trying to trip you up or 
embarrass you in any way, but in a genuine pursuit of 
information and your thinking about this job that you are 
proposed to embark upon.
    Mr. Masterson, you mentioned about technology and how many 
jurisdictions are upgrading their technology. It seems to me 
that one of the challenges is to assure people that their vote 
is going to be counted and that there is no mischief to be had 
when there is not a piece of paper. In my hometown, we vote. 
There is still a piece of paper and we fill in an arrow--I am 
sure you are familiar with that style--and then it goes into a 
machine. But, there is a certain confidence that there is 
something tangible if all else fails that can be reviewed.
    How do we build a technological system that the public can 
have confidence in when we hear about Home Depot or Target 
being hacked or something like that? Our election process and 
the integrity is so important to public confidence in our 
democracy. How do we weigh the desire for technology and 
efficiency against the risks of technological failure that 
would impede or impair the confidence of the public in the 
voting process?
    Mr. Masterson. Well, thank you for the question, Mr. 
Chairman. It is a great question, and the answer, not 
surprisingly, is one that election officials across the country 
constantly battle with. That is, the convenience of the 
technology with the assurance that every vote is counted as 
cast. And, that is the role that I hope to play in going to the 
Election Assistance Commission, is disseminating best practices 
that these election officials across the country have worked on 
and developed to deal with that very struggle of the balance 
between security and accessibility or usability of the systems 
in order to provide the best service to voters. Election 
officials across the country with these systems have found new 
and innovative ways to provide that assurance that you just 
talked about, whether it is in the form of a paper ballot or 
post-election audits, while still providing the level of 
convenience that voters expect.
    Senator King. Are we moving toward paperless voting 
systems? Is that the trajectory of the technology?
    Mr. Masterson. I think that is a really fair question. I 
think some jurisdictions already have paperless technology and 
other jurisdictions insist on having the paper ballot. And, so, 
not surprisingly, like with all things in elections, it is what 
the voters expect in order to have confidence in the process.
    Voters, for instance, in the State of Georgia, embrace 
their voting system and their touch-screen system for what it 
is, and that is what the election officials in the State of 
Georgia have chosen to use and the voters have undertaken and 
accept. In Maine, for instance, like you said, the expectation 
is to have that paper ballot. And, so, that choice and the 
availability of best practices on how to manage either a paper 
system or another type of voting system is important so that it 
can be done well and with integrity.
    Senator King. Well, it seems to me that the integrity, the 
last word you used, is so important, because all it would take 
would be one disaster that would undermine confidence 
nationally. In this day and age, with communications being what 
they are, if there is one district in one State where the vote 
totals were 10,250 and there were only 8,000 people in the 
district, it would be a catastrophe for our democracy, I think.
    So, I hope, in your work, you will keep in mind these dual 
goals of efficiency versus verifiability and confidence. There 
is an intangible that is so important here, I think. So, I hope 
that is something that you will bear in mind in your work on 
the Commission.
    Mr. Masterson. Absolutely.
    Senator King. Ms. McCormick, I am fascinated by your 
experience in Iraq. I think that probably the two most 
important elections in the last several years have been Iraq 
and Ohio, I mean----
    [Laughter.]
    Senator King. Share with me your observations from that 
experience. Do we have anything to learn from the way that 
those elections were conducted?
    Ms. McCormick. Well, it was, obviously--thank you for the 
question. It was an interesting experience, a dangerous 
assignment. There are lessons that we can learn from that 
experience. One of the things that the Iraqis did exceptionally 
well was transparency. Everybody knew who was able to vote in a 
particular polling place because they actually listed the names 
of all voters outside the polling place. And, they had a very 
good system where they had a center where people could go if 
their names were not found so that they could be sent to the 
correct location so that their ballot could be cast and 
counted. The Iraqis did, I think, a better job, in my view, 
than some of our own jurisdictions that I have witnessed. So, I 
do believe that we have some work to do in some places. We 
should always be striving to improve our elections.
    Hopefully, the Iraqis will get back on track. It is very 
disconcerting, what is happening there right now. 
Unfortunately, much of the work that we had achieved has--now 
almost seems for naught, but hopefully not.
    We had some very dangerous travels. We had people running 
after us with AK-47s and we had--we were not allowed to bring 
security into the polling booth with us, so, fortunately for 
us, we do not suffer the same security issues that they do in 
Iraq.
    But, for me, it was a great learning experience, to see the 
enthusiasm of the people there who were finally able to vote, 
and hopefully, we can encourage our electorate to get out and 
vote. I think it is kind of sad that we have elections where 
very few people vote, and it would be my wish to have everyone 
vote who is eligible in any given election.
    Senator King. Thank you.
    One of the--I am not sure of the jurisdiction in the 
Commission, but one of the issues that we are facing around the 
country is not necessarily Election Day itself, but issues like 
early voting and mail voting, and I am sure at some point there 
is going to be a proposal for online voting. To what extent 
does your jurisdiction, does your thinking extend to those 
kinds of issues, or is it strictly what happens on Election 
Day?
    Ms. McCormick. No, I think we are tasked with looking at 
everything, information and best practices on everything. The 
States have the authority to run our elections, the State and 
local jurisdictions, and as Mr. Masterson mentioned, different 
States in different jurisdictions do things in different ways. 
Our role at the Commission will be to collect that information, 
disseminate best practices, share experiences so that, like you 
said, some State might have a better way of doing something 
than another State, and for us to facilitate that communication 
so that we can all improve elections together based on best 
practices out in the States and the jurisdictions.
    Senator King. Well, you used the right word, and Mr. 
Masterson, one of the keys to this is data, I think. Data--it 
is so hard to get the data that will drive good policy. One of 
my favorite sayings is, the plural of anecdote is a data.
    [Laughter.]
    Senator King. And, I hope that that is an area that you can 
help and pursue, because, for example, questions about early 
voting and what are the influences and those kind of things, if 
we know what percentage of people are voting early, and the 
more of that information we have, the better decisions we can 
make on these matters, in my view.
    Mr. Masterson. Yeah, I completely agree. Fortunately, 
through the EAC's Election Day Survey and other efforts to 
collect data, election officials more and more--and I see it in 
Ohio all the time and we do it in the Secretary of State's 
Office--are leveraging data to not only look at those numbers, 
like you suggest, but create efficiencies and cost savings. The 
reality is, that data really helps inform election officials' 
decisions in an area where resources are extremely tight and 
service and expectations are extremely high. And, that data is 
what helps inform them. And, I know there will be election 
officials across the country thrilled that you are bringing up 
the need for good data and constant improvement to that data.
    Senator King. Well, one example would be voting patterns by 
hour so that you knew how to staff and you could staff to the 
demand. And, if you have a historic record of when people are 
more likely to show up with some real substantial basis, you 
can--that, in itself, would improve the efficiency because you 
would be able to move more people through during those hours 
when the demand is the highest.
    Mr. Masterson. Absolutely. We have election officials in 
Ohio who literally sit with a stopwatch to time how fast it 
takes their clerks to check in registrations to figure out just 
that, how much time and staff do we need to do certain tasks. 
So, that data speaks directly to informing the process and 
creating both better services for voters and greater 
efficiency.
    Senator King. Well, let me ask a sort of concluding 
question of both of you, which is pretty broad. Ms. McCormick, 
what are your priorities as you go, as you have thought about 
this job, as you go in? What is it you want to focus on? Where 
do you think the gaps are? I mean, you are coming to this with 
huge experience and you must have some view of what--and, you 
are going to be in charge, I mean, with the other two 
Commissioners, you are going to be setting the agenda. Where do 
you see the need for action and work by the Commission?
    Ms. McCormick. Thank you, Senator. I think the first thing 
that we need to do, because the Commission has been without a 
quorum and Commissioners for so many years, I think the very 
first thing we need to do is to review the roles and the 
responsibilities of the agency and its employees and to figure 
out exactly where the agency stands now, what our statutory 
duties are, and where we should be going forward. I think that 
will take some time. There is a lot to be done, but I am 
excited about it and I think that we can serve our clients once 
we get up and running again.
    It is hard for me to say right now exactly what the first 
priority would be, other than to figure out what exactly has 
been going on at the Commission for the last several years and 
how it matches up with what we are supposed to be doing under 
the statute.
    Senator King. Good. Thank you.
    Mr. Masterson.
    Mr. Masterson. Yeah. Thank you, Mr. Chairman. And, the 
first thing I would look to do is begin the process of updating 
the voting system standards, which is one of the core tenets in 
HAVA for the role of the EAC. As I mentioned in my opening 
remarks, election officials are at the end of life for their 
voting systems and the voting system standards have not been 
substantially updated in quite some time. And, so, to begin 
that process and begin the work to update the voting system 
standards so that election officials can begin to see the 
innovation that they desire would be the first point I would 
focus on.
    Senator King. Any additional comments that either of you 
would like to make for the record before we close the hearing?
    Ms. McCormick. No, Senator. I have no more comments. Thank 
you.
    Senator King. Thank you.
    Mr. Masterson. No, Mr. Chairman. Thank you for your time.
    Senator King. Well, thank you both, and I sincerely 
appreciate your willingness to take on this task, particularly 
given your extraordinary credentials. It is an important one. 
It is at the heart of our democracy and our system, and public 
confidence is so important. There is a little bit of a dilemma. 
Part of public confidence is being sure every vote counts. Part 
of public confidence is not having to stand in line for three 
hours and feel that there is some--that voting is a huge chore. 
So, we have to find the right balance, and I certainly 
appreciate your willingness to step forward and take on this 
responsibility.
    We will hold the record of this hearing open for, I believe 
it is 24 hours, the close of business tomorrow, Thursday, 
September 11, for additional statements and post-hearing 
questions submitted in writing for the nominees to answer.
    There is no further business to come before the committee. 
I declare this meeting adjourned.
    [Whereupon, at 10:29 a.m., the committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 



                   BUSINESS MEETING--TO CONSIDER THE.
                    NOMINATIONS OF MATTHEW MASTERSON.
    AND CHRISTY McCORMICK TO BE MEMBERS OF THE ELECTION ASSISTANCE 
                               COMMISSION

                              ----------                              


                      WEDNESDAY, DECEMBER 3, 2014

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 5:40 p.m., in 
Room 216, United States Capitol, Hon. Charles E. Schumer, 
presiding.
    Present: Senators Schumer, Durbin, Pryor, Udall, Warner, 
Leahy, King, Walsh, Roberts, Shelby, Blunt, Cruz.
    Staff Present: Kelly Fado, Staff Director; Stacy Ettinger, 
Chief Counsel; Jay McCarthy, Director of Operations Oversight; 
Veronica Gillespie, Counsel; Ben Hovland, Counsel; Abbie 
Sorrendino, Legislative Assistant; Phillip Rumsey, Legislative 
Assistant; Jeff Johnson, Clerk; Benjamin Grazda, Staff 
Assistant; Mary Suit Jones, Republican Staff Director; Paul 
Vinovich, Republican Chief Counsel; Rachel Creviston, 
Republican Senior Professional Staff; Trish Kent, Republican 
Senior Professional Staff

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. Thank you for coming. We have a quorum of 
10 Members so we can proceed. Under consideration are the 
nominations of Matthew Masterson and Christy McCormick to be 
Commissioners of the EAC. Is there any further debate on the 
nominees? No. Then we will now consider the nominations 
individually. As usual, we will make these voice votes. 
However, if the Ranking member requests a recorded vote, I will 
ask the clerk to call the roll. The question is on reporting 
the nominations favorably to the Senate.
    Chairman Schumer. First, Mr. Matthew Masterson. Is there a 
second?
    Senator Roberts. Second.
    Chairman Schumer. All those in favor, say aye.
    [Chorus of ayes.]
    Chairman Schumer. All those opposed, say no.
    Chairman Schumer. The ayes have it. The nomination of 
Matthew Masterson is ordered favorably reported to the Senate 
with recommendation the nomination be confirmed.
    Next up, is Ms. Christy McCormick. Is there a second?
    Senator Udall. Second.
    Chairman Schumer. All those in favor, say aye.
    [Chorus of ayes.]
    Chairman Schumer. All those opposed, say no.
    Chairman Schumer. The ayes have it. The nomination of Ms. 
Christy McCormick is ordered favorably reported to the Senate 
with recommendation the nominee be confirmed.
    Chairman Schumer. I'd like to thank everybody for coming 
and I am going to ask our Ranking Member, who will no longer be 
the Ranking Member of anything, if he'd like to make some 
concluding remarks.
    Senator Roberts. No, sir.
    Chairman Schumer. Then the meeting is adjourned.
    [Whereupon, at 6:30 p .m., the Committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
